<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                       TUESDAY, FEBRUARY 10, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Specter, Domenici, 
Gregg, Craig, Byrd, Inouye, Leahy, Harkin, Mikulski, Kohl, and 
Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. TOM RIDGE, SECRETARY


               OPENING STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. The hearing of our committee will please 
come to order.
    Today we begin our review of the fiscal year 2005 budget 
request for the Department of Homeland Security. I am pleased 
to welcome to the hearing the Secretary of the Department of 
Homeland Security, the Honorable Tom Ridge.
    Under the Secretary's leadership, this new department, 
which became operational not quite 1 year ago, has undertaken 
the challenge to improve the safety and security of the United 
States. Merging some 180,000 employees from 22 separate 
agencies into a new department has been a very challenging 
endeavor. Recent events have underscored our awareness that 
challenges still lie ahead as the department continues its work 
to prevent terrorism, to reduce the Nation's vulnerability to 
terrorist acts, and to increase our disaster response 
capabilities.
    While we all understand that more will be done, the 
administration with the active support of this committee and 
the Congress is succeeding to improve our intelligence-
gathering capabilities; achieve a greater degree of 
coordination and cooperation among all those involved in 
homeland security; develop and deploy new detection 
technologies; and heighten security of our borders, ports, 
transportation systems, and other critical infrastructure.
    We will review this year's budget request and work with 
you, Mr. Secretary, to provide the resources the department 
requires to manage its responsibilities and to successfully 
carry out its mission. For fiscal year 2005, the President's 
budget requests $40.2 billion to fund programs and activities 
of the department, including mandatory and discretionary 
appropriations, user fee collections, and trust funds.
    At this point, I am very pleased to yield to other senators 
on the committee, first to my distinguished friend from West 
Virginia, who is the ranking Democrat on this subcommittee, 
Senator Byrd, for any statements he might wish to make.


                  STATEMENT OF SENATOR ROBERT C. BYRD


    Senator Byrd. Thank you, Mr. Chairman, my colleagues on the 
committee, and welcome, Mr. Secretary.
    As we approach the 1-year anniversary of the creation of 
the Department of Homeland Security, this subcommittee will be 
holding a series of hearings on the President's request for 
your agency. These hearings will focus not just on the budget 
request for the department, but also on the effectiveness of 
the department in using the resources that have been available 
to it to make this country safer. I look forward to your 
testimony on efforts to secure the homeland by other Federal 
agencies, by State, regional, and local governments, and by the 
private sector.


                           ALERT LEVEL CHANGE


    On Sunday, December 21, you raised the Nation's terror 
alert level to orange. In justifying this action you said, and 
I quote, ``The strategic indicators, including Al Qaeda's 
continued desire to carry out attacks against our homeland, are 
perhaps greater now than at any point since September 11.'' In 
explaining why you thought there was a high risk of terrorist 
attack, you said, and I quote, ``Information indicates that 
extremists abroad are anticipating near-term attacks that they 
believe will rival or exceed the scope and impact of those that 
we experienced in New York, at the Pentagon, and in 
Pennsylvania 2 years ago.''
    That was a pretty sobering assessment. When I read your 
testimony, I note that the President claims he is seeking a 10-
percent increase for your department. I thought perhaps the 
administration had finally gotten the message that it was time 
to back up the President's rhetoric on homeland security with 
real resources.


                    FISCAL YEAR 2005 BUDGET INCREASE


    But, Mr. Secretary, I was disappointed to learn that when 
one looks at the details in the President's budget, the 10-
percent increase is just another puffed-up gimmick. The fact is 
that the Department of Homeland Security receives only a 4-
percent proposed increase in discretionary spending, only 
slightly more than enough to cover inflation and the 2005 pay 
raise.
    In the fiscal year 2004 Homeland Security Appropriations 
Act, Congress approved advanced appropriations of $2.5 billion 
for Project BioShield for the period from fiscal year 2005 to 
fiscal year 2008. In your budget presentation, you include the 
entire $2.5 billion as 2005 spending, despite the fact that 
those funds are supposed to last 4 years.
    Your own budget documents show that you expect to spend 
only $890 million of the $2.5 billion in fiscal year 2005. 
After adjusting the budget request for that gimmick, the 
increase in the fiscal year 2005 budget is only 4 percent. So 
that means that the President is seeking a 4-percent increase 
when you believe that the threat of another terrorist attack is 
higher than at any time since September 11.
    I share the view, Mr. Secretary, that this Nation is at 
risk of more terrorist attacks. We continue to be vulnerable to 
a wide range of potential threats. On December 15, 2003, the 
advisory panel to assess domestic response capabilities for 
terrorists involving weapons of mass destruction issued their 
final report. The panel, which was headed by the former 
Republican Governor of Virginia, James Gilmore, concluded that 
the department must learn from history without falling into the 
trap of fighting the last war by concentrating too heavily on 
the tactics and techniques used by the September 11 terrorists.
    Yet in this budget, 97 percent of the budget for the 
Transportation Security Administration is for aviation security 
with a focus on more airline hijackings. What about the 
security of our ports? What about our buses, our trains? Why 
does the President propose to reduce grants to ports for 
improved security by over 60 percent, when over 95 percent of 
all overseas trade coming in or out of the country moves by 
ship? Why does the President refuse to increase resources for 
securing cargo on passenger aircraft?
    Eight days ago, in this very room, Senate employees were 
quarantined and decontaminated for an attack with a dangerous 
toxin, ricin. Clearly, the risks of a chemical or biological 
attack in this Nation remain high. According to the EPA, over 
100 chemical plants located throughout the country could affect 
over 1 million people if the plants were attacked.
    In February of 2003, the National Infrastructure Protection 
Center, which is now part of your department, issued a threat 
warning that Al Qaeda operatives also may attempt to launch 
conventional attacks against the U.S. nuclear and chemical 
industrial infrastructure to cause contamination, disruption, 
and terror. Nuclear power plants and industrial chemical plants 
remain viable targets. And yet, Mr. Secretary, the President's 
budget does not include the request of the Post Office for $779 
million to develop biodetection systems that would help protect 
citizens across the Nation and for ventilation and filtration 
systems to protect their employees. The President also proposes 
to cut by 10 percent the HHS program designed to equip and 
train State and local health agencies to detect and respond to 
biological or chemical attacks.


                      FUNDING FOR FIRST RESPONDERS


    In June of 2003, the Council on Foreign Relations' report, 
authored by Former Senator Rudman and others, entitled, 
``Emergency Responders: Drastically Underfunded, Dangerously 
Unprepared,'' asserted that America will fall approximately $98 
billion short of meeting emergency responder needs in the next 
5 years, if current funding levels are maintained.
    The Federal Emergency Management Agency, part of your 
department, in a report entitled ``A Needs Assessment of the 
U.S. Fire Service,'' found that only 13 percent of the fire 
departments have the equipment and training to handle an 
incident involving chemical or biological agents. And yet, Mr. 
Secretary, the President's budget proposes to cut grants that 
equip and train police, fire, and emergency medical care 
personnel by $729 million. Fire grants alone are to be reduced 
by 33 percent.
    In addition to these resource issues, this Subcommittee 
will also examine the effectiveness of our homeland security 
programs. We will ask questions about your methods for 
collecting and sharing intelligence. Just last week, we learned 
that the White House had been the target of a ricin attack. 
Sharing information with State and local law enforcement is a 
critical ingredient to effective deterrence.
    We will also ask if the department is doing everything 
possible to make sure that State, local, and regional 
governments are effective partners in deterring a terrorist 
attack. We will ask whether we are providing the right 
incentives, including money, to make sure that chemical and 
other industries are doing their fair share to make this 
country more secure.


                                CAPPS II


    Finally, we will closely examine your plan to implement 
CAPPS II, a new information system for screening airline 
passengers. And I encourage you not to implement the new system 
until the requirements of the law have been met.
    Mr. Secretary, you and the 179,000 employees in your 
department are to be commended for your efforts to preserve our 
freedoms, to protect America, and to secure our homeland. We 
share your vision. I share your belief that we are a vulnerable 
Nation. We will ask many questions in an effort to understand 
what more needs to be done and what needs to be done 
differently in order to respond to the terrorist threat. We 
look forward to your testimony.
    Senator Cochran. Senator Gregg, you are recognized for any 
opening statement you may have.


                    STATEMENT OF SENATOR JUDD GREGG


    Senator Gregg. Well, Mr. Chairman, first, I appreciate your 
holding this hearing. And I appreciate Governor Ridge's 
attendance. And I have a lot of questions. I have obviously 
been involved in this issue, as many members of this panel 
have, for a long time. And just to highlight a couple of them 
quickly, I am very concerned about the discussion as to how 
this money is going out to first responders.


                       THREAT-BASED DISTRIBUTION


    I am totally supportive of the department's effort to do a 
threat-based distribution. I think we need to look at the 
history of this. The original concept here was created by the 
Domenici-Nunn bill, which the Defense Department had. And the 
idea was we were going to train the top 162 cities first and 
make them capable of handling a major threat event. That whole 
concept was carried forward under the prior committee that had 
jurisdiction over first responders, which was my committee, 
CJS. We set up the first responder money. And we wanted to make 
it a threat-based approach.
    This idea that we are just going to put money across the 
board to every community in America, we cannot afford that. 
What we need to do is focus it. And I congratulate the 
department for that. And I hope you will give us some more 
expansive thoughts on that and assure us that it is a threat-
based approach for distribution there.


                               ENTRY-EXIT


    Secondly, I am concerned about the exit-entry issue. The 
technology appears to me to be serious problems with that 
technology. And I am not sure that Customs and the Border 
Patrol activities are going to get the technology they need. I 
would like to get an update on that.


                     COUNTERTERRORISM COMMUNICATION


    I am concerned about the communication efforts in the area 
of counterterrorism. There appears to be lapses there. And the 
bioterrorism issue is our problem. We, as a Congress, have not 
passed BioShield. You have given us a proposal. We have not 
passed it. You should have that in hand. And if you want to 
castigate us on that, we deserve it. And please do today.


                            AIRPORT SECURITY


    And I am very concerned about the amount of money we are 
spending on airport security, as Senator Byrd outlined, and 
whether or not we are effectively addressing the threat coming 
across our borders by focusing so many resources on airport 
security. Anybody who goes through airport security today knows 
a lot of it is regrettably mindless security, which we have to 
get a handle on. Literally, you go into some of these airports, 
and you will have 20 or 30 security people standing there for 
an airport that has 20 flights a day. And it does not seem to 
have much relationship, especially now that we have secured the 
cockpit doors and these planes cannot be used as missiles any 
longer, but can still be blown up, of course.
    But the ports are a threat. Other entry points are a 
threat. And are we over-weighting our security efforts to 
airports, to the transportation of individuals versus 
transportation of cargo through ports or in airplanes?
    So there are a lot of questions. I look forward to hearing 
your answers and thoughts. And I would like to hear from you, 
so I will not take any more time. Thank you.
    Senator Cochran. Thank you, Senator.
    Senator Inouye.


                 STATEMENT OF SENATOR DANIEL K. INOUYE


    Senator Inouye. Mr. Chairman, I request that my full 
statement be made part of the record.
    Senator Cochran. Without objection, it is so ordered.
    Senator Inouye. I just want to state that, as one living 
far away, I am a constant air traveler. And as such, I have 
been in a position to note differences, if any. And I must 
commend the Secretary, because there has been much improvement 
in our security system, as far as the air operations are 
concerned. Little things, such as they are not giving any 
preference to big shots, which I think is a clear indication of 
better discipline. The operation is much smoother. It moves 
faster and, I believe, much more effective.

                           PREPARED STATEMENT

    Secondly, coming from the ocean, I am naturally concerned 
about port security. I commend you for the increase in your 
funding there. But as my colleague from West Virginia 
indicated, I hope that improvements can be made on the grand 
picture.
    With that, I would like to thank you, Mr. Secretary.
    Secretary Ridge. Thank you, Senator.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I look forward to discussing with Secretary Ridge the 
fiscal year 2005 budget for the Department of Homeland Security. In my 
review of the budget documents I was pleased to note the emphasis 
placed on port security, an issue of great importance to my state. 
However, I am concerned by many of the planned program consolidations 
and reductions that will impact state first responders. I am interested 
to learn how you will ensure that the Federal Government maintains the 
intent and results of the current programs that are proposed for 
consolidation.

    Senator Cochran. Thank you, Senator.
    Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Well, thank you, Mr. Chairman, Mr. 
Secretary. I join my colleague from Hawaii, Senator Inouye. I 
think the two of us spend more time on airplanes than any other 
member of the Senate. And there is no question that the system 
is improved. It was my privilege to spend some time with the 
members of our Nation who manage airports over the recess right 
after Christmas. And that was the general consensus, that 
everything has improved.
    But one of the things that almost everyone there expressed 
a hope was that we would analyze this now and see what is the 
threat. The threat in the beginning was perceived to be one 
thing. We basically have equipment now to examine for metal, 
for guns, for knives. But we are dealing with many substances 
now that those people who manage airports would like to work 
with you in order to see how we could address the possible 
broad spectrum of threats that affect us now.

                         NATIONAL ALERT SYSTEM

    The only other question, if I am not here, Mr. Chairman, I 
would like to put it on the record, pertains to the national 
alert system. The Appropriations Committee provided specific 
money for a study concerning the national alert system, which 
currently still deals only with radio.
    And we affirmatively believe that the mechanisms of 
communications now are so--there are such a myriad of methods 
now that there ought to be some consideration given to a 
ubiquitous system that no matter what form of communication you 
listen to or use, you would receive a message, whether it is 
over a cell phone or a blackberry or a computer or your radio 
or the television or cable, that every system would have an 
announcement of items of national concern. Not local concern. 
Leave that to the local people to decide what they want to do. 
But the national alert system, I think, needs to be reviewed. 
And we asked for a study. And my question pertains to when we 
will receive that study.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Harkin.

                    STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Thank you, Mr. Chairman. I would like to 
ask that my full statement be made a part of the record.
    Senator Cochran. Without objection, it is so ordered.
    Senator Harkin. Just a couple of comments, Mr. Secretary. 
Again, as we all know, we cannot protect the Nation perfectly 
against every conceivable threat. And, therefore, we have to 
make choices and devote our limited resources to those threats 
that we judge to be most likely and most serious. So this poses 
some very difficult choices for our first responders, those 
people out on the front lines.
    I made it a point, when this department was created, when I 
was appointed to this subcommittee, to go around the State of 
Iowa, to talk with the Governor, his staff, others in State 
Government. We visited each of 99 counties in Iowa to talk to 
the local emergency management personnel, the firefighters, 
police, EMS people, other officials. I wanted to find out what 
was on their minds, what they thought was most important, what 
they thought was working, what was not.
    Again, aside from all the other things, I was told by 
almost all these people that the biggest challenges they face 
today are the same they faced prior to 9/11: Crime, 
methamphetamine, natural disasters. FEMA is now a part of 
Homeland Security. It has become a really remarkable, world-
class organization dealing with fires, floods, tornadoes, 
things that happen every year. We cannot renege on our 
commitment to help people in need due to these natural 
disasters. That is why I and others have fought so hard to keep 
the fire grant program.

                 INCREASED BURDENS ON FIRST RESPONDERS

    The first responders in Iowa would tell me that they are 
frustrated. When the alert level changes, they learn about it 
from CNN and not from the department. They do not know why the 
alert level is raised or what kind of threats they ought to be 
looking for. They tell me they are obliged to respond to vague 
mandates they do not fully understand, taking time away from 
other priorities. Often these mandates are unclear and costly.
    At the same time, some current reporting requirements are 
onerous and illogical. One county emergency manager in Iowa 
told my staff that he is required to report on contingency 
plans in case there is a tidal wave. And as he understands it, 
he is not allowed to answer ``not applicable.''
    And again, these increased burdens are coming at a time 
when State and local governments are hurting. Many are already 
laying off police, fire and emergency management personnel. The 
vast majority of firefighters in the United States are 
volunteers. Increased training requirements are needed. And 
they are burdensome. And at the time, local governments just do 
not have the wherewithal to do this.

                             AGRO-TERRORISM

    One last thing I would just mention is agro-terrorism and 
the focus on the subject of agro-terrorism and what can be done 
with a small amount of agricultural commodities. I am concerned 
that perhaps we are not focusing enough on the subject of agro-
terrorism and what could be done to interrupt our food supply, 
to contaminate food. Not that it might kill a lot of people, 
but just to spread terror, from things that could be done to 
our food supply chain.

                           prepared statement

    With that, Mr. Secretary, thank you. I compliment you on 
the job you are doing very well down there and look forward to 
working with you to keep this going.
    Thank you, Mr. Chairman.
    Secretary Ridge. Thank you, Senator.
    [The statement follows:]

                Prepared Statement of Senator Tom Harkin

    President Kennedy said that ``to govern is to choose.'' We cannot 
protect the Nation perfectly against every conceivable threat. We have 
to choose. We have to devote our limited resources to address those 
threats we judge to be the most likely and most serious. This poses 
difficult choices for Congress and the Administration, as well as for 
local communities. It poses especially difficult choices for the first 
responders, those men and women who are truly on the front line--and 
whose lives are on the line when emergencies arise.
    One of my highest priorities since being appointed to the Homeland 
Security Appropriations Subcommittee has been to address directly the 
needs of these front-line professionals all across Iowa. My staff and I 
have had numerous conversations with the Governor of Iowa, with his 
staff, and with others in State government. I also asked members of my 
Iowa staff to visit each of the state's 99 counties to talk with local 
emergency management personnel, firefighters, police, EMS and other 
officials. I wanted to get the best ideas from these front-line 
professionals: What do they think is most important when it comes to 
homeland security. What do they think is working, and what is not.
    These meetings have been extraordinarily valuable to me. Security 
is on people's minds. Not surprisingly, Iowans were more than eager to 
share their insights and priorities. And their input has shaped my own 
approach to homeland security issues here in Washington.
    When the creation of a new Department of Homeland Security was 
first proposed, I supported the effort. We knew then that balancing, 
and probably shifting, among competing priorities would be a challenge. 
We must do all we can to protect the America from terrorist threats.
    But, at the same time, it remains vitally important that we protect 
Americans from other, more likely hazards. It is important that we not 
focus exclusively on large cities and major strategic assets. Frankly, 
I am extremely concerned about the shift of priorities in this proposed 
budget away from rural areas. Rural communities will continue to face 
major challenges. But, under this budget, they will face those 
challenges with fewer resources.
    It is a mistake to redirect funds from badly needed current 
programs. That just creates new holes in our homeland security 
infrastructure. In fact, wherever possible, we should aim to expand and 
strengthen existing emergency-response mechanisms. We should increase 
the capacity of local authorities to prevent or respond to terrorist 
threats and to deal more effectively with the much more common threats 
and emergencies they face.
    Iowans told my staff that the biggest challenges Iowans face today 
include many of the same problems they faced in June of 2000: crime, 
the methamphetamine scourge, natural disasters.
    Over the past several years, FEMA, now part of Homeland Security, 
has become a truly remarkable, world-class organization for dealing 
with fires, floods, tornados, and earthquakes. These things occur every 
year, regardless of other threats, and they continue to threaten lives 
and livelihoods. We cannot renege on our commitment to help people in 
need due to these natural disasters. This is exactly why I and others 
have fought hard to ensure that the fire grant program is retained.
    At the same time, first responders in Iowa tell me that they are 
frustrated. When the alert level changes, they learn about it from CNN, 
not from the Department of Homeland Security. They don't know why the 
alert level is raised, or which kinds of threats they ought to be 
looking out for. They are obliged to respond to vague mandates that 
they don't fully understand, taking time away from other priorities. 
Often, these mandates are unclear--and costly. While some funding is 
flowing, communities are unsure how exactly they should be spending it, 
and they fear spending it in a way that might not meet a later mandate.
    At the same time, some current reporting requirements are onerous 
and illogical. One county emergency manager in Iowa told my staff that 
he is required to report on contingency plans in case there is a tidal 
wave--and, as he understands it, he is not allowed to answer ``not 
applicable.'' I suspect that if a tidal wave big enough to cause damage 
in Iowa were to hit the United States, our least concern will be 
inadequate tidal wave planning in rural Iowa!
    These increased burdens are coming at a time when State and local 
governments are hurting. Many already are laying off police, fire, and 
emergency management personnel. The vast majority of firefighters in 
the United States are volunteer. Increased training requirements for 
these personnel, while useful, can be extremely burdensome. We are 
losing firefighters in Iowa. If we at the Federal level are going to 
create mandates, then funds must follow those mandates.
    Finally, I would like to mention the subject of agri-terrorism. As 
my colleagues know, a major agri-terrorism event could easily cause 
billions of dollars in losses. Anyone who has spent time in rural 
America knows the difficulty in trying to guard against every avenue of 
vulnerability. The key to protecting U.S. agriculture is making sure 
that our intelligence and response capabilities are in place both to 
prevent acts of terrorism in the first place, and to respond quickly 
should an attack occur. I think we are still falling short on response. 
I am very disappointed not to see more resources directed to building 
the capacity of our agricultural first-response system. We really need 
to take a hard look, and make sure we are doing all we can to protect 
U.S. agriculture and rural communities.
    I have been working closely with my State government--particularly 
with the state Homeland Security director, Ellen Gordon--to identify 
appropriate state and Federal responses to agri-terror. Iowa has been 
working overtime trying to map out a comprehensive plan to deal with 
this very difficult issue. I applaud their good work. And I look 
forward to working with Secretary Ridge and with my colleagues to give 
greater focus and priority to the threat of agri-terrorism.

    Senator Cochran. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman and Mr. 
Secretary. Mr. Chairman, I, too, ask unanimous consent that my 
full statement be in the record.
    Senator Cochran. Without objection, it is so ordered.
    [The statement follows:]

               Prepared Statement of Barbara A. Mikulski

    First of all, Mr. Secretary, I want to thank you for your personal 
visit to Maryland when Hurricane Isabel hit last September. It was of a 
magnitude that we have not seen for more than 80 years in Maryland. And 
your personal visit and the excellent response of FEMA is indeed 
appreciated. I'm here to thank you on behalf of the people of Maryland 
for coming to the State and touring the hard hit areas and for your 
team doing such a good job.
    I'd also like to thank the Department of Homeland Security and all 
of our security agencies for averting another terrorist attack on the 
United States of America. Through classified briefings and others, I 
know that the threat over the holidays was indeed real. The fact that 
were sitting here today having this hearing with no TV cameras shows 
that something must be working right. But for what you did over the 
holidays--and when I say you, I mean every single person who worked 
overtime--while we were sitting there having turkey and opening 
presents, there were people putting themselves out there. So I just 
wanted to say thank you, again, on behalf of the people of Maryland and 
all of us here, for all that you do to keep us safe.
    I have four areas of concern, however, that I want to address in 
the Department of Homeland Security fiscal year 2005 budget: High 
Threat Urban Area funding, Fire Grants, Port Security, and Coast Guard 
funding.
    First of all, I am very concerned about cuts to grant programs for 
State and local governments. The funding request for key first 
responder programs is down to $3.2 billion, which is $474 million less 
than last year. The State block grant program, which is distributed by 
formula, is reduced from $1.7 billion to $750 million. The Fire Grant 
program is reduced from $750 million to $500 million. However, I am 
happy to see an increase in grants to high threat, high density urban 
area funding, which is doubled to $1.45 billion.
    The High Threat Urban Areas funding is extremely important. The 
Mayor of Baltimore recently said that ``Cities are on the front line of 
homeland security, but in the back of the line funding. . . . The 
Administration and Congress should act now to direct appropriate 
homeland security funds to cities and eliminate the bureaucracy of a 
middle man.'' So while I applaud the President for recognizing the 
critical funding needs of our high threat, high-density regions, I hope 
I can work with you and the Members of the Committee to ensure that 
this money is getting where it is needed most: in the hands of the 
police, firefighters, and other emergency responders on the front 
lines.
    I am very concerned about the Fire Grant program, which is one of 
the true grassroots programs that we have. Senator Bond and I worked so 
hard on Fire Grant funding when FEMA was in our VA-HUD bill. However, 
this year's budget calls for $500 million in funding, which is $246 
million less than the 2004 level and $400 million less than the 
authorized level. I believe there is a compelling need to fund this 
program at its authorized level. In 2003 the U.S. Fire Administration 
received over 20,000 applications totaling $2.5 billion in requests. We 
know from FEMA and the National Fire Protection Association that at 
least 57,000 fire fighters lack personal protective clothing. That item 
in and of itself speaks to the enormous need in this area.
    Another area of concern is the budget request for port security 
grants. President Bush's request calls for $46 million in Port Security 
Grants, which is well below last year's level of $124 million. The 
Coast Guard estimates that $5.4 billion is needed for port security 
improvements. I want to echo again comments about Baltimore and how 
deeply concerned we are about the fact that our ports continue to be 
vulnerable. And its not only about money, but its also about a smarter, 
more efficient strategy for protecting our critical infrastructure.
    I am very supportive and proud of our U.S. Coast Guard, which is 
truly one of the most efficient and effective of all Federal agencies. 
The men and women of the Coast Guard put their lives on the line 
everyday to apprehend drug smugglers, protect our marine resources, and 
safeguard our environment. However, since September 11th they have been 
called on more than ever to protect our borders and ports. We need to 
provide the Coast Guard with the resources to meet these new 
challenges. Yet, the Guard operates a fleet of ships airplanes that are 
nearing the end of their useful life. In fact, some of their ships date 
back to World War II. That's why I am a strong supporter of the Coast 
Guard Deepwater Program, which would replace these antiquated systems 
with cutting edge technology.
    And last, but not at all least, I would hope that you would comment 
on one of the biggest changes that you are proposing: the combining of 
24 grant programs into a new office called the Office of State and 
Local Government Coordination and Preparedness. I presume the fire 
grants move over there. I believe you talk about it on page seven of 
your testimony. This is a big deal because people have complained about 
the need for a more efficient and effective coordination between 
Federal, State, and local governments, particularly as it relates to 
resources like we talked about--better communication and coordination.
    But I'd like to know where you're heading with this consolidation. 
And also, what will it mean? Will it be a disruption for all those who 
know how to apply? Is this going to be a whole new set of rules, 
regulations, and trade routes that our first responders will have to 
learn to be able to come to Washington for help? Or is this really 
going to solve the problems that mayors and governors have raised with 
you? But again, a really heart-felt gratitude for all that you do. I 
look forward to your testimony today.

    Senator Mikulski. First of all, Mr. Secretary, thanks are 
in order. I want to thank you for your personal visit to 
Maryland when Hurricane Isabel hit. It was of a magnitude that 
we have not seen for more than 80 years in Maryland. Your 
personal visit and the excellent response of FEMA is 
appreciated. I am here to thank you on behalf of the people of 
Maryland for coming and for your team doing such a good job.
    Additionally, I would like to thank the Department of 
Homeland Security and all of our security agencies for averting 
another attack on the United States of America. Through 
classified briefings, I know that the threat over the holidays 
was indeed real. And the fact that we are sitting here today 
having a conversation with no TV cameras shows that something 
must be working right. I would like to thank you for what you 
did over the holidays--and when I say you, I mean every single 
person who worked overtime. While we were sitting at home 
having turkey and opening presents, there were people who were 
putting themselves out there. So I just wanted to say thank 
you, and again on behalf of the people of Maryland and all of 
us, for everyone who worked so hard.
    In terms of where we are in homeland security, I want to 
echo concerns about the fire grant program, which is one of the 
true grassroots programs that we have. And, of course, Senator 
Bond and I worked so hard on that program when FEMA was over in 
our VA/HUD bill. The cut is $246 million from last year. And I 
would like to hear your elaboration on it.
    FEMA and the National Fire Protection Association found 
that at least 57,000 firefighters lack personal protective 
clothing. That item in and of itself, where we have to protect 
the protector, speaks to the enormous need.

                             PORT SECURITY

    The other is the whole issue of port security, which, 
again, echoing my comments, affects a Maryland port. We are 
deeply concerned about the fact that our ports continue to be 
vulnerable. And it is not only about money, but it is also 
about a more efficient strategy.

                          GRANT CONSOLIDATION

    And last but not at least, I would hope that you would 
comment on the fact that one of the biggest changes is that you 
propose combining 24 grant programs into a new office called 
the Office for State and Local Government Coordination and 
Preparedness, one of which is moving FEMA over there. I presume 
the fire grants move over there. And I believe you talk about 
it on page seven of your testimony.
    This is really a big deal, because people have complained 
about the need for more efficient and effective coordination 
between our State and local governments, particularly 
resources, like we talked about, communication coordination. 
But to move 24 grant programs, I would like to know where you 
are heading and also what will it mean. Will it be a disruption 
for all those who knew how to apply? Is this going to be a 
whole new set of rules, regs, trade routes that they have to 
learn to be able to come to Washington, or is this really going 
to solve the problems that mayors and governors have raised 
with you?
    But again, a really heartfelt gratitude.
    Secretary Ridge. Thank you, Senator.
    Senator Cochran. Thank you, Senator.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman. And 
thank you to Senator Byrd and all of our colleagues for their 
comments today. I welcome you, as well, Mr. Secretary, and 
appreciate the tremendous job you are doing for our country. 
And I especially want to echo the comments of Senator Mikulski 
and thank you and everyone in your department for all of the 
work you do tediously every day to protect all of us. We all do 
appreciate it.

                             PORT SECURITY

    I agree with my colleagues. A lot has been done in the area 
of airport security. All of us know tremendous changes have 
been made. Where I continue to have a tremendous concern is in 
the area of port security. And I know you joined the President 
last week in Senator Hollings's backyard at the Port of 
Charleston. And the White House issued a press release and 
described the event as the President focusing on seaport and 
cargo security. But I noticed that only a couple of minutes of 
his speech actually talked to that. And I think that kind of 
rhetoric without the backup is deeply concerning to me and to 
everyone, really, in this country.
    We saw last week that a small bit of ricin shut down three 
buildings here on this campus for an entire week. A container 
coming into one of our terminals with an explosive device or 
any kind of biological agent could have a devastating effect 
obviously on human life, but a huge impact on the economy, if 
any of our ports or all of our ports were to shut down for any 
amount of time.

                        OPERATION SAFE COMMERCE

    And I think you know what I am concerned about is that the 
backup is not there for the words and the rhetoric that the 
administration is focused on port security. I noticed in the 
President's budget request that a very promising security 
initiative, called the Operation Safe Commerce is killed in the 
President's budget. That is a program that is just beginning. 
And the first cargo ship actually with that in place is coming 
into my home State in Tacoma in just a couple weeks. And I 
think it is just not a good way to go, to kill that before it 
has even gotten started.

                      MARITIME TRANSPORTATION ACT

    Another example is the President's budget director last 
week on the Budget Committee told me that the White House is 
committed to implementing the Maritime Transportation Act, the 
law that ensures that all of our ports and all the vessels 
calling on them have approved security plans. Mr. Bolton said 
the President was committed to implementing that, but his 
budget only provides 7 percent of the funding that the Coast 
Guard testified to us they would need to implement that.

                              COAST GUARD

    And the third example is that the administration is adding 
new homeland security duties to the Coast Guard's mission 
without providing them the support necessary to accomplish 
those tasks, as well as to deal with its traditional missions 
that are so critical. We all know the Coast Guard is stretched 
thin. They are working long hours. They are a dedicated group 
of people. But I think we need to back up what we are asking 
them to do in terms of homeland security duties and provide 
them with the funds. So I will be asking you about that today.

                         CUTS IN GRANT FUNDING

    I share with my colleagues the concern about first 
responder grants that are being cut. And I want to mention as 
well the emergency management planning grants that go out to 
communities are being cut and restricted. If our communities 
cannot plan for a disaster, they will not know what to do if 
something occurs. And I think it is really important that we 
maintain our focus and our funds in that direction.
    So those are some of the issues that I will raise in the 
question and answer period. But again, Mr. Secretary, thank you 
for the job you do for our country.
    Senator Cochran. Thank you, Senator.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    I want to join you, Senator Byrd, and the rest of our colleagues in 
welcoming Secretary Ridge today. He has been handed a tough task in a 
very difficult time. I know he is committed to keeping our country 
safe, and I thank him for his leadership.
    Mr. Secretary, I want to work with you to ensure our budget will 
actually deliver the security we both seek for our country.
    Just last week, you joined President Bush at an event in Senator 
Hollings' backyard at the Port of Charleston.
    A White House press release described the event this way--quote--
``President Bush Focuses on Seaport and Cargo Security.'' He stood in 
front of a Coast Guard cutter and a container barge, yet he only 
focused on port security for about two minutes of his 30 minute speech.
    Sadly that seems par-for-the-course for this White House.
    The President offers a few words about port security here and 
there, but does not make the financial commitment we need to actually 
keep our ports safe.
    And, the latest example came just last week with the President's 
budget request.
    The President wants to kill a promising port security initiative 
called Operation Safe Commerce.
    Mr. Secretary, as you know, our largest ports have been working to 
improve cargo security through Operation Safe Commerce for the past 2 
years. In fact, the first cargo ship using this innovative program will 
arrive at the Port of Tacoma later this month, setting a new standard 
for port security. The President's budget would end Operation Safe 
Commerce.
    That's just one disappointing example in this budget.
    Here is another example: Last week the President's budget director 
told me the White House is committed to implementing the Marine 
Transportation Act. That's the law which will ensure all of our ports--
and the vessels calling on them--have approved security plans.
    Mr. Bolton said the President was committed to implementing MTSA, 
but his budget only provides 7 percent of the funding the Coast Guard 
says is required.
    And, here's a third example, the Administration is adding new 
Homeland Security duties to the Coast Guard's mission without providing 
the support necessary to accomplish these new tasks as well as its 
traditional mission.
    Mr. Secretary, we all agree that the Coast Guard is doing an 
admirable job balancing its many missions. However, the Coast Guard is 
stretched thin, and this budget stretches it further.
    These brave men and women are working longer hours and doing more, 
but the President's budget offers no relief.
    It's one thing to give a speech in front of our Coast Guard assets 
and quite another to actually provide the men and women of the Coast 
Guard with the tools they need to do the job.
    Words won't help protect our Nation's seaports, but--
  --Operation Safe Commerce,
  --adequate support for the Coast Guard,
  --and funding for marine security plans will make our ports safer.
    And that is my focus today.
    I do have other concerns with this budget beyond port security, for 
example:
    I am concerned that first responder grants would be cut by more 
than $800 million.
    I am also concerned that Emergency Management Planning Grants would 
be cut and restricted, putting our emergency management and response 
system in jeopardy.
    These are some of the issues I hope to explore with the Secretary 
this morning.
    Thank you Mr. Chairman.

           INVITATION TO SECRETARY RIDGE TO MAKE A STATEMENT

    Mr. Secretary, we have a copy of the statement you 
prepared. It will be made a part of the record. We invite you 
to make any additional statement you think would be helpful to 
our understanding of the budget request. You may proceed.
    Secretary Ridge. Senator, if I might just highlight some of 
the points for my opening address and summarize it briefly.
    Senator Cochran. That will be fine.

                    STATEMENT OF SECRETARY TOM RIDGE

    Secretary Ridge. Thank you.
    Mr. Chairman, Senator Byrd, members of the subcommittee, I 
am certainly grateful for the opportunity to appear before you 
today and present the President's budget and priorities for the 
Department of Homeland Security in the coming year.
    With the creation of the Department of Homeland Security, 
that charge was given to us, 22 different agencies and nearly 
180,000 employees, brought together to pursue a single mission. 
The recent ricin scare serves as a very difficult and poignant 
and relevant reminder that terrorism is a threat that we must 
confront each and every day with the same commitment and the 
same sense of urgency we all remember from the day our Nation 
was attacked 2 years ago.
    As we prepare to celebrate the first year of the 
department, it is important to remind the public that it has 
been with the steadfast support of this Congress and the 
resources you have provided that have made it possible for the 
department to not only carry out a vigorous and ambitious slate 
of security initiatives, but also to say to Americans with 
confidence today that we are indeed safer.

    ACCOMPLISHMENTS ACHIEVED BY THE DEPARTMENT OF HOMELAND SECURITY

    We have strengthened airline security, increased vigilance 
at our borders and ports, forged unprecedented partnerships 
across the private sector and with State and local government, 
improved information sharing, launched robust efforts to engage 
citizens in preparedness efforts, and distributed funds and 
resources for our dedicated first responders.

                    FISCAL YEAR 2005 BUDGET REQUEST

    To highlight an observation made by Senator Byrd, his 
analysis of the budget is correct. If you include the entire 
BioShield amount within the $40.2 billion, it is a 10-percent 
increase. If you add the nondiscretionary money and some of the 
fee increases we request, it is about a 6-percent increase. And 
then just with the discretionary money appropriated by 
Congress, it is about a 4.4-percent increase. We believe the 
increase in funding will provide the necessary resources we 
need to expand and improve existing projects and programs, as 
well as build new barriers to terrorists who wish to do us 
harm.

                           PREPARED STATEMENT

    I think the balance of my testimony highlights the areas 
that we have sought an increase, Mr. Chairman. But since you 
have the testimony as part of the record, I assume some or all 
of it has been digested. I think it would probably be even more 
useful for all of us just to engage in the kind of 
conversation, the question and answer that has been so fruitful 
in the past. If my entire statement is included as part of the 
record, I would conclude by again thanking my colleagues in 
public service for the opportunity to appear before you and 
look forward to the ensuing conversation.
    [The statement follows:]

                    Prepared Statement of Tom Ridge

                              INTRODUCTION

    Mr. Chairman, Senator Byrd and Members of the Subcommittee: I am 
honored and pleased to appear before the Committee to present President 
Bush's fiscal year 2005 budget for the Department of Homeland Security. 
Before beginning to outline our fiscal year 2005 budget request, I want 
to thank you for the strong support you showed for the Department in 
the fiscal year 2004 budget and for the fact that that appropriation 
was passed in time for it to be signed by the President on October 1, 
2003--the first day of the fiscal year.
    The $40.2 billion request represents a ten percent increase in 
resources available to the Department over the comparable fiscal year 
2004 budget and reflects the Administration's strong and continued 
commitment to the security of our homeland. The fiscal year 2005 budget 
is a $3.6 billion increase over fiscal year 2004, and it includes 
increased funding for new and expanded programs in border and port 
security, transportation security, immigration enforcement and 
services, biodefense, incident preparedness and response, and the 
implementation of a new human resources system that will reward 
outstanding performance. The budget also continues our momentum toward 
integrating intelligence, operations and systems in a way that 
increases our Nation's security.
    The Department of Homeland Security has made great organizational 
strides during the first year of operations. Nearly 180,000 employees 
and a budget of $31.2 billion were brought under DHS less than a year 
ago. The Department established a headquarters operation and 
successfully began operations on March 1, 2003--bringing together the 
legacy agencies and programs that now make up DHS. Customs, border and 
immigration activities have been reformulated into new agencies that 
will increase the effectiveness of our dedicated employees. DHS 
continues to create new ways to share information and intelligence 
within the Department and between levels of governments, and 
horizontally across agencies and jurisdictions. Already, over 350 
different management processes have been consolidated to 130, and DHS 
has begun consolidating 2,500 support contracts into roughly 600.
    While DHS invested considerable time to make the many 
organizational improvements that will improve our effectiveness, much 
was also accomplished programmatically. The fiscal year 2003 
Performance and Accountability Report provides a comprehensive 
discussion of our accomplishments of the past year. We believe that in 
the twelve months since the creation of the Department, we have made 
substantial progress. Through the hard work of our dedicated and 
talented employees, America is more secure and better prepared than we 
were one year ago.
    We have achieved many results since our creation, including:
  --improving the collection, analysis and sharing of critical 
        intelligence with key Federal, State and local entities;
  --allocating or awarding over $8 billion to state and local first 
        responders to help them prevent and prepare to respond to acts 
        of terrorism and other potential disasters;
  --strengthening border security through the ``One face at the 
        border'' initiative, which will cross-train officers to perform 
        three formerly separate inspections--immigration, customs and 
        agriculture. This will allow us to target our resources toward 
        higher risk travelers;
  --instituting innovative new systems like US VISIT to identify and 
        track foreign visitors and students and to screen for possible 
        terrorist or criminal involvement;
  --safeguarding air travel from the terrorist threat by hardening 
        cockpit doors, instituting 100 percent checked baggage 
        screening; and training more than 50,000 Federal passenger and 
        baggage screeners;
  --increasing safeguards on maritime transportation and port 
        infrastructure;
  --expanding research and development in the defense of our homeland, 
        through the creation of programs such as the Homeland Security 
        Advanced Research Projects Agency (HSARPA) which has already 
        engaged hundreds of private companies and universities in 
        developing new cutting-edge technologies;
  --launching an ambitious, collaborative effort involving input from 
        employees at all levels, unions, academia, and outside experts 
        to design a modern human resources system that is mission-
        centered, fair, effective and flexible;
  --initiating a five-year budget and planning process and commencing 
        the development of an integrated business and financial 
        management system (Project eMerge<SUP>2</SUP>) to consolidate 
        the 50 different budget execution systems, 43 different general 
        ledgers, and 30 different procurement systems inherited by DHS; 
        and
  --successfully transferring more than $50 billion in assets, $36 
        billion in liabilities and more than 180,000 employees to the 
        Department.

                    FISCAL YEAR 2005 BUDGET REQUEST

    The fiscal year 2005 budget for the Department of Homeland Security 
builds upon the significant investments to date to our safeguard 
against terrorism, while also sustaining the many important 
departmental activities not directly related to our fight against 
terrorism. The President's budget clearly demonstrates the continuing 
priority placed on the Department of Homeland Security in providing 
total resources for fiscal year 2005 of $40.2 billion. This is an 
increase of 10 percent above the comparable fiscal year 2004 resource 
level, $9 billion (29 percent) over the 2003 level and $20.4 billion 
(103 percent) over the 2001 level.

                 STRENGTHENING BORDER AND PORT SECURITY

    Securing our border and transportation systems continues to be an 
enormous challenge. Ports-of-entry into the United States stretch 
across 7,500 miles of land border between the United States and Mexico 
and Canada, 95,000 miles of shoreline and navigable rivers, and an 
exclusive economic zone of 3.4 million square miles. Each year more 
than 500 million people, 130 million motor vehicles, 2.5 million 
railcars, and 5.7 million cargo containers must be processed at the 
border. Conditions and venues vary considerably, from air and sea 
ports-of-entry in metropolitan New York City with dozens of employees 
to a two-person land entry point in North Dakota.
    During fiscal year 2005, we will continue to strengthen our border 
and port security. Our budget seeks over $400 million in new funding to 
maintain and enhance border and port security activities, including the 
expansion of pre-screening cargo containers in high-risk areas and the 
detection of individuals attempting to illegally enter the United 
States. Our budget also includes an 8 percent increase for the Coast 
Guard to upgrade port security efforts, implement the Maritime 
Transportation Security Act, and enhance other activities.
    Specifically, our budget includes an increase of $25 million for 
U.S. Customs and Border Protection's Container Security Initiative 
(CSI) which focuses on pre-screening cargo before it reaches our 
shores. We are also seeking an increase of $15.2 million for Customs 
Trade Partnership Against Terrorism (C-TPAT). C-TPAT focuses on 
partnerships all along the entire supply chain, from the factory floor, 
to foreign vendors, to land borders and seaports. To date, nearly 3,000 
importers, 600 carriers, and 1,000 brokers and freight forwarders are 
participating in C-TPAT, surpassing the Department's original goal of 
participation of the top 1,000 importers. In order to further protect 
the homeland against radiological threats, the budget seeks $50 million 
for next generation radiation detection monitors.
    As well as continuing development for secure trade programs, the 
President's budget also seeks an increase of $20.6 million to support 
improvements for the National Targeting Center and multiple targeting 
systems that focus on people and/or goods. These systems use 
information from diverse sources to provide automated risk assessments 
for arriving international air passengers, shipments of goods to our 
country, and land border passenger traffic.
    The United States Visitor and Immigrant Status Indicator Technology 
(US VISIT) program's goals are to enhance the security of our citizens 
and our visitors; facilitate legitimate travel and trade across our 
borders; ensure the integrity of our immigration system; and respect 
the privacy of our welcomed visitors. US VISIT represents a major 
milestone in our efforts to reform our borders. DHS deployed the first 
increment of US VISIT on time, on budget, and has met the mandates 
established by Congress as well as including biometrics ahead of 
schedule. The budget seeks a total of $340 million in fiscal year 2005, 
an increase of $12 million over the fiscal year 2004 level. Through 
fiscal year 2005, over $1 billion will be used to support this 
initiative.
    Our budget also seeks an increase of $64.2 million to enhance land-
based detection and monitoring of movement between the ports, and $10 
million to plan, procure, deploy and operate unmanned aerial vehicles. 
In addition, the budget request for U.S. Immigration and Customs 
Enforcement (ICE) includes an increase of $28 million to increase the 
flight hours of P-3 aircraft. The P-3 has already proven itself to be a 
key asset in the battle against terrorism as demonstrated in the days 
immediately following the September 11, 2001 attacks when P-3s flew 
airspace security missions over Atlanta and Miami.
    The Coast Guard funding increase includes over $100 million to 
implement the Maritime Transportation Security Act, to support the 
Coast Guard's ability to develop, review and approve vessel and port 
security plans, ensure that foreign vessels meet security standards, 
improve underwater detection capabilities, and increase intelligence 
capacity. The budget also maintains the Coast Guard's ongoing 
Integrated Deepwater System initiative, funding the program at $678 
million, an increase of $10 million over the fiscal year 2004 funding 
level.

                          ENHANCING BIODEFENSE

    The President's fiscal year 2005 budget reflects $2.5 billion for 
Project BioShield that will be available in fiscal year 2005 to 
encourage the development and pre-purchase of necessary medical 
countermeasures against weapons of mass destruction. Project BioShield 
allows the Federal Government to pre-purchase critically needed 
vaccines and medications for biodefense as soon as experts agree that 
they are safe and effective enough to be added to the Strategic 
National Stockpile. The Administration is moving forward in purchasing 
the most important countermeasures and high on the list are next-
generation vaccines for both smallpox and anthrax.
    The Department's efforts to improve biosurveillance will involve 
the Information Analysis and Infrastructure Protection (IAIP) and 
Science and Technology (S&T) directorates. In S&T, the budget requests 
$65 million increase to enhance current environmental monitoring 
activities, bringing the total fiscal year 2005 investment in this area 
to $118 million. One key component of this initiative will be an 
expansion and deployment of the next generation of technologies related 
to the BioWatch Program, a biosurveillance warning system. In IAIP, $11 
million increase is included to integrate, in real-time, 
biosurveillance data collected from sensors throughout the country and 
fuse this data with information from health and agricultural 
surveillance and other terrorist-threat information from the law 
enforcement and intelligence communities.
    The National Disaster Medical System (NDMS) is responsible for 
managing and coordinating the Federal medical response to major 
emergencies and federally declared disasters. For 2005, FEMA's budget 
includes $20 million for planning and exercises associated with medical 
surge capabilities. In addition, the budget transfers funding ($400 
million) for the Strategic National Stockpile to the Department of 
Health and Human Services to better align the program with that 
agency's medical expertise.

                      IMPROVING AVIATION SECURITY

    We have made great strides to improve the safety of the aviation 
system from acts of terrorism. For example, we have made significant 
investments in baggage screening technology--over $2 billion to 
purchase and install Explosive Detection System machines (EDS) and 
Explosive Trace Detection machines (ETD) to the Nation's airports from 
fiscal year 2003 to fiscal year 2005; hardened cockpit doors; deployed 
45,000 Federal passenger and baggage screeners at the Nation's 
airports; and trained pilots to be Federal Flight Deck Officers. The 
President's fiscal year 2005 budget seeks to enhance our efforts in 
this regard and would provide an increase of $892 million, a 20 percent 
increase over the comparable fiscal year 2004 level, for the 
Transportation Security Administration (TSA). Additional funding for 
TSA supports aviation security, including efforts to maintain and 
improve screener performance through the deployment of technology.
    The Department implemented a substantially improved air cargo 
security and screening program last year, and the President's budget 
sustains funding to continue program deployment and screening 
technology research. In addition, the fiscal year 2005 budget seeks a 
total of $61 million to accelerate development of more effective 
technologies to counter the threat of portable anti-aircraft missiles.

             ENHANCING IMMIGRATION SECURITY AND ENFORCEMENT

    Comprehensive immigration security and enforcement extends beyond 
efforts at and between the ports-of-entry into the United States. It 
extends overseas, to keep unwelcome persons from reaching our ports, 
and to removing persons now illegally residing in the United States. 
The Administration is committed to stronger workplace enforcement in 
support of the President's temporary worker proposal announced January 
7, 2004.
    The requested increases include $186 million for U.S. Immigration 
and Customs Enforcement (ICE)--whose appropriated budget overall 
increases by about 10 percent--to fund improvements in immigration 
enforcement both domestically and overseas, including more than 
doubling of current worksite enforcement efforts and approximately $100 
million increase for the detention and removal of illegal aliens. 
Detention and Removal of illegal aliens present in the United States is 
critical to the enforcement of our immigration laws and the requested 
funding will expand ongoing fugitive apprehension efforts, the removal 
from the United States of jailed illegal aliens, and additional 
detention and removal capacity.
    Our proposal for ICE also includes an increase $78 million for 
immigration enforcement. As part of the President's proposed new 
temporary worker program to match willing foreign workers with willing 
U.S. employers, enforcement of immigration laws against companies that 
break the law and hire illegal workers will increase. The fiscal year 
2005 President's Budget includes an additional $23 million for enhanced 
worksite enforcement. This more than doubles existing funds devoted to 
worksite enforcement and allows ICE to hire more Special Agents devoted 
to this effort. With these resources, ICE will be able to facilitate 
the implementation of the President's temporary worker program 
initiative by establishing a traditional worksite enforcement program 
that offers credible deterrence to the hiring of unauthorized workers. 
Without such a deterrent, employers will have no incentive to maintain 
a legal workforce.
    Our budget also seeks $14 million to support our international 
enforcement efforts related to immigration, including enabling ICE to 
provide visa security by working cooperatively with U.S. consular 
offices to review visa applications.
    We are a welcoming Nation, and the hard work and strength of our 
immigrants have made our Nation prosperous. Within the Department, the 
U.S. Citizenship and Immigration Service (CIS) has improved the 
administration of immigration benefits to the more than seven million 
annual applicants. For fiscal year 2005, the President's budget seeks 
an additional $60 million, for a total of $140 million, to achieve a 
six-month processing for all immigration applications by 2006, while 
maintaining security.

            INCREASING PREPAREDNESS AND RESPONSE CAPABILITY

    Though the primary mission is to protect the Nation from terrorism, 
the Department's responsibilities are diverse. The ships that interdict 
threats to our homeland are also used to help mariners when they are in 
distress and protect our marine resources from polluters and illegal 
fishing. While we must be prepared to respond to terrorist attacks, we 
are more often called upon to respond to natural disasters
    To support the Department's efforts to respond, the President's 
Budget includes an increase of $10 million, for a total of $35 million 
in fiscal year 2005, for the Homeland Security Operations Center 
(HSOC). Pursuant to the Initial National Response Plan, the HSOC 
integrates and provides overall steady state threat monitoring and 
situational awareness and domestic incident management on a 24/7 basis. 
The HSOC maintains and provides situational awareness on homeland 
security matters for the Secretary of Homeland Security, the White 
House Homeland Security Council and the Federal community. In addition, 
the HSOC provides the Department's critical interface to all Federal, 
State, local & private sector entities to deter, detect, respond and 
recover from threats and incidents.
    The National Incident Management System (NIMS) is designed to 
ensure that all levels of government work more efficiently and 
effectively together to prepare for, respond to, and recover from 
domestic emergencies and disasters, regardless of cause. For fiscal 
year 2005, the Department requests $7 million to ensure that the major 
NIMS concepts involving incident command, coordination, communication, 
information management, resource management, etc., are incorporated 
into and reflected in FEMA's national disaster operational capability. 
This funding will provide for plan development, training, exercises and 
resource typing at the Federal, State, and local levels

              SUPPORTING STATE AND LOCAL FIRST RESPONDERS

    The Department has initiated consolidation of the two principal 
offices responsible for administering the grants awarding process for 
emergency responders and State/local coordination, the Office of State 
and Local Government Coordination and the Office of Domestic 
Preparedness. This consolidation provides an opportunity to tie all DHS 
terrorism preparedness programs together into a cohesive overall 
national preparedness program designed to support implementation of 
State Homeland Security Strategies.
    The fiscal year 2005 budget continues to support the Nation's first 
responders and seeks a total of $3.6 billion to support first-responder 
terrorism preparedness grants with better targeting to high-threat 
areas facing the greatest risk and vulnerability. For fiscal year 2005, 
funding for the Urban Area Security Initiative (UASI) doubles from $727 
million to $1.45 billion. Since March 1, 2003, DHS awarded or allotted 
over $8 billion to support state and local preparedness. Between fiscal 
year 2001 and the fiscal year 2005 budget request, over $14 billion in 
assistance will be made available for programs now under DHS. Our 
request for fiscal year 2005 is slightly higher than funding sought for 
these programs in fiscal year 2004.

  INVESTING IN HUMAN CAPITAL AND BUILDING DEPARTMENTAL INFRASTRUCTURE

    Our employees are our single greatest asset and we are committed to 
investing in the development and motivation of our workforce. To 
support our efforts in creating a model personnel system, the 
President's fiscal year 2005 budget seeks $133.5 million for the 
implementation of a new DHS human resources system that is mission-
centered, fair, and flexible by rewarding top performers. The fiscal 
year 2005 budget specifically provides additional resources that will 
be used for training supervisory personnel to administer a performance-
based pay system and to create the information technology framework for 
the new system. Our new system will ensure that DHS can manage and 
deploy its resources to best address homeland security threats and 
support information technology tools for workforce management.
    We also seek additional funds to invest in the Department's core 
infrastructure. Our budget request seeks a total of $56 million, an 
increase of $17 million to support a new resource management system. 
This funding will support the design, development, and implementation 
for a single Department-wide financial management system. It will 
provide decision-makers with critical business information, e.g., 
budget, accounting, procurement, grants, assets, travel, in near 
``real-time'' and eliminate stovepipes within existing systems and 
processes.
    An increase of $45.1 million is also sought to continue expanding 
the DHS presence at the Nebraska Avenue Complex (NAC). These resources 
will enable DHS to perform tenant improvements to the facility and 
relocate U.S. Navy operations, pursuant to congressional authorization, 
from the NAC to leased facilities.

                               CONCLUSION

    We have a dedicated and skilled team in DHS who understand that 
what they are doing is important. We have the support of our partners 
in government and the public and private sectors. I thank the Congress 
for its support, which has been critical to bringing us to this point.
    Our homeland is safer than it was a year ago, but we live in 
dangerous times and cannot count on times to change. That is why the 
Department of Homeland Security was created, and why we are moving 
forward. I am grateful to be here today to talk about the work we are 
doing to make America a safer home for us, for our children and 
generations to come.
    Thank you for inviting me to appear before me today, and I look 
forward to answering your questions.

                 STATUS OF RICIN INCIDENT INVESTIGATION

    Senator Cochran. Mr. Secretary, thank you very much. I 
think one of the most recent events that has attracted 
everybody's attention here in Washington and certainly affected 
this very building we are having the hearing in today is the 
ricin incident that was discovered in the office of Senator 
Bill Frist here in the Dirksen Building. Could you tell us what 
the status of that investigation is? Has it been determined 
whether this toxin was delivered by mail or in what way this 
happened, or are we still trying to determine these events?
    Secretary Ridge. Senator, it is my understanding that the 
focal point of the investigation initially has been with the 
Capitol Police. The FBI has and is prepared to continue to 
assist. I do not believe there are any further developments 
beyond what has been transmitted in the newspapers. We still 
have no idea who may have been responsible for it. To my 
knowledge, to date we have not identified if it was a letter 
that was in which the contents were contained that broke open 
during the screening process. So again, it is an ongoing 
investigation. And I think your Capitol police have the lead.
    As it was related to me, I am not sure there is enough of 
the ricin that has been preserved for more detailed analysis. 
And that will probably impede the investigation somewhat. But 
even if it is true, obviously the resources of the FBI, the 
Capitol Police, and others are committed to trying the very 
best to identify the source.

                   INTERNATIONAL FLIGHT CANCELLATIONS

    Senator Cochran. One other recent event that Senator 
Mikulski mentioned was during the holiday season; there were 
several international flights that were canceled. Suspicion of 
possible terrorist activity was reported in the news as the 
reason for that. We heard from some airline executives and 
ambassadors from foreign countries how cancellation of flights 
like this caused disruption of service and make it difficult 
for the traveling public to make plans in the future. But, we 
understand the overriding importance of trying to guarantee the 
safety of our homeland.
    Do you think the department was justified in the 
cancellation of these flights and whether this indicates that 
we are under continued threats of terrorist activity in the use 
of intercontinental flights in the future?
    Secretary Ridge. Senator, the decisions to cancel those 
flights were obviously made in consultation with our allies in 
Great Britain and in France and in Mexico. Obviously, we note 
from the very outset the extraordinary inconvenience it causes 
probably a couple thousand passengers. We understand that.
    Trying to put it in context, I dare say that this week in 
international aviation there will probably be more 
cancellations for mechanical failure and for weather than were 
seen when we canceled it for potential terrorist activity. So 
we do try to put it in context but clearly with the 
understanding that we need to try to keep commercial aviation 
both safe and flying.

             FEDERAL AIR MARSHALS ON INTERNATIONAL FLIGHTS

    A couple of concerns that were expressed to you by the 
ambassadors had to do with the executive amendments that I 
directed to be sent out specifically to the airlines with 
regard to the ability upon request to put Federal air marshals 
on those international flights. While I do not regret the 
decision to send that directive out, it would have been more 
appropriate had there been more time to send the notification 
out through diplomatic channels first, rather than dealing 
directly with the airlines. So I understand that completely.
    Since that time, however, our discussions with, again, Air 
France, Great Britain, British Airways, and others, we are 
working on a protocol, one that will give us an opportunity to 
deal government to government first. We all agree that is the 
best way to do it, to share intelligence about these flights 
and review that as far enough in advance as we possibly can to 
avoid either delays or the cancellations in the future. But 
given the threat stream reporting that we saw, it was a 
collective judgment that, under all the circumstances as we 
knew them, it was a collective decision to cancel those 
flights. And I think it was a very appropriate decision.

                           AVIATION SECURITY

    A continuing concern we have, Senator, with regard to 
aviation security is reflected in the threat streams where 
there are continuing references from multiple sources, in spite 
of the additional security measures we have taken on domestic 
and international flights, that terrorists would still seek to 
target those flights for possible terrorist actions. So we are 
mindful that they do like to go back to targets and tactics 
that they used previously. That is why our guard remains up and 
remains vigilant.

                  TERRORIST THREAT INTEGRATION CENTER

    Senator Cochran. I am going to ask one other question and 
hope that all Senators will be aware that we will have ample 
opportunity to ask whatever questions any senator has. But, I 
am going to limit my time to 5 minutes and hope other Senators 
will do that as well in the first round of questions, and then 
we can go back and revisit any issues that remain important to 
discuss.
    Let me ask you one final question in this round, and that 
is your evaluation of the effectiveness of the intelligence-
gathering center that was created in the Department of Homeland 
Security to integrate and bring together intelligence that is 
available to the department to assess the threat status that we 
may face, the potential terrorist attacks that may be planned 
by others. It is the Terrorist Threat Integration Center 
(TTIC). What is your evaluation of that? Is it working? Do you 
have the funding that you need, if this budget request is 
followed, to carry out the intelligence role that the 
department has established for itself?
    Secretary Ridge. Senator, the Congress has been very 
generous to the Department in providing several hundred million 
dollars to set up the Information Analysis and Infrastructure 
Protection Directorate. That is our analytical arm. And it is 
through those dollars that we expanded probably $15 million or 
$20 million last year as our contribution to the Terrorist 
Threat Integration Center. We have analysts in that Threat 
Integration Center. It is the coordination point for 
information from the entire intelligence community as it 
relates to homeland security issues.
    We are very comfortable with the relationship. Congress has 
vested in us the authority and the responsibility to go back to 
anywhere we deem necessary within the intelligence community to 
put intelligence requirements on the CIA or TTIC to give us 
more additional information, if we have questions and seek 
answers.
    So as the TTIC evolves and as our agency matures, the 
relationship gets better and better every day.
    Senator Cochran. Thank you.
    Senator Byrd.

            UNDERFUNDED AND UNDERSTAFFED IMMIGRATION SYSTEM

    Senator Byrd. Mr. Chairman, Mr. Secretary, our immigration 
system is underfunded and understaffed. The Bureau of 
Immigration and Customs Enforcement has just over 13,000 
criminal investigators to, among its many other 
responsibilities, locate and remove 8 million to 12 million 
illegal aliens. Following the passage of the 1986 amnesty for 
2.7 million illegal aliens, the INS had to open temporary 
offices, hire new workers, and divert resources from 
enforcement areas to process amnesty applicants. The result was 
chaos that produced rampant fraud.

                 IMPACT OF PRESIDENT'S AMNESTY PROPOSAL

    The backlog of immigrant applications is even larger today, 
six million and rising. The President's amnesty proposal would 
dump another eight million immigrant applications on an already 
beleaguered immigration system.
    It took only 19 temporary visa holders to slip through the 
system to unleash the horror of the September 11 attacks. The 
President's amnesty would shove 8 million illegal aliens 
through our security system, many of whom have never gone 
through any background check. If there are no new resources in 
the budget to implement the President's amnesty proposal, the 
implementation of the reform proposal would create incredible 
stresses on an already overly stressed border security system. 
It is a recipe for disaster.
    While I note that the budget has several modest proposals 
to deal with existing shortcomings, could you explain to the 
committee how much additional money is included in the 
President's budget to implement the President's amnesty 
proposal?
    Secretary Ridge. Senator, there are, as you pointed out, 
increases in several areas within the budget, not specifically 
related to the President's proposal, inasmuch as the President 
laid out some principles, recognizing the reality of several 
million undocumented aliens who present in this country, 
recognizing that we need to validate their presence, which is 
far different than pushing them to the front of the line for 
citizenship purposes, and also recognizing the need that once 
he stated the principles, that this is an issue of high 
visibility and probably considerable controversy. And whether 
we can get it done this year or next year remains to be seen.
    But I think the President offered the proposal, 
understanding that once the Congress worked its will around the 
principles that he enunciated, that there would be adequate 
resources, depending on the kind of program that Congress 
enacted to enforce it. Senator, I could not agree with you 
more. Our ability to take the President's proposal and to 
fashion a satisfactory conclusion will require an investment of 
resources for enforcement. That number, that amount remains to 
be calculated based on the kind of program that the Congress, 
working with the administration, designs.
    I will tell you in the meantime, Senator, the increases 
that are reflected in this budget are for detention beds, are 
for more surveillance equipment along the borders. We are going 
to use in pilot form this year, Senator, some additional 
technology along the borders to deal with, as best we can, the 
continued flow of illegal immigrants across the border. But I 
think the broader issue of the resources necessary to make sure 
that the President's initiative and the congressional 
initiative is fully enforced. That is a discussion to be had at 
a later date.
    Senator Byrd. To be had when?
    Secretary Ridge. At a later date, Senator.

                       LEGACY INS PROGRAM FUNDING

    Senator Byrd. Yes. Well, I understand that. The increases 
for a number of the programs in the budget are directed to 
ongoing and long underfunded legacy INS activities, and not to 
the President's new initiative. I recognize that there are 
increases in your budget for fugitive operations and the 
institutional removal program, legal program backlog 
elimination. But these increases merely reflect the direction 
of much-needed additional dollars to perform the tasks that 
your agencies must do in any event.
    For instance, from 1992 to 2002, the number of worksite 
enforcement investigations dropped from 1,063 to just 13. These 
activities represent ongoing programs which your department 
inherited upon the abolition of the long-maligned Immigration 
and Naturalization Service. What new resources are you 
requesting specifically, understanding that the Congress has 
yet to act, of course, if it does, when it does? What new 
resources are you requesting that specifically will be used to 
implement an alien amnesty program in the event that such is 
legislated into law?

                 REQUEST FOR FUGITIVE OPERATIONS TEAMS

    Secretary Ridge. Senator, there are two areas of increase 
that we requested to help with contemporary enforcement of the 
law as it exists today. It does not speak to any changes in the 
law that may exist tomorrow. But we have requested an increase 
of $50 million for 30 additional fugitive operations teams so 
that the people we have identified as absconders, those 
individuals who have either had their hearing and have been 
determined after the hearing process basically to be persona 
non grata, to exit this country, or those who refuse to show 
for their hearing and therefore lost any legitimacy to their 
presence. We want to basically nearly triple the amount of 
those teams. So there is $50 million for that.

                    REQUEST FOR WORKSITE ENFORCEMENT

    I believe, Senator, we have asked for an additional $20-
some million to assist with more agents to deal with workforce 
enforcement. So the additional dollars for the detention beds, 
for the fugitive operations team, and for the workplace 
enforcement are consistent with the needs based on the law as 
it exists. But as I said before, clearly, once Congress works 
its will, if it chooses to do so, around the President's 
initiatives, matching willing worker with willing employer, 
will obviously need additional resources. That cannot be 
denied.

    RESOURCES REQUIRED TO IMPLEMENT THE PRESIDENT'S AMNESTY PROGRAM

    Senator Byrd. Well, looking at the plan that has been 
proposed by the President, Mr. Secretary, how much do you 
believe would be necessary to implement the President's 
principles, as set forth in that plan?
    Secretary Ridge. Senator, at this point, it would be the 
grossest form of speculation. And I choose not to engage--the 
Senator has asked a serious question. He deserves a serious 
answer. And at this juncture, since the President has just 
articulated some principles that he would like to see embodied 
in a piece of legislation, again, it really depends on the 
legislation and the mandates associated with the legislation 
for us to determine how many additional agents we might need, 
perhaps the use of additional technology along the borders. So 
it is very difficult for us to make that determination at this 
point, Senator.
    Senator Byrd. Are you suggesting, Mr. Secretary----
    Secretary Ridge. Well, the only thing I could tell you, 
Senator, is we will need more.
    Senator Byrd. I would expect that answer. Are you 
suggesting that there are no estimates around what the 
President's plan would cost?
    Secretary Ridge. I suggest to you, Senator, that we can in 
time develop some internal estimates, but we have no final 
figures now, again, because we do not know what mandates or the 
requirements that Congress may impose on the Executive Branch 
in order to fulfill the goals of the legislation.
    Senator Byrd. Thank you, Mr. Chairman. I will pursue this a 
bit further.
    Senator Cochran. Thank you, Senator.
    Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    Governor, I call you Governor----
    Secretary Ridge. Good.
    Senator Gregg [continuing]. Because as a former Governor, 
we all recognize that is the most significant position.
    Secretary Ridge. I have a response, Governor.

                                AL QAEDA

    Senator Gregg. On 9/11 we were attacked, obviously. And the 
attack was generated by the Islamic fundamentalist movement, 
which is called al Qaeda, which has a lot of different forms 
that it has mutated into across the world. What is the number 
one threat today that your agency considers it must address in 
the area of an attack on our country? Where does it come from 
and what is it?
    Secretary Ridge. Are you talking, Senator, necessarily the 
individuals or the type of attack?
    Senator Gregg. First the individuals.
    Secretary Ridge. Clearly al Qaeda.

         SOURCE OF MOST SIGNIFICANT THREAT TO THE UNITED STATES

    Senator Gregg. Where do you--what do you see as the source 
of the most significant threat to our country? And what do you 
see as the potential target or type of threat which they 
represent?
    Secretary Ridge. Senator, we still look at al Qaeda as the 
major international terrorist organization that we need to 
combat and to deal with. But as--I think you used the right 
word in your question. There are a lot of mutations that have 
developed. I mean, al Qaeda can be seen as, one, a very close 
group of very disciplined leaders who have had tactical control 
over and operational control of the attacks on 9/11.
    But since that time, we have obviously disrupted their 
communications. We have decapitated a lot of their leadership. 
And one of the concerns that, I think, all of us have is that 
the individual cells, many of whom have been loosely connected 
to the al Qaeda structure now, because of the decapitation, 
because of the difficulty in communication, may have a tendency 
to operate on themselves, operate on their own rather than 
having a direct control from bin Laden and that small group of 
people associated with planning that attack.
    So again, it is al Qaeda, the organization. But over the 
period of time we have identified obviously the change in its 
structure and, therefore, probably the change in the kind of 
terrorist groups that are prepared to operate even 
independently.
    The same notion of Jihad, but not quite as directly 
connected to al Qaeda. And we know they train thousands in 
Afghanistan. The extremist schools have been pumping out 
students of hatred, who look at this country as evil and vile 
and have joined different forms of the Jihadist movement.
    Senator Gregg. It is still Islamic fundamentalism.
    Secretary Ridge. Correct.

              PRIMARY THREAT, TARGET, AND DELIVERY SYSTEMS

    Senator Gregg. And what do you see, the second question 
was, what do you see as the primary threat, target, delivery 
systems?
    Secretary Ridge. First of all, from an operational point of 
view, Senator, when it comes to research and development, we 
need to spend a great deal of time just looking at weapons of 
mass destruction, massive catastrophic effects, radiological, 
nuclear, biological, and chemical. The threat reporting stream 
that we pay attention to still on a regular basis identifies 
aviation, still talks about potential biological attacks. There 
continue to be, on a fairly consistent basis, generic 
references to just about every kind of attack imaginable under 
WMD weapons.
    And so while we have focused on aviation security that was 
the congressional focus, that is what TSA was initially focused 
on, we have also gone out now to start worrying about 
vulnerabilities that exist elsewhere that could be used as 
either a target or a mechanism to deliver any of those kinds of 
weapons.
    Senator Gregg. That being laid down as a premise--and I 
obviously think you are absolutely right, and you are the 
expert, and I think you are on track--which is the threat is 
fundamentalist Islam and the threat is the potential that they 
use a weapon of mass destruction or some mutation of that 
against us, what then becomes the priorities within your 
department as to how to respond to that?
    And should not counterintelligence be the number one event? 
Because, obviously, we cannot tolerate a weapon of mass 
destruction attack. And should not the capacity to deal with 
weapons of mass destruction be the number two? Or what is your 
prioritization of how you respond to those two items of threat, 
the people who would cause it and what it involves?
    Secretary Ridge. Well, clearly, our primary responsibility 
in dealing with the environment that you and I agree exists is 
to prevent, deter, respond, and prevent the terrorist attack. 
But the point of that spear is the military and the CIA and the 
FBI. We do have a role in preventing the attack in that when we 
get actionable information or information that is relevant to 
protecting a particular site in this country, we are obliged, 
and it is part of our mission, to take action to protect that 
site.

              REDUCING VULNERABILITY TO TERRORIST ATTACKS

    But basically, our primary mission is to help reduce our 
vulnerability to those kinds of attacks. That is the primary 
mission of the Information Analysis Unit, because we have been 
given the charge by Congress to take whatever information we 
get that we deem credible, map it against the potential 
vulnerability, and make sure that we do everything possible to 
harden that particular target or targets to reduce the risk of 
a potential attack.
    So I think we have set priorities in our Science and 
Technology Directorate. Some of the first grants have gone out 
to deal with the technology of detection and protection. And so 
as we take a look to combat a potential biological attack, we 
are expanding again, because the Congress has given us hundreds 
of millions of dollars to conduct this research. The technology 
of detecting a bioagent, be it in a community, in a subway, in 
a form of transportation, is something that is a very, very 
high priority. The technology of protection is equally as 
important to us, because in the event we ask our first 
responders to get out and assist those who have been impacted 
by a biological event, we want them to not only know the kind 
of environment they are going into, but be protected against 
the effects of that environment.
    So we have set priorities in the science and technology 
area. We have set process of setting priorities in the critical 
infrastructure piece. We cannot, Senator, possibly expect 
that--we have to set priorities when it comes to infrastructure 
protection.
    We have targeted, for example, in chemical facilities. We 
have already conducted, I think, nearly 20 site visits of the 
largest facilities that we believe, if they were a target of a 
terrorist attack, would have the most catastrophic 
consequences, particularly in the loss of human life and 
developing standards of security and prevention that we would 
think these companies need to apply at these specific places. 
We are going to develop those standards for energy and 
telecommunication sites and the like.
    So we have set priorities within each individual unit. 
Although generically, every day we worry about different forms 
of attack from a weapon or weapons of mass destruction.
    Senator Cochran. The time of the Senator has expired.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman.

    CUTS IN GRANTS TO STATES TO UPGRADE THEIR PUBLIC HEALTH SYSTEMS

    Mr. Secretary, I understand that grants to States to 
upgrade their public health systems are being cut by $105 
million in the fiscal year 2005 budget to provide funds for 
your biosurveillance initiative. Mr. Secretary, our State and 
local public health infrastructure has been allowed to 
deteriorate. These funds to upgrade our State and public health 
systems are necessary, not only to protect Americans from 
bioterrorism but also to protect Americans from natural 
outbreaks of disease, like SARS and West Nile Virus.
    In my own state, we have used these funds to increase the 
number of epidemiologists in the field and increase the number 
of scientists in our labs. With a cut in their State funding 
grant, they will have to make cuts in these important programs.
    Why has the administration chosen to cut funding for public 
health improvements when we still have a long way to go before 
our public health system is where it should be?
    Secretary Ridge. First of all, Senator, I cannot speak 
necessarily to the Health and Human Services budget. I am aware 
of a biosurveillance initiative that both Secretary Thompson 
and I are working on that is part of the President's budget 
that I believe is--while it may be viewed as simply an anti-
terrorism initiative, it is really a public health initiative. 
And that is the biosurveillance piece that Secretary Thompson 
and I announced about a week or 10 days ago, where, through a 
combination of funds from the Department of Homeland Security 
and from Health and Human Services totaling nearly $275 
million, that we will connect multiple sources of information 
from hospitals, pharmacies, veterinary clinics, and the like to 
determine to have a national surveillance system.
    And I think public health experts would agree that the most 
important thing we can do in terms of public health is to 
identify, as early as possible, whatever bioagents are plaguing 
a community or communities. Now that is whether it is a 
terrorist has conducted a biological attack or that mother 
nature threw something at us.
    So again, I think the $275 million that is part of the 
President's budget is a very, very significant improvement in 
the country's and the public health community's ability to 
detect and therefore respond more quickly and save more lives. 
So I think it is a very significant initiative. And I really 
cannot speak to other adjustments that may have been made in 
that budget, because I do not know.
    Senator Harkin. I was just concerned about the cut in the 
funds for the public health system. It seemed like that $105 
million cut was shifted to biosurveillance. I have no problem 
with it. I agree with everything you have just said. I was just 
concerned about the cuts.
    Secretary Ridge. Senator, I am sorry. I did not mean to 
interrupt.
    Senator Harkin. That is okay.
    Secretary Ridge. Congress was very generous, I believe, in 
2002, maybe it was the supplemental, where there was, I think, 
$2.2 billion sent out to the States and locals. And it is my 
understanding that some of that money is yet to be called down. 
It is still awaiting allocation to the States or the 
communities. So again, I cannot speak to that specifically, but 
that is my understanding.

                        AGRO-TERRORISM CONCERNS

    Senator Harkin. I will take a look at that. My last 
question had to deal with what I raised in my opening 
statement. And that was about agro-terrorism, as we have called 
it here. You know, again, we have seen what has happened with 
mad cow disease. But diseases do not have to jump to humans to 
cause widespread panic. A gallon of suspicious milk would cause 
every parent in America to demand answers from the government 
immediately. It is not just a Midwestern issue. We have 10,000 
hogs that are trucked out of North Carolina every day. And as 
we know, meat slaughtered in one place might wind up all over 
America within 24 hours from one point.
    So I guess my question is: In this budget, can you assure 
us that the needs of the rural areas and farm communities will 
continue to be met? And just briefly, are you satisfied that 
you are integrating this agriculture and the possibility of 
agro-terrorism possible threats in the future, that you are 
fully integrating this into your threat assessments?
    Secretary Ridge. Well, first of all, Senator, I will assure 
you that any information that we have with regard to agro-
terrorism where credible and corroborated, we communicate to 
the people that need to know. Secondly, I believe there is a 
rather substantial initiative in the budget for the Department 
of Agriculture that speaks to address some of the legitimate 
concerns that you have identified today.
    And thirdly, you should know that we are working on an 
interesting project that Homeland Security will fund in part 
with Iowa's governor and Homeland Security advisor, where you 
are pulling together a multiple State consortia to deal with 
the transfer of information and analysis, I guess using some of 
the labs. And I think his Homeland Security advisor has been or 
is scheduled to come in town so we could work the funding 
requirements out and collaborate our work in the Homeland 
Security with the Department of Agriculture.
    Senator Harkin. I was glad to hear you are working with the 
multi-state partnership for security and agriculture.
    Secretary Ridge. Right.
    Senator Cochran. The time of the Senator has expired.
    Senator Harkin. Thank you.
    Senator Cochran. Thank you, Senator.
    Senator Stevens.

         NEW DHS REGULATIONS SUPPLEMENTAL FUNDING REQUIREMENTS

    Senator Stevens. Thank you very much, Mr. Chairman. As I 
indicated, I would like to put a question concerning the 
national alert system and also, Mr. Secretary, or Governor, if 
you prefer, I have a copy of a letter that our Governor, former 
Senator Murkowski, wrote to you. And I would like to put it in 
the record and ask you if you have responded to that, if you 
would give me a copy of the response to his letter.
    I want to ask you a little bit more mundane question, 
though. Your bill, appropriations bill, was approved in the 
regular order. As Senator Byrd and I said, it went across the 
floor, went to conference, was signed by the President 
separately before the omnibus bill. How is your department 
doing? Are we looking forward to any kind of a supplemental 
request from your department before October 1?
    Secretary Ridge. No, sir.
    [The information follows:]

                     Letter From Frank H. Murkowski

                                   State of Alaska,
                                    Office of the Governor,
                                          Juneau, February 9, 2004.
Hon. Tom Ridge,
Secretary, U.S. Department of Homeland Security,
Washington, DC.
    Dear Mr. Secretary: Alaskans have great respect for the Department 
of Homeland Security's (DHS) mission to protect the Nation against 
further terrorist attacks, guard our borders and airports, and protect 
our critical infrastructure. At the same time, DHS is also charged with 
protecting the rights of American citizens and enhancing public 
services. These sometimes conflicting obligations seem to require that 
the DHS be ever mindful of the impacts new regulations will have on the 
U.S. economy. Providing for the Nation's security while maintaining 
economic stability within our country is indeed a challenge. I don't 
envy the task.
    Please let me relate my perception of how some recent DHS actions 
have impacted Alaska as well as the Nation's security. On August 2, 
2003, the Bureau of Customs and Border Protection (CBP) published in 
the Federal Register a notification suspending the Transit-without-Visa 
(TWOV)/International-to-International (ITI) program. This suspension 
requires all international passengers transiting Alaska to obtain a 
U.S. visa for a 2-hour technical fuel stop, even at a special, secure 
transit facility. The new visa requirement caused Cathay Pacific 
Airways to move all passenger operations from Ted Stevens Anchorage 
International Airport (Anchorage) to Vancouver, British Columbia, 
Canada to avoid that burden.
    On December 22, 2003, the DHS increased the threat level to 
``Orange'' status. The increase in threat level immediately suspended 
Progressive Clearance. The threat level was reduced to ``Yellow'' 
status on January 9, 2004; however, Progressive Clearance suspension 
remained in effect until February 6, 2004. Suspension of this program 
requires Korean Air to do full clearance at the first port of entry, 
even if the ``entry'' is merely a refueling stop for almost all 
passengers. The airline must download all of the bags, forcing the 
passengers who would otherwise never leave the secure transit facility, 
to instead leave that area and proceed to an unsecure area to claim 
their bags.
    Not only does the airline have to upload all the bags again, but 
all passengers, having been forced to leave the sterile CBP processing 
area, must be rescreened. This requires an extended ground time and 
doubles ground handling costs incurred in Anchorage.
    On December 5, 2003, the CBP published a Final Rule in the Federal 
Register to implement a new regulation requiring all carriers, foreign 
and domestic, to submit electronic manifests to CBP for all cargo 
destined for the Unites States. These new regulations will put an 
extreme hardship on the cargo carriers transiting Alaska between Asia 
and Europe, and places Alaska's key role in that transit at risk. 
Again, these carriers have to option to move operations to a foreign 
country to avoid new security regulations.
    These new regulations have already caused the loss of 14 weekly 
international passenger flights and could cause the loss of up to 54 
international cargo flights per week to the State of Alaska.
    The State Department and the DHS have stared their intention to 
reinstate the TWOV/ITI programs and operate as the ``Air Transit 
Program''. But to date, CBP has not advanced the program further.
    Anchorage is one of only six airports in the Nation that currently 
conform to Customs and Border Protection facility requirements. 
Anchorage has spent a great deal of money to reconfigure our 
international passenger terminal to ensure it meets the requirements to 
maintain the ITI and TWOV programs.
    The TWOV and ITI programs operate in Anchorage differently than any 
other airport in the Nation. Anchorage is a technical stop for Cathay 
Pacific between Hong Kong and Toronto, All passengers participating in 
the ITI and TWOV programs arrive and depart on the same carrier, same 
flight, and same aircraft from the same gate.
    The suspension of this program has been detrimental in two ways to 
the United States. The first and foremost was a reduction in overall 
border security; the United States lost the ability to scrutinize and 
crosscheck these passengers against all U.S. security databases.
    The second is the negative economic impact to the State of Alaska, 
as well as the city of Anchorage. The loss of these Cathay Pacific 
flights cost the State over $1.1 million each month. It has also caused 
many of the airport tenants to reduce staff that normally support these 
flights.
    In summary, Anchorage has a secure passenger transit facility that 
conforms to CBP technical requirements. We have securely processed 
these passengers for years into the terminal building and right back 
onto the same aircraft. We believe that the program increases U.S. 
security overall.
    In the Final Rule (RIN 1651-AA49) CBP's own analysis shows the new 
Advanced Cargo Information provision will cost air carriers substantial 
amounts of money to implement. CBP estimates the total annualized cost 
to air carriers could range from $345 million to $4.7 billion. These 
costs include not only implementation of new systems, procedures, and 
equipment but also the cost of delays and service degradation.
    All Asia-Europe flights currently transiting Alaska have the option 
of flying instead through Russia enroute to Europe. At this point, the 
routing through Alaska is more efficient and economical for the 
carriers. It may be less efficient and more costly than flying through 
Russia after implementation of these regulations.
    A single wide-body cargo tech stop is worth approximately $25,000 
to the local economy in airport fees, airport services, crew lodging, 
and fuel in Alaska. Each week Anchorage and Fairbanks have 54 
international in-transit flights. Flights re-routed through other 
airports would cost the State economy $1,350,000 each week and 
$70,200,000 each year.
    All of these new regulations are intended to increase the level of 
security; however, if the new regulations cause carriers to avoid 
entering the United States we lose on two fronts. One, the economic 
loss from the business going to another country, and secondly, and more 
importantly, we lose the opportunity to have a cursory review, under 
existing programs, of the passengers and cargo on these flights 
transiting Alaska. The unfortunate outcome of these flights rerouting 
to other countries is a reduction in the overall level of security.
    I request that you please review the overall impacts of all new 
regulations, but specifically these three regulatory programs. I ask 
that the DHS/CBP permanently reinstate the TWOV/ITI and Progressive 
Clearance programs for international passenger flights transiting 
Alaska and exempt international-to-international transit cargo 
freighter flights operating through Alaska from the cargo manifest 
requirements. Granting our request not only protects U.S. economic 
interests but also improves and enhances U.S. intelligence and total 
security.
            Sincerely yours,
                                        Frank H. Murkowski,
                                                          Governor.

    Senator Stevens. Thank you very much.
    Thank you very much, Mr. Senator.
    Senator Cochran. Senator Mikulski.

  CONSOLIDATION OF GRANT PROGRAMS INTO THE OFFICE FOR STATE AND LOCAL 
                     COORDINATION AND PREPAREDNESS

    Senator Mikulski. Thank you very much, Mr. Chairman.
    Mr. Secretary, as I indicated, I am disappointed in the 
funding for both fire grants and port and cargo security. But 
we will be arguing those within the committee. I would like to 
come back to some of the policy issues raised in your testimony 
and on your plans. This goes to the fact that one of the 
biggest changes in the Homeland Security budget that is 
proposed is the combining of 24 grant programs from TSA, FEMA, 
Office of Domestic Preparedness, into something call the Office 
for State and Local Coordination and Preparedness.
    Could you tell me, number one, what is the rationale? And 
how will this make it more efficient and effective? Because 
this is a whole new thing. And, of course, you are aware of the 
mayors' criticisms that money from Homeland is not getting down 
to them.
    Secretary Ridge. Senator, there are several parts to your 
question. I hope I can address all of them in my response. 
During the past year, consistent with the President's national 
strategy, but also consistent with many of the concerns that I 
have heard from your colleagues in Congress, there has really 
been publicly expressed a preference to be able to go to one 
place within the Department of Homeland Security to access all 
the grants for State and locals.
    And heretofore, it was scattered over three or four 
different units. And so the consolidation of the 24 grants 
within this new office gives us an opportunity, one, I think, 
to develop a much more effective delivery system and hopefully 
in time to make the awarding of the grants simpler. There will 
always be a question of how much. And that is always going to 
be debated on the Hill as to how much money should be put in 
the grant programs.
    But the Congress has said, and the President wants us, once 
the dollar determination is made, is get the dollars out as 
quickly as possible. We think it will certainly help with 
coordinating the planning and the implementation and clearly 
the assessment. Several Senators have commented today that we 
need to start looking at the effectiveness of the dollars we 
have sent out to the community.
    So what we will set up within this new department, there 
will be a single portal. There will be one website that folks 
can go to get the information they need. They will develop 
relationships, I think the personal-professional relationships 
with the people in this one unit. We will draw down on the 
expertise from TSA and FEMA to make sure that the grant 
programs are administered as effectively as possible.
    We told our friends in the fire community, even though the 
fire grant program is moving from FEMA to the new facility, it 
will still be peer review. The grants will still be made 
specifically to the firefighters. And they will not see 
effectively any change. And the debate will continue to be how 
much money they put in the program.

             IMPACT OF TRANSFER OF GRANT PROGRAMS FROM FEMA

    Senator Mikulski. Mr. Secretary, may I jump in here?
    So is FEMA moving to this office----
    Secretary Ridge. No.
    Senator Mikulski [continuing]. Or categories of FEMA, like 
the fire grant program and the emergency management performance 
grants?
    Secretary Ridge. Yes. Those grants will be moved to this 
new unit. But FEMA still operates under the Emergency and 
Preparedness Response Unit of the department. And FEMA 
continues to maintain authority over grants that relate to 
natural disasters, the administration of the natural disaster 
relief programs, the natural mitigation program. They are still 
responsible for flood mapping. So they retain some of their 
traditional responsibilities. But some of those programs that 
had to do with terrorism and preparedness for terrorist event 
move into this new unit within the department.
    Senator Mikulski. What about the criticism of the mayors?

                  DELIVERY OF STATE AND LOCAL DOLLARS

    Secretary Ridge. The mayors have voiced publicly and 
privately on many times their frustration with the delivery 
mechanism to get the dollars that you appropriated, that we 
requested, you appropriated to get it down to them. I would 
assure you, Senator, that we are prepared to deliver those 
dollars. The logjam that we need to break, if not blow up, has 
to do with the communications between the mayors and the 
governors and how they distribute those dollars. Because we 
have asked the governors to take the lead in developing a 
statewide strategy.
    Congress has said 20 percent can stay in the State capital. 
The other 80 percent has to flow through down to the mayors. 
Their frustration, I think, is legitimate. I think there are 
many reasons for it. We are going to take a look at some of the 
States where the money has been practically all distributed, 
where people are not complaining, to see if we can develop some 
best practices that we will go back to the governors with and 
get them to use them. And if we need to put it in terms of a 
regulation so that they distribute the dollars that way, we 
will.
    I plan on meeting with the governors privately, when they 
come into town in a couple weeks, to address that very 
legitimate frustration that some of the mayors have directly. 
We need to do everything we can to avoid just sending out 
grants to thousands and thousands of municipalities because we 
will never be able to build a statewide and then a national 
infrastructure. So the mayors are right. We have to do a better 
job of getting the money to them. We are prepared to distribute 
it, but we need to work with the mayors and the governors to 
come up with a better distribution mechanism.
    Senator Mikulski. Well, just two points, Mr. Secretary. 
First of all, I am glad that you are going to meet with the 
Governors. You are part of that unique organization. And I 
think you understand their needs. And what we saw with 
hurricane Isabel, for example, it was a statewide catastrophe. 
And we needed Governor Ehrlich's response and local response. 
So we need you to work with the Governor and figure out how to 
effectively coordinate.
    The second thing, in terms of this new one stop shop, I 
would really invite your staff to meet with mine so that we 
truly understand it. A lot of us have put a lot of effort into 
establishing these grant programs. And the idea of a one-stop 
shop seems very attractive. But we also want to know how that 
also enables this effective coordination. Because if we do not 
coordinate, this is not going to work.
    So thank you very much. And again, many thanks for all that 
you helped us with.
    Secretary Ridge. Thank you, Senator.
    Senator Cochran. Thank you, Senator.
    Senator Murray.
    Senator Murray. I would be happy to defer to Senator 
Domenici, if he would----
    Senator Cochran. Senator Domenici.
    Senator Domenici. Well, thank you very much. Am I on? Can 
you hear me?
    Senator Cochran. Yes, sir. Thank you, sir.
    Senator Domenici. First, Mr. Secretary, it is nice to be 
with you.
    Secretary Ridge. Thank you, sir,
    Senator Domenici. I do not get an opportunity to visit with 
you very often. I am very proud of what you have been doing. I 
am fully aware it has not been an easy thing.

 FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC) IN ARTESIA, NEW MEXICO

    The reason I am going to bring a very small issue to you is 
because I do not think continuing to communicate with the 
department brings results. No aspersions. But in our State of 
New Mexico, we have an institution called FLETC, the Federal 
Law Enforcement Training Center, Artesia, in New Mexico. FLETC-
Artesia is a pretty big place, which grew over a decade from a 
college center to a fully run and operated Federal law 
enforcement training center.
    Needless to say, that part of New Mexico is very proud of 
it, as we are. We are now training, expanding the training 
base. As you know, hundreds of new U.S. marshals are being 
required to be trained. FLETC is also the campus chosen to 
provide training for airline pilots who choose to carry 
firearms in the cockpit, and that is an election. FLETC 
provides this training to Federal flight deck officers. in 
addition to the basic advance training.
    Now feedback from these trainees who have been in Artesia 
is almost universally positive. The training site is pretty 
new, pretty good. The places to live in are pretty fine. It is 
a small town, nonetheless. Artesia is about 3 hours from any 
large city. Now when we started FLETC-Artesia, that was a big 
plus. Now it is beginning to be well known, maybe that's a good 
thing.
    But I will tell you what will make it a plus and keep it a 
very reasonable facility for training your people. It is the 
capacity to have flight service enhanced so that people can get 
there easier than just riding on a bus.
    You know that this entire committee and then the Congress 
went out on a limb. We said we will not earmark funding for the 
new department. Therefore, you got it all. You probably were 
glad to have it. Now after a year and a half, you are probably 
thinking that, maybe they should have given me some direction 
on a few of these; I would not be having so much trouble. In 
any event, we could have gotten earmarked funding for this 
FLETC, because we have invested a huge amount of tax dollars.

                   AIR SERVICE TO ARTESIA, NEW MEXICO

    FLETC put out a request seeking feedback from airlines who 
might provide service. My understanding is that there has been 
a response, and it was positive. The estimates are that it 
would take about $800,000 to provide the service for the rest 
of the year. This would make a rather fantastic facility 
available for the extra training beyond the few hundreds that 
we train for--as people who watch our borders and the like.
    I am not sure you know about it. But can I lay it before 
you today and assume you will know about it after this 
discussion. You can pass it on to somebody to look at it.
    Secretary Ridge. Senator, I am now nearly fully briefed. I 
know a lot more than I did when I walked into the hearing room. 
And one question I would like to just ask you is whether or 
not, from your perspective, that the facilities at Artesia are 
being fully used. In other words, if we enhanced the ability to 
get more people there for the training program, do the existing 
facilities have the present capacity to train more people?
    Senator Domenici. The answer is yes. What is happening is, 
that it is such a good facility, but for its distance, it is 
almost full all the time. We are constantly being harped upon 
by internal observers that we ought to take some of the people 
that are there and put them somewhere else so they would not 
have to travel.
    Secretary Ridge. Senator, since you raised it to my 
attention, it becomes my responsibility to look into it and get 
back to you. And I will.
    [The information follows:]
     Enhancing Flight Service/Transportation for Trainees to FLETC
    In the post September 11, 2001 period, there has been real, 
sustained growth in the use of all FLETC training centers, including 
the Artesia, NM center. Although the absence of regular and reliable 
service to the Artesia area has been an obstacle to wider use of that 
location in the past, recently we have increased utilization to almost 
capacity because the FLETC Glynco site is at maximum capacity and the 
agencies need to train within specific timeframes. FLETC is 
experimenting with conducting more basic training programs at Artesia 
in fiscal year 2004 and there has been increased use of the site for 
Flight Deck Officer training, among others, for specialized training. 
With this in mind, FLETC will track closely the issues and usage of the 
Artesia site and report back their findings in fiscal year 2005. Should 
the travel service continue to be a problem, the Department will 
consider looking at other possible solutions.

    Senator Domenici. I appreciate it.
    Now what about the time? Am I out?
    Senator Cochran. If Senator Murray has no objection, you 
can ask another question.

       CONSTRUCTION OF NISAC FACILITY AT KIRTLAND AIR FORCE BASE

    Senator Domenici. All right. Let me ask a question with 
reference to a project that is called NISAC, N-I-S-A-C. You may 
recall, when you first came into this job, you were still in 
some temporary office. We brought some people from Sandia and 
Los Alamos, and they showed you this computerization, 
computerized program, that gets put to use and continues to be 
upgraded.
    Anyone whom you would assign to run the office could locate 
every piece of infrastructure in the United States and then 
locate them vis-a-vis themselves and others. For example, if 
they were to take out a dam, what are the repercussions. A 
little machine shows you what happens. This big dam is broken 
down. It will tell you water will go as far as L.A. One of the 
bad things about it, we hope nobody else gets it. So far, it 
just belongs to you, to us.
    But it is terrific from the standpoint of, answering a 
hypothetical question with reference to what happens if 
something else happens, either in the electricity system or 
energy system, the water system. This facility is adjacent to 
Sandia National Labs. One of the items that transferred from 
the Department of Energy to the Department of Homeland Security 
with this act was an appropriation of $7.5 million for the 
construction of a NISAC facility at Kirtland Air Force Base to 
be used by your department for the purposes intended.
    So I am just going to inquire and put it in here in writing 
what happened, why the delay, and why is it not moving ahead? 
What is the status of the $7 million that we set aside? When 
can the committee expect Homeland Security to break ground on 
this NISAC facility, which the record, as I reflect it, would 
clearly indicate is your baby? You are going to use it. It is 
not going to sit there.
    Secretary Ridge. Senator, I remember their presentation. 
You know better than most the extraordinary work that the 
national labs have done for 60 years for this country, the 
variety of different ways. And you also know that our 
department is happily tied in with the national labs in several 
very meaningful ways.
    I cannot give you the specific answer to that question 
either, but it is incumbent upon me to do so. And I will.
    [The information follows:]
       Construction of NISAC Facility at Kirtland Air Force Base
    IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.

    Senator Domenici. Thank you very much.
    Secretary Ridge. Yes, sir.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Murray.

    EFFORT TO IMPROVE CARGO SECURITY THROUGH OPERATION SAFE COMMERCE

    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Secretary, as I mentioned in my earlier comments, the 
country's three largest cargo centers, load centers, have been 
working with the Department of Homeland Security and some of 
the private sector clients for the last 2 years in an effort to 
improve cargo security through Operation Safe Commerce. The 
ports of Seattle and Tacoma, the ports of Los Angeles, Long 
Beach, and New Jersey and New York have been really 
enthusiastic partners and are anxious to be meaningful 
contributors to the overall port security effort. And they are 
continuing to offer their facilities, their expertise, their 
goodwill, both domestically and abroad, to ensure our success.
    As you know, taxpayers have already committed to $75 
million for Operation Safe Commerce with the goal of really 
learning what works and what does not when it comes to securing 
containers. Unfortunately, because of the delay in funding 
Operation Safe Commerce, this pilot program is just now getting 
off the ground. But nonetheless, the load centers involved with 
this important program should have strong data about best 
practices, technology, and hardware this year.
    So I was really shocked when I saw the White House was 
eliminating this port security effort in their budget. And I 
wanted to tell you I think that is really shortsighted and 
really abandons the progress that our governments, our ports, 
our shippers in the private sector have been working really, 
really hard to achieve.

 STATUS OF OBLIGATION OF FUNDS APPROPRIATED FOR OPERATION SAFE COMMERCE

    So I wanted to ask you two questions this morning. First of 
all, only $58 million of the $75 million that Congress 
appropriated for Operation Safe Commerce has been obligated. 
Can you give us a time line for when the last $17 million that 
was appropriate is going to be obligated?
    Secretary Ridge. Senator, I cannot. I know that they draw 
down against the appropriation based upon their expansion of 
the pilot and whether or not sitting within the Department are 
invoices to be paid. I could not tell you, unless I go back and 
check. But I will certainly be pleased to do so.----
    Senator Murray. If you could have someone get back to us, 
because----
    Secretary Ridge [continuing]. It is clearly the intent of 
Congress with the appropriations over a 2-year period to have 
three very robust and very comprehensive pilots. I think that 
is also the reason that there is no funding in 2005. These are 
pilots. There are to be lessons learned. And again, $75 million 
for three pilot programs is a very, very substantial 
investment. We still need to see what lessons we learned and 
whether or not they are applicable to ports across the country.
    Senator Murray. Well, Mr. Secretary, I can tell you that if 
we do not continue to fund that in the next year, much of the 
progress that has been made, much that is just now being 
implemented, we will not be able to get the results back. And 
as you know, the point of Operation Safe Commerce was to find 
out what works out there and then be able to apply it to the 
other ports. If we do not find out what works, if we do not 
have the risk analysis back, if we do not have the results 
back, it will never get--the lessons learned will never be 
shared. And we will never have lessons learned.
    So I was really surprised that the administration is 
working to kill this program in the budget.
    Secretary Ridge. Well, I do think that if they need 
additional money on top of the $75 million, clearly a couple of 
those communities would have access to substantial additional 
dollars under the Urban Area Security Initiative that would be 
a follow-on.
    Senator Murray. If you are planning on funding it under 
that, that would put them against all first responders. I think 
port security, and I think you would agree with me, is such a 
high concern that we cannot start pitting these people against 
other really important issues. We need to fund this, fund it 
specifically, get the answers back.
    And again, this program, private sectors come together, 
ports have come together. Everyone is working very hard. They 
are just now beginning to learn what they need to do. And I 
think we should not shut them off.
    Secretary Ridge. Well, Senator, it will be incumbent upon 
me to get back and answer that first question to see where the 
additional $17 million are to be applied to the existing 
programs.
    [The information follows:]
Timeline for Obligating the Last $17 Million Appropriated for Operation 
                             Safe Commerce
    TSA anticipates that the Request for Applications for the $17 
million appropriated in fiscal year 2004 for Operation Safe Commerce 
(OSC) is on track to be released early this summer, with final award 
anticipated in the fall. This funding will be used to build on current 
OSC pilot projects, and may include other supply chains. The 
expenditure of the remaining funds will be fully coordinated within the 
Department and Congress to ensure that the cargo security efforts 
through OSC are integrated into broader departmental initiatives to 
secure the cargo supply chain security.

    Senator Murray. Well, would you agree that it would be wise 
to continue this program in the next fiscal year in order for 
us to learn what we can, to make sure that we are doing all we 
can to secure our ports?
    Secretary Ridge. Senator, it has been my impression that 
three pilots at $75 million, there ought to be some lessons 
learned with this infusion of very, very significant dollars.
    Senator Murray. Well----
    Secretary Ridge. And I guess the reason that the dollars 
were terminated is that we felt that you did have the 
collaboration. It is a great program. You do--one of the things 
that the Coast Guard has done historically very well, probably 
better than any other agency, is on a day-to-day basis they 
work with the private sector quite well. But you have three 
major ports, 2-year funding stream, $75 million. And the view 
is that is quite a bit of experimentation. There ought to be 
plenty of lessons learned after those $75 million are spent on 
pilot programs.
    Senator Murray. Well, because the funding was delayed, they 
are just at the point now of beginning to implement. The first 
container ship comes in in a few weeks to the Port of Tacoma 
that is--that they will begin to be able to analyze it. I know 
that the programs, the CSI and the C-TPAT are also out there.
    But I am positive you are aware of a recent GAO study that 
is called Preliminary Observations on Efforts to Target 
Security Inspections of Cargo Containers that those two 
programs do. It is very critical of the methodology that is 
incorporated in the customs and border protection initiatives. 
And I am happy to share that with you. It is extremely 
critical.

                CONTINUATION OF OPERATION SAFE COMMERCE

    But I think the point of Operation Safe Commerce is that we 
can learn from what they are doing to make sure that we are 
doing the reporting and analyzing, inspection, analyzing the 
risk levels. And if we do not continue this program, we are not 
going to have the information to do what is right in the 
future. We can be spending a lot of money in a lot of areas in 
ways that do not work.
    Secretary Ridge. Well, it is conceivable, Senator, and I do 
not offer this as the answer to the concern you have, but in 
the budget we are asking for more money for personnel to 
support our National Targeting Center. And I think there is a 
direct link between the lessons you learn dealing with the 
supply chain coming into ports and the National Targeting 
Center, which is at the heart.
    Senator Murray. Yes. I have been around long enough to know 
that if you do not name it, it does not get funded.
    Secretary Ridge. Well, I think when you have a new 
department and a department particularly that relies on the 
notion that we will never be able to inspect all 22 million 
containers that come into this country every year, and we have 
three major pilot programs out there, that there are lessons 
learned and that we ought to--if there is a possible 
connection, we ought to try to make it. I do not know if there 
is. It just seems to me, Senator, that after a couple years, 
there ought to be a couple lessons learned after $75 million 
has been spent.
    Senator Murray. Again, only $57 million has gone out. We 
still are waiting for the rest of it. And I think that we 
should not judge too soon on that. But I am happy to work with 
your office and supply information.
    Mr. Chairman, let me ask one more quick question under my 
time.

 FUNDING FOR IMPLEMENTATION OF THE MARITIME TRANSPORTATION SECURITY ACT

    The budget that was sent over includes $100 million for the 
implementation of the Maritime Transportation Security Act, 
MTSA. Admiral Collins testified before us last September that 
it would take $7.3 billion over 10 years to implement the MTSA, 
including $1.5 billion this year. I am very concerned that the 
President's request is 7 percent of what the commandant told us 
he needs to succeed. Do you share that concern?
    Secretary Ridge. Well, again, I do not have the 
understanding of the context with which the commandant shared 
that information with you. It is my understanding, however, 
that the sum that he was talking about included the additional 
security measures that would need to be employed at ports and 
vessels. That is not a sum that was necessary for the Coast 
Guard to conduct the studies at ports of interest or the safety 
security studies on vessels.
    So I think there is sufficient money in here for the Coast 
Guard to do its work. The gap is a place where we need to have 
a public debate as to whether or not it is the taxpayer's 
responsibility to fund, continue to fund port security or 
whether or not, since these basically are intermodal facilities 
where the private sector moves goods in and out for a profit, 
that they would be responsible for picking up most of the 
difference.
    So I think the dollars that we received this year empowers 
the Coast Guard and gives them the manpower to do port 
assessments and to look at 10,000 vessels and to do the 
security analysis. I think the gap is----
    Senator Murray. Are you suggesting that it is----
    Secretary Ridge [continuing]. The dollars for security.
    Senator Murray. So if I heard you correctly, you are saying 
that the private industry must now come up with this $7 billion 
over the next 10 years to implement the security for our 
Nation?

                 PRIVATE SECTOR SHARE OF PORT SECURITY

    Secretary Ridge. Well, we have an $11 trillion economy. 
Much of it is driven through imports and exports. Major 
companies use our ports. I can only refer back to the Federal 
investment, the State investment, and local investment in the 
ports of Philadelphia and Newark. There is plenty of public 
money in these ports already. They provide the land. They buy 
the cranes. They in many instances employ the personnel. So the 
notion that there is not much of a public investment in the 
courts, I do not think is, based on my experience in 
Pennsylvania, it is not accurate.
    At some point in time in the distribution chain--and my 
view is that ports are part of the supply chain and the 
distribution chain of the private sector----
    Senator Murray. Well, Mr. Secretary----
    Secretary Ridge [continuing]. That they ought to be able to 
defray some of the expenses associated with it.
    Senator Cochran. The time of the Senator has expired.
    Senator Murray. Mr. Secretary, just let me comment very 
quickly. I am listening to your logic, but I would just 
respectfully say that if one terminal or port in this country 
said, we are not going to ante up the money, we do not have it, 
and a terrorist used that weak link to come into this country, 
all of us would be paying for the consequences of that.
    Secretary Ridge. Well, Senator, this will be debated, 
obviously, in this subcommittee and on the floor of both 
chambers, and I am sure Congress has been generous. I think 
there is over a half a billion dollars out in port grants. I 
think this year the budget allows for nearly $50 million in 
port grants. I think it is going to be very important at some 
time in the near future that we engage the very appropriate 
public debate as to how much additional taxpayer financing 
should go into a piece of infrastructure that basically 
supports the private sector.
    They have a commercial and business interest in securing 
their supply chain. And I think, again, we will continue to 
provide, there is no doubt in my mind we will continue to 
provide some Federal resources, no doubt in my mind that States 
and local communities are going to continue to support their 
port authorities and their ports. But I also think we need to 
elevate the discussion so we determine what the role of the 
private sector is to help secure that infrastructure for 
themselves.
    Senator Murray. I look forward to that debate. Thank you.
    Secretary Ridge. Thank you.
    Senator Cochran. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Mr. Secretary, on Friday I landed at Tom Ridge Airport in 
Erie. And I want to report to you that it is a great airport.
    Secretary Ridge. Thank you, Senator.

 WAY TO RECONFIGURE THE CALCULATION FOR HIGH-RISK AREAS TO INCLUDE THE 
                TOM RIDGE AIRPORT AND ERIE, PENNSYLVANIA

    Senator Specter. I then went to a meeting of first 
responders and heard the concern that among the 50 high-risk 
areas, Erie is not included, largely because of the population 
factor. But they have a port, and they have access to a border 
with Canada. And my question to you is: Is there some way to 
reconfigure that calculation to include the Tom Ridge Airport 
and Erie?
    Secretary Ridge. Senator, the funding streams that Congress 
has generally supported the past 2 years through the Office of 
Domestic Preparedness had one portion that went to the States 
that was driven strictly by population, another portion that 
went to urban areas, where the Congress gave the department the 
flexibility to look at population density, critical 
infrastructure, the threat level, and make the appropriation.
    One of the adjustments, based on our thinking in terms of 
how we can better direct those dollars is to look at that one 
pool of money that historically goes to the States by formula, 
notwithstanding that every State, large or small, should get a 
certain level of funding, but to see, based on a broader 
statewide analysis of critical infrastructure, that those 
States should get actually more money depending if the critical 
infrastructure is in there.
    Senator Specter. Mr. Secretary, I am hesitant to interrupt 
you, but there is very limited time and I want to ask you three 
more questions.
    Secretary Ridge. Yes.
    Senator Specter. I would like you to take a look to see, if 
you might, we can figure the high-risk areas to include Erie. 
When you talk about the general fund, the minimum for each 
State is three-quarters of 1 percent, which means that 40 
percent of the funding, general fund and first responders, is 
taken off on the small States. And that has a very 
disproportionate share. For example, in Pennsylvania per capita 
we receive $5.83, and Wyoming receives $38.31. And that is the 
fund where we have to look to a city like Erie, community like 
Erie.
    Last August, I visited some 33 counties on first responders 
and designated one of my top deputes to review our State. What 
can you say about providing a little more equity for the 
general fund, especially when Erie is not a high-risk area and 
has to limit its intake from the general fund?
    Secretary Ridge. Well, Senator, I think our strategic 
decision to deal with that issue, not community-specific but to 
deal with the notion that every State should still get some 
minimum funding, but not all of that money in that program 
should be allocated strictly on population. Now that our agency 
has matured and now that we have strategic plans from the 
individual States every governor has submitted a strategic plan 
based on their needs, we have asked for the flexibility to 
distribute those dollars differently than just on a strict 
funding formula.

    FLEXIBILITY IN AUTHORITY TO DISTRIBUTE FUNDS TO HIGH-RISK AREAS

    Whether or not Congress gives us that flexibility to do so, 
so that States like Pennsylvania would have more resources to 
support communities such as Erie, or I would say Senator Levin 
would tell you support communities like Port Huron, which is a 
small community of 30,000 people, that has chemical farms, 
energy infrastructure, and all kinds of basically critical 
infrastructure, and they get nothing either.
    So that is our response to the need to address some of the 
needs of smaller communities.
    Senator Specter. The issue of your authority, Mr. 
Secretary, has been a discussion which you and I have had on 
many occasions. And as more information is coming to light 
about September 11, there are more indicators, more evidence, 
that if all of the information had been collected in one spot, 
9/11 might well have been prevented.
    And I know that there has been a change with the FBI and 
the CIA and other intelligence agencies to try to have better 
coordination. And this is a very involved matter. But I would 
appreciate it if your department, if you would give us an 
answer in writing, because we do not have time to go into it 
now, as to your evaluation as to how it is working.
    As I am sure you will remember, when we passed the bill in 
October of 2002 and the House of Representatives had left and 
it was take it or leave it in the Senate and I wanted to offer 
an amendment to give you the authority, as Secretary, to direct 
and have the critical authority, the issue went all the way to 
the President. And it was either get the bill in its form 
without having that authority and you or having it deferred 
until the spring. But I would like your evaluation as to how 
that is working.

                   HOW THREAT DETERMINATIONS ARE MADE

    And the final question I have within my 5 minutes, Mr. 
Chairman, is: What can you tell us within the bounds of 
security as to how you make the risk assessment on the 
different gradations? There is obviously enormous concern about 
whether, when, where there will be another 9/11. It has sort of 
recessed from our minds as time passes. But I know it is very 
much on your mind and very much on the President's mind. And 
you took some extra precautions recently over the holiday 
season. And you had made a comment that you thought that the 
precautions you took may well have averted another 9/11. And I 
think the expression you used was that you had a gut reaction 
to come to that sense or that conclusion.
    Secretary Ridge. Right.
    Senator Specter. I would be interested to know, and I think 
everybody would be interested to know, how you make the threat 
assessments, where you think we are generally at risk today, 
and, to the extent you can specify, how you think the 
precautions which you took may have prevented another 9/11.
    Secretary Ridge. Senator, I will try to be brief, but it 
does call for a fairly lengthy----
    Senator Specter. Oh, take your time. My time is over. Take 
your time.
    Secretary Ridge. Thank you, Senator. First of all, every 
single day, at least three times a day, there is formal 
interaction between the intelligence community, and that 
includes the Department of Homeland Security. Every morning the 
Attorney General, the FBI Director, the CIA Director, the 
Deputy, the Secretary of Homeland Security, and others meet 
with the President, Vice President, to go over the threat 
information from the previous day.
    Twice a day, later on that morning and in the afternoon, by 
secure video, the intelligence community examines the threats 
of that particular day, but obviously looks back at the 
reporting stream for previous days to see whether or not there 
was additional corroboration, whether or not they render any 
judgments with regard to the credibility, but over a period of 
time, Senator, through that process and that constant 
interaction at the Terrorist Integration Center, the 
interaction of the professional analysts, the CIA, even on ad 
hoc basis.

                    PROCESS FOR RAISING THREAT LEVEL

    At some point in time prior to about a week or so prior to 
when we raised the threat level in December--I say a week. I do 
not recall specifically. But at some point in time, the volume 
of the reporting, the nature of the reporting, assessments 
based on the credibility of the reporting were such that we 
began to look at the possibility of raising the national threat 
level. That process over a 24-, 36-hour period then led to the 
meeting of the President's Homeland Security Council. And that 
is Secretary of State and the Secretary of Defense and the 
Attorney General, the FBI Director, the Secretary of 
Transportation, yours truly.
    It is then discussed among these principals. And based upon 
that discussion, we made the decision to recommend to the 
President for the foreseeable future we raised the threat 
level. That, in very short fashion, is the process that we 
engage in to raise in.
    I note it is a process we have engaged in the past where we 
didn't raise it. And it had been 6 months since we took the 
national threat level up.
    Finally, Senator, I would say to you and your colleagues on 
the committee and, for that matter, the entire country, as we 
do, as this department works with the private sector to harden 
certain chemical facilities and energy facilities and the like, 
as we continue to do a better job of informing State and local 
law enforcement, as we continue to do our job, I believe we 
will raise the threshold even higher to go to the next threat 
level. Because initially, the national warning system was based 
simply on what we heard and perceived to be the threat. But 
there is also a risk analysis that we can now, because of the 
Department, have to plug into that equation.
    That may be the threat, but what is the risk based on, the 
precautionary or preventive or security measures that have been 
in place? You could have the same threat with no security, and 
you might want to raise it. You could have the same threat 
level but with more security and say, we are comfortable 
enough, given the present circumstances, perhaps to target 
information privately to a particular place, a particular site, 
but not take the entire country up.
    That would be the goal, because we are quite aware of the 
fact that raising the level nationally is a blunt instrument. 
Normally it requires a labor intensive response. But as we 
build permanent security measures across-the-board at the State 
and local level and in the private sector, it should be more 
difficult to take it up, because we will have reduced the risk 
by adding additional security measures.
    Senator Specter. Thank you.
    Senator Cochran. Your time has expired, Senator. Thank you.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. And I will put my 
post-statement in the record.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    Mr. Secretary, I want to thank you for coming to testify before us 
today.
    We are entering the second year of this subcommittee and in that 
time there have been many changes to your department and there are new 
challenges facing the country. I appreciate your appearance here to 
discuss the Administration's priorities in the new fiscal year.
    For the past year, you have supervised many constituents of mine 
who are former employees of the Immigration and Naturalization Service 
and who now work for the Bureaus of Customs and Border Protection, 
Immigration and Customs Enforcement, and Citizenship and Immigration 
Services.
    A year ago, I praised them to you and told you they would exceed 
your expectations--I trust that they have done so.
    At the same time, you and others at the Department told me that you 
would make full use of these excellent employees, and that the Vermont 
workforce would not decline as part of the reorganization. You have 
kept that pledge, and I look forward to continuing to work with you to 
ensure that these employees contribute to protecting and enhancing our 
Nation.
    I would like to turn however to President Bush's proposed homeland 
security budget for fiscal year 2005 that was sent up here by the 
Administration and share with you a few of my concerns.
    I was extremely disappointed that the budget drops the all-state 
minimum formula, which I authored, from the State Homeland Security 
Grant Program administered by the Office for Domestic Preparedness 
(ODP). This formula assures that each state's first responders receive 
a minimum of .75 percent of those grants to help support their basic 
preparedness needs.
    Not only would this change result in the loss of tens of millions 
in homeland security funding for the fire, police and rescue 
departments in Vermont and other small- and medium-sized states, but 
also deal a crippling blow to their efforts to build and sustain their 
terrorism preparedness.
    Mr. Secretary, you and I have spoken many times in public and 
private on how to fairly allocate domestic terrorism preparedness funds 
to our states and local communities. We both agree that each State has 
basic terrorism preparedness needs and, therefore, a minimum amount of 
domestic terrorism preparedness funds is appropriate for each state. We 
both agree that highly populated, highly threatened and highly 
vulnerable areas have terrorism preparedness needs beyond those basic 
needs for each state. Most importantly, though, we both agree that 
homeland security is a national responsibility shared by all states, 
regardless of size.
    On January 28, I spoke with Sue Mencer, the Executive Director of 
the new Office of State and Local Government Coordination and 
Preparedness (SLGCP), about the merging of organizational units within 
the Homeland Security Department. During our exchange I mentioned the 
importance of the all-state minimum requirement and Ms. Mencer assured 
me that the fiscal year 2005 DHS budget proposal would include the .75 
percent all-state minimum.
    You can imagine my surprise, then, when I read in the President's 
budget proposal that the grants to States for addressing State and 
local homeland security requirements and Citizen Corps activities and 
law enforcement terrorism prevention grants would be allocated among 
the states based on population concentrations, critical 
infrastructures, and other significant terrorism risk factors. Not only 
was I troubled to see that grants to States for addressing State and 
local homeland security requirements and Citizen Corps activities and 
law enforcement terrorism prevention grants had been cut by nearly $1 
billion, but without the all-state minimum protection for smaller 
states, there is no assurance of funding under these programs.
    I wrote the all-state minimum formula to guarantee that each State 
receives at least .75 percent of the national allotment to help meet 
their national domestic security needs. I strongly believe that every 
state--rural or urban, small or large--has basic domestic security 
needs and deserves to receive Federal funds to meet those needs.
    After the terrorist attacks of September 11, 2001, we have worked 
together to meet the needs of all State and local first responders from 
both rural and urban areas. Now, however, it appears that the President 
wants to shortchange rural states, rolling back the hard-won progress 
we have begun to make in homeland security. Our fire, police and rescue 
teams in each State in the Nation deserve support in achieving the new 
homeland security responsibilities the Federal Government demands.
    I ask that you support a budget supplement amendment to restore the 
.75 percent minimum to the State Formula Grants Program. I look forward 
to speaking and working further with you and my colleagues on this 
matter.
    Representatives of urban states have argued that Federal money to 
fight terrorism is being sent to areas that do not need it and is 
``wasted'' in small towns. They have called the formula highly 
politicized and insisted on the redirection of funds to urban areas 
that they believe face heightened threat of terrorist attacks.
    What critics of the all-state minimum seem to forget, though, is 
that since the September 11 terrorist attacks, the American people have 
asked ALL State and local first responders to defend us as never before 
on the front lines in the war against terrorism. Vermont's emergency 
responders have the same responsibilities as those in any other State 
to provide enhanced protection, preparedness and response against 
terrorists. We must ensure that adequate support and resources are 
provided for our police, fire and EMS services in every State if we 
expect them to continue protecting us from terrorists or responding to 
terrorist attacks, as well as carry out their routine responsibilities.
    Most of the cuts to the formula-based and law enforcement 
prevention grants were made to increase to $1.4 billion the 
discretionary grants for use in 50 specific high-threat, high-density 
urban areas. While I recognize that enhancing the security of those 
urban areas represents a critical national priority, I cannot support 
both a drastic reduction in the formula-based and law enforcement 
prevention grants and a barring of small states' access to even a 
portion of the more than $2.7 billion that the formula-based and law 
enforcement prevention grants and Urban Area Security Initiative grants 
would total.
    Fostering divisions between states ignores the real problem: the 
President has failed to make first responders a high enough priority. 
We should be looking to increase the funds to our Nation's first 
responders. Instead, we see the President proposing to cut overall 
funding for our Nation's first responders by $800 million. These cuts 
will affect each state, regardless of size or population.
    The Hart-Rudman report on domestic preparedness argued that the 
United States will fall approximately $98.4 billion short of meeting 
critical emergency responder needs over the next 5 years if current 
funding levels are maintained. Clearly, the domestic preparedness funds 
available are still not enough to protect from, prepare for and respond 
to future domestic terrorist attacks anywhere on American soil.

    Senator Leahy. Governor Ridge, it is always good to have 
you back here.
    Secretary Ridge. Senator, thank you.
    Senator Leahy. I have not flown into the Tom Ridge Airport, 
but----
    Secretary Ridge. You do not have that many flight options, 
Senator. But----
    Senator Leahy. Should you come to Burlington, Vermont, feel 
free to stop by the Leahy Center.

  PROPOSAL TO DROP THE ALL-STATE MINIMUM FORMULA FOR ALLOCATING STATE 
                     HOMELAND SECURITY GRANT FUNDS

    Governor, I have to state that I really was disappointed 
that the President's proposed budget for fiscal year 2005 drops 
the all-state minimum formula. I authored that. They dropped it 
from the State homeland security grant. And you probably do not 
need reminding, but this says that each State will receive a 
minimum three-quarters of 1 percent of those grants to help 
support the first responders basic preparedness.
    I thought I would bring this up because with the makeup of 
this subcommittee, that would affect all but, I think, one or 
two on this subcommittee. So it may be more than a passing 
interest. But more than that, it would result in the loss of 
millions of dollars in homeland security funding for fire, 
police, rescue departments in small and medium-sized States. I 
think it would create a crippling blow for their efforts to 
build and sustain their terrorism preparedness.
    And these small States, each have a particular need that 
may be different. Some are like my State. They are a border 
State. Others have major ports in them, may have natural--or 
may have energy facilities important not just to their State 
but to the rest of the country. And you and I have spoken about 
how to fairly allocate domestic terrorism preparedness, funds 
to our States and local communities. You have been very 
forthcoming on that, as have your staff.
    I thought we had agreed that fire, police, emergency 
medical rescue teams in each State deserve support in carrying 
out the new homeland security responsibilities that the Federal 
Government demands of it. So I was surprised, knowing that on 
the one hand these States are being required to carry out these 
demands. You read that in the budget there will be allocated 
among the States based on population concentrations, critical 
infrastructures, and other significant terrorism risk factors, 
as determined by you.

                         IMPACT ON RURAL STATES

    I believe it means the administration wants to shortchange 
rural States, wants to roll back the hard-won progress we have 
begun to make in homeland security by slashing the protections 
in the all-state minimum. Now I am strongly committed to the 
critical national priority of enhancing urban areas. I have 
supported legislation, especially some of the particularly 
targeted urban areas where we are today in New York City and 
elsewhere.
    But I cannot go and tell rural areas that, sorry, you are 
not big enough to have to worry, even though, if I was planning 
a terrorism attack, I would know that, for example, attacking 
the Tom Ridge Airport is going to get as much international 
coverage as attacking JFK or LAX, because it is a United States 
airport within our boundaries.
    So would you agree that homeland security is a national 
responsibility shared by all 50 of the States regardless of 
their size?
    Secretary Ridge. Senator, yes. I think one of the 
challenges for the Department of Homeland Security is to 
integrate the capacity we have within our States and local 
communities, match it up with the Federal effort to combat 
terrorism. So there is a shared fiscal responsibility. There is 
a shared operational responsibility. It is a national plan, not 
just a Federal one.
    Senator Leahy. But then in these States they have to do a 
certain amount of minimum--I do not know whether it was the 
State of Idaho or West Virginia, Vermont. There is only one 
State smaller than Vermont in population, Wyoming. But whatever 
the State is, they have to do a certain amount of minimum 
preparation, communications. Whether it is in a State of half a 
million or four million, they have to do certain basic things. 
You have to have basic ideas for planning, for response 
equipment, fire, police, and so forth.

 SUPPORT OF FUNDING TO RESTORE THE THREE-QUARTERS OF 1 PERCENT MINIMUM 
                  TO THE STATE FORMULA GRANTS PROGRAM

    So if you accept the fact that there are certain minimum 
things that have to be done wherever we are, would you support 
a budget supplement amendment to restore the three-quarters of 
1 percent minimum to the State formula grants program, which 
include the State homeland security grant program, the Citizen 
Corps, and the law enforcement terrorism prevention grants 
program?
    Secretary Ridge. Senator, I would much prefer the approach 
as embodied in the President's budget, that as we take a look 
at the dollars that have historically been allocated to States 
Strictly on a formula, that the Secretary be given the 
flexibility, understanding that he has just testified now and 
believes that there ought to be some minimum that goes to every 
State and territory.
    Senator Leahy. What is that minimum?
    Secretary Ridge. We would certainly have to sit down and--
--
    Senator Leahy. I mean, it is .75 now. Is that too much? Too 
little?
    Secretary Ridge. Senator, frankly, I would like to take a 
look at all of the statewide plans that the Governors have 
submitted to us and make that determination. And we certainly 
cannot deal with this privately. I will have to be engaged with 
you and your colleagues here, because I am mindful that there 
are basic infrastructure needs in all 50 States and 
territories. But the language that we have submitted in this 
document would give the Department some flexibility based on 
needs, not just on population.
    Senator Leahy. I understand. But on that flexibility, you 
have to understand that a lot of smaller States and rural areas 
are concerned because, one, it shows there is no guarantee that 
they will get anything. And secondly, when the President had 
proposed an $805 million cut in funds for the Office of 
Domestic Preparedness, those are programs that directly benefit 
the police, fire and medical rescue units, you put that 
together with the fact of this safety net for smaller States is 
gone, at the same time of an 18.4 percent cut in funds for the 
Office of Domestic Preparedness, $805 million is there.
    You have the Hart-Rudman Terrorism Task Force report saying 
that we are going to almost $100 billion short of meeting 
critical emergency responder needs through this decade's end, 
if these current fundings are going on. You know, if I am a 
Governor--and you have been a Governor; I have not--if I am a 
Governor, I am going to be asking how is my State first 
responders going to be able to fulfill the mandates coming from 
Washington when the President is proposing to decrease, not 
expand, but decrease the money, expand the amount that is 
required.
    I mean, every time we go up to orange alert or whatever, 
the requirements go up. Every time there is even a regional 
threat, the requirements go up.
    What is being asked of these State and local groups goes up 
all the time, but the money is going down. And even the 
guarantee of what money was there within the budget is now 
gone. If you were a Governor of one those States, you would be 
kind of worried.
    Secretary Ridge. Senator, first of all, I would say to you 
that the President's commitment in the 2005 budget to first 
responders' dollar amount in terms of the budget proposal is as 
strong as it was in 2004. The difference that we are talking 
about are the additional funds that Congress added to the 
President's request. So I think we need to understand that the 
President----
    Senator Leahy. Well, not really, if I might.
    Secretary Ridge. Well----

                        FIRST RESPONDER FUNDING

    Senator Leahy. This fiscal year, Congress appropriated $4.2 
billion for first responders and homeland security needs. We 
are a lot more alert since then, but the administration has 
proposed a $3.5 billion package for fiscal year 2005 that cuts 
the Fire Act and grants programs to State and local areas. And 
you have put that along with the President's opposition to 
using Federal dollars to hire fire and rescue, even though we 
know what that was like on September 11 at the World Trade 
towers or over here at the Pentagon.
    No, I do not say that you could say the commitment is still 
there. The cuts are there; the commitment is not.
    Secretary Ridge. Senator, we arrive at differing 
conclusions based on the same figures. Maybe that is the 
trouble with the new math.
    Senator Leahy. Oh, the figures are less.
    Secretary Ridge. If I recall correctly, and I will stand 
corrected, Senator, but by and large, if you take a look at the 
request in 2004 for the fire grants and admittedly, we have 
shifted some money from one pool, the State direct funding 
grant, to the urban area security initiative, but by and large 
the President's request is close to what it was in 2004. The 
Congress added additional money. And I think that is what you 
are referring to as a cut. But the President's commitment, in 
terms of his budget request, is nearly the same as it was in 
2004.
    Senator Cochran. The time of the Senator has expired.
    Senator Leahy. Thank you. I will submit further questions, 
if I might, for the record. And I applaud you for holding this 
hearing. I think it is going to be a subject of more than a 
little discussion in this committee.
    Senator Cochran. Thank you, Senator.
    Secretary Ridge. Yes, it is.
    Senator Cochran. Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.

                    CANCELLED INTERNATIONAL FLIGHTS

    Secretary Ridge, I would like to return to the question of 
those canceled flights----
    Secretary Ridge. Yes, sir.
    Senator Kohl [continuing]. Of which I believe there were 13 
from France, Britain, and Mexico. In one case, British Airways 
flight 223, as you know, was canceled four times. Evidently, 
this was done because of specific information that our 
intelligence community obtained about potential threats on 
board these flights.
    Common sense would suggest that when we have detailed 
information about a particular flight, then heightened 
screening measures could ensure that no dangerous instruments 
be taken on board these flights which might allow individuals 
to hijack. Was cancellation the only option?
    Secretary Ridge. As we discussed the threat with the 
airlines, and it was an ongoing discussion through that entire 
period, it turned out from everyone's point of view to be the 
best option.
    Senator Kohl. Does this imply that screening procedures in 
other countries are inadequate?
    Secretary Ridge. Well, since that time, and even prior to 
that time, Great Britain and to that extent France have 
significantly, I do not want to say improved, because they had 
a high level of screening to start with. But it is far more 
intense than it has ever been.
    But there was some concern in the public discussion, about 
our preference to use air marshals. And that those kinds of 
requests need to be vetted. We use thousands of them. Other 
countries do not provide that kind of security in such a robust 
or comprehensive fashion that we do.
    So again, as we explored options to deal with the threat, 
it was decided by the airlines, they thought their best option 
was to cancel the flights. And we agreed with them.
    Senator Kohl. Well, what kind of security can be 
instituted, for example, to protect against biological or 
chemical kinds of threats on an aircraft?
    Secretary Ridge. Well, you highlight from my perspective, 
Senator, probably one of the most effective. And that is far 
more rigorous and intense screening. And I think under the 
circumstances that was certainly an option that they were 
prepared to consider.
    I think in time, as we develop the technology of detection 
and put it aboard different modes of transportation, that will 
ultimately advise us that an attack has occurred, but will 
obviously not have given us the capacity to prevent the attack. 
And I think probably the most important focus that we should 
have with regard to aviation security, mindful of the need to 
identify weapons, but we should be more focused on the 
individuals who might be carrying the weapons. I mean, that is 
at the heart of the CAPS II Program that we want to use for 
domestic aviation purposes.

                        TECHNOLOGY OF DETECTION

    So additional screening, yes, I believe the international 
standards, particularly among our allies in Europe. And they 
have really ramped up their screening, but not everybody has 
done that internationally. One of the first series of grants we 
sent out through the department was to identify the technology 
of detection that would enable us to--we would be advised that 
an incident had occurred. And we would obviously have to 
respond to it as quickly as possible. But it is still not to a 
point where we can put it in any form of transportation.
    And until such time, the most important thing for us to do, 
while we continue to focus on weapons, continue to have people 
go through metal detectors, continue to search through the 
contents of the carry-on luggage, continue to screen the 
luggage that goes in the hold, the most important focus should 
be the individuals and the likelihood that they would be a 
terrorist.

                    SCREENING FOR BIOLOGICAL WEAPONS

    Senator Kohl. You must know the answer to this question. Do 
we have the capacity to screen for biological weapons?
    Secretary Ridge. We do not have the technology yet 
available to do that. We are looking for it. Right now----
    Senator Kohl. So that--not necessarily in the case of those 
canceled flights, but generally speaking, when it comes to 
biological weapons, it then becomes a determination as to 
whether or not the individual----
    Secretary Ridge. Correct.
    Senator Kohl [continuing]. Is somebody that might be 
suspected or capable of taking a biological weapon on a plane. 
And that might cause a cancellation----
    Secretary Ridge. Correct.
    Senator Kohl [continuing]. Not the screening, because we do 
not have that capacity right now.
    Secretary Ridge. Correct. It is a high priority for the 
Department in terms of its research and development. But right 
now, we have to rely on individual screeners. And we have 
certainly, since the Department has been created, discovered 
from interrogation of detainees, training manuals, and other 
sources, means of, potential means of, delivery of those kinds 
of weapons or ingredients. The screeners are aware of them. But 
it still comes down to the capacity of the screener to, again, 
funnel that information, take a look at what is being carried 
on or what is located in the suitcase and make a determination 
that it needs to be pulled out and examined. And we do not have 
the technology to assist the screener yet.
    Senator Kohl. Okay. Do I have time for one more question?
    Senator Cochran. The Senator does have time for one more 
question, yes.
    Senator Kohl. Thank you.

                          FRAUDULENT DOCUMENTS

    Secretary Ridge, initially we were told that all September 
11 hijackers entered the country legally, many of them on 
student visas, then disappeared into the shadows of our society 
to avoid detection. But now the independent commission is 
telling us that many of the hijackers could have, or probably 
should have, been stopped at the border prior to entering.
    It turns out that a number of the hijackers had fraudulent 
visas or lied on their applications. Apparently, immigration 
inspectors, whether it was because of insufficient resources or 
training, lacked the ability to catch these terrorists before 
they entered the country. Recognizing that there is a problem 
here, what is being done to train our INS inspectors to enable 
them to spot fraudulent and deficient visas in order to stop 
potential terrorists at the border?
    Secretary Ridge. Senator, you raise a very significant 
problem in the international community generally. That is one 
of fraudulent documents, whether they are using them to verify 
their existence here in the United States with fraudulent 
social security cards or driver's licenses or whether they are 
using them to come across our borders with visas and passports.
    Number one, there is, I think, very significant training 
that has been required and provided to the men and women at our 
ports of entry. Number two, the Congress has told us that we 
need an entry-exit system so we can mark the arrival, as well 
as the departure of people coming into the country. That is 
part of the US VISIT protocol, where, by using facial 
identification and fingerprint scans, we have already reviewed 
about a million people coming into the country, and we have 
sent over 100 people back. We did not allow them to enter 
because of information we had on the database; not necessarily 
because they were terrorists, but because there were other--
basically, it was a criminal reference.
    That same kind of identification protocol will be employed 
in consular offices by the end of this year, the photographs 
and the fingerprint scans, so at least we can make sure that 
the folks that receive the passport are the ones who are 
checking in with the passport when they try to come into the 
country. So you take that, you couple it with additional 
training to look for fraudulent passports, we have 
substantially improved that capacity. But we have to be forever 
vigilant.
    I must tell you that on a fairly regular basis, Senator--
and I get a daily report from Customs and Border Protection. We 
have, on a fairly regular basis, these very, very dedicated men 
and women at the border turn folks away because of the 
fraudulent nature of their visa or their passport. They do not 
pretend to say that they catch them all. But their antenna is 
up, and they are as sharp as we want them to be. We continue to 
give them information as to what to look for.
    You know, from time to time, we discover that other 
countries have had passports stolen. We work with those 
countries to get identifying characteristics on those 
passports. That information is pushed down to the ports of 
entry.
    So again, it is a continuing process of education, 
vigilance. I think the US VISIT Program is going to help us 
quite a bit, as well.
    Senator Kohl. Thank you, Mr. Secretary.
    And Mr. Chairman, I will submit my questions for the 
record.
    Senator Cochran. Thank you, Senator Kohl.
    Senator Craig.

                    IMMIGRATION AND BORDER SECURITY

    Senator Craig. Mr. Chairman, on a variety of questions, I 
will submit them for the record so the Secretary can respond. I 
want to focus just in one area.
    And I apologize, Secretary, for being late for your 
testimony. But during the questioning, I have had an 
opportunity to read it, and I appreciate it.
    Let me focus only on one area now and that is the issue of 
immigration and securing our borders. And I am very pleased 
that our President is now leading on that issue as it relates 
to an undocumented workforce in this country. I say that 
because my State and many States across the Nation need that 
workforce.
    Without question, there is a need in our economy for six or 
eight million foreign nationals to be here working and 
receiving good pay and doing services that our own citizens 
choose not to. So it is so important that we make this system 
work.
    I think one of the unknown consequences of border security 
post 9/11, while we were intending to lock people out, we 
locked a lot of people in who were moving back and forth across 
our borders, providing services, going home to their loved 
ones, and because of now the toughness at the border, choosing 
to stay in because they cannot, once get out, come back. And in 
my State of Idaho, at the peak of the agricultural season, we 
may have anywhere from 19,000 to 20,000 undocumented. I have 
some legislation in that area now that we are working on.

                          UNDOCUMENTED WORKERS

    But here is what I have found and where my question takes 
me today in dealing with local law enforcement and undocumented 
workers. I see you are going to hire some more agents. Well, we 
have gone from 3,000 to 10,000 at the border. And we have begun 
to stem the tide of an undocumented workforce. We arrested over 
800,000 last year and deported them, and there are millions 
within the country. Why? Because of what is here for them to do 
and to make money and to go home to their loved ones, if they 
can, or to stay here.
    In one county of mine, the county sheriff tells me that he 
arrested or apprehended over 1,200 undocumented workers. That 
was borne by county taxpayer expense. They were jailed at 
county taxpayer expense. Let me suggest to you that it is my 
experience, in having focused on this issue for the last 5 
years, that the National Immigration Service and now the new 
service is relatively inadequate in being able to effectively 
find undocumented workers. But I know who does, local law 
enforcement.
    Now I would suggest to you that you review your idea of 
hiring more agents and you concentrate on cooperative 
partnerships with local law enforcement, maybe with some 
assisted training. As it relates to their normal course of law 
enforcement, they are the ones who find, in most instances, the 
undocumented workers or the undocumented foreign nationals in 
this country. And some may be certainly people of bad 
reputation. Others are simply here to work.
    Also, I would suggest, and you just got into the business 
of talking about fraudulent documentation. And I understand 
here you talk about providing certain deterrents to the 
employers as an incentive to maintain a legal workforce. That 
is legitimate when the documentation is legitimate.
    But to find a person whose livelihood would be destroyed 
because they cannot find the work and they hire foreign 
nationals who have documentation to do their work, to harvest 
the food that goes onto the shelves of America, and then to put 
them at risk because they accepted the documents that were 
available, you see where I am going, it becomes the ultimate 
catch-22.
    And so I am proud of what the President is doing. I know it 
is highly controversial. I happen to disagree a little bit on 
the fine points of the issue. But he has been willing to step 
up and address the issue, the 8 to 12 million undocumented that 
we have in this country and the laxness and the slackness that 
we have had at our borders for decades.
    But having said that, reform is at hand. And you are 
leading that. And I greatly appreciate it. But I would suggest 
that if the answer is simply to hire more Federal agents, why?
    The biggest thing that I have been frustrated with over the 
years is that when you had drug apprehension or all of those 
other kinds of things, and every agency developed its own 
police force--and out in my State, the Forest Service, they had 
to have law enforcement. BLM had to have law enforcement.

   COOPERATIVE LAW ENFORCEMENT WITH LOCAL ACCOUNTABLE LAW ENFORCEMENT

    Well, I know what they used to do. They used to develop 
cooperative law enforcement agreements with local accountable 
law enforcement. And that is where the rubber really hits the 
road on a daily basis. And I think that it is not only cost 
effective, but with right and reasonable training, it can be 
phenomenally responsive for a lot less cost.
    That is an observation. I have no questions, Mr. Chairman.
    But I would ask you, Mr. Secretary, to take a comprehensive 
look at that. We have some legislation moving now. I would lots 
rather see you take the initiative now and begin to get it on 
the ground, because our counties are experiencing a lot of 
costs in those hot areas of high intensity undocumented 
workers. And often, it is they who pick up the phone and call 
the INS and tell them: Hey, here are your people. Come get 
them.
    Secretary Ridge. Thank you, Senator. I would look forward 
to having that, continuing this discussion privately, because 
however this plan evolves, it will only be effective if the 
right level of resources are given to the right people in order 
to enforce it. And our limited experience with collaboration 
with the States, in terms of apprehension and detention of 
illegal aliens, has been mixed. Some States are willing to do 
it; other are not.
    Part of the reason may be philosophical. Others may be 
fiscal. Either way, you have 650,000 men and women in local law 
enforcement that should be viewed as a potential asset and 
resource in enforcing the new law, whatever it might be.
    Senator Craig. Thank you.
    Mr. Chairman, thank you.

                  COAST GUARD OFFSHORE PATROL CUTTERS

    Senator Cochran. Thank you, Senator Craig.
    Mr. Secretary, one of the responsibilities that the 
department has is the United States Coast Guard operations, 
particularly for patrolling our coasts and ports, contributing 
to our security of the homeland in that way. The budget request 
includes $26.2 million to support the operation of five patrol 
coastal cutters that are being transferred to the Coast Guard 
from the Navy. My question is whether your office, and you 
personally, have information that will let us know what the 
time frame is for the Coast Guard receiving these patrol 
coastal cutters from the Navy and whether there is funding that 
is sufficient in this budget request to convert the Coast Guard 
cutters into mission-capable boats for the operation of the 
missions that are required.
    Secretary Ridge. Senator, I believe that the deployment 
decision with regard to those five vessels should be 
forthcoming in the next month or two. I know that they are 
looking at two. They are looking to just narrow the gaps in 
existing coverage. I know one of the venues they are looking at 
is in Mississippi. I dare not speak for the Commandant. But 
there is an interest in distributing those five cutters in two 
different ports.
    They certainly are going to maintain their capability. I 
think we have sufficient resources once they are deployed to 
use them effectively. But the decision as to when and where 
they will be deployed, I believe, is in the next 4 to 6 weeks.

                         ALTERATION OF BRIDGES

    Senator Cochran. One of the other counts in the Coast 
Guard's budget request of interest to some of us is in the 
funding for alteration of bridges. There is no funding in this 
budget request that would permit the Coast Guard to carry out 
its responsibility of removing obstructions to commerce on 
navigable waters. There is a backlog of work that needs to be 
done to help ensure the safe navigation of rivers and ports. It 
is my hope that your office will take a look at that and let us 
know what funding may be useful to the Coast Guard to continue 
certain bridge projects that are already under way but which 
are not fully funded in this budget request.
    It forces this committee to add funds to help ensure the 
navigability of waters of the United States. So it is something 
that has to be done, it seems to me. And working with your 
office or with the Coast Guard, getting some indication of what 
that funding level ought to be would be very helpful to us.
    Secretary Ridge. Senator, we will certainly acknowledge 
your inquiry and get back to you as quickly as possible. I do 
not know what the Coast Guard's plans are to continue to remove 
these navigational obstructions or to make those kinds of 
adjustments in ports. I need to get back to you in response.
    [The information follows:]
                         Alteration of Bridges
    The Coast Guard's Alteration of Bridges request is zero in fiscal 
year 2005, because obstructive highway and combination railroad/highway 
bridges are eligible for funding from the Federal Highway 
Administration's Federal-Aid Highway program. It is estimated that a 
total of $15.1 million is needed to complete the three Truman-Hobbs 
bridge alteration projects actively under construction: the Florida 
Avenue Bridge in New Orleans, Louisiana; the Sidney Lanier Bridge in 
Brunswick, Georgia; and, the Limehouse Bridge, in Charleston County, 
South Carolina. All three of these bridges are highway bridges. In 
addition, there are five bridge projects with completed designs for 
alteration: the Burlington Northern Santa Fe Bridge in Burlington, 
Iowa; the Burlington Northern Santa Fe Bridge in Fort Madison, Iowa; 
the Chelsea Street Bridge in Boston, Massachusetts; the EJ&E Bridge in 
Divine, Illinois; and, the CSXT (14 Mile) Bridge in Mobile, Alabama.

           NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN

    Senator Cochran. Okay. The Secret Service, as we know, has 
responsibility for monitoring counterfeiting and investigating 
counterfeiting of our currency. It has the National Center for 
Missing and Exploited Children, as well. The budget transfers 
funding for the national center from the Secret Service budget 
to the Bureau of Immigration and Customs Enforcement. The 
question I have is: We want to be sure this does not hinder the 
Service's ability to provide support for the center.
    If we could have an indication that the funds that are 
being transferred will support the Secret Service's mission, 
that would be helpful.
    Secretary Ridge. Senator, I feel confident in telling you 
that the transfer of the responsibility to ICE was done in 
consultation with the Secret Service. It has been at the hub of 
their new initiative called Operation Predator. And we will 
give you the confirmation that you seek in writing.
    [The information follows:]

    Grant Funding for the National Center for Missing and Exploited 
                                Children

    The President's budget proposes that the funding for a $5,000,000 
grant for the National Center for Missing and Exploited Children 
(NMEC), which in fiscal year 2004 is funded in the U.S. Secret 
Service's appropriation, be placed in fiscal year 2005 in an 
appropriation to U.S. Immigration and Custom Enforcement. In fiscal 
year 2004 this grant will be made available by the U.S. Secret Service 
to the NMEC for activities related to the investigations of exploited 
children. Transfer of this grant funding to the ICE does not affect the 
Service's support for the Center for Missing and Exploited Children. 
The Service will continue to provide forensic and other related support 
to the NCMEC.

    Senator Cochran. Thank you.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.

                       AMNESTY FOR ILLEGAL ALIENS

    Mr. Secretary, you indicated earlier that you are not 
prepared to give us estimates on the cost of the implementation 
of the President's principals on amnesty for illegal aliens. 
Are you in a position to have some indication of how many more 
agents would be transferred from security and enforcement to 
carry out the President's plan?
    Secretary Ridge. Senator, I do not at this time. Your 
colleague, Senator Craig, suggested in a colloquy that we just 
had, however, that we might want to consider, whenever that 
plan is enacted, the use of State and locals and support them 
in that effort rather than additional enforcement officers at 
the Federal level. I suspect it will end up being some measure 
of both. Because whenever the initiative is passed, enforcement 
is a critical piece of it. But we just cannot give you those 
specific numbers of either people or money at the present time, 
Senator.
    Senator Byrd. I believe you indicated, in response to an 
earlier question, that you did not anticipate any supplemental 
requests from the department.
    Secretary Ridge. At the present time, Senator, we do not.
    Senator Byrd. So, how does this play into the amnesty 
proposal, if we do not anticipate any supplemental? If we do 
expect any legislation on the President's proposal, what do you 
think might be the situation with regard to a supplemental?
    Secretary Ridge. Senator, first of all, I was here back in, 
I think it was, 1985 or 1986 as a Member of Congress when we 
went through this issue before. And as you and I are well 
aware, back then amnesty and those folks were able to just 
assume, I think, a different position even in terms of their 
own citizenship. There is a little bit difference, there is a 
significant difference, between what the President wants to do 
in this program and what we did in the past.
    But in any event, we are going to need substantial 
resources to enforce it. And I am still not in a position, 
Senator, until we better understand Congress' will and the 
requirements or mandates that you may impose on the department, 
what the final dollar amount will be.

                                CAPPS II

    Senator Byrd. The department has been making preparations 
to implement CAPPS II, a new information system for screening 
airline passengers to determine if a passenger is a security 
risk prior to their boarding an aircraft. Based on our staff 
discussions with the department on the status of CAPPS II, we 
have very real concerns that the department has not made 
sufficient progress in meeting their criteria and addressing 
concerns that we all have.
    What are your plans for this system? How do you believe 
that you have met the requirements of the law for deployment of 
this important system?
    Secretary Ridge. Senator, first of all, I would welcome, 
either by letter or personal conversation with you or your 
staff the specific concerns that you have with the CAPPS II 
program. Secondly, it is our intention, Senator, to test, to 
begin testing the program sometime later this year. There have 
been some delays associated with the testing, as we have dealt 
with some of the privacy issues associated with the use of 
name, address, date of birth, and other passenger name records 
that we would use as part of the database to get the program 
off and running.
    We have reached agreement with the European Union that we 
can use their passenger name records as part of our testing 
protocol. And we are trying to allay the legitimate concerns of 
members of Congress and the public generally that the 
information at our disposal will be for a very specific and 
very limited use. And it will enable us to target potential 
terrorists on the other side and enable us, we think, probably 
to reduce the amount of secondary screening and reduce the 
inconvenience and the delays at our commercial airports.
    So I do not know the specific objections you have raised. 
One of the insertions into the Homeland Security Act from 
Congress was the insistence that we have a privacy officer. And 
Attorney O'Connor and her staff have been working on these 
privacy issues, working with me to convince the European Union 
that the information would be for a very limited and restricted 
use. And we need to convince members of Congress and the 
traveling public that it will be for a limited and restricted 
use, as well.
    Senator Byrd. Our concerns are detailed in the fiscal year 
2004 Homeland Security Appropriations Act. Our concerns are 
that the department has not yet addressed the requirements of 
the law.
    Secretary Ridge. Well, part of it may be our need to--we 
may have a difference of opinion on this, Senator. We certainly 
would look to secure bipartisan support for this test so that 
we could add an additional layer of protection to passenger 
travel. We have spent enormous sums of money, and very 
appropriately so, when we targeted commercial aviation, toward 
detecting weapons.
    And while I think we need to maintain our focus on weapons, 
I think ultimately, as we combat terrorism, the primary focus 
should be on those who might carry the weapons, trying to 
identify the terrorist or potential terrorist rather than the 
weapon that he or she may be carrying. And I think the CAPPS II 
program gives us an opportunity in part to do just that.

                     OVERDUE CONGRESSIONAL REPORTS

    Senator Byrd. In the fiscal year 2004 Homeland Security 
Appropriations Act and associated reports, the Congress 
directed the department to report to the committee on important 
issues ranging from the protection of critical infrastructure, 
hiring issues surrounding intelligence analysts and 
cybersecurity specialists, developing an inventory of the 
research and development work being done by department elements 
other than the Office of Science and Technology, and in 
preparing a report on the effectiveness of the homeland 
security advisory system, including efforts to tailor the 
system so that alerts are raised on a regional rather than 
national basis.
    To date, the department has delivered only 14 percent of 
the mandated reports. It seems that for an issue as sensitive 
as the security of our homeland, the Department would want to 
have an informed Congress as an active participant in the 
policy process. Is it your view that this committee should 
expect these reports to come along soon?
    Secretary Ridge. Senator, I certainly hope so. To put it in 
context for you, Senator, we have sent quite a few up. But GAO 
alone, GAO alone has asked the department to submit information 
for 420 reports. That is in addition to probably 2,500 
congressional inquiries. That is in addition to a lot of the 
other work that we are doing to try to keep, as you very 
appropriately point out, to keep our colleagues in this effort, 
because we are partners in building this department, keep 
everybody informed.
    While I regret the delay, and I am trying to explain it, 
not excuse it, but we are doing our very best we can to get to 
GAO and to the members the information they have requested. And 
we will do everything we can to expedite it for you, Senator.
    Senator Byrd. Well, I hope you will do that. The GAO, as 
you well know, is an arm of the Congress. I am sure that the 
information that the GAO is seeking is of great importance to 
the Congress. We just do not act as a rubberstamp for the 
administration. We hope to be a partner in the effort.
    Secretary Ridge. Well, Senator, we respect the inquiry. As 
I said before, we fully intend to comply. It is just some of 
these reports require hundreds and hundreds of man hours to get 
the information and get it back to you. And we will do our best 
to expedite it.
    Senator Byrd. Do I have time for another question?
    Senator Cochran. Yes, sir.

                          PLAN FOR ADJOURNMENT

    Senator Byrd. Incidently, what is the Chairman's plan as to 
proceeding further and whether or not we will have another 
opportunity to have Secretary Ridge before us?
    Senator Cochran. Senator Byrd, our plan was to adjourn the 
hearing at 12:30 today. We were going to have hearings with 
other under secretaries and others who have jurisdictional 
responsibilities in the department. If there are other 
questions that need to be submitted, we have an opportunity to 
submit them in writing. But I have not discussed with the 
Secretary another hearing with him personally, but we would be 
glad to do that, if that is your request.
    Senator Byrd. Very well. I hope we might at least think in 
terms of possibly hearing the Secretary again, if there needs 
to be. I understand that we will have other opportunities with 
other witnesses. And so, the questions that we have in mind may 
be asked and answered there.
    Incidently, Governor, in an earlier conversation relative 
to the title of governor, do you remember?
    Secretary Ridge. Yes, sir. Yes, I do.
    Senator Byrd. Well, my history taught me that in the 
colonies and in the States, the people did not think too much 
of their governors. Is that your recollection?
    Secretary Ridge. No, it is not, sir.
    Senator Byrd. I think you might fail a history test. Maybe 
you should go back and review that a little bit.
    Secretary Ridge. I will, Senator.
    Senator Byrd. They did not have much use for the royal 
governors. Do you remember?
    Secretary Ridge. Yes, sir, I do.
    Senator Byrd. They were much more dependent upon and 
confident in their elected assemblies than they were of their 
governors. Pennsylvania was one of those early States, I 
believe, too. I believe it was one of the 13, was it not?
    Secretary Ridge. It was the second State, Senator.
    Senator Byrd. All right. Well, I just have one more 
question, Mr. Chairman.

                            FIRST RESPONDERS

    Others have touched upon this. Local police, firefighters 
and emergency medical teams are a community's first line of 
defense. But they seem to be almost the last priority for the 
President in his budget. Now others have touched upon this, 
which indicates that there is a widespread concern with respect 
to the first responders, and the fact is that trickle-down 
theory that we have heard so much about in many other respects 
is not working too well in this situation.
    Cuts come despite continued warnings, cuts in these local 
responders' budgets. From think tanks, commissions, and from 
first responders themselves come these warnings, that our 
Nation is not adequately prepared to respond to another act of 
terrorism. How do you justify these cuts?
    Secretary Ridge. Senator, if I could put the predictable 
and, I think, understandable attention that you and all of 
Congress and first responders put on the notion of additional 
money to support their mission. If Congress sees fit to, at the 
minimum, appropriate to first responders the dollars requested 
in the 2005 budget, this Administration and this Congress will 
have made available to State and local first responders nearly 
$15 billion over the past 3 years. This year's grant fire grant 
is $2 billion. It has been delivered directly to firefighters.
    The President's budget this year, as I mentioned to Senator 
Leahy, is a total amount very nearly identical to the amount of 
money the President requested back in 2004. Obviously, the 
Senate and the House chose to rearrange the priorities, which 
is certainly their prerogative because you do have that power 
of the purse, and actually gave to the first responders more 
money than was requested.
    But I do think that the President's commitment has been 
strong. And it has been consistent throughout the years. This 
year we are altering or seek congressional support of altering 
how those dollars are distributed. But I would say to the 
Senator that the President's commitment has been consistent and 
across the board to support the first responders at a very 
significant level of funding.
    Senator Byrd. There are billions of dollars, as you would 
agree, in the pipeline for first responders that have not been 
spent. We continue to hear complaints that come up from these 
people who were the first on the scene. That is why we have put 
the strict time lines on the Office for Domestic Preparedness 
and on the states to get the money to the first responders 
where it is needed. I hope that we will do a better job of 
getting the monies to these first responders.

                      FUNDING FOR FIRE DEPARTMENTS

    The fact is, according to FEMA, only 13 percent of fire 
departments have the equipment and training to handle an 
incident involving chemical or biological agents. Fire 
departments have only enough radios to equip half the 
firefighters on a shift and breathing apparatuses for only one-
third. How do we justify a 33-percent cut to fire grants?
    Secretary Ridge. Senator, two parts to your question. You 
are absolutely right, Senator. The Congress mandated that the 
Department of Homeland Security be prepared to distribute the 
dollars you appropriated within a time certain. We are prepared 
to do that. I think it was a 45-day period. We are ready to do 
that.
    Where we need to take a leadership role, and we would 
rather not mandate it, I would rather work with the Governors 
and the mayors to come up with a distribution scheme that 
everybody is comfortable with. Right now, the distribution of 
these proceeds varies from State to State, Senator. We are 
ready to send the checks out. Most of the logjam is in the 
collaboration between the cities and the States and their 
applying for the money.
    We will take it upon ourselves in this department to try to 
work with our partners, because they are partners in this 
effort, to see if we can come up with a distribution scheme so 
that when we hit that time table to distribute the dollars, I 
am confident Congress will also mandate that in the 2005 
budget, that we can get them out quicker to the first 
responders.
    It is not your Department of Homeland Security. We are 
ready to distribute. But the logjam really is in the 
communication and collaboration at the State and local level. I 
do not mean to repeat myself. I apologize. But I had planned on 
meeting with the Governors, when they are in town in about 2 
weeks, to address this question specifically. It is out there. 
We still have a few dollars left from 2002, more than half the 
dollars, I think, left from 2003. We have to get this money out 
the door.

                       PROCUREMENT POLICY ISSUES

    Part of it, I think, is tied up in procurement policies, 
Senator. By the way, West Virginia, when I visited your first 
responders down there, have taken a regional approach toward 
building capacity around their States, so that not every 
community has the same thing. But within regions, they have 
built the same capacity. And that is obviously an approach that 
I think is the right way to go. I cannot tell you whether or 
not they have any problems with distributing the dollars. I 
suspect that they are not. But they have taken a regional 
approach. And we want to see if that could be part of the 
answer to breaking the logjam to getting these dollars to our 
first responders.

                URGENCY TO GET FUNDS TO FIRST RESPONDERS

    Senator Byrd. Well, I thank you, Mr. Secretary.
    Mr. Chairman, you recall that we had hearings in this 
committee last year, the year before. Every time, we have these 
hearings and, in the meantime, we hear from these first 
responders that the money that Congress appropriates seems to 
be taking an awfully long time to get to them. They have taken 
the position all along that they need the money. They need to 
find a way to get it directly to them without all of the 
trickle-down apparatuses that are in between and which have a 
way of slowing down the delivery of these funds that Congress 
takes a very great interest in bringing to the attention and 
into the hands of these responders.
    I am glad that there seems to be a greater sense of 
urgency, as I listen to the Secretary. I hope that that will 
carry through and that these people at the local level who are 
the first people to respond will see the results of this 
greater sense of urgency.
    I hope, Mr. Secretary, that you will continue to press to 
get this money out the door and to these people who are on the 
job. Thank you.
    Thank you very much.
    Secretary Ridge. Thank you, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you, Senator Byrd.
    Mr. Secretary, we appreciate your cooperation with our 
subcommittee. Senators may submit written questions to you, and 
we ask you to respond to them within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

           Information Analysis and Infrastructure Protection

                   HOMELAND SECURITY ADVISORY SYSTEM

    Question. The Homeland Security Advisory System has evolved from a 
nationwide threat level status to more specific targeted areas since 
the latest threat level decrease in January. While the threat level is 
currently at an ``Elevated Condition'', which is declared when there is 
a significant risk of a terror attack, our country's airports, aviation 
industry, and specific high threat cities remain at the ``High 
Condition'', the threat level that indicates a high risk of terrorist 
attacks. This more targeted threat level status helps focus limited 
resources on the most credible threat areas and at the same time allows 
security personnel and first responders in other parts of the country 
to ``stand down'' while remaining vigilant.
    What further enhancements do you envision for the Homeland Security 
Advisory System with the improvement of intelligence detailing specific 
terrorist threats for certain metropolitan areas and specific sectors 
of industry?
    Answer. With each raising and lowering of the Homeland Security 
Advisory System (HSAS), the Department of Homeland Security learns new 
lessons and improves its notification process. As the system has 
evolved, it has come to reflect the need for certain metropolitan areas 
and/or specific areas of industry to be notified at different times or 
at different levels than others. As such, DHS has become adept at 
providing information to such specific audiences as states and sectors 
through Homeland Security Information Bulletins and Advisories. 
Additionally, Department officials speak personally with 
representatives and officials of threatened states and industries, when 
the need arises. This personal communication, along with the ability of 
the system to allow DHS to communicate to certain areas what their 
alert level should be embody the enhancements that have been 
implemented thus far.
    Question. What steps are being taken by the Department's 
Information Analysis and Infrastructure Protection Directorate to 
notify Congress and other key members of the Administration before a 
change in the Homeland Security Advisory System threat condition is 
announced publicly?
    Answer. Key congressional members are notified telephonically when 
a decision has been made to raise the threat level and, circumstances 
permitting, before the public announcement is made. Members notified 
are: the Speaker and Minority Leader of the House, the Majority leader, 
Minority leader and President pro tem of the Senate, the Chair and 
ranking member of the House Select Committee on Homeland Security, 
Senate Governmental Affairs Committee and both House and Senate 
Homeland Appropriations Subcommittees.
    Due to the tight timeline typically surrounding the announcement of 
alert level changes, the list of those personally notified in advance 
is necessarily limited to Congressional leadership and leadership of 
the committees of appropriations, and committees of overarching DHS 
authorization. Normally the scheduling of these calls will involve 
notification of key staff as well, but in those cases where it might 
not, DHS Office of Legislative Affairs (OLA) will make telephonic and 
e-mail notifications at the same time.
    Notification includes the change, when it is expected to be 
announced and the non-classified context in which the decision was 
made. If a member cannot be reached, their most senior staff member 
available is informed on their behalf. Notifications are made by Senior 
DHS Officials, typically the Deputy Secretary, Under Secretary for 
IAIP, and the Under Secretary for BTS. DHS callers may vary depending 
on operational circumstances but calls will not fall below the 
Assistant Secretary level. DHS, in concert with CIA and FBI will 
schedule a classified, Members only intelligence briefing as soon as 
possible after the announcement. If the change occurs when the Congress 
is in recess, a similar briefing is provided to relevant staff 
directors.
    When the threat level is reduced, DHS OLA notifies key 
congressional staff including staff of the Speaker and Minority Leader 
of the House, the Majority leader, minority leader and President pro 
tem of the Senate, the Chair and Ranking Member of the House Select 
Committee on Homeland Security, Senate Governmental Affairs Committee 
and both House and Senate Homeland Appropriations Subcommittees so that 
they may, in turn, inform their members before a formal announcement is 
made.
    Despite these efforts at advance notice, the Department must in 
each case make arrangements with the media prior to the Secretary's 
announcement of the change in the threat level, in order to fulfill the 
DHS responsibility to properly notify the public. As such, DHS is not 
able to control media and public speculation regarding the nature of 
DHS announcements up to the scheduled time of the press conference.

                             CYBER SECURITY

    Question. The National Cyber Security Division as part of the 
Department's Information Analysis and Infrastructure Protection 
Directorate recently unveiled the National Cyber Alert System which 
intends to deliver information to home computer users and technical 
experts in business and government agencies to better secure their 
computer systems from the latest computer viruses.
    How would you rate the performance of the new National Cyber Alert 
System's response to the most recent computer virus outbreaks, 
including the ``MyDoom'' virus that affected not only computers 
worldwide but also computers within the Federal Government?
    Answer. I would rate the response to the National Cyber Alert 
System as positive, but not good enough. On the first day of NCAS 
launch, the Department's United States Computer Emergency Readiness 
Team (US-CERT) was bombarded by more than one million hits from would-
be subscribers. More than 250,000 direct subscribers rely on the 
National Cyber Alert System to maintain their cyber vigilance and an 
additional estimated one million additional users receive national 
cyber alerts and information products indirectly through relationships 
with the Information Technology Association of America, various 
industry associations, the Stay Safe Online program, and others.
    NCAS is new and will continue to evolve and improve over time. 
Importantly, the National Cyber Alert System is but a small portion of 
the work being done within the Department's IAIP Directorate, both to 
prevent incidents and in response to specific events in cyberspace. In 
partnership with the Computer Emergency Response Team Coordination 
Center (CERT-CC) at Carnegie Mellon University; my department works 
with over 150 cyber security experts from across the Federal 
Government; and collaborates with key elements from the Departments of 
Justice, Defense, Treasury, Energy, and State; the FBI and the 
Intelligence Community; and the private sector to prevent, respond to, 
manage, and recover from cyber incidents.
    Question. The Department's new initiative ``Live Wire'' will test 
civilian agencies' security preparedness and contingency planning by 
staging cyber attack exercises to evaluate the impact of widespread 
computer disruptions. Recent instances, such as the power outages in 
the Northeast this past August, are an example of how an attack on our 
critical infrastructures, such as a cyber attack by terrorists on our 
Nation's utility industry, could cascade across a wide region if the 
proper precautions are not taken immediately.
    Does the Department currently test the vulnerabilities of computer 
systems in the government and private sector to simulate a terrorist 
attack on the Nation's cyber infrastructure and if so, how will ``Live 
Wire'' build upon any current program if funded?
    Answer. Live Wire is the first of a series of cross-sector, cross-
discipline exercises that test the Nation's ability to respond to a 
large-scale, coordinated cyber attack and allow the Department to learn 
important lessons that improve our preparation for real emergencies. We 
have hired outside experts to assist in our vulnerability analyses and 
continue to work with the private sector Information Sharing and 
Analysis Centers to augment our technical capabilities and knowledge.
    We created the Cyber Interagency Incident Management Group (IIMG) 
to promote interagency cooperation in advance of and during cyber 
incidents and to assess cyber consequences flowing from an attack or 
natural calamities. This activity is a direct outgrowth of the Live 
Wire experience, where the need to establish a baseline of cyber 
activities across the Federal Government and improve communication 
channels were identified. Other cyber activities also stand to benefit 
from exercises like Live Wire. To date, the Department has focused on 
building the technical capability of the US-CERT and establishing the 
National Cyber Alert System. We are also examining possible system-wide 
impacts on critical infrastructures caused by cyber dependencies and 
interconnectedness

                         BIOSURVEILLANCE SYSTEM

    Question. The President's budget proposes to establish a National 
BioSurveillance Group led by the Department of Homeland Security that 
will include the Department of Health and Human Services and the 
Department of Agriculture to create a national biosurveillance system 
to help shape current and proposed disease surveillance systems and to 
guide research and development of new technologies and capabilities.
    How will the Department's Information Analysis and Infrastructure 
Protection directorate lead the coordination of efforts with the 
Department of Health and Human Services and the Department of 
Agriculture to integrate biosurveillance data from across the country 
in order to verify a chemical or biological terrorist attack?
    Answer. As is directed in Homeland Security Presidential Directive/
HSPD-9, Defense of United States Agriculture and Food, the Department 
of Homeland Security, through the Information Analysis and 
Infrastructure Protection (IAIP) Directorate is currently leading 
coordination efforts to integrate biosurveillance data across the 
country. This involves the formation of an inter-agency working group. 
The goal of this group is to identify and develop options available to 
each agency, which will culminate in a report which outlines the 
building of a biosurveillance program within IAIP and projects what 
will be needed to develop and maintain a credible system. The working 
group has been meeting weekly in an effort to present the report to the 
Assistant Secretaries of Information Analysis and Infrastructure 
Protection and the Under Secretary of IAIP in April. The draft report 
will then be presented to the Secretary and Deputy Secretary of DHS, 
with the goal of having a finished report delivered to the President in 
May of this year.
    Question. Also, as part of this initiative, how will the 
Department's Science and Technology Directorate expand its 
environmental monitoring activities in the Nation's largest 
metropolitan areas?
    Answer. The Department's Science and Technology Directorate will 
work with its BioWatch partners to expand the number of collectors in 
the highest threat metropolitan areas. This expansion is based on 
detailed modeling studies that determine the optimum number of 
collectors for densely populated regions and a request from the cities 
to provide additional collectors for their high priority facilities and 
sites. The expansion will draw on small modifications to the current 
BioWatch technology, in particular, the use of additional automation 
and detection equipment to enable cost-effective analysis of the 
significantly increased sample load. Plume modeling for a variety of 
potential release scenarios and meteorological conditions will be used 
to optimize the layout and the coverage of the ensemble of collectors 
for each of the selected metropolitan areas. Localities will help 
determine where additional collectors should be placed based on their 
prioritized critical facilities needs (e.g., transit systems; 
stadiums). In addition, each metropolitan area will be provided a small 
number of collectors that they can deploy at special events as they 
arise. A pilot study will be completed this spring and summer in New 
York City to determine the best configuration options to consider for 
deployment use in fiscal year 2005.

                          TERRORIST WATCH LIST

    Question. Over the course of the last 2 years, the Administration 
has been working towards a government-wide consolidation of terrorist 
watchlist information. While the government-wide responsibility has 
been given to another Department, there are still multiple watchlists 
within the Department of Homeland Security.
    Congress provided the Department with $10 million for watchlist 
integration in this year's appropriation--what is the status of that 
project?
    Answer. DHS is a partner in the multi-agency Terrorist Screening 
Center. The Terrorist Screening Center became operational in December 
of 2003 and is now conducting 24 hour a day, 7 days per week 
operations. It is the single coordination point for Terrorist 
Encounters and thus enables a coordinated response for Federal, State, 
and Local Law Enforcement. The TSC has received more than 1,000 calls 
to date and has identified over 500 positive matches.
    Question. How is the Department's watchlist being integrated with 
other agencies watchlists at the Federal Bureau of Investigation's 
Terrorist Screening Center?
    Answer. TSC remains on schedule to bring the first version of its 
consolidated Terrorist Screening Database online by the end of the 
year. This database will be accessible to queries from Federal, State, 
and local agencies for screening purposes and will provide immediate 
responses to Federal border-screening and law-enforcement authorities. 
Each parent organization of the individual watchlists provides 
Assignees to the Terrorist Screening Center for real-time access to 
TTIC and FBI databases. All new nomination and updates to existing 
records are therefore performed at the TSC.
    Question. Is it possible today for every law enforcement officer 
and intelligence analyst at the Department of Homeland Security to 
access one list of suspected terrorists?
    Answer. Currently, DHS intelligence analysts continue to access 
information utilizing the information provided by the TSC specific to 
each individual list. However, as the preceding answer indicates, TSC 
plans to consolidate these lists into a single database in the near 
future.

                 TRANSPORTATION SECURITY ADMINISTRATION

    Question. Over 54 percent of the President's budget request for the 
Transportation Security Administration for fiscal year 2005 is 
dedicated for aviation passenger and baggage screeners pay, benefits, 
training, and human resource services. At the same time, three major 
grant programs currently administered by the Transportation Security 
Administration dealing with trucking security, port security grants, 
and Operation Safe Commerce are to be reorganized under the Office for 
Domestic Preparedness pursuant to the Department's reorganization 
authority. The fiscal year 2005 budget proposes to reduce or terminate 
funding for these programs.
    Will the Transportation Security Administration continue to have 
responsibility for security over all sectors of transportation or will 
aviation security continue to be the main focus of this agency?
    Answer. The Border and Transportation Security Directorate of DHS, 
in partnership with the Coast Guard, has jurisdiction over the security 
of all modes of transportation and is charged with coordinating all 
activities of the Department under the Homeland Security Act. The Coast 
Guard and organizations within BTS either have primary or subsidiary 
responsibilities in each transportation area. TSA clearly has a primary 
transportation role within BTS, and this role does not change merely by 
the transfer of grant distribution and management activities to ODP.
    Question. What funding will be available for fiscal year 2005 to 
increase security of railways, roadways, and all other modes of 
transportation in light of the Administration's proposal to terminate 
intercity bus and trucking grants?
    Answer. The responsibility of securing our Nation's transportation 
systems is a shared responsibility between government, local operators, 
and private companies who profit from that system. The aviation system 
is treated no differently, though understandably has received the most 
Federal focus to date given the clear nature and level of the aviation 
threat. We will continue to undertake transportation security programs 
on a threat-based, risk management basis.
    With respect to rail and mass transit specifically, DHS, DOT, and 
other Federal agencies are working together to enhance rail and transit 
security in partnership with the public and private entities that own 
and operate the Nation's rail and transit systems. The DHS grant 
program for improving rail and transit security in urban areas has 
awarded or allocated over $115 million since May 2003. Additionally, 
the Administration has requested $24 million for TSA to advance 
security efforts in the maritime and surface transportation arenas. DHS 
will conduct the following activities and initiatives to strengthen 
security in surface modes:
  --Implement a pilot program to test the new technologies and 
        screening concepts to evaluate the feasibility of screening 
        luggage and carry-on bags for explosives at rail stations and 
        aboard trains;
  --Develop and implement a mass transit vulnerability self-assessment 
        tool;
  --Continue the distribution of public security awareness material 
        (i.e., tip cards, pamphlets, and posters) for motorcoach, 
        school bus, passenger rail, and commuter rail employees;
  --Increase passenger, rail employee, and local law enforcement 
        awareness through public awareness campaigns and security 
        personnel training;
  --Ensure compliance with safety and security standards for commuter 
        and rail lines and better help identify gaps in the security 
        system in coordination with DOT, with additional technical 
        assistance and training provided by TSA;
  --Continue to work with industry and State and local authorities to 
        establish baseline security measures based on current industry 
        best practices and with modal administrations within the DOT as 
        well as governmental and industry stakeholders, to establish 
        best practices, develop security plans, assess security 
        vulnerabilities, and identify needed security enhancements; and
  --Study hazardous materials (HAZMAT) security threats and identify 
        best practices for transport of HAZMAT.
    Question. How will the Transportation Security Administration 
coordinate with the Office for Domestic Preparedness on the grant 
programs (trucking security, port security grants, intercity bus 
grants, and Operation Safe Commerce) that will be moved from TSA 
pursuant to the reorganization?
    Answer. It is anticipated that TSA, other BTS organizations with 
transportation security responsibilities and the Coast Guard will 
continue to provide the necessary operational expertise for the grant 
programs through participation in pre-award management functions. These 
functions include determination of eligibility and evaluation criteria, 
solicitation and application review procedures, selection 
recommendations and post award technical monitoring.
    These organizations will also continue to leverage existing 
transportation expertise by working with industry stakeholders and DOT 
modal administrations to ensure that Federal security grants facilitate 
the seamless integration of security planning activities by industry 
stakeholders and governmental stakeholders at the regional, state, and 
local levels.
    Question. Congress provided $85 million for the Transportation 
Security Administration for fiscal year 2004 to provide additional 
screeners to inspect air cargo and also for the research and 
development of explosive detection systems in order to perform 
screening of the larger palletized, bulk air cargo.
    With the increase in funding provided, how many additional 
screeners have been hired to inspect air cargo to date and when do you 
expect to be fully staffed?
    Answer. The funding provided in the Department of Homeland Security 
Appropriations Act, 2004 (Public Law 108-90) enabled TSA to hire 100 
new cargo inspectors. All 100 cargo inspector positions have been 
selected, and paperwork is being processed by TSA Human Resources. We 
anticipate extending job offers to these applicants and bringing them 
on board within the next 2 months.
    Question. What enhancements are being made to the current Known 
Shipper program to guarantee the safety of air cargo?
    Answer. Since 9/11, significant enhancements have been made to the 
known shipper program. The Known Shipper Program was started in 1996 at 
FAA with the development and implementation of comprehensive known 
shipper requirements. The current requirements for new shippers 
applying for known shipper status have been strengthened. In addition, 
the authenticity of established known shippers has been verified as 
meeting the new requirements. In order to substantiate the legitimacy 
of known shippers further, air carriers have been required to conduct 
site visits of known shippers' facilities. Additionally, TSA is 
currently developing a Known Shipper Database, which will allow TSA to 
vet applicants to the program more thoroughly for legitimacy by 
comparing data submitted by applicants against terrorist watch lists, 
other government data bases, and other publicly available information. 
Eventually, TSA's Known Shipper Database will be one part of a larger 
freight assessment database intended to target high risk cargo 
shipments for additional screening.
    Question. Would it currently be feasible to inspect 100 percent of 
all air cargo being placed on aircraft, as proposed by some in 
Congress, and, in your opinion, how do you feel the flow of commerce 
would be affected if air cargo was restricted from being placed on 
aircraft unless 100 percent inspection of air cargo took place?
    Answer. Not only is 100 percent physical inspection infeasible, it 
is not desirable. The sheer volume of air cargo transported in the 
United States renders the inspection of all air cargo infeasible 
without a significant negative impact on the operating capabilities of 
the entire transportation infrastructure of the United States and the 
national economy. Anything more than a targeted, focused physical 
inspection protocol on high risk cargo for the long term risks homeland 
security resources and critical management focus on known security 
risks. The DHS goal is to ensure that all cargo is screened to 
determine risk and that 100 percent of high-risk cargo is inspected. 
TSA is aggressively pursuing next-generation technological solutions 
that will allow us to enhance security for air cargo. Meanwhile, TSA is 
taking steps to implement measures outlined in the Air Cargo Strategic 
Plan and is doing everything possible to ensure that cargo going on 
planes is secure, including the requirement that all cargo transported 
on passenger aircraft originate from a known shipper.
    Question.The President's fiscal year 2005 budget requests a $25 
million increase for the Computer Assisted Passenger Pre-screening 
System (CAPPS II) currently being tested by the Transportation Security 
Administration. This system, when completely functional, will enable 
air carriers to perform an analysis on the ticketed passengers based on 
authentication from commercial data providers, and will also check 
passenger names against a government supplied terrorist watch list. 
However, CAPPS II has been slow in developing because of delays in 
obtaining passenger data needed for testing due to privacy concerns by 
air carriers.
    How is the Department working with the airlines to alleviate 
privacy concerns in light of recent disclosures that air carriers have 
shared passenger records with other government agencies and private 
contractors without the passengers' knowledge?
    Answer. The disclosure of passenger records by air carriers 
triggered concerns because passengers were not told that the 
information they provided to make a reservation was being shared with 
another entity (the government) for another purpose (national 
security). In at least one instance, the air carrier's own published 
privacy policy stated that passenger information would not be shared 
with anyone else. Bearing this experience in mind, the Department is 
committed to working with privacy advocates, airlines, passengers, and 
the travel industry to provide greater understanding and awareness of 
the purposes and scope of CAPPS II and to ensure that individual 
privacy rights are protected.
    DHS plans to issue a Notice of Proposed Rulemaking (NPRM) seeking 
public comment on the collection of Passenger Name Record (PNR) data. 
Certain aircraft operators, foreign air carriers, and operators of 
computer reservation systems would be required to provide PNR 
information for each individual who makes a reservation. The proposal 
will also require regulated parties to take reasonable steps to ensure 
that the passenger is provided notice of the purpose for which the 
information is collected, the authority under which it is collected, 
and the consequences of a passenger's failure to provide the 
information.
    The CAPPS II system will only be accessible to persons who require 
access for the performance of their duties as Federal employees or 
contractors to the Federal Government. The airlines, airline personnel, 
and the computer reservation systems will not have access to 
information contained in CAPPS II. All contractors, contractor 
employees and Federal Government employees who will have access to and/
or who will be processing personal data will sign a written privacy 
policy and acknowledge that they are bound by the strict terms of the 
privacy policy. All personnel with access to the system will have a 
government security clearance based on the level and type of 
information accessed. At a minimum, a Department of Defense (DOD) 
Secret Clearance will be required. The guiding principle for access 
will be ``need-to-know.'' Access will be compartmentalized, thus 
allowing access to persons based only on their individual need-to-know 
and only to the extent of their authorization (e.g., a person might be 
permitted to access information with regard to the unclassified portion 
of the system, but be denied access to classified areas). CAPPS II also 
will have substantial security measures in place to protect the system 
and data from unauthorized access by hackers or other intruders.
    Question. How can assurances be made to prevent identity theft by a 
would-be terrorist intent on using legitimate individuals information 
to get around the CAPPS II background checks?
    Answer. While no system can be 100 percent effective, we believe 
that the CAPPS II system will be a great advancement in defeating 
identity fraud. The CAPPS II design includes an information-based 
identity assessment process, which is an improved version of the best 
practices used by the banking and credit industries to combat identity 
theft and fraud. This capability is a substantial improvement to the 
current system.
    CAPPS II will incorporate best practices developed in the private 
sector for discovering cases of identity fraud. In the case of an 
identity thief who steals a legitimate identity, any number of indicia, 
including errors or inconsistencies in the information, could reveal 
the theft. Further, CAPPS II will make use of a database containing up-
to-date information about stolen identities, which will further protect 
against identity thieves who use this means to enable them to attack 
the civil aviation system.
    No system can be 100 percent effective, which is why CAPPS II will 
be part of a layered ``system of systems'' involving physical scrutiny, 
identity-based risk assessment, and other security precautions on 
aircraft and at airports.
    Question. The Inspector General completed last week a review of 
background checks for Federal airport passenger and baggage screeners 
that listed twelve recommendations for the administrator of 
Transportation Security Administration to improve its management of the 
background check process.
    What procedures have been put into place to guarantee all passenger 
and baggage screeners that are currently employed and also individuals 
who are applying for a screening position have a full background check?
    Answer. All screeners employed by TSA as of May 31, 2003, except 
for a small number of exceptions detailed below, have received 
fingerprint based criminal history record checks based on FBI criminal 
history records, pre-employment background checks which examine 
Federal, county, and local law enforcement records, credit history, and 
TSA watch lists (No-Fly and Selectee); and Access National Agency Check 
with Inquiries (ANACI) background checks conducted by the Office of 
Personnel Management (OPM). These checks were completed by October 1, 
2003. The limited exceptions included individuals on military or sick 
leave, and some screeners under the private screening pilot program. 
All of the exceptions have received fingerprint based criminal history 
checks and pre-employment background checks. In addition, OPM ANACIs 
have been completed or are in the process of being completed on all 
contract screeners and on screeners who have returned from sick or 
military leave.
    Since June 1, 2003, TSA has required that screener applicants 
receive the aforementioned fingerprint based criminal history check and 
pre-employment background check before they are hired. TSA does not 
extend offers of employment to applicants until these checks are 
successfully adjudicated for each applicant. Once hired, all new 
screeners then undergo the more thorough OPM ANACI check, which 
typically takes 3-6 months to complete. This check reviews education, 
employment history, credit history, references, criminal history, 
military records, and citizenship. The combination of timely check 
before hiring and more thorough OPM checks soon thereafter provides a 
layered approach to personnel security for new screeners.
    TSA maintains a database that tracks the progress of screener 
investigations from which routine reports can be generated and reviewed 
to determine the status of all investigations.

                  Emergency Preparedness and Response

                               BIOSHIELD

    Question. Does the lack of authorization for the administration's 
BioShield initiative inhibit your ability to obligate the funds 
appropriated for the program?
    Answer. The fiscal year 2004 Homeland Security Appropriations Act 
provided $885 million to be spent for development of biodefense 
countermeasures for the current fiscal year. Absent authorizing 
legislation, the Department of Homeland Security (DHS) has relied upon 
this authority to obligate funds for biodefense countermeasure 
activities. DHS, the Department of Health and Human Services (HHS), the 
Homeland Security Council, and the Office of Management and Budget 
(OMB) recognize the importance of expeditious progress in developing 
much-needed countermeasures while following Congressional intent. In 
that vein, all parties have sought to follow the principles set forth 
in the proposed legislation in developing the interagency agreement for 
next-generation anthrax vaccine. A FEMA contracting officer has 
authority to sign contracts related to the obligation of BioShield 
funds.
    Question. For what purposes do you intend to use the funds made 
available for fiscal year 2004?
    Answer. Over the past 10 months, the WMD Medical Countermeasures 
subcommittee has developed countermeasures information of interest to 
administration policymakers who will make the BioShield procurement 
decisions. The WMD subcommittee commissioned an end-to-end analysis of 
medical countermeasures to Category ``A'' biological agents (anthrax, 
smallpox, plague, botulinum toxin, tularemia, Ebola, and other 
hemorrhagic fever viruses). Working groups developed initial 
requirements for four high-priority bioweapon countermeasures for which 
there is high need and a reasonable expectation that products will be 
available in the near term:
  --Next-generation anthrax vaccine (recombinant Protective Antigen, 
        rPA)
  --Anthrax immune therapy
  --Next-generation smallpox vaccine (modified vaccinia, MVA or LC16m8)
  --Botulinum antitoxin
    Question. Why does the President's fiscal year 2005 budget propose 
to transfer the Strategic National Stockpile from the Department of 
Homeland Security's Emergency Preparedness and Response Directorate to 
the Department of Health and Human Services (HHS) but not the BioShield 
program? Please explain why the Stockpile is more appropriately managed 
by the Department of Health and Human Services and why BioShield is 
more appropriately managed by the Department of Homeland Security.
    Answer. The President's Budget for fiscal year 2005 proposes to 
transfer the Strategic National Stockpile (SNS) back to HHS where it 
will be better aligned with HHS' medical and scientific expertise and 
responsibilities. The SNS is an operational program, consisting of 
copious amounts of physical inventory and medical materiel. Since its 
mission is time-critical, it should possess a single, undisputed 
management structure for rapid decision-making. Although the daily 
operations of the SNS have not been affected in a significant manner by 
the transfer from HHS to DHS, the single command structure for the 
program that would result from the transfer back to HHS would 
streamline operations. DHS will maintain its ability to deploy the 
Stockpile in accordance with the SNS statute, 42 U.S.C.  300hh-12, as 
amended, and thus, the potential response needs of the DHS mission will 
not be compromised in any manner.
    The BioShield program differs substantially from the SNS in that it 
is a policy-driven program that is most successful as a joint venture 
between homeland security and health experts. The major programmatic 
aspect/activity of BioShield is product development, which is performed 
by private companies. The BioShield program was specifically 
constructed to spur development of countermeasures for which no 
commercial markets exist against current and emerging threats to the 
United States, for inclusion in the SNS.
    Since DHS is responsible for assessing current and emerging threats 
against the United States, including biological and chemical threats, 
the BioShield program, which helps to ensure our Nation's health 
security and is one of the many facets of the Department's efforts to 
combat terrorism, is therefore more appropriately managed by DHS than 
by HHS.
    Question. How are decisions being made as to the appropriate 
expenditure of BioShield funds? Has an assessment been done of our 
vulnerabilities to biological attacks to guide decisions as to the 
investments which should be made to develop, produce and pre-purchase 
vaccines or other medications for the Nation's biodefense? Who is doing 
such an assessment and what priorities have been established?
    Answer. There are several steps taken to determine appropriate 
biodefense countermeasures development and the use of BioShield funds. 
DHS and HHS are seeking to adhere to the intent of the proposed 
BioShield authorizing legislation now awaiting action in the Senate.
    The Information Analysis and Infrastructure Protection Directorate 
of DHS is responsible for determining a material threat. After that, 
the WMD Countermeasures subcommittee group co-chaired by DHS, HHS, and 
the Department of Defense, part of the Homeland Security Council Policy 
Coordinating Committee (PCC), develops countermeasures information of 
interest to the PCC, which then makes procurement decisions. The WMD 
Countermeasures subcommittee has completed an analysis of Category 
``A'' biological agents (anthrax, smallpox, plague, botulinum toxin, 
tularemia, Ebola, and other hemorrhagic fever viruses). Working groups 
developed initial requirements for four high-priority bioweapon 
countermeasures for which there is high need and a reasonable 
expectation that products will be available in the near term:
  --Next-generation anthrax vaccine
  --Anthrax immune therapy
  --Next-generation smallpox vaccine
  --Botulinum antitoxin

                            ANTHRAX VACCINE

    Question. What is the Strategic National Stockpile requirement for 
anthrax vaccine?
    Answer. DHS and HHS have entered into an interagency agreement to 
purchase recombinant Protective Antigen (rPA) vaccine to protect 25 
million persons. The government will consider later purchase of 
additional anthrax vaccine contingent on new vaccination delivery 
system technology and other cost-saving factors such as reduced dose 
requirements.
    Question. Are we filling at least part of the anthrax vaccine 
requirement with an FDA-approved product currently available?
    Answer. The Stockpile currently maintains a small amount of the 
only FDA-licensed pre-exposure vaccine against anthrax (Anthrax Vaccine 
Adsorbed, or AVA). Currently, it has limited production capacity, and 
rectifying that problem would be very expensive and take several years 
to accomplish. AVA is not currently licensed for children or for the 
elderly. However, in order to ensure that some type of anthrax vaccine 
is available until the development and procurement of rPA, DHS and HHS 
have signed an interagency agreement for the purchase of AVA through 
the Department of the Army. This agreement will provide approximately 2 
million doses in fiscal year 2004, 1.5 million doses in fiscal year 
2005, and 1.5 million doses in fiscal year 2006.

                      United States Secret Service

                      WHITE HOUSE MAIL PROCESSING

    Question. The Secret Service budget includes $16,365,000 for White 
House mail screening. The Committee requested in the fiscal year 2004 
bill that a detailed long-term plan for the establishment of a fully 
operational White House mail facility be provided to the Committee. 
When can the Committee expect to receive this report?
    Answer. An interim report was submitted to the Committee on 
February 10, 2004. This interim report stated that the Department of 
Homeland Security is aggressively developing a plan to support mail 
operations for the entire Department. One facet of this development 
process will evaluate incorporation of a combined mail facility 
supporting the White House and Department components located within the 
Washington D.C. metropolitan area. The Secret Service has contracted 
for a study to review several of the secure mail processes currently in 
operation and following conclusion of this review will make a 
recommendation to the Department as to a method of processing mail and 
the potential for a combined facility. This study is expected to be 
completed in April, 2004. A final report will be submitted to the 
Committee in June 2004.
    Since the interim report was submitted to the Committee, the White 
House and Secret Service have determined that the requirements for 
processing White House mail are not compatible with consolidation into 
a DHS mail processing facility. Therefore the June report will be a 
plan for processing White House mail in a separate facility, not a 
combined facility.

                  COUNTERFEITING AND FINANCIAL CRIMES

    Question. Colombia and Bulgaria continue to be hot spots for 
counterfeit currency. Does the fiscal year 2005 Homeland Security 
budget include funding to concentrate on these areas?
    Answer. For almost 30 years, Colombia has remained the largest 
producer of counterfeit U.S. currency in world. In May of 2001, the 
Secret Service received a 2-year allocation of $1.5 million through the 
State Department's ``Plan Colombia'' fund, and implemented plans to 
train and equip a local anti-counterfeiting force to work in 
conjunction with Secret Service agents in the seizure and suppression 
of counterfeit U.S. dollars manufactured in Colombia. Through the 
funding provided under Plan Colombia, the Secret Service and Colombian 
law enforcement authorities were able to make a tremendous impact on 
counterfeit production and distribution networks. This ultimately led 
to significant reductions in the amount of Colombian-manufactured 
counterfeit U.S. dollars that reached the streets of the United States.
    The 2-year execution of Plan Colombia led to the seizure of $123.3 
million in counterfeit U.S. currency, the suppression of 33 counterfeit 
printing plants, and over 164 arrests. This resulted in a 37 percent 
decrease in the amount of Colombian-produced counterfeit U.S. dollars 
passed on the American people.
    Second only to Colombia, organized criminal groups in Bulgaria are 
the world's second leading producer of counterfeit U.S. currency. 
Counterfeit currency produced in Bulgaria continues to be passed in the 
United States and throughout Eastern and Central Europe. There is 
strong evidence that the same organized criminal groups producing 
counterfeit U.S. currency in Bulgaria are also involved in human 
trafficking and narcotics trafficking.
    Bulgaria is a country undergoing a dramatic transition as they seek 
to enter the European Union, restructure their criminal code and remove 
corrupt officials from government. The Secret Service believes that 
additional efforts must be made to capitalize on these efforts and work 
with local law enforcement officials to dismantle the counterfeiting 
operations in Bulgaria. Additionally, the Bulgarian government has 
expressed its willingness to work with foreign law enforcement and has 
requested additional support from the Secret Service.
    While the Department of Homeland Security fiscal year 2005 budget 
request does not include a specific funding request to continue these 
efforts, the Secret Service receives funding in its base budget that 
allows it to continue its strong overseas investigative efforts and 
cooperative partnerships with the foreign law enforcement communities 
in Colombia and Bulgaria.
    Question. What role will the Secret Service play in protecting our 
Nation's extensive network of financial systems from terrorists and 
hackers? Does the fiscal year 2005 budget request provide adequate 
funding to guard against this growing problem?
    Answer. The Secret Service's core investigative mission is to 
safeguard the financial and critical infrastructures of the United 
States. The Department's fiscal year 2005 funding request provides 
adequate funding for the Secret Service to continue the array of 
programs it has developed to work with its law enforcement, private 
sector and academic partners in strengthening these networks and 
preventing intrusions and compromises of these essential 
infrastructures. These programs include:

Electronic Crimes Task Forces (ECTFs)
    The groundbreaking task force model developed by the Secret Service 
emphasizes information sharing and a pooling of resources and expertise 
to produce a collaborative effort to thwart cyber criminals and to 
detect, investigate, and most importantly, to prevent electronic 
crimes. Members include other Federal, State and local law enforcement 
agencies, prosecutors, private sector representatives from the 
financial services, telecommunications and IT sectors, and academic 
experts from leading universities. These members build trusted 
partnerships and have made tremendous strides in the communities they 
serve in a short period of time.
    Providing these ECTFs with training, resources and manpower is 
paramount to the Secret Service's statutory mission to protect 
financial payment systems and critical infrastructures. Directed by 
Public Law 107-56 (the USA PATRIOT Act of 2001) to expand its ECTF 
model from a single task force in New York to a nationwide network, the 
Secret Service has since established additional ECTFs in Boston, Miami, 
Washington, D.C., Chicago, Los Angeles, San Francisco, Charlotte, Las 
Vegas, Cleveland, Houston, Dallas, and Columbia, South Carolina.

Electronic Crimes Special Agent Program (ECSAP)
    Currently, the Secret Service has trained 118 agents in this 
program, which provides certified instruction to special agents in the 
preservation and examination of computer forensic evidence. The Secret 
Service has based these agents in field offices throughout the country, 
and they have become indispensable assets to the communities they serve 
and their law enforcement and private sector partners.

CERT/CSPI (Critical Systems Protection Initiative)
    In a continuing partnership with Carnegie Mellon's Computer 
Emergency Response Team (CERT), the Secret Service has established a 
training program addressing the cyber security of critical 
infrastructures. The expansion of e-commerce and proliferation of 
websites providing financial and personal information to the public has 
made it essential that Secret Service personnel and their partners 
understand the interdependency of computer networks. Through risk 
assessments and identification of vulnerabilities, the Secret Service 
has adopted a more proactive approach to prevent terrorists and hackers 
from exploiting our financial systems.

CERT/NTAC Insider Threat Study
    In cooperation with Carnegie Melon's CERT, the Secret Service's 
National Threat Assessment Center and Criminal Investigative Division 
are conducting studies that specifically target the banking and 
financial services industries. Again, due to the trusted partnerships 
the Secret Service has developed with these entities, successful 
efforts have been made to gather information and provide operationally-
critical threat and asset vulnerability.
    Question. Identity theft has been called the fastest growing crime 
in the United States. The Congressional Research Service reports that 
identity theft has grown in three consecutive years. Does the fiscal 
year 2005 budget include funding to counter this growing problem?
    Answer. The fiscal year 2005 budget request includes funding levels 
that fully support the Secret Service's investigative responsibilities, 
including its identity theft investigations. Although there are no new 
initiatives in the budget for preventing and investigating identity 
crimes, the Secret Service has several existing programs aimed at 
stemming the tide of this growing crime. These initiatives include:

The Identity Crime Interactive Resource Guide CD-ROM & Video
    This highly successful Secret Service initiative, in partnership 
with the U.S. Postal Inspection Service, the International Association 
of Chiefs of Police (IACP) and the Federal Trade Commission (FTC), was 
designed to provide useable tools and resources to local and State law 
enforcement officers and to assist with their identity crimes 
investigations and case management. This joint effort gives local and 
State law enforcement officers the information they need not only to 
assist victims of identity crimes but also to initiate their own 
investigations.
    The CD ROM/Video is an ongoing project that requires amending, 
updating and adding new investigative resources as they become 
available. The Secret Service is currently working on the production 
and distribution of an updated version of the CD-ROM, the development 
of a similar web-based initiative, and deploying the Resource Guide on 
the Secret Service extranet and the DHS portal webpage. To date, more 
than 40,000 of these CD-ROMs have been distributed to local and State 
police agencies and local, State and Federal prosecutors.

Forward Edge
    The Secret Service also joined with the IACP and the National 
Institute for Justice to produce the interactive, computer-based 
training program known as ``Forward Edge,'' which takes the next step 
in training officers to conduct electronic crime investigations. 
Forward Edge is a CD-ROM that incorporates virtual reality features as 
it presents three different investigative scenarios to the trainee. It 
also provides investigative options and technical support to develop 
the case.
    While over 30,000 of these training tools have been distributed to 
the Secret Service's law enforcement partners, an updated version of 
Forward Edge is currently under development. This version will 
incorporate the video, virtual reality and 3D models but will also add 
adaptations made in reaction to new challenges posed by emerging 
technology and criminal activity.

Best Practices for Seizing Electronic Evidence
    This pocket-size guide produced by the Secret Service assists law 
enforcement officers in recognizing, protecting, seizing and searching 
electronic devices in accordance with applicable statutes and policies. 
Over 320,000 ``Best Practices Guides'' have been distributed free of 
charge to local and Federal law enforcement officers.

Identity Crime Training Seminars
    In a joint effort with the Department of Justice, the U.S. Postal 
Inspection Service, and the FTC, the Secret Service is hosting Identity 
Crime Training Seminars for law enforcement officers across the United 
States. Each seminar consists of 8 hours of training focused on 
providing local and State law enforcement officers with tools and 
resources that they can immediately put into use in their 
investigations of identity crime. Additionally, officers are provided 
resources and information that they can pass on to members of their 
community who are victims of identity crime. Other critical partners in 
these training seminar efforts are Discover Financial Services, the 
American Association of Motor Vehicles Administrators (AAMVA) and the 
State DMVs from each community.

                    Office for Domestic Preparedness

                          GRANT CONSOLIDATION

    Question. The announced reorganization of grant programs within the 
Department of Homeland Security moves the responsibility for all of the 
grant programs under TSA to ODP--Port Security grants, Intercity Bus 
grants, Trucking industry grants, and Operation Safe Commerce, and 
programs such as the Emergency Management Performance Grants from EP&R 
to ODP. How will you ensure that TSA and EP&R are still involved with 
the oversight of these programs, especially with reduced funding as 
proposed for 2005?
    Answer. The Office for Domestic Preparedness and the Office of 
State and Local Government Coordination both maintain close 
communication and contact with EP&R. The creation of the Office of 
State and Local Government Coordination and Preparedness will not 
inhibit or impede the already established relationship between ODP/
OSLGC and EP&R & TSA.
    ODP currently coordinates closely with EP&R and will continue to do 
so, as it does with other DHS components. For example, ODP and EP&R are 
working closely on the transfer of the Pre-Positioned Equipment Program 
from ODP to EP&R. Additionally, ODP and EP&R have worked closely on the 
Top Officials (TOPOFF) Exercise Program, and are currently working 
together on the planning of TOPOFF 3. Finally, EP&R is part of ODP's 
internal DHS review team for the state homeland security strategies, 
which each State was required to complete and provide to ODP by January 
31, 2004.
    OSLGCP will maintain strong ties to operational subject matter 
experts within the current offices and agencies as appropriate. For 
example, while responsibility for crafting policy and guidelines for 
the Port Security Grant Program would reside within OSLGCP, program 
development will still have significant input from and access to 
subject matter experts in the Coast Guard, MARAD, and TSA. The 
Department fully intends to use existing resources and subject matters 
experts to ensure that OSLGCP has the proper staffing levels and 
resources to effectively administer its activities and programs.

                       BASIC STATE GRANT PROGRAM

    Question. The 2005 budget request proposes a significant reduction 
to the Basic State Grant program of the Office for Domestic 
Preparedness (ODP)--as well as abandoning the State minimum in the 
historically-used formula for distributing the money to states. I 
understand the need to balance resources between the states and the 
needs of our urban areas. We tried to achieve that balance in the 
fiscal year 2003 Emergency Wartime Supplemental Appropriations Act and 
the fiscal year 2004 Appropriations Act. The President's fiscal year 
2005 budget proposal seems to have tipped the balance too far in the 
direction of the high-threat urban areas--and does not allow for the 
basic mission of the ODP to be carried out. ODP's mission is to ensure 
a basic level of preparedness in all states. What is the rationale for 
the proposed reduction in funding for the Basic State Grant Program?
    Answer. The President's fiscal year 2005 budget request provides 
significant support for the mission and programs administered by the 
Office for Domestic Preparedness. As you know, The Homeland Security 
Act of 2002 (Public Law 107-296) designated ODP as the principal 
Federal agency responsible for the preparedness of the United States 
for acts of terrorism, including coordinating preparedness efforts at 
the Federal level, and working with all State, local, tribal, parish, 
and private sector emergency response providers on all matters 
pertaining to combating terrorism, including training, exercises, and 
equipment support. The President's request includes $3.561 million, 
which is a $3.3 million increase from the fiscal year 2004 request. 
With these resources, ODP will be able to maintain its role in 
enhancing the security of our Nation.
    It is important to remember that we are operating in a fiscal and 
security environment where we must ensure maximum security benefits are 
derived from every security dollar. To do that, we must be able to take 
a new look at the way in which we allocate resources. Additionally, 
given the Department's improved ability to analyze risks, threats, and 
vulnerabilities, the Department is better able to provided targeted 
funds to increase the security of the Nation. The Department will 
continue to work with the states and territories to provide the 
resources they need--equipment acquisition funds, training and exercise 
support, and technical assistance--to deter, prevent, respond to, and 
recover from acts of terrorism.
    Question. The President's budget proposes an unprecedented amount 
of discretion for the Department in allocating grants. Is it 
appropriate to be requesting these changes through appropriations 
language--or should the administration instead submit a formal 
legislative proposal to change grant allocations to the Congress for 
consideration by the respective authorizing Committees of jurisdiction?
    Answer. The Department of Homeland Security has been discussing and 
working with Members of Congress and different committees, including 
the House Select Committee on Homeland Security and the Senate 
Governmental Affairs Committee, on these issues. At this point, both 
Committees are considering legislation that would authorize various 
aspects of ODP's mission. The Department supports much of this 
legislation (HR 3266 and S. 1245, respectively) in their current forms 
and, in particular, supports the Committee's intent, and is working 
with Chairman Christopher Cox, of the House Select Committee on 
Homeland Security, and Chairman Susan Collins, of the Senate 
Governmental Affairs Committee. The Department will continue to work 
with these Committees on these pieces of legislation and on other 
pieces of legislation that address authorization of ODP's grant 
programs.
    Question. What threat information will be taken into account when 
allocating the basic State grant funds?
    Answer. As a requirement to receive their fiscal year 2004 Homeland 
Security Grant Program funds, and additional funds in fiscal year 2005, 
states conducted threats and vulnerabilities assessments and, based on 
that information, developed homeland security strategies. The states 
were required to provide completed homeland security strategies to the 
Office for Domestic Preparedness on January 31, 2004. At this point, 
ODP has received strategies from all the states and territories, the 
District of Columbia and the Commonwealth of Puerto Rico. ODP and an 
internal DHS Review Board have approved a majority of these strategies. 
A few states and territories are working to provide additional 
information and details to finalize their strategies, but ODP 
anticipates that all strategies will be approved in the next few weeks.
    These strategies are critical resources to the states in the 
efforts to distribute funds in the most effective manner to address the 
homeland security needs. They too are important because they will allow 
the Department to match the preparedness needs as outlined in the state 
homeland security strategies with resources available from the Federal 
Government. The information provided in these strategies will allow the 
Department to make informed decisions on how funds will be distributed 
and what factors the Department will use to make this determination.
    Question. The budget materials talk about the expanded activities 
that the Basic State Grant can be used for--including protection of 
critical infrastructure. If the Basic State Grant can be used for this 
purpose, why is a separate $200 million critical infrastructure grant 
program being proposed?
    Answer. The President's fiscal year 2005 budget request includes 
$200 million for targeted infrastructure protection as part of the 
Urban Areas Security Initiative (UASI) program. The goal of this $200 
million is to provide targeted funding to specific critical 
infrastructure based on analyses performed by the Department of 
Homeland Security's Information Analysis and Infrastructure Protection 
Directorate. These funds will supplement the assistance provide under 
the UASI program and the State Homeland Security Grant Program. While 
the state-based grants will be dedicated to generally enhancing 
security and preparedness, the $200 million for infrastructure 
protection will be targeted to specific cites thereby assisting states 
in their efforts to secure potentially higher threat targets.
    Question. Please provide the Committee with state-by-state 
breakouts of all grants provided through the fiscal year 2000, 2001, 
2002, 2003, and 2004 appropriations, including supplementals. Include 
in the breakouts the status of the grants, dates awarded, obligation 
amounts, and drawndown amounts.
    Answer. Please see the table below entitled ``State-by-state 
Breakout''.
    Question. In addition, please provide obligations and disbursements 
for National Exercises, the Center for Domestic Preparedness, the 
National Consortium for Domestic Preparedness, technical assistance, 
equipment--for each of these years.
    Answer. ODP has completed the preliminary data collection for the 
response to this question. The data collected involves over 4,400 lines 
of accounting and, if printed on 8<greek-e>10 paper, would require 
2,264 pages of data. To ensure an accurate response, the data needs to 
be analyzed and a quality analysis be performed. This effort will take 
additional time to ensure proper analysis and response.
    Further, in order to ensure the most responsive answer to the 
question, ODP would request the opportunity to discuss the data with 
Appropriations Committee staff while the data is being analyzed. This 
discussion would provide preliminary information and to ensure that ODP 
properly understands the request and that the final answer is fully 
satisfactory.

                                                        2000-2004 GRANT ALLOCATIONS: STATE GRANTS
                                                                   [In dollar amount]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                            2000 State      2001 State      2002 State
                                             Domestic        Domestic        Domestic       2003 State      2003 State     2004 Homeland
                  State                    Preparedness    Preparedness    Preparedness      Homeland        Homeland     Security Grant      Totals
                                             Equipment       Equipment       Equipment    Security Grant  Security Grant      Program
                                               Grant           Grant           Grant         Program I       Program II
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama.................................       1,172,000       1,228,000       5,317,000       9,457,000      25,049,000      36,853,000      79,076,000
Alaska..................................         380,000         389,000       2,783,000       4,995,000      13,230,000      19,465,000      41,242,000
Arizona.................................       1,239,000       1,319,000       5,770,000      10,584,000      28,033,000      41,243,000      88,188,000
Arkansas................................         788,000         821,000       4,141,000       7,394,000      19,585,000      28,815,000      61,544,000
California..............................       7,167,000       7,666,000      24,831,000      45,023,000     119,256,000     175,457,000     379,400,000
Colorado................................       1,091,000       1,158,000       5,220,000       9,480,000      25,111,000      36,944,000      79,004,000
Connecticut.............................         943,000         984,000       4,626,000       8,265,000      21,893,000      32,211,000      68,922,000
Delaware................................         407,000         419,000       2,887,000       5,185,000      13,733,000      20,206,000      42,837,000
District of Columbia....................         561,000         366,000       2,747,000       4,910,000      13,006,000      19,136,000      40,726,000
Florida.................................       3,409,000       3,631,000      12,967,000      23,654,000      62,655,000      92,182,000     198,498,000
Georgia.................................       1,868,000       1,993,000       7,797,000      14,188,000      37,579,000      55,288,000     118,713,000
Hawaii..................................         503,000         515,000       3,172,000       5,693,000      15,079,000      22,186,000      47,148,000
Idaho...................................         510,000         530,000       3,226,000       5,803,000      15,375,000      22,621,000      48,065,000
Illinois................................       2,801,000       2,964,000      10,604,000      18,879,000      50,005,000      73,571,000     158,824,000
Indiana.................................       1,499,000       1,580,000       6,400,000      11,399,000      30,194,000      44,422,000      95,494,000
Iowa....................................         856,000         892,000       4,308,000       7,656,500      20,282,000      29,841,000      63,835,500
Kansas..................................         807,000         844,000       4,151,000       7,401,000      19,603,000      28,842,000      61,648,000
Kentucky................................       1,084,000       1,136,000       5,048,000       9,001,000      23,838,000      35,073,000      75,180,000
Louisiana...............................       1,175,000       1,228,000       5,331,000       9,451,000      25,037,000      36,836,000      79,058,000
Maine...................................         513,000         530,000       3,213,000       5,751,000      15,232,000      22,409,000      47,648,000
Maryland................................       1,337,000       1,407,000       5,881,000      10,585,000      28,037,000      41,251,000      88,498,000
Massachusetts...........................       1,552,000       1,632,000       6,579,000      11,711,000      31,020,000      45,638,500      98,132,500
Michigan................................       2,329,000       2,457,000       8,958,000      15,918,000      42,162,000      62,032,000     133,856,000
Minnesota...............................       1,251,000       1,318,000       5,631,000      10,076,000      26,690,000      39,267,000      84,233,000
Mississippi.............................         833,000         869,000       4,255,000       7,582,000      20,083,000      29,547,000      63,169,000
Missouri................................       1,402,000       1,474,000       6,079,000      10,834,000      28,697,000      42,221,000      90,707,000
Montana.................................         436,000         447,000       2,967,000       5,303,000      14,047,000      20,668,000      43,868,000
Nebraska................................         602,000         623,000       3,502,000       6,254,500      16,568,000      24,376,000      51,925,500
Nevada..................................         620,000         655,000       3,693,000       6,771,000      17,935,000      26,387,000      56,061,000
New Hampshire...........................         501,000         519,000       3,187,000       5,727,000      15,172,000      22,321,000      47,427,000
New Jersey..............................       1,968,000       2,072,000       7,948,000      14,222,000      37,671,000      55,424,000     119,305,000
New Mexico..............................         618,000         639,000       3,574,000       6,401,000      16,956,000      24,946,000      53,134,000
New York................................       4,099,000       4,321,000      14,953,000      26,492,000      70,172,000     103,243,000     223,280,000
North Carolina..........................       1,848,000       1,962,000       7,706,000      13,908,000      36,840,000      54,203,000     116,467,000
North Dakota............................         385,000         392,000       2,794,000       4,983,000      13,200,000      19,421,000      41,175,000
Ohio....................................       2,624,000       2,769,000       9,897,000      17,510,000      46,378,000      68,235,000     147,413,000
Oklahoma................................         959,000       1,001,000       4,656,000       8,304,000      21,996,000      32,362,000      69,278,000
Oregon..................................         945,000         992,000       4,637,000       8,336,000      22,081,000      32,487,000      69,478,000
Pennsylvania............................       2,791,000       2,934,000      10,512,000      18,570,000      49,189,000      72,370,500     156,366,500
Rhode Island............................         459,000         472,000       3,063,000       5,489,000      14,540,000      21,392,000      45,415,000
South Carolina..........................       1,062,000       1,119,000       5,028,000       9,017,000      23,882,000      35,138,000      75,246,000
South Dakota............................         406,000         414,000       2,868,000       5,131,000      13,591,000      19,996,000      42,406,000
Tennessee...............................       1,400,000       1,477,000       6,140,000      10,978,000      29,080,000      42,786,000      91,861,000
Texas...................................       4,434,000       4,735,000      16,196,000      29,538,000      78,238,000     115,110,000     248,251,000
Utah....................................         695,000         727,000       3,849,000       6,937,000      18,374,000      27,033,000      57,615,000
Vermont.................................         375,000         383,000       2,772,000       4,963,000      13,147,000      19,342,000      40,982,000
Virginia................................       1,688,000       1,788,000       7,062,000      12,716,000      33,683,000      49,556,000     106,493,000
Washington..............................       1,455,000       1,538,000       6,276,000      11,294,000      29,917,000      44,015,000      94,495,000
West Virginia...........................         634,000         654,000       3,567,000       6,340,000      16,792,000      24,705,000      52,692,000
Wisconsin...............................       1,356,000       1,425,000       5,925,000      10,565,000      27,985,000      41,173,000      88,429,000
Wyoming.................................         352,000         357,000       2,696,000       4,827,000      12,784,000      18,809,000      39,825,000
Puerto Rico.............................       1,267,000       1,120,000       4,894,000       8,727,000      23,118,000      34,014,000      73,140,000
Virgin Islands..........................         372,000         277,000         861,000       1,542,000       4,085,000       6,009,000      13,146,000
American Samoa..........................         230,230         187,600         892,000       1,482,000       3,926,000       5,776,000      12,493,830
Guam....................................         328,000         284,000         828,000       1,596,000       4,226,000       6,217,000      13,479,000
N. Mariana Islands......................         138,770          92,400         835,000       1,496,000       3,963,000       5,830,000      12,355,170
                                         ---------------------------------------------------------------------------------------------------------------
      TOTALS............................      72,525,000      75,726,000     315,700,000     566,295,000   1,500,000,000   2,206,902,000   4,737,148,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

                     HIGH THREAT URBAN AREA GRANTS

    Question. The 2005 President's budget proposes a doubling of the 
funds available in the High Threat Urban Area grants. From $727 million 
in 2004 to $1.4 billion in 2005. This funding increase is offset by a 
reduction in the Basic State Grant program funding.
    Will this funding be used to expand the number of jurisdictions 
that are eligible to receive these grants?
    Answer. The purpose of the Urban Areas Security Initiative is to 
provide an ongoing, dedicated funding stream to support densely 
populated urban areas with key national infrastructure assets and a 
demonstrated threat history. Under this program, DHS, through ODP, is 
currently supporting 50 urban areas. At this point, it is difficult to 
provide a definitive answer to your question on expansion of UASI. As 
you know, the Department based funding decisions based on a combination 
of three variables three variables, which resulted in an assignment of 
a terrorist risk estimate for each city. The variables were (1) a 
combined threat index derived from classified CIA and FBI threat data, 
along with the number of FBI terrorism cases opened in a region, (2) a 
count of critical public and private sector assets, weighted for 
vulnerability, and (3) population density. Each of these three 
variables was normalized and then weighted and summed to give an 
overall terrorist risk estimate. The Department will likely use a 
similar method to distribute funds made available for continuation of 
this program in fiscal year 2005. Given the fluid nature of threats and 
risk, it is difficult to predict the number of urban areas that will 
receive funding through the fiscal year 2005 program.
    Question. Will expanding the number of cities involved dilute the 
purpose of the program, which is to focus resources on those areas of 
the country with the most significant threats?
    Answer. Again, the Department has not made a final decision on the 
number of urban areas that will receive support under the UASI program 
in fiscal year 2005. The number of urban areas receiving support will 
ultimately depend on the information that IAIP receives from the CIA 
and the FBI, along with the other factors, that have been considered 
when determining UASI allocations.
    Question. On the one hand you are proposing to reduce the funding 
available through the Basic State grant program--of which one purpose 
is to ensure that contiguous jurisdictions are working together--while 
on the other, increasing the funds available in the High Threat Urban 
Area grants so you can enhance the ability of contiguous jurisdictions 
within urban areas to respond jointly. How is your proposal an 
improvement over the way these programs have been funded in fiscal 
years 2003 and 2004?
    Answer. As you know, with the support of the House and Senate 
Appropriations Committees, the Department of Homeland Security has 
administered dual funding programs--a formula-based state minimum 
program and a high-threat, high-density program--since fiscal year 
2003. The Department and Administration firmly support this dual 
approach because it allows for baseline preparedness levels while 
targeting funds to high-threat, high-density urban areas across the 
country.
    The Department and the Administration have also consistently 
supported an increase in funds for the high-threat, high-density urban 
areas program to meet the unique needs and challenges of the Nation's 
urban areas. With the funds provided to the Urban Areas Security 
Initiative and the state formula grant program, the Administration's 
fiscal year 2005 budget request supports both minimum levels of funding 
for states to continue their efforts to enhance security and targeted 
funds for the Nation's urban areas.
   u.s. visitor and immigrant status indicator technology (us visit)
    Question. In January you deployed the first phase of the US VISIT 
system to 115 airports and 14 seaports.
    How is the system performing so far?
    Answer. By January 5, 2004, the US VISIT system encompassed 99 
percent of all foreign visitors, with visas, entering the country by 
air, and as of March 1, more than 1.69 million foreign visitors have 
been processed under US VISIT procedures, with over 150 initial matches 
against existing watch lists, resulting in the identification of 62 
criminals guilty of rape, homicide, hit and run death, drug 
trafficking, probation violations, assault, wire fraud, conspiracy, 
etc. The Department of State has also processed 235,883 individuals 
utilizing the US VISIT system, with 75 watch list matches on 32 
criminals.
    The increase in security at our airports and seaports provided by 
US VISIT has not had a negative effect on wait times, nor our 
commitment to service. The pilot program exercised in Atlanta prior to 
the implementation of the capabilities on January 5, 2004 identified an 
increase of less than 15 seconds in inspection time to capture the 
finger scans and digital photo. An analysis of 20 major airports 
utilizing data for the December, 2003, January and February 2004 
timeframes, indicate that there was no impact on CBP's ability to meet 
45 minute time frames on airline inspections.
    After early system evaluation it is clear that visitors appreciate 
the effort we are making to enhance security while simultaneously 
facilitating the process for law-abiding, legitimate travelers.
    Question. The budget states that you expect to deploy an exit 
capability at up to 80 airports and 14 seaports this year. Can you give 
us an update on the exit pilots you are currently running as a part of 
US VISIT?
    Answer. On January 5, 2004, US VISIT implemented two exit pilots: 
one at an airport and one at a seaport of entry.
    In fiscal year 2004, US VISIT will continue to pilot and evaluate 
various exit alternatives, e.g. intelligent work stations/kiosks and 
hand held devices at various locations in airports and seaports.
    In fiscal year 2005, based upon these pilot evaluations, US VISIT 
will initiate implementation of the selected exit solution at the 
remaining 79 airports and 11 seaports, continuing implementation in 
fiscal year 2005.
    Exit processing is to be provided at land border ports following 
the entry implementation of US VISIT functionality in secondary at the 
50 largest land ports in conjunction with RF technology implementation 
in fiscal year 2005. As various exit components are implemented, we 
further strengthen the immigration system by identifying people who do 
not comply with the terms of their admission.
    Question. One of the requirements of the Enhanced Visa Security Act 
is for the countries participating in the Visa Waiver Program to issue 
biometrically-enabled machine-readable travel documents--and for the 
Department of Homeland Security to have the equipment at ports-of-entry 
to be able to read those documents by October of 2004. Do the 
Department of Homeland Security and the Department of State expect that 
the October deadline will be met by the Visa Waiver countries?
    Answer. By October 26, 2004, VWP countries must certify that they 
have a program to issue biometrically enhanced passports in order to 
continue in the VWP Most, if not all, of the VWP countries have 
informed the United States that they will not be able issue 
International Civil Aviation Organization (ICAO) compliant passports by 
October 26 due to technical and other factors. Changing the deadline 
would require Congressional action, and a memorandum concerning this 
issue was forwarded to Congress signed by Secretaries Ridge and Powell 
requesting an extension of the deadline to November 30, 2006. As part 
of the decision to request the extension of the deadline, and to 
provide an additional measure of security while standards and 
technology solutions progress, the Secretary will require beginning 
September 30, 2004, all VWP travelers process through US VISIT. US 
VISIT has funding in the fiscal year 2004 expenditure plan to implement 
this requirement at all POE's (in excess of 330 individual ports).
    Question. The US VISIT program office is currently reviewing the 
proposals for the prime integration contract. Given that it may be 
several more months before this contract is awarded and work can 
begin--how do you expect to meet the deadline of deploying the entry 
and exit capabilities to the 50 busiest land ports by the end of this 
calendar year?
    Answer. Significant up-front planning has been and is being 
accomplished in all aspects of this increment, especially in the 
information technology and facilities work areas which well positions 
the Prime Integrator to assist us in meeting our implementation 
deadlines.

             INTEGRATION OF INFORMATION TECHNOLOGY SYSTEMS

    Question. The Chief Information Officer has been working for over a 
year on the integration and consolidation of information technology 
systems. The budget request for 2005 includes significant resources for 
implementing a new Department-wide human resources system, and a new 
financial management system.
    The Department staff identified over 40 different general ledger 
systems, 30 different procurements processes, and 20 different 
approaches to managing travel costs. Have you seen any savings yet from 
consolidating computer systems?
    When do you expect to see savings?
    Answer. We are still in the development phase of this project and 
therefore cannot estimate when savings may be realized.
    Question. Is the $56 million requested for eMERGE going to cover 
the remaining costs of developing and implementing the financial 
management system?
    Answer. No. This is for fiscal year 2005 only--implementation will 
continue through fiscal year 2006.
    Question. If not, what is the current estimate for the full cost of 
implementation?
    Answer. 2004 and 2005 Projected Costs for eMerge are below. Costs 
in 2006 have not yet been determined.

                              [In millions]
------------------------------------------------------------------------
                                               2004            2005
------------------------------------------------------------------------
Annual Recurring........................            $2.0           $10.5
IT Investments..........................             8.0            56.0
Working Capital.........................            24.8            10.0
                                         -------------------------------
      Total.............................            34.8            76.5
------------------------------------------------------------------------

                      PERFORMANCE BASED PAY SYSTEM

    Question. Under Departmental Operations, $102 million is requested 
for training of supervisory personnel to administer a performance-based 
pay system and to create the framework for the new system. While the 
proposal for Department-wide Technology includes a request for $21 
million to design, develop and implement a new human resource 
information technology system. Exactly how much will the new human 
resources system cost?
    Answer. We are projecting fully loaded life cycle costs of $408.5 
million for complete system implementation. It is important to note 
that the $102.5 million is requested for full implementation of the new 
system (including project management, systems design, training and 
communications, etc.), not just the training aspects of system 
implementation. Major components of this figure include $102.5 million 
for system implementation, $10 million for Coast Guard performance 
pool, an estimated $165 million for other component performance pools, 
and a 6-year life cycle cost of $131 million for human resources 
information technology.
    Question. When do you anticipate the computer system will be 
finished and fully implemented?
    Answer. We are anticipating that technology systems to support 
implementation of the new DHS human resources system will be completed 
during fiscal year 2007.
    Question. The Department of Defense is currently planning to fund a 
conversion to a performance-based pay system without requesting 
additional funding. Why does your budget call for an increase?
    Answer. Fully funding a new system, such as the one proposed by 
DHS, is viewed as a critical component in ensuring its successful 
implementation. Adequate funding to support implementation, with 
particular emphasis on requirements for supervisory and managerial 
training, have been raised as key concerns by the Administration, key 
DHS stakeholders, and union representatives.
    Question. When do you anticipate that the ``demonstration project'' 
to test the new Department of Homeland Security pay-for-performance 
system will be operational within the U.S. Coast Guard?
    Answer. We anticipate that the U.S. Coast Guard will be completely 
operational by January 2006.
    Question. When do you anticipate that the new pay system will be 
fully implemented and operational across the entire Department?
    Answer. At this point we anticipate that the new system will be 
operational in all of DHS by January 2007.

                FUNDING TRANSFERS/LEGISLATIVE PROPOSALS

    Question. The President's budget proposes legislation to transfer 
the $153 million emergency food and shelter program to the Department 
of Housing and Urban Development, and indicates that enactment of 
authorizing legislation will be pursued to return the $400 million 
Strategic National Stockpile back to the Department of Health and Human 
Services. The fiscal year 2005 funding request for the Department of 
Homeland Security assumes no funding for either of these programs. Will 
the requisite legislative proposals be transmitted to the Congress as 
soon as possible and support given for their enactment into law prior 
to the start of the appropriations process?
    Answer. FEMA is currently working with the appropriate authorizing 
and appropriations committees on the legislative language to transfer 
the Emergency Food and Shelter program to the Department of Housing and 
Urban Development in accordance with the President's fiscal year 2005 
budget request.
    The President's fiscal year 2005 Budget includes $400 million for 
the Strategic National Stockpile (SNS) and proposes transferring this 
program to the Department of Health and Human Services (HHS). Language 
to effectuate the transfer of SNS from DHS to HHS has been added to 
S.15, the Project Bioshield Act of 2003.
    Question. Another request in the fiscal year 2005 budget is for 
appropriations language to credit revenues and collections of security 
fees to the Federal Protective Service. As I understand it, these 
revenues and collections are currently credited to the General Services 
Administration's Federal Buildings Fund. Is this requested 
appropriations language sufficient to authorize the transfer of fee 
collections from the General Services Administration to the Department 
in lieu of a legislative proposal? Why?
    Answer. Prior to the transfer of the Federal Protective Service 
(FPS) from the General Services Administration (GSA) to the Department 
of Homeland Security (DHS), GSA collected security fees from its client 
agencies as a part of the rent bill. GSA deposited the collections into 
the Federal Building Fund and allocated the security funds in support 
of FPS law enforcement and security operations. In fiscal year 2005, 
GSA will serve as the billing agent for these fees. The GSA will 
continue to bill the security fees concurrent with the rent billing 
process, but the security revenue will be deposited directly to the FPS 
account. The revenues and collections will not be deposited into the 
Federal Buildings Fund and no transfer to FPS will be required. The FPS 
will continue to be funded by offsetting collections, and the 
appropriations request represents the obligational authority necessary 
to spend the estimated revenues and collections received for law 
enforcement and security services that FPS will provide.
    This process is consistent with the authorities transferred to the 
DHS in the Homeland Security Act of 2002 (Public Law. 107-297, Sec. 403 
and Sec. 422) and the authorities vested in and retained by the 
Administrator of GSA.

              DEPARTMENT OF HOMELAND SECURITY HEADQUARTERS

    Question. The fiscal year 2005 budget requests $65.1 million to 
consolidate Department of Homeland Security headquarters operations at 
the Nebraska Avenue complex (NAC). It also indicates that the 
administration will propose legislation to transfer the ownership of 
the Nebraska Avenue complex from the Navy to the General Services 
Administration.
    When will the legislative proposal to transfer the ownership of the 
Nebraska Avenue complex be submitted to the Congress?
    Answer. The legislation was transmitted to the House on February 
12, 2004 and the Senate on February 18, 2004. Since the NAC is 
currently owned by the Navy, the Majority Leader's office referred the 
proposal to the Senate Armed Services Committee (SASC). While the SASC 
has included its version of the Administration proposal in the annual 
defense authorization bill, the Department is concerned that delays in 
passage of that larger legislation will hamper DHS' mission to ensure 
our Nation's security. The Department will continue to work with the 
appropriate Committees to expedite the consolidation of DHS 
headquarters operations at the NAC.
    Question. Is the $65.1 million requested for relocation of the Navy 
and improvement of existing structures at the Nebraska Avenue complex 
contingent on the enactment into law the authorization of this 
transfer?
    Answer. The $65.1 million will fund improvements at the NAC as well 
as the cost to relocate Naval operations to alternate facilities. 
Without enactment of the legislation transferring ownership of the 
property to GSA, the Navy will not be able to complete their moves from 
the NAC due to the Defense Base Realignment Act (BRAC.
    Question. The fiscal year 2004 appropriations Act provides $20 
million to the Department for alteration and improvement of facilities 
and for relocation costs necessary for interim housing of the 
Department's headquarters' operations. Please update us on the use of 
these funds.
    Answer. To date, $7,411,789 has been obligated: $4,657,220 for Navy 
Relocation, $2,344,569 for space preparation in Building 1 (Sec/Dep 
Sec), Building 3 (1st and 3rd floor swing space), Building 7, 
Facilities and Security Badging, and $410,000 for Architectural and 
Engineering Services for Buildings 1, 4 and 5.
    The remaining $12,588,211 is committed for Building 19, 1st and 2nd 
floors for Information Analysis and Infrastructure Protection (IAIP) 
and Buildings 4 and 5 for Border Transportation Security (BTS), Public 
Affairs and Citizenship and Immigration Services (CIS). The design/
space layout for Building 19 is at approximately 70 percent completion, 
and design/space layout for Buildings 4 and 5 is at 100 percent.
    Question. Once the Nebraska Avenue complex is transferred from the 
Navy to the General Services Administration (GSA) as proposed, won't 
the Department be required to make rental payments to the GSA on this 
location? Is this additional cost assumed in the Department's fiscal 
year 2005 budget? If not, why? What will be the estimated annual rental 
of space payment on the Nebraska Avenue complex once it is transferred 
from the Navy?
    Answer. Yes, rental payments to General Services Administration 
(GSA) will be required. Our fiscal year 2005 request includes $14 
million ($4 million increase from fiscal year 2004) for department-
related rent expenditures.
    GSA is currently conducting building condition evaluations and a 
site appraisal. We will not have refined cost until these activities 
are complete. However, through consultation with GSA, DHS is currently 
estimating the following rental costs:
  --fiscal year 2005 $5.8 million (staggered occupancy)
  --fiscal year 2006 $13.1 million (mostly occupied)
  --fiscal year 2007 $14.4 million (fully occupied)
    These estimates are based on the following rent breakout:

------------------------------------------------------------------------

------------------------------------------------------------------------
Base Rent.................................  $29.00 per rentable square
                                             feet (prsf)
Operating Rent............................  8.90 prsf
T/I Allowance.............................  4.64 prsf
GSA Fee of 8 percent......................  3.80 prsf
                                           -----------------------------
      Total...............................  46.34 prsf (for 5 year
                                             period)
                                            43.06 prsf (for 10 year
                                             period)
Average Approx............................  45.00 prsf \1\
------------------------------------------------------------------------
\1\ Does not include parking.

                       United States Coast Guard

    Question. The fiscal year 2005 budget request proposes 
consolidating all of the research and development components of each 
agency within the Department of Homeland Security into the Science and 
Technology Directorate, to include the Coast Guard's Research, 
Development, Test and Evaluation account. The fiscal year 2004 enacted 
level for research and development within the Coast Guard was $14.9 
million; however, this budget proposes only $13.5 million for Coast 
Guard research and development within Science and Technology.
    Can you explain the approximately $1.4 million decrease in 
requested funding for the Coast Guard's research and development?
    Answer. The fiscal year 2004 and earlier CG R&D appropriations 
included project funds in addition to operating costs of the CG R&D 
Center at Avery Point, CT. The $13.5 million requested in the fiscal 
year 2005 S&T budget does not include any project funds; the request is 
intended to fund only facility and personnel (support and technical) 
costs at the Coast Guard (CG) R&D Center. This level is consistent with 
prior year costs. The fiscal year 2004 enacted level was a significant 
reduction from the fiscal year 2004 request of $22 million and prior 
year appropriations causing an imbalance between operating costs and 
project funding for fiscal year 2004.
    Question. Will this line item for Coast Guard research and 
development continue to be decreased in subsequent fiscal years until 
there is one lump-sum research and development account within Science 
and Technology for all of the agencies at the Department of Homeland 
Security?
    Answer. No. The Science and Technology Directorate (S&T) and Coast 
Guard (CG) are preparing a formal agreement that will detail the 
coordination and funding mechanisms for future CG R&D capabilities. The 
foundation for that agreement is the consolidation of funding requested 
in the fiscal year 2005 budget. S&T and the CG have further agreed upon 
a base level of additional project funding in the amount of $5 million 
that will be specifically targeted toward non-security related projects 
including maritime science and research. This funding will be designed 
to support CG mission-programs such as Marine Environmental Protection, 
Living Marine Resources, Search and Rescue, Aids to Navigation and 
Marine Safety. The specific projects in support of these mission-
programs will be prepared annually for S&T concurrence.
    In addition to this $18.5 million in funding, the Coast Guard will 
submit security-related research requests through S&T for coordination 
across all portfolios and DHS components. The Coast Guard has submitted 
a maritime security R&D portfolio detailing approximately $50 million 
in vital maritime security research initiatives. This portfolio has 
been validated by S&T portfolio managers and will be considered in the 
development of future spending priorities and commitments from S&T. 
Project funding levels for CG and other DHS component requests will 
depend on the risk and cost associated with the project, effect on 
agency missions, linkage to S&T strategic objectives, and 
executability.
    Question. How will consolidating the research and development 
account into Science and Technology affect the Coast Guard in general, 
in terms of control over research projects of particular interest to 
the Coast Guard and access to all ongoing research at the Department?
    Answer. Through its portfolio manager at S&T, the CG will have 
direct access to, and visibility of all S&T research and initiatives. 
The CG will, at a minimum, retain control of the projects in support of 
its non-Security mission programs. The integration of funding and 
effort will go far to minimize redundancy and maximize the 
effectiveness of Coast Guard R&D while ensuring that all Coast Guard 
mission requirements remain a key part of S&T planning and resource 
decisions.
    Question. How will this consolidation directly affect the Coast 
Guard Research and Development Center in Groton, Connecticut?
    Answer. There are currently no plans by DHS S&T to make changes to 
the location or personnel staffing levels of the CG R&D Center.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

                     ALASKA-CANADA BORDER SECURITY

    Question. The Department of Homeland Security has recently 
indicated that it is formulating plans to increase security along the 
Alaska-Canada border. What steps will the Department of Homeland 
Security take to ensure that the heightened security along the border 
will not negatively impact the shipments of goods to Alaska?
    Answer. Inordinate delays with Alaska-Canada at Alaska-Canada's 
border with truck cargo are not anticipated. Truck traffic is 
relatively small at the border ports of entry. In addition, most of the 
cargo is low risk and easily and quickly scanned for radiation with 
personal radiation detectors.
    This is in spite of the fact that since 9/11, several measures have 
been implemented to increase security along the Canadian/Alaskan 
border. Staffing has increased significantly due to various 
Congressional initiatives. Additional physical barriers have been 
installed at multiple crossing points, and several other security 
implements have been employed to further ``harden'' the border between 
Alaska and Canada.
    The ports of Skagway and Dalton Cache are now operational 24 hours 
a day, 7 days a week (24/7). Additional staffing and operational hours 
have increased CBP's vigilance at these two important ports of entry. 
The port of Alcan continues to operate on a 24/7 schedule.
    The port of Poker Creek, a busy, seasonal crossing, is now jointly 
staffed by CBP and Canada Border Services Agency personnel. This 
collaboration has led to a safer, more efficient, border security 
operation.
    The staffing enhancements and scheduling changes have helped to 
meet the new challenges posed by the recent implementation of the Bio-
Terrorism Act. CBP continues to work with carriers, importers, 
commercial fishermen, and even professional dog sled mushers to 
minimize potential disruptions and delays. To date, there haven't been 
any problems and we don't anticipate any.

                              COAST GUARD

    Question. The fiscal year 2005 Homeland Security budget includes 
$6.2 billion for the United States Coast Guard. Does this amount ensure 
that the Coast Guard will comply with Section 888 of the Homeland 
Security Act? This provision requires that the Coast Guard maintain its 
traditional missions of Search and Rescue, Fisheries Enforcement, Drug 
Interdiction, and Aids to Navigation.
    Answer. The Coast Guard will continue to support all the programs 
specified in Section 888 of the Homeland Security Act. The Coast 
Guard's fiscal year 2005 budget proposes budget authority of $7.46 
billion, a 9 percent increase over fiscal year 2004, and continues the 
Coast Guard's effort to enhance capability and competencies to perform 
all safety and security missions. Due to the Coast Guard's multi-
mission nature, full support of the Coast Guard's fiscal year 2005 
budget proposal, which includes funding for Integrated Deepwater 
System, Rescue 21, Response Boat-Medium and Great Lakes Icebreaker 
projects, will assist in the performance of all mission areas. Coast 
Guard is gaining capacity with operational funding of eleven 87-foot 
Coastal Patrol Boats and five 179-foot Patrol Coastals transferring 
from the Navy. These additional assets will provide more resource 
hours, which will be applied to all mission areas. However, even with 
this additional funding, the Coast Guard must be judicious in the 
allocation of a finite resource base across traditional and homeland 
security missions to effectively deliver essential daily services to 
the American public.
    To successfully do this, the Coast Guard is working to develop a 
Strategic Blueprint, which provides a description of the strategies and 
processes for allocating Coast Guard resources to reduce risk within 
each mission program, and to accomplish stated performance goals. The 
post-9/11 environment demands that the Coast Guard focus on reducing 
risk and strive to achieve performance goals in each program through a 
continual examination of its authorities, capabilities, competencies 
and partnerships. The Strategic Blueprint documents how the Coast Guard 
enables the operational commander to make decisions regarding the 
employment of resources to counter risks in an ever-changing 
environment.
    Question. The United States Coast Guard recently completed a 
successful test of two ``Predator A'' unmanned aerial vehicles in King 
Salmon, Alaska. The Coast Guard will test a ``Predator B'' unmanned 
aerial vehicles in Alaska during the month of June. Do you consider the 
use of Predators and other unmanned aerial vehicles to be a cost 
effective tool to assist the Department with maintaining traditional 
and security related missions?
    Answer. Yes, the use of Unmanned Aerial Vehicles (UAV) is a cost 
effective tool to meet some operational requirements for DHS and the 
Coast Guard. The Coast Guard's current Integrated Deepwater System 
(IDS) implementation plan includes the acquisition of two types of 
UAVs, the High Altitude Endurance UAV and the Vertical Takeoff and 
Landing Unmanned Aerial Vehicle (VUAV), with the goals of increased 
Operational Effectiveness (OE) and reduced Total Ownership Costs (TOC). 
The Coast Guard is currently acquiring the Bell HV-911 ``Eagle Eye'' as 
the Vertical Takeoff and Landing Unmanned Aerial Vehicle (VUAV) for 
shipboard deployable operations. The VUAV is a short-range, low 
maintenance aircraft, which will allow the Coast Guard to extend the 
surveillance, classification and identification capability of its major 
cutters through its speed, range, and endurance and do so more cost 
effectively. This asset will be used for maritime homeland security, 
search and rescue missions, enforcement of laws and treaties including 
illegal drug interdiction, marine environmental protection, and 
military preparedness.
    To mitigate risk and learn more about using Medium and High 
Altitude Long Endurance (MALE/HALE) UAVs, the Coast Guard has conducted 
demonstrations in Alaska to evaluate the efficacy of using MALE/HALE 
UAVs, like the Predator UAVs, for Maritime Domain Awareness (MDA). 
These demonstrations are also building organizational partnerships 
within DHS, NASA, DOD and the private sector for the future use of 
UAVs. DHS and the Coast Guard have had limited experience with UAV 
operations, and no experience with Beyond Line of Sight UAV operations. 
The results of the exercises and subsequent data analysis will assist 
in the development of tactics, techniques and procedures for use in any 
future DHS/USCG UAV operations (including Predator B), and will be used 
to develop, validate, verify or accredit ongoing environmental, 
operational, regulatory, and cost benefit studies.

                         NATIONAL ALERT SYSTEM

    Question. Last year, Congress included $10 million to improve our 
national alert system. We directed the Department of Homeland Security 
to report on how the existing nationwide radio network, administered by 
NOAA, can be expanded so that it can reach more citizens. It was 
intended that Homeland would consult with the FCC to develop a system 
that would be ubiquitous and would cross a full range of mediums and 
technologies to alert the public to a terrorist threat. For instance, 
Americans should be alerted to a threat through the use of not just 
radio but also wireline and cellular telephones, e-mail and instant 
messaging systems, radio and television broadcasts, and personal 
digital assistants. The report was also supposed to evaluate how the 
system is being tailored to send out regional threats in addition to 
nation-wide threats.
    This report was due on December 15, 2003. Mr. Secretary, it is my 
understanding that the Appropriations Committee has not yet received 
the report. Please tell us what the status is.
    Answer. The congressional report has been cleared by OMB and the 
Department. We anticipate delivery of the report to the congressional 
Appropriations Subcommittees by May 21, 2004.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

         NATIONAL INFRASTRUCTURE SIMULATION AND ANALYSIS CENTER

    Question. Secretary Ridge, the Department of Homeland Security has 
taken ownership of the National Infrastructure Simulation and Analysis 
Center, or NISAC. NISAC was developed by Sandia and Los Alamos National 
Laboratories to simulate and analyze various events and the cascading 
effects on critical infrastructure in the United States. Following the 
September 11th terrorist attacks, NISAC took on added importance as the 
Administration and Congress focused on homeland security.
    The fiscal year 2004 Homeland Security Appropriations Act had 
approximately $23 million for NISAC. Would you please give the 
Subcommittee the status of the allocation of the fiscal year 2004 
funding?
    Answer. The Homeland Security Appropriations Act of did not contain 
a specific line item for the National Infrastructure Simulation and 
Analysis Center. However, the Department obligated $20 million in 
November 2004 for NISAC efforts that will be performed by Los Alamos 
National Laboratory ($10 million) and Sandia National Laboratory ($10 
million). Some of the planned NISAC activities include chlorine 
industry studies, analyses of rail system and electric power 
disruptions, assessments of Hurricane Isabel impacts on infrastructure, 
port and inland waterway modeling, as well as urban infrastructure 
modeling.
    Question. How much is in the President's fiscal year 2005 budget 
request to support activities by NISAC?
    Answer. The fiscal year 2005 request for the NISAC is $27 million.
    Question. What are some of the activities envisioned in the fiscal 
year 2005 budget for NISAC?
    Answer. NISAC fiscal year 2005 activities are expected to include 
expansion of the Center's efforts to develop National and Regional 
Tools into additional regions and cities of the Nation. Additionally, 
NISAC will begin developing consequence analysis and decision support 
tools to support the following:
  --Expansion of the urban infrastructure suites models for 
        transportation, telecommunications, water, public health and 
        energy to additional high threat urban areas.
  --Expansion of the dynamic simulation models to selected east and 
        west coast ports.
  --Expansion of the interdependent energy infrastructure simulation 
        system
  --Expansion and testing of the waterways asset prioritization tool in 
        concert with the U.S. Coast Guard and Army Corps of Engineers.
  --Continued expert analysis and support to short term actions for the 
        Department's primary missions by using the Center's developing 
        infrastructure models and creating new ones where necessary.
    Question. One of the items that transferred from the Department of 
Energy to the Department of Homeland Security with NISAC was an 
appropriation of $7.5 million for the construction and equipping of a 
NISAC facility at Kirtland Air Force Base in Albuquerque, New Mexico, 
which is adjacent to Sandia National Lab. Those funds have not been 
released for their intended purpose.
    What is the delay in moving forward on this important facility?
    Answer. The Homeland Security Appropriations Act did not explicitly 
appropriate $7.5 million for a NISAC facility Nonetheless, the 
Department is drafting a letter to the Department of Defense to begin 
the necessary coordination to build a DHS building on DOD property. We 
expect to initiate site surveys, followed by a possible site selection 
this summer. DHS has retained sufficient funds to complete the survey 
and site selection process.
    Question. What is the status of the $7.5 million appropriation 
specifically for the NISAC facility? Are those funds being held for the 
intended purpose?
    Answer. Yes.
    Question. When can the Subcommittee expect the Department of 
Homeland Security to break ground on the NISAC facility in New Mexico?
    Answer. The program manager has initiated discussions with the 
Kirkland Base Commander concerning the availability of suitable sites 
on Kirkland for the NISAC and we have begun coordination with the 
Department of Defense to address requirements for building a DHS 
facility on DOD property. The groundbreaking date will be dependent on 
the identification of a suitable site for the NISAC.

                    UNMANNED AERIAL VEHICLES (UAVS)

    Question. Secretary Ridge, I have written to you on two different 
occasions in support of exploring the option of using unmanned aerial 
vehicles (UAVs) to monitor our borders, particularly the Southwest 
border. I also noticed in your testimony that there is $10 million in 
the President's Budget to ``plan, procure, deploy and operate unmanned 
aerial vehicles.'' In New Mexico, we have some experience with UAVs. In 
fact, the Physical Sciences Laboratory at New Mexico State University 
operates a Department of Defense sponsored UAV validation and test 
facility. Because of the already established presence of UAVs in New 
Mexico, I have also invited you to visit Las Cruces to see for yourself 
this work and evaluate Las Cruces as a potential site for housing the 
UAV wing responsible for border surveillance.
    Given the $10 million request for UAVs, can you expand upon the 
plans you have for them?
    Answer. U.S. Customs and Border Protection has been evaluating the 
possibilities of using UAV technology to enhance its border security 
mission since June 2003. The initial evaluation process indicates that 
UAVs may indeed have a role in that mission. A pilot program is 
underway to acquire a UAV system and deploy it to various border areas 
to further evaluate their effectiveness and to further develop concepts 
of operation utilizing UAVs in CBP's mission. The $10 million budget 
request will support that effort in fiscal year 2005 during which a 
fully self-supporting UAV package will be leased either via an existing 
DOD-owned contract or through a competitive CBP procurement process.
    Question. How many UAVs does the Department currently have?
    Answer. DHS does not possess any UAV systems.
    Question. How many UAVs does the Department plan to acquire?
    Answer. Several agencies including CBP, Coast Guard and TSA 
regularly coordinate UAV programs in a working group. The working group 
is currently developing high-level requirements to be applied towards 
any future DHS-wide acquisition of UAVs. No concrete commitment has yet 
been made towards the type or quantity of UAV system acquisition due to 
the variety of needs and requirements among the agencies.
    The Coast Guard's current Integrated Deepwater System (IDS) 
implementation plan includes the acquisition of two types of UAVs, the 
High Altitude Endurance UAV and the Vertical Takeoff and Landing 
Unmanned Aerial Vehicle (VUAV), with the goals of increased Operational 
Effectiveness (OE) and reduced Total Ownership Costs (TOC). The Coast 
Guard is currently acquiring the Bell HV-911 ``Eagle Eye'' as the 
Vertical Takeoff and Landing Unmanned Aerial Vehicle (VUAV) for 
shipboard deployable operations.
    Question. Where does the Department plan on stationing these UAVs?
    Answer. UAV usage within DHS is in the very early developmental 
stages. A number of potential sites are being considered and no final 
decisions have been made at this time.
    Question. When can you join me in Las Cruces to evaluate the Las 
Cruces International Airport as a potential home for the UAV program?
    Answer. I appreciate the Senator's offer and respectfully suggest 
that our staffs try to coordinate a future departmental visit to that 
site.

CHARTER FLIGHTS TO FEDERAL LAW ENFORCEMENT TRAINING CENTER IN ARTESIA, 
                               NEW MEXICO

    Question. Secretary Ridge, as you know, one of the Federal 
Government's premier training sites for law enforcement officers is 
located in Artesia, New Mexico. It is known as FLETC-Artesia (Federal 
Law Enforcement Training Center). When terrorists attacked us in 
September of 2001, Congress quickly required the training of hundreds 
of new Air Marshals. It was FLETC-Artesia that met the impressive 
challenge of training these new Air Marshals, quickly ramping up the 
program and bringing in three 727's to be used in this training.
    FLETC-Artesia is also the campus chosen to provide training for 
airline pilots who choose to carry firearms in the cockpit (also known 
as Federal Flight Deck Officers). They provide this training in 
addition to basic and advanced training for a number of other agencies.
    Feedback from trainees who have been to Artesia is almost 
universally positive. In fact, one of the few complaints has to do with 
one of its greatest assets--its location. Because Artesia is over 3 
hours from the nearest large cities (Albuquerque and El Paso), there is 
a lot of wide open space to conduct training exercises. Unfortunately, 
it is also difficult to get to Artesia--this is the biggest complaint. 
The good news is that I believe there is a solution to this problem. I 
have been working with the officials at FLETC-Artesia, FLETC 
Headquarters in Glynco, Georgia, and in the Border and Transportation 
Safety Directorate on a plan to provide charter services from a major 
air hub, like Dallas-Fort Worth, to Roswell, which is a 30 minute bus 
ride from FLETC-Artesia. Ultimately, I believe the airlines will see 
how beneficial this is to them and will schedule regular service along 
this route. I also believe the client-agencies will quickly see the 
benefits of shorter travel times, fresher students, and better trained 
employees.
    FLETC-Artesia recently put out a Request for Information seeking 
feedback from airlines who might provide this service. My understanding 
is that the response was positive and that estimates are that it would 
take $800,000 to provide this service for the rest of the fiscal year.
    As a member of the Homeland Security Appropriations Subcommittee, I 
joined with my colleagues in deciding not to earmark that bill. This 
meant that there was no opportunity for me to work with my colleagues 
to place money in that bill for this project. Instead, we left it up to 
you to determine how best to spend the money to protect our Homeland. 
Will you commit to improving the training of our Federal law 
enforcement officials by approving funds for this charter service?
    Answer. In the post September 11, 2001 period, there has been real, 
sustained growth in the use of all FLETC training centers, including 
the Artesia, NM center. Although the absence of regular and reliable 
service to the Artesia area has been an obstacle to wider use of that 
location in the past, recently we have increased utilization to almost 
capacity because the FLETC Glynco site is at maximum capacity and the 
agencies need to train within specific timeframes. FLETC is 
experimenting with conducting more basic training programs at Artesia 
in fiscal year 2004 and there has been increased use of the site for 
Flight Deck Officer training, among others, for specialized training. 
With this in mind, FLETC will track closely the issues and usage of the 
Artesia site and report back their findings in fiscal year 2005. Should 
the travel service continue to be a problem, the Department will 
consider looking at other possible solutions, including some 
subsidizing of air service into the Artesia area. This may require 
additional authorizing language.
    Question. How can we in Congress help provide the best training 
possible for our Federal law enforcement officers, particularly within 
the Federal Law Enforcement Training Center?
    Answer. Both Congress and the Administration share a common goal of 
ensuring all Federal law enforcement officers have the opportunity for 
the highest quality training, especially in this period of national 
concerns with security of the homeland. The Department of Homeland 
Security (DHS) is indebted to your leadership and that of others in 
Congress, who have long and actively supported the concept of 
consolidated training that is represented by the Federal Law 
Enforcement Training Center (FLETC). Since the events of September 11, 
2001, FLETC has undertaken increasingly more training responsibilities 
and we are proud of the achievements that have been made by the FLETC 
staff and, indeed, its 76 partner agencies. With the generous support 
of Congress, FLETC has added many new facilities and improved upon the 
delivery of critical training, such as terrorism, first responder, and 
international financial crimes over the last few years. In addition to 
FLETC's Glynco, GA, Artesia, NM, and Cheltenham, MD training sites, the 
DHS has entrusted two other sites to FLETC for law enforcement training 
in Charleston, SC and Harpers Ferry, WV in fiscal year 2004 and fiscal 
year 2005, respectively. At this point, we believe the resources, 
funding, and support for consolidated training are meeting fully the 
changing dynamics of Federal law enforcement training.

                            FIRST RESPONDERS

    Question. Secretary Ridge, as you know, long before the terrorist 
attacks of September 11, New Mexico Tech was working as part of a 
consortium with Louisiana State University and Texas A&M to provide 
training to first responders. Since the attacks the need for this 
training has become more important.
    How much is included in the President's fiscal year 2005 Budget for 
the training of first responders?
    Answer. $92 million is included in the President's fiscal year 2005 
Budget for the training of first responders. As well, states and 
localities may choose to use their grant funding to support additional 
training.
    Question. There has been a lot of discussion about standardization 
of equipment used by first responders. What are your thoughts about 
standardization of training for first responders?
    Answer. The Office for Domestic Preparedness (ODP) is the principal 
component of the Department of Homeland Security (DHS) responsible for 
preparing the United States for acts of terrorism. In carrying out its 
mission, ODP is the primary office responsible to providing training, 
funds for the purchase of equipment, support for the planning and 
execution of exercises, technical assistance and other support to 
assist states and local jurisdictions prevent, plan for and respond to 
acts of terrorism ODP provides more than 30 different types of training 
courses. These courses are tailored for a broad spectrum of emergency 
responders, including fire service, hazardous materials, law 
enforcement, emergency medical services, public health, emergency 
management, public works agencies, governmental administrative, 
healthcare, and public safety communications
    ODP's training efforts fall into three different categories: (1) 
in-residence (training provided at one the National Domestic 
Preparedness Consortium (NDPC) facilities), (2) on-site or mobile 
training (training provided at a local agency by request through an 
NDPC member or other ODP training partner), and (3) Website-based 
training. In-residence or ``residential training'' occurs at one of the 
five members of the National Domestic Preparedness Consortium (NDPC). 
On-site training is provided by either one of the members of the NDPC 
or through one of ODP's other training partners. This training is 
provided directly at a State or local first responder agency upon 
official request through that state's state administering agency for 
ODP funds. ODP's Website-based training efforts are administered by the 
Texas Engineering and Extension Service, which offers three online 
courses for emergency responders.
    ODP draws on a large number of resources to develop and deliver a 
comprehensive national training program. In addition to the NDPC, ODP 
works with a large number of national associations and organizations, 
along with other agencies from the local, State, and Federal levels, to 
provide training to our Nation's emergency prevention and response 
community. This approach aligns closely with the President's National 
Strategy for Homeland Security issued in July 2002, which called for a 
consolidated and expanded training and evaluation system to support the 
Nation's emergency prevention and response community.
    To ensure compliance with nationally accepted standards, these 
courses have been developed and reviewed in coordination with other 
Federal agencies, including the Centers for Disease Control and 
Prevention (CDC), the Department of Energy, the Environmental 
Protection Agency (EPA), the Federal Bureau of Investigations (FBI), 
the Federal Emergency Management Agency (FEMA), as well as with 
professional organizations such as the International Chiefs of Police, 
the International Association of Fire Chiefs, and the National 
Sheriff's Association.
    Question. What potential do you see for future use of this 
consortium?
    Answer. New Mexico Tech recently entered into negotiations for the 
purchase of the town of Playas, New Mexico. This former mining town was 
virtually abandoned when the mine was closed. New Mexico Tech plans to 
use this town as a real-world training site.
    Question. What role do you foresee Playas playing in the training 
of first responders?
    Answer. Playas will be jointly developed by the New Mexico 
Institute of Mining and Technology and the New Mexico State University 
using funds already made available to the New Mexico Institute of 
Mining and Technology through the Department of Homeland Security's 
Office for Domestic Preparedness (ODP). As you are aware, ODP has 
funded the New Mexico Institute of Mining and Technology since Fiscal 
year 1998 as part of the National Domestic Preparedness Consortium.
    As part of the Consortium, the New Mexico Institute for Mining and 
Technology supports ODP's mission of assisting State and local 
governments plan and prepare for incidents of domestic terrorism by 
providing critical training to the Nation's first responders.

                     SCIENCE AND TECHNOLOGY FUNDING

    Question. Secretary Ridge, the Department of Homeland Security has 
a significant research budget to develop new technologies to secure the 
United States against terrorist attacks. I know that the Department has 
made significant progress in setting up the mechanisms to allocate 
science and technology funding to industry, universities, and national 
laboratories. This is a vital mission of your Department.
    I understand that the Department is still in the process of 
allocating fiscal year 2003 science and technology funding. What is the 
current time line for completing this allocation of funding?
    Answer. The Science and Technology Directorate has ``execution 
plans,'' that is, identified scope of work, for all remaining fiscal 
year 2003 funds and fully expects to have all remaining funds allocated 
by the end of fiscal year 2004.
    Question. The Department is now engaged in the allocation of fiscal 
year 2004 science and technology funding. How do you plan to allocate 
fiscal year 2004 funding in a more timely manner?
    Answer. The Department of Homeland Security has existed now for 
just over a year. Like the rest of the Department, the Science and 
Technology Directorate has been working hard to develop effective and 
efficient procedures and policies, including those necessary for 
selection of performers of the work to be done and the subsequent 
contractual processes and allocation of funds. As these procedures get 
established, projects will be awarded and funded in a more timely 
manner. I am pleased to say that in the last 3 months, the Science and 
Technology Directorate has made significant progress in allocating its 
available funding into the hands of those researchers who are 
developing and transitioning the vital technologies and tools to make 
the Nation safer. Both the Under Secretary for Science and Technology 
and I will continue to monitor the status of project selection and 
funding, and expect to see continued progress.
    Question. I note that this year, the Department's budget submission 
is improved over last year as one would expect. Although there are 
security considerations, could you describe your plans to ensure 
transparency in the Department of Homeland Security budget? Both the 
Departments of Defense and Energy make their supporting budget 
documents public. Will you follow suit
    Answer. The Science and Technology Directorate prepares its annual 
Congressional Justification in an open and unclassified manner and will 
continue to do so as long as programs do not move into the sensitive 
realm. In addition, the Science and Technology Directorate prepares its 
written testimony for the record for each of its budget-related 
hearings in an unclassified document. This written testimony contains 
the supporting documentation for its budget request and becomes 
publicly available.
    Question. One of the biggest challenges in the science and 
technology area has to be coordinating the allocation of funding 
between near-term and applied technology and basic, long-term R&D 
funding.
    What level of coordination is being provided by your office, Mr. 
Secretary, to ensure an appropriate split between near-term and long-
term R&D?
    Answer. I have delegated the responsibility for determining the 
appropriate split between near-term and long-term research and 
development to the Under Secretary for Science and Technology and he 
keeps me and others informed, although the final responsibility is 
mine. In the approximately 1 year that this Department has been in 
existence, the Science and Technology Directorate has focused its 
initial efforts on near-term development and deployment of technologies 
to improve our Nation's ability to detect and respond to potential 
terrorist acts. However, we recognize that a sustained effort to 
continually add to our knowledge base and our resource base is 
necessary for future developments. Thus, we have invested a portion of 
our resources, including our university programs, toward these 
objectives. The following table indicates the Science and Technology 
Directorate's expenditures in basic research, applied research, and 
development to date, excluding construction funding.

                               SCIENCE AND TECHNOLOGY DIRECTORATE R&D INVESTMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
                                                                    Fiscal year        2004            2005
                                                                   2003 (actual)    (estimated)     (proposed)
----------------------------------------------------------------------------------------------------------------
Basic...........................................................             $47            $117             $80
Applied.........................................................              59              56             229
Developmental...................................................             398             608             643
                                                                 -----------------------------------------------
      Total.....................................................            $504            $781            $952
                                                                 -----------------------------------------------
Percent basic...................................................             9.3            15.0             8.4
----------------------------------------------------------------------------------------------------------------

    Our initial expenditures in basic research are heavily weighted by 
our investments in university programs. These university programs will 
not only provide new information relevant to homeland security, but 
will also provide a workforce of people who are cognizant of the needs 
of homeland security, especially in areas of risk analysis, animal-
related agro-terrorism, bioforensics, cybersecurity, disaster modeling, 
and psychological and behavioral analysis. In addition, the Science and 
Technology Directorate is allocating a portion of its resources to 
high-risk, high-payoff technologies and expects to gradually increase 
its investments in long-term research and development to a level 
appropriate for its mission and the Department.
    Question. What do you envision as the role of the Department of 
Homeland Security in investments in future R&D to meet homeland 
security requirements?
    Answer. At the current time, the Science and Technology Directorate 
is working hard with available funds to fill critical gaps in our 
Nation's ability to prevent, protect against, respond to and recover 
from potential terrorist attacks; however, we are all well aware that 
it is only with a strong investment in long-term research that we can 
we feel confident we are maintaining a robust pipeline of homeland 
security technologies to keep us safe for the decades to come. 
Successful businesses reinvest 10-15 percent of their total budget in 
research and development; the Science and Technology Directorate will 
strive in future years to invest a similarly significant portion of its 
resources into long-term research.

                       INTERAGENCY COLLABORATION

    Question. Mr. Secretary, the Department of Homeland Security 
combines the programs and personnel for many Federal agencies. Creating 
a culture as one department is a real challenge, but there are 
capabilities throughout the Federal Government that can assist your 
Department in meeting homeland security threats.
    I would encourage the Department to develop strong positive 
relationships with other Federal departments and agencies where there 
is opportunity for collaboration and cooperation to make your job 
easier.
    Is it correct that your Department has worked with both the 
Department of Energy and the National Nuclear Security Agency (NNSA) as 
it develops its programs to meet homeland security threats?
    Answer. The Department of Homeland Security has worked very closely 
with the Department of Energy (DOE) and NNSA from the very early stages 
of the development of the Science and Technology (S&T) program. The DOE 
laboratories provided extensive technical expertise and advise 
regarding the S&T program development.
    Question. How would you characterize these interactions?
    Answer. The Department's interactions with DOE and NNSA have been 
very positive. The Department of Homeland Security's (DHS's) S&T staff 
has an open communication relationship with DOE senior managers as well 
as with the DOE field personnel. Since some of the S&T staff came from 
DOE, there are close ties and good relationships that facilitate 
developing the processes of how DOE and DHS work together. When issues 
arise, they are quickly elevated so that communication occurs between 
the appropriate parties in both Departments and a resolution achieved.
    Question. What potential do you see for future collaborations?
    Answer. The Department of Homeland Security fully expects to 
continue and enhance its collaborations with the DOE and NNSA, as well 
as other Federal agencies conducting work of relevance to homeland 
security. For example, the S&T Directorate is committed to utilizing 
the extensive capabilities of all DOE laboratories and to engage them 
in all aspects of our research, development, testing and evaluation 
(RDT&E) program. The Directorate's Office of Research and Development 
is developing an enduring RDT&E capability through stewardship of the 
homeland security complex. To meet the Federal stewardship goal, the 
DOE laboratories will play a significant role in assisting in the 
strategic planning of the threat-based programs such as radiological/
nuclear and biological countermeasures programs. The DOE laboratories 
also have significant existing capabilities and facilities for 
addressing terrorist threats, thus DHS will contribute support for some 
existing DOE facilities and reach-back into these unique capabilities. 
In addition, the DHS University Scholars and Fellows program is working 
with the DOE laboratories to place students with DOE mentors.
    Question. The science and technology directorate at the Department 
has had discussions with the DOE national laboratories in such areas as 
radiological and nuclear and bioterrorist threats. The labs have 
significant capabilities to assist the Department of Homeland Security. 
Do you envision these collaborations continuing? Are there any barriers 
to such activities? If so, can Congress assist in addressing these 
issues?
    Answer. The Department's Science and Technology Directorate will 
continue to utilize the DOE laboratories to address S&T requirements 
including key threat areas such as radiological, nuclear and biological 
countermeasures. Collaborations between DHS and DOE have been very 
successful to date, and the Science and Technology Directorate plans to 
continue these collaborations well into the future. There are currently 
no barriers to these collaborations. If circumstances change, the 
Department will bring this to the attention of Congress.

                        FEMA--CERRO GRANDE FIRE

    Question. Mr. Secretary, when FEMA joined your Department, you 
inherited the Cerro Grande fire assistance program. The devastating 
Cerro Grande Fire occurred in New Mexico in May 2000. This fire 
consumed almost 48,000 acres of forest, destroyed nearly 400 homes and 
caused damage or injury to 1,000 families, countless businesses, the 
county of Los Alamos, the State of New Mexico, four Indian pueblos, and 
Los Alamos National Laboratory.
    I would remind my colleagues that this fire was started by the 
Federal Government when a controlled burn at Bandelier National 
Monument burned out of control. For that reason, the Congress enacted 
the Cerro Grande Fire Claims Assistance Act of 2000, and appropriated 
$455 million to FEMA to establish a claims program to compensate 
victims of the fire.
    The fiscal year 2004 Homeland Security Appropriations Act included 
$38.1 million to continue paying claims under the Act. Based upon 
information from the Department, the conferees on the fiscal year 2004 
bill stated that, and I quote, ``this funding will fully cover all 
remaining Cerro Grande fire claims'' (end quote).
    Would you please provide the Subcommittee with a summary of the 
claims activity under the Cerro Grande Fire Assistance Act of 2000? 
Please include the number of claims filed, processed, approved, and 
declined by category of claim (individual, business, Native American, 
governmental).
    Answer. The Office of Cerro Grande Fire Claims (OCGFC) has received 
a total of 21,515 claims: 13,700 individual/household claims; 1,861 
business claims; 6 Pueblo/Native American claims; 20 governmental 
claims; and 4,562 subrogation claims from the insurance industry. The 
balance of the claims consisted of small-dollar-amount claims, not-for-
profit claims, or streamlined claims (both business and individual 
claims under $10,000). With the exception of the pending appeals and 
arbitrations (see answer below), virtually all of the claims have been 
resolved. OCGFC has not kept records by category on the numbers of 
claims approved in whole or in part, or denied in whole or in part.
    Question. Please provide the Subcommittee with information on the 
number of claims that have been appealed and the general status of 
those appeals.
    Answer. OCGFC has received 718 Administrative Appeals, of which 
only 28 are still pending. The remainder have been accepted, denied, or 
withdrawn. Of the 135 arbitrations that have been filed with OCGFC, 120 
arbitrations are complete, and 15 arbitrations are pending.
    Question. What is the status of subrogation claims for insurance 
companies that assisted individuals and businesses in the immediate 
aftermath of the fire? Will insurance companies be adequately 
reimbursed for their expenses, and what factors are taken into account 
in determining their appropriate payments?
    Answer. Of the 4,562 subrogation claims filed with OCGFC, all but 
42 were determined to be eligible. OCGFC has made 56 percent partial 
payments on the subrogation claims. We have reimbursed insurers and 
reinsurers only the amounts that they paid out under their insurance 
policies, and we have not reimbursed subrogation claimants for their 
expenses of administering the claims they received from their insureds. 
These expenses are currently the subject of litigation.
    Question. Finally, what is the status of the funding remaining for 
Cerro Grande fire claims and for administrative expenses?
    Answer. As of March 25, 2004, $55,596,000 remained in available 
claims funds and $950,000 was available to cover administrative 
expenses. 5. Is it correct that there is sufficient funding remaining 
under current appropriations to satisfy pending claims, anticipated 
favorable appeals, and subrogation claims by insurance carriers? If 
not, what is the estimated amount needed to fulfill these obligations?
    Answer. We believe that there are sufficient funds to settle all 
remaining claims.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

    Question. Mr. Secretary, the President's request provides $50 
million for the Center for Domestic Preparedness (CDP). This is $5 
million below the fiscal year 2004 enacted level and well below the 
level necessary to train our Nation's first responders. As you point 
out in your budget justification the CDP is the only live agent 
training facility available to our Nation's first responders. With a 
budget of $75 million, the CDP can train almost 100,000 first 
responders. This is almost twice the 55,000 they plan to train this 
year with $55 million. The CDP serves a vital role in our Nation's 
first response capability. Could you please explain then, why the CDP's 
budget has been cut for fiscal year 2005?
    Answer. As you know, the Center for Domestic Preparedness is a 
Department of Homeland Security-owned and operated facility that 
provides training to our Nation's emergency responders. CDP offers live 
chemical agent training--the only facility in the world that provides 
such training to civilian emergency responders. CDP has provided 
training for emergency responders since it was established in 1999, and 
is widely recognized as a world leader in the training of emergency 
response personnel in the handling of live chemical agents.
    The CDP has received significant funding over the years. The 
President's fiscal year 2005 budget request provides $50 million for 
the continued operations of the Center. This level is equal to the 
amount requested by the Administration in the fiscal year 2004 request. 
Beginning in fiscal year 2005, the NDPC funding will be used solely to 
cover their fixed operating expenses. States will be required to pay 
for the costs of sending their emergency responders to NDPC facilities. 
The NDPC facilities, therefore, will not have to cover the full-costs 
of participating emergency responders, which reduced enrollment 
flexibility. This flexibility will likely allow NDPC members to train 
additional emergency responders without incurring the additional travel 
and financial costs of enrollment.
    Additionally, the Department and ODP are strongly encouraging 
states to institutionalize awareness and performance level training at 
State facilities. One of the overarching goals of the Homeland Security 
Grant Program, which will provide more than $2.2 billion to states and 
territories in fiscal year 2004, is to provide sufficient resources to 
allow states and territories to develop their own capacity to offer 
awareness and performance level training courses. The Department and 
Administration will continue to support this effort in fiscal year 
2005, which will allow NDPC members to concentrate on specialized 
training courses.
    Question. Mr. Secretary, in your statement you mentioned that you 
have provided $20 million for planning and exercises associated with 
medical surge capabilities. What assets does DHS plan to commit to 
training medical personnel to respond to large scale disasters or a WMD 
event?
    Answer. DHS currently is planning to use the Noble Training Center 
to assist in training medical personnel for medical surge capability. 
In the President's Budget for fiscal year 2005, DHS has requested an 
increase of $15 million to develop one fixed and one mobile medical 
surge hospital module, and an increase of $5 million for associated 
planning, training, and exercises to validate and demonstrate the 
medical surge capacity provided by these modules. The fixed module 
would essentially consist of a package of hospital supplies, equipment, 
materials, etc., that could be pre-positioned in a high risk area and 
quickly inserted into or assembled in a pre-existing space, facility, 
or structure to provide hospital capabilities. Similarly, the mobile 
module would consist of a complete package of hospital supplies, 
equipment, materials, etc., that could be rolled in from another 
location and placed in a pre-existing structure, or the mobile module 
would include the structure (trailers, tents, etc.) in which the 
hospital would be housed. Planning, training, and exercises associated 
with the use of these modules will allow the concept to be refined. 
Additionally, this activity will help in identifying potential 
locations, factoring in significant criteria including: overall 
population of the jurisdiction; population density in and around the 
location; hazards and risk prevalent in the location (including 
natural, technological, and terrorist incidents); existing hospital 
capacity, strength, and organization; and existing medical response and 
public health system.
    The major elements of the medical surge capacity enhancement 
program will include facility, equipment, supply, and pharmaceutical 
procurement; leased space for storage of field facilities; salaries and 
benefits for additional staff required for equipment maintenance, and 
program and fiscal management; dedicated ground transportation for 
field facilities; life-cycle costs for equipment, pharmaceutical, and 
supply replacement; field exercises and system evaluations; 
identification and implementation of corrective actions; and 
development of web-based interactive and hands-on training curricula 
for facility set-up, maintenance, operation, and demobilization.
    Also, through the National Disaster Medical System (NDMS) Online 
Training Program, NDMS is responding to the need to improve the ways in 
which its response team medical personnel respond to large-scale 
disaster and weapons of mass destruction (WMD) events. The training 
program is designed specifically for disaster responders; providing the 
critical information needed to help them better perform their jobs 
under the most austere conditions. The online training program ensures 
that NDMS response team medical personnel will have appropriate 
orientation and training for optimal field performance.
    Training opportunities are also offered during the annual NDMS 
Conference. With several pre-conference, main, and plenary sessions and 
training demonstrations available, NDMS response team medical personnel 
are provided access to the latest in emergency management, disaster 
response, and coordination capabilities. Additional training is also 
provided to NDMS response team medical personnel through their State- 
and locally sponsored exercises and training courses. These exercises 
and training courses are designed to enhance organization and rapid 
response capability.
    Question. Recently, the President in Homeland Security Presidential 
Directive #8 defined a ``first responder'' as: those individuals who in 
the early stages of an incident are responsible for the protection and 
preservation of life, property, evidence, and the environment, 
including emergency response providers as defined in section 2 of the 
Homeland Security Act of 2002 (6 U.S.C. 101), as well as emergency 
management, public health, clinical care, public works, and other 
skilled support personnel (such as equipment operators) that provide 
immediate support services during prevention, response, and recovery 
operations.'' Wouldn't you agree that medical and hospital personnel 
are crucial to ``preservation of life''? Why then have we done so 
little to ensure they are prepared?
    Answer. Medical, public health and hospital personnel are an 
essential component of the Nation's response capability. The Department 
of Homeland Security recognizes their importance, as has Congress. The 
Department, through programs administered by the Office for Domestic 
Preparedness (ODP) and the Federal Emergency Management Agency (FEMA), 
provides support to the emergency medical services and to hospital 
providers.
    ODP, in particular, administers the Homeland Security Grant Program 
and the Urban Areas Security Initiative, which provide funds to states 
and urban areas, respectively, to enhance homeland security efforts 
across the Nation. In fiscal year 2004, ODP will provide more than $2.2 
billion to states, localities, and the emergency response community 
through HSGP. Additionally, through UASI, ODP will provide an 
additional $746 million. Emergency medical personnel, including 
Emergency Medical Technicians (EMTs) and ambulatory services, and 
hospitals and hospital providers are eligible to receive assistance 
through these two programs. HSGP and UASI fund a range of activities, 
including the acquisition of specialized equipment, the provision of 
training, and exercise support.
    ODP also administers a robust training program through the National 
Domestic Preparedness Consortium (NDPC). Through the NDPC, along with 
other training partners, ODP offers nearly 40 courses for the emergency 
response community. As part of the training effort, emergency medical 
personnel and public health officials are eligible to attend a number 
of different courses offered. A few examples of the training courses 
that emergency medical and public health officials are eligible to 
attend include: ``Emergency Response to Terrorism: Basic Concepts,'' 
``Emergency Medical Services: Basic Concepts for WMD Incidents,'' 
``Emergency Response to Domestic Biological Incidents--Operations 
Level,'' ``Emergency Medical Services Operations and Planning for 
WMD,'' and ``Hospital Emergency Management: Concepts and Implications 
of WMD Terrorist Incidents.''
    In fiscal year 2005, DHS and FEMA will be responsible for two 
programs that strive to prepare medical and hospital personnel to deal 
with mass casualty incidents: the National Disaster Medical System 
(NDMS) response teams and the Noble Training Center. Both have major 
linkages in supporting the ``first responder'' infrastructure.
    NDMS is a coordinated effort by FEMA and other Federal agencies, in 
collaboration with the States and other public and private entities, to 
provide health and medical services to the victims of public health 
emergencies. The System organizes approximately 8,000 intermittent 
Federal employees into more than 107 medical and specialty response 
teams. The System can also provide for patient evacuation and 
definitive medical care of disaster victims.
    The incorporation of NDMS into DHS has improved response capability 
by enhancing coordination between health and medical response 
organizations and other functional disaster response activities. This 
will ensure that future planning and response efforts are well-
coordinated and efficient. The reorganization has centralized emergency 
response functions within one Department. This will also allow for the 
sharing of training activities and programs to include local, State, 
and Federal disaster drills and field exercises, and will enhance the 
coordination of logistical functions that support emergency response, 
thereby improving the efficiency and effectiveness of the response. 
This reorganization will also ensure that threat information is 
received in a timely manner and will enable increased readiness actions 
to be taken in order to reduce response time.
    The Noble Training Center (Noble) also transferred from HHS to DHS. 
While the program resided at HHS, a 5-year strategic plan was developed 
for it by a consortium of universities that included Vanderbilt 
University, the University of Alabama at Birmingham, and Louisiana 
State University. The strategic plan identified immediate and continued 
training needed for medical first responders, as well as for the 
medical community, to be able to quickly identify and treat victims of 
a WMD attack. The plan identified training needs for hospital emergency 
room physicians and nurses, emergency medical technicians and 
paramedics, and hospital engineers and administrators. This training 
would include treatment modalities relating chemical, biological, 
radiological, and nuclear assaults to ensure that all hospital 
personnel, including medical, engineering, and administrative, would be 
prepared to effectively treat victims. In addition, Noble is currently 
working with HHS' Health Resources and Services Administration and its 
Hospital Preparedness program to train some of the grantee hospital 
personnel at Noble this year.
    In addition to the work that ODP is doing in this area, the 
Department is working with the Department of Health and Human Services 
(HHS) on a related project called Project BioShield. The fiscal year 
2005 request includes $2.5 billion for this effort to encourage the 
development and pre-purchase of necessary medical countermeasures 
against weapons of mass destruction, and improved bio-surveillance by 
expanding air monitoring for biological agents in high-threat and high-
value targets such as stadiums and transit systems. This provides 
significant funds for this effort, which was funded at $885 million in 
fiscal year 2004. Further, the President's fiscal year 2005 budget 
request includes $20 million for the Department's Emergency 
Preparedness and Response Directorate for studies and pilot programs 
for medical surge capabilities. Also, since 2001, over $4.5 billion has 
been made available in Federal public health preparedness grants for 
counterterrorism.
    Comment.--The Noble Training Center (Noble) at Fort McClellan, 
Alabama was established as a medical training center for medical first 
responders. According to FEMA, ``Noble Training Center is unique in 
that it is the only hospital facility in the United States devoted to 
medical training for hospital and healthcare professionals in disaster 
preparedness and response.'' From fiscal year 1999 to fiscal year 2001, 
I helped send additional resources to Noble to help them build their 
capability, much like what was done at CDP.
    However this money seems to have disappeared and today Noble has, 
to my knowledge, not grown in capability or capacity to train medical 
personnel. While I understand that much of this took place while Noble 
was under the direct control of the Public Health Service, it is my 
understanding that virtually no activity has taken place at the Noble 
Training Center since DHS took control.
    Question. Will the Department make a habit of allowing valuable 
assets to sit unused?
    Answer. DHS is making extensive use of the Noble Training Center 
and is very pleased to have Noble as an element in the DHS training 
system. During fiscal year 2003, the Department delivered the most 
ambitious schedule of training ever at Noble, and it is delivering an 
even greater slate of activities during fiscal year 2004.
    For fiscal year 2003, DHS delivered the schedule of training 
activities that the Department of Health and Human Services (HHS) had 
set up and offered a number of FEMA courses at Noble. Activities for 
the year included several offerings of the ``Healthcare Leadership and 
Administrative Decision-making in Response to WMD Incidents'' course, 
which was conducted under contract by Auburn University and its 
subcontractors, which included the University of Alabama at Birmingham, 
Vanderbilt University, and Louisiana State University. DHS delivered 
additional courses at Noble in partnership with the Centers for Disease 
Control and Preparedness (CDC) to prepare CDC's emergency response 
teams. One of the Department's goals for fiscal year 2004 is to train 
more than 1,300 students at the facility. The total number of students 
trained in all prior years was 2,274.
    Question. What is the Department doing to correct this poor use of 
taxpayer's money?
    Answer. When Noble was transferred to DHS in March 2003, it was 
assigned to FEMA. FEMA officials quickly analyzed the situation at 
Noble, inspecting the facility and examining instructional programs. At 
the time, Mike Brown, Acting Under Secretary for EP&R, established the 
following priorities for Noble: (1) correct deficiencies in the 
infrastructure to ensure that the facilities and systems would support 
a world-class training activity; (2) maximize the utilization of Noble 
by offering a full schedule of first-rate instructional programs 
targeted at planning and response for mass casualty events; and (3) 
integrate Noble into the DHS/FEMA training system managed by the United 
States Fire Administration, which includes the National Fire Academy 
and the Emergency Management Institute (EMI). Efforts to meet these 
goals began at once. In addition to offering the aggressive schedule of 
training described above, DHS also:
  --Awarded a contract to the SEI Group, Inc. of Huntsville, Alabama, 
        to manage the Noble physical facility
  --Awarded a contract to DECO Security Services, Lorton, Virginia, to 
        provide security for the facility
  --Arranged for classroom support to be provided through an existing 
        EMI contract
  --Continued work on a $1 million healthcare weapons of mass 
        destruction (WMD) curriculum development project with Auburn 
        University and its subcontractors (Work on this project is 
        scheduled for completion by June 30, 2004.)
    During fiscal year 2004, in addition to a full slate of 
instructional programs, the following key activities are underway to 
improve the Noble facilities:
  --Update Noble's phone system and computer network
  --Renovate 2 dormitory buildings to provide housing for 160 students 
        at a time
  --Retrofit the third floor of Noble to create a state-of-the-art 
        exercise and simulation training area
    Question. I would like to know specifically, how many hospital and 
healthcare professionals have been trained at Noble Training Center and 
how many Federal dollars have been spent at Noble to date?
    Answer. Since its inception, Noble has conducted the following 
training:

------------------------------------------------------------------------
                    TRAINING ACTIVITY                      PARTICIPANTS
------------------------------------------------------------------------
Hospital Leadership and Decision-making.................             717
National Pharmaceutical Stockpile Training..............             293
Integrated Health and Medical WMD Training..............             250
Emergency Coordinator Augmentee.........................             150
Nunn, Lugar, Domenici Hospital Preparedness.............              54
Epidemic Intelligence Service (WMD).....................             277
Mass Immunization Training..............................              63
Tactical Emergency Medical Service in a WMD incident....              36
Hazardous Materials for Healthcare Train-the-trainer....              41
Integrated Emergency Management for CDC response staff..             162
Emergency Response to Domestic Bioterrorism.............              20
Critical Actions Aimed Toward Emergency Response........              76
Radiological Emergencies (Commissioned Corps)...........             135
                                                         ---------------
      Total Participants................................           2,274
------------------------------------------------------------------------

    Based on careful analysis of HHS records and FEMA's current 
spending plan, by the end of fiscal year 2004, HHS and DHS will have 
spent approximately $17.8 million on the Noble Training Center. This 
figure excludes salary and expenses for two full-time Federal employees 
at Noble and student expenses paid directly by HHS. The by-year 
breakdown is as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 1999........................................      $2,800,000
Fiscal year 2000........................................         845,000
Fiscal year 2001........................................       1,500,000
Fiscal year 2002........................................       4,000,000
Fiscal year 2003........................................       1,369,092
Fiscal year 2004........................................       7,300,000
                                                         ---------------
      TOTAL.............................................      17,814,092
------------------------------------------------------------------------

    Comment.--Just around the corner from Noble is the Center for 
Domestic Preparedness, the pinnacle of first responder training. The 
CDP has been a training facility for roughly the same amount of time as 
Noble. This fiscal year CDP is scheduled to train in excess of 50,000 
first responders. I can only guess that the differences are due to 
management.
    Question. Can you explain to me why these two centers are in such 
contrast?
    Answer. We cannot address HHS' utilization of Noble. However, since 
DHS assumed responsibility for Noble in March 2003, it has played a key 
role in the Department's overall efforts to prepare emergency 
personnel, and it is an important part of the Department's plans for 
the future. Noble has joined FEMA's training team, which will train 
more than 250,000 personnel in fiscal year 2004.
    Question. How many responders do you plan to train at Noble this 
year?
    Answer. We expect to train 1,320 personnel at Noble in fiscal year 
2004 in the following courses:
  --7 ``Healthcare Leadership for WMD Incidents'' courses for 490 
        participants
  --6 Metropolitan Medical Response System exercise-based, integrated 
        emergency management courses for 420 participants
  --3 CDC partnership courses for 180 personnel
  --9 Radiological Emergency Response Operations courses for 230 
        participants
    Based on funding of approximately $4.3 million we have maximized 
our deliveries as we ramp up effort for fiscal year 2005 and for fiscal 
year 2006. The Noble facility cannot currently accommodate as many 
students as can the CDP facility, given existing facility sizes and 
infrastructure.
    Question. How much do you propose to spend in these efforts?
    Answer. In fiscal year 2004, $4.3 million is allocated for the 
Noble Training Center. Additional funding from other DHS sources is 
expected to bring total expenditures for Noble this year to 
approximately $7.3 million.
    Question. Is there any action being taken to tap into the expertise 
of the CDP?
    Answer. Yes. Collaboration between the CDP and FEMA training 
officials has been in progress for some time. We are currently working 
on the following plans:
  --Consolidating student support services and logistical support 
        between CDP and Noble
  --Conducting joint medical training for first responders
  --Conducting outreach training for Tribal emergency personnel
    Question. What are your intentions for Noble in the next 2 years?
    Answer. We are making extensive use of the Noble Training Center 
(Noble) and are very pleased to have it as an element in the Department 
of Homeland Security (DHS) training system. During fiscal year 2003, 
DHS delivered the most ambitious schedule of training ever offered at 
Noble, and is undertaking an even more ambitious slate of activities in 
fiscal year 2004.
    Noble was transferred to DHS in March 2003, and was assigned to the 
Emergency Preparedness and Response Directorate (EP&R)/FEMA. FEMA 
officials quickly analyzed the situation at Noble, inspecting the 
facility and reviewing instructional programs. At that time, Acting 
Under Secretary for EP&R Mike Brown established three priorities for 
Noble: (1) Correct infrastructure deficiencies to ensure that the 
facilities and systems would continue to support world-class training 
activities; (2) maximize the utilization of Noble by offering a full 
schedule of first-rate instructional programs targeted at planning and 
response for mass casualty events; and (3) integrate Noble into the 
training system directed by DHS' United States Fire Administration, 
which manages the National Fire Academy and the Emergency Management 
Institute (EMI). Efforts to meet these goals began at once and continue 
today. In addition to offering an aggressive schedule of training, FEMA 
has also:
  --Awarded a contract to manage the Noble physical facility to the SEI 
        Group, Inc. of Huntsville, Alabama
  --Awarded a contract to provide security for the facility to DECO 
        Security Services, Lorton, Virginia
  --Arranged for classrooms and support to be provided through a pre-
        existing contract supporting the EMI
  --Continued work on a $1 million healthcare weapons of mass 
        destruction (WMD) curriculum development project with Auburn 
        University and its subcontractors (Work on this project is 
        scheduled for completion by June 30, 2004.)
    During fiscal year 2004, in addition to a full slate of 
instructional programs, the following key activities are underway to 
improve the Noble facilities:
  --Update of Noble's phone system and computer network
  --Renovation of 2 dormitory buildings to provide housing for 160 
        students
  --Retrofitting of the third floor of Noble to create a state-of-the-
        art exercise and simulation training area
    DHS expects to train 1,320 personnel at Noble in fiscal year 2004 
in the following courses:
  --7 ``Healthcare Leadership for WMD Incidents'' courses for 490 
        participants
  --6 Metropolitan Medical Response System (MMRS) exercise-based 
        integrated emergency management courses for 420 participants
  --3 Centers for Disease Control and Prevention (CDC) partnership 
        courses for 180 personnel
  --9 Radiological Emergency Response Operations courses for 230 
        participants
    In fiscal year 2005, using the existing funding level and 
leveraging other funding sources, DHS plans to train 2,125 participants 
as follows:
  --7 Healthcare Leadership courses for 420 participants
  --8 MMRS exercise-based integrated emergency management courses for 
        600
  --5 Hospital Emergency Management courses for 150 personnel
  --4 Hospital Emergency Incident Command System train-the-trainer 
        offering for 120 participants
  --7 Radiological Emergency Response Operations courses for 155 
        responders
  --1 Advanced Radiological Incident Operations training course for 30 
        responders
  --1 Radiological program train-the-trainer course for 30 trainers
  --5 Response Team training for CDC staff, with a total of 300 
        participants
  --8 Disaster cadre training courses (various titles) for 320 students
    In addition, EMI is currently assessing training needs for the 
National Disaster Medical System cadre. While the cadre's initial 
training is currently offered online, Noble is being considered for use 
in meeting some of the cadre's exercise-based course requirements.
    Also, for fiscal year 2005, DHS will continue to collaborate with 
the Center for Domestic Preparedness (CDP), and plans to join forces 
with CDP to deliver training. This joint training will simulate the 
responder/hospital personnel interface that is critical during a mass 
casualty event.
    Comment.--When we began this adventure, it was my belief that the 
proximity of CDP and Noble would allow us to provide one of the best 
comprehensive incident response training programs in the country. Not 
only do we have the only live agent training facility, but just around 
the corner is ``the only hospital facility in the United States devoted 
to medical training for hospital and healthcare professionals in 
disaster preparedness and response.'' This would provide the 
opportunity for municipalities, communities, regions and states to know 
that their responders are prepared from the site of the incident 
throughout the hospital, not just to the emergency room door. This is 
an opportunity for comprehensive training that must not be ignored if 
we expect our first responders and medical personnel to act fluidly in 
the event of a disaster.
    Question. I would like your thoughts on this concept.
    Answer. While each organization has its special expertise, we 
believe that bringing CDP and other FEMA training activities closer 
together will greatly enhance services for the Nation's emergency 
responders.
    Question. Mr. Secretary, I continuously hear of concerns from my 
localities regarding the speed at which funds are dispersed to their 
final destination. What is the Department doing to ensure that these 
funds are put to use more quickly?
    Answer. The Department of Homeland Security takes seriously our 
responsibility to provide resources to our Nation's emergency 
prevention and response community and to ensure that this assistance is 
provided in most efficient, effective and responsible manner. I believe 
that Congress also supports this goal. Indeed, Congress has provided 
strict timeframes within the last several appropriations acts for the 
Office for Domestic Preparedness (ODP) and the Department of Homeland 
Security. In the fiscal year 2003 Omnibus Appropriations Act, the 
fiscal year 2003 Emergency Wartime Supplemental Appropriations Act, and 
the fiscal year 2004 Department of Homeland Security Appropriations 
Act, Congress required that ODP allocate funds to states within 30 days 
of the enactment of these acts. Congress further required that states 
apply for their allocated funds within 30 days of the allocation or 
availability of funds. Congress required that ODP make awards to states 
within 30 days of receipt of application, or receipt of updated 
homeland security strategies, whichever was later. Additionally, 
Congress required that states obligate or pass-through funds to units 
of local government within 60 days of receipt of an award from ODP.
    These timeframes have certainly expedited the award of funds to 
states under the Homeland Security Grant Program and the Urban Areas 
Security Initiative. However, some complaints of the slowness of funds 
reaching localities are legitimate and understandable. There are 
certain impediments to localities receiving their funds from their 
states that are outside of the control of the Department of Homeland 
Security. For instance, some states can not accept Federal funds unless 
they have been previously included in their State budget. Depending on 
when the State legislature convenes, the transference of funds and 
support to localities might be delayed. Additionally, as pointed out in 
the December 1, 2003 survey by the National Emergency Management 
Association, a number of other factors at the State and local level 
serve to impede the timely transfer of homeland security funds to 
localities, including State and local bid requirements for Federal 
funds, Further, equipment inventory stock might also prevent speedy 
delivery of equipment to State and local emergency responder agencies.
    The Department and ODP are making every effort to expeditiously 
award funds to states. With the assistance of Congress, we have made 
great strides in providing funds and other assistance to states and 
units of local governments. Unfortunately, because of certain State and 
local restrictions, funds might experience a delay at the State and 
local levels. On March 16, 2004, Secretary Ridge announce that 
formation of the Homeland Security Funding Task Force charged with 
examining the first responders funding process and ensuring Federal 
grant money monies move quickly to the end user: first responders.
    Question. I applaud the consolidation of grants under the ODP. I 
believe a one-stop shop is an important part to making the grant 
process more accessible to all entities. Will you develop a mechanism 
to ensure that funds are used in a manner that ensures the proper 
distribution of assets? Will the different grants be working in 
conjunction? Or in other words how will ODP ensure that the right hand 
knows what the left hand is doing?
    Answer. On January 26, 2004, I announced my intention to 
consolidate the Office for Domestic Preparedness with the Office for 
State and Local Government Coordination to form a new office--the 
Office for State and Local Government Coordination and Preparedness. As 
I explained at the time, this consolidation is in direct response to 
requests from the field, which date back to 1998, to provide State and 
local governments with a ``one-stop-shop'' and one central focal point 
for grants, assistance, and other interactions related to homeland 
security.
    This consolidation will place 25 various State and local support 
programs and initiatives within one office to ensure simplified and 
coordinated administration of these programs. I firmly believe that 
this consolidation will benefit both DHS and the State and local 
emergency response community. As part of this effort, the new Office 
will issue application kits and provide awards that combine several 
different grant programs. ODP took the first step in this direction 
through the fiscal year 2004 Homeland Security Grant Program, which 
combined three separate ODP-administered programs under one single 
application kit. The new Office of State and Local Government 
Coordination and Preparedness will use this combined application kit as 
a model for future grant programs.
    Further, the new Office of State and Local Government Coordination 
and Preparedness will depend on the subject matter experts within the 
agencies previously administering these consolidated programs to ensure 
that invaluable experience and expertise with these programs is not 
lost. The Department is currently working to ensure that that this 
expertise is not lost, but continues to guide the development and day-
to-day management of these programs. Through these efforts, I am 
confident that the new office will provide assistance to states and 
localities in a more efficient, coordinated, and streamlined manner. I 
appreciate your support for the consolidation and look forward to your 
continued support on this and other Department initiatives.
    Question. Mr. Secretary, your budget provides the Coast Guard with 
$678 million for the Integrated Deepwater System. I remain concerned 
with the Coast Guard's management of the Deepwater procurement and how 
the Coast Guard is prioritizing use of its funds. The Coast Guard and 
OMB appear to have lost sight of the priorities of legacy replacement 
and the goal of reduced operational expenses. Every dollar spent poorly 
in this procurement process delays the Coast Guard's ability to obtain 
the best, most modern equipment to protect the homeland. The funding 
will acquire two UAV's, a National Security Cutter, three SRP's, one 
LRI, and IDS patrol boats. Noticeably absent is the Maritime Patrol 
Aircraft, the CASA CN-235. Why were funds for the MPA not included? How 
does the Coast Guard intend to make up for the loss of this critical 
asset? How many MPA does the USCG intend to purchase? When can we 
expect the Coast Guard to request funding for the MPA?
    Answer. The Coast Guard's fiscal year 2005 budget requests funds 
for the Maritime Patrol Aircraft (MPA) to missionize the third CASA 
aircraft, which was funded for acquisition in fiscal year 2004. This 
missionization includes the logistic complement required for Full 
Operating Capability and partial spare parts used for the logistics 
system start up. The Coast Guard is currently acquiring the CASA CN235-
300M as the Deepwater MPA. The delivery of the first two MPA is 
scheduled for 2006, with full operational capability in late 2006 or 
early 2007.
    The Coast Guard will use existing aircraft in the Coast Guard 
inventory to ensure the Nation's highest maritime security and safety 
priorities are met until new aircraft are delivered.
    The number of Maritime Patrol Aircraft in the current 
Implementation Plan is 35. Simultaneously, the Coast Guard is working 
to align the Deepwater Program with the strategic goals and objectives 
of the Department of Homeland Security (DHS). DHS Management Directive 
1400 established an Investment Review Process, which included an 
interagency Investment Review Board (IRB) and Joint Requirements 
Council (JRC). The Investment Review Process is designed to ensure that 
spending on investments directly supports and furthers DHS missions; 
optimal benefits and capabilities are provided to stakeholders and 
customers; acquisition oversight of new investments is provided 
throughout their life cycle; and portfolios are managed to achieve 
budget goals and objectives. The Coast Guard is working aggressively 
with the IRB and JRC and its newly chartered Aviation Council to ensure 
capital funds provide the best Departmental investment. The DHS Joint 
Requirements Council (JRC) partially reviewed DHS Aviation Requirements 
in January 2004 at their first meeting. Until DHS and Coast guard 
decisions are made on future aviation requirements, it is difficult to 
project the exact mix of aircraft in the final Deepwater solution.
    The Maritime Patrol Aircraft is an essential element of the 
Deepwater system of systems approach to the recapitalization of Coast 
Guard assets. The Deepwater plan projects future funding for MPAs to 
achieve its long-term project goals.
                                 ______
                                 

               Questions Submitted by Senator Judd Gregg

    Question. Mr. Secretary, I would like to address the matter of the 
Customs Services' ability to meet the increased needs of new and 
growing airports and seaports for inspections services. If Customs is 
not able to expand its services into new, economically growing 
communities around the country then not all areas of the country will 
be able to share in the economic benefits of international trade and 
tourism--and as a result then the economic growth of the Nation as a 
whole will also be restricted.
    My concerns in this regard have been raised by my experience in 
working with Customs unsuccessfully to provide inspection services to 
the Pease International Tradeport in Portsmouth/Newington, New 
Hampshire. When I was governor, I helped take the first steps to create 
the Tradeport following the BRAC closing of Pease Air Force Base with 
the vision of it becoming a commercial air terminal open to 
international flights and thus helping to drive the economy of not only 
New Hampshire, but the entire region.
    Unfortunately, despite spending over $35 million in Federal and 
State funds to build a commercial terminal, according to Customs' own 
specifications, we have been unsuccessful in getting Customs' to either 
approve the use of the facility as is--or to even tell us what the 
post-9/11 modifications are that Customs insists are now needed. Even 
more frustrating has been Customs refusal to provide inspection 
services, even over the short-term, so that DOD chartered aircraft 
currently carrying U.S. military personnel home from Iraq and 
Afghanistan can land and refuel at Pease on their way to the troops' 
ultimate destinations within the United States. While Customs says on 
the one hand that it does not have the manpower to service these 11-15 
flights every 45 days, it also says it could do these inspections at 
current manpower levels--if Pease paid economically exorbitant and 
untenable fees to the Customs service.
    I would note that two Customs inspectors actually have offices on 
Pease Tradeport's premises and the local Air National Guard unit has 
been trained to provided such inspection services; however Customs will 
neither use the local Customs officers or allow the Air National Guard 
unit to provide the necessary inspection services so that the DOD 
charter flights can land at Pease.
    As many of us in New Hampshire had hoped for at Pease Tradeport's 
actual opening in 1998, Pease's close proximity to Boston's Logan 
airport is now becoming an attractive as a convenient point for 
servicing planes and crews of various commercial airlines' domestic and 
international flights, which are increasingly facing difficulties with 
flight scheduling, customs, and gate access due to Boston's limited 
space and heavy traffic. However, Pease Tradeport's value as an 
alternative for airlines is largely negated when Customs is either 
unwilling or unable to provide even minimal inspection services.
    Again, my parochial experience in this regard has raised my 
concerns about Customs--and thus DHS'--ability to expand its inspection 
services into new, economically growing communities throughout the 
country and whether the benefits of international trade and tourism are 
going to be confined to areas of the country that already enjoy them 
for the foreseeable future.
    In light of the 35 percent increase in Customs positions that the 
Congressional Research Service says Congress provided funding for in 
fiscal year 2002 alone, do you feel the President's budget request, if 
approved by Congress, provides the Department with the needed 
flexibility to respond to the need for Customs services to all areas of 
the country that need them, including up and coming areas of the 
country like NH?
    Answer. The Pease International Tradeport issue is currently under 
review by U.S. Customs and Border Protection (CBP), Office of Field 
Operations (OFO). OFO has conducted a study of the facility to 
determine what additional security modifications will need to be 
implemented. The results of this study should be compiled shortly.
    The Department of Homeland Security, in particular CBP, is 
committed to providing security for our Nation without impeding the 
free flow of commerce. The fiscal year 2005 President's Budget should 
provide CBP with the flexibility to align our staff to existing 
workload and provide services where needed.
                                 ______
                                 

               Question Submitted by Senator Larry Craig

           UTILIZATION OF DEPARTMENT OF ENERGY NATIONAL LABS

    Question. Secretary Ridge, on January 30, 2004, you received a 
letter signed by the entire Idaho Congressional delegation expressing 
our objections to guidelines issued by the DHS Office of Research and 
Development. These guidelines describe DHS's approach to the 
utilization of Department of Energy national laboratories. A copy of 
this letter is enclosed herewith. I am aware that you have received 
similar letters from other members of Congress and that issues 
surrounding the implementation of the DHS research agenda may be the 
subject of current GAO investigation.
    How do you intend to address the issues raised in the Idaho 
delegation's letter and when can I expect a response?
    Answer. The Department of Homeland Security, through Section 309 of 
the Homeland Security Act of 2002, is provided access to the national 
laboratories and sites managed by the Department of Energy to carry out 
the missions of DHS.
    The DHS Science and Technology Directorate, wishing to make the 
best use of each of these laboratories and sites in consonance with 
statute, regulation, and policy, asked laboratories and sites to make a 
decision regarding their desired mode of interaction with the 
Directorate--to participate in S&T's internal strategic planning and 
program development processes or, if otherwise permissible under 
applicable law, regulation, contract, and DOE policy, to respond to 
certain types of S&T solicitations open to the private sector.
    On March 31, 2004, the following national laboratories and sites 
communicated their decision to Under Secretary McQueary to participate 
in S&T's internal strategic planning and program development processes: 
Argonne National Laboratory, Bechtel Nevada, Brookhaven National 
Laboratory, Idaho National Engineering and Environmental Laboratory, 
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, 
Oak Ridge National Laboratory, Pacific Northwest National Laboratory, 
and the Sandia National Laboratories. The designation of intramural/
extramural is therefore no longer necessary for the nine labs under 
consideration.
    An external review will be conducted to assess the baseline 
capabilities of the national labs to provide the Department with an 
enduring capability to meet long-term mission requirements. The results 
of this review will be utilized by the Homeland Security Science and 
Technology Advisory Committee to advise the Department on options for 
establishing a long-term strategic relationship with the national 
laboratories.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                        CHEMICAL PLANT SECURITY

    Question. Mr. Secretary, you and I have previously discussed the 
role of the Department of Homeland Security as it pertains to the 
protection and security of chemical plants in this country. Your 
Department continues to take a ``hands-off'' approach by relying on 
voluntary efforts by the chemical plant industry to assess 
vulnerabilities and take protective actions.
    We know that the EPA has estimated that over 100 plants located all 
over the country could affect over 1 million people, if attacked. We 
know that the Department of Justice released a study in April of 2000, 
concluding that, ``the risk of terrorists attempting in the foreseeable 
future to cause an industrial chemical release is both real and 
credible.'' We know that in February of 2003, the National 
Infrastructure Protection Center (NIPC), which is now part of the 
Department of Homeland Security, issued a threat warning that, ``Al 
Qaeda operatives also may attempt to launch conventional attacks 
against the U.S. nuclear/chemical-industrial infrastructure to cause 
contamination, disruption, and terror. Based on information, nuclear 
power plants and industrial chemical plants remain viable targets.''
    We know that the Homeland Security Act requires DHS to analyze the 
vulnerabilities to our critical infrastructure and take protective 
actions to strengthen them. However, when you testified last year, you 
indicated that the chemical industry was better suited to assess 
vulnerabilities and take appropriate security measures.
    Last November, 60 Minutes reporter Steve Croft and Carl Prine, an 
investigative reporter at the Pittsburgh Tribune-Review, found their 
way in to numerous chemical plants containing dangerous materials 
without a hint of resistance. This revelation clearly highlighted the 
fact that the chemical industry was doing little to nothing to improve 
security at chemical plants.
    A July 2003 survey by the Conference Board found that since 9/11, 
U.S. corporations have increased their spending on security by only 4 
percent.
    Mr. Secretary, do you maintain the position that the chemical 
industry is better suited to assess vulnerabilities and take protective 
actions to secure chemical plants? Does your budget request address 
this issue in any way? If so, how much is included for chemical plant 
security?
    Answer. We look to the private sector as the primary agent of 
change when it comes to assessing vulnerabilities and taking protective 
measures at their individual facilities. As you know, 85 percent of 
critical infrastructures are privately owned. Our role is to provide 
the tools (standards, techniques, best practices) necessary to do an 
effective job. We have a genuine program to assess whether this 
approach is effective and will make adjustments as necessary.
    Several initiatives are underway to help protect the Nation's 
chemical plants. We will spend about $18 million for protective 
measures at the 360 chemical plants on the fiscal year 2004 Protective 
Measures Target List. This amount funds site assistance visits by my 
security specialists to assess vulnerabilities and help establish 
buffer zone protection plans. Approximately $4.1 million is for the 
acquisition of web cam monitors for local law enforcement agencies to 
install on public right-of-ways adjacent to 17 critical chemical sites 
to extend their buffer zones.
    Question. What more can you do to make sure that the chemical 
industry responds with a robust program to secure their plants?
    Answer. DHS Protective Security Advisory Teams visited the 17 
critical sites last year to provide training and assist site personnel 
and local law enforcement develop Buffer Zone Protection Plans to make 
it more difficult for terrorists to conduct surveillance or attack one 
of our facilities.
    For the remaining 343 sites, we will visit each one to provide 
training, support, and recommendations to owners and operators and 
local law enforcement. Each site has its own particular needs. Some 
visits will focus on ``inside the fence'' issues with plant security 
personnel to identify and reduce vulnerabilities. Others will involve 
the development of buffer zones in cooperation with local law 
enforcement. Some sites will need both types of assistance. We intent 
to have visited all 360 chemical facilities by the end of the year. We 
have also published two reports, the Characteristics and Common 
Vulnerabilities Report and the Potential Indicator of Terrorist 
Activity (PI) Report, to assist owners and operators of chemical 
facilities. The former characterizes and discusses common 
vulnerabilities for chemical manufacturing facilities producing and 
handling large quantities of inherently hazardous materials while the 
latter discusses potential indicators and warnings of terrorist 
activity that law enforcement and plant security personnel can use to 
better protect their facilities.
    We have established a protection, training, and planning program 
for State homeland security personnel, local law enforcement, chemical 
facility operators and site security personnel. Periodic drills among 
the protective community will be conducted to exercise the chemical 
facilities plans in the case of a potential terrorist attack and we 
intend to factor chemical plant security into national exercises.
    Finally, the Department is in the process of developing plans for 
deploying a cadre of Protective Security Advisors (PSAs). Each one will 
have responsibility for a specific region of the country and will 
maintain a close relationship with the chemical plant owners and 
operations in their area. The advisors will facilitate information 
sharing, organize protective security training, assist in emergency 
coordination, and represent the Department in the communities in which 
they are posted. Security Augmentation Teams (SATs) are also being 
developed that will consist of approximately 25 personnel drawn 
primarily from major urban SWAT units. The teams will focus on 
protecting high-value sites, such as critical chemical facilities. 
Their operations concept is to develop working relationships with the 
site's permanent protective security team and become familiar with the 
site's specific vulnerabilities. The development of these two programs 
are in the early stages but are being closely monitored by my office.

                              IMMIGRATION

    Question. How much of a reduction in the more than 6,000,000 
petitions pending with U.S. Citizenship and Immigrant Services do you 
expect to achieve this year with the $160,000,000 requested in the 
President's budget?
    Answer. With the additional resources requested in 2005, USCIS will 
achieve the President's goals of eliminating the backlog and achieving 
a 6-month processing time for all immigration applications by 2006. In 
order to achieve this goal, USCIS will:
  --Reengineer processes to achieve greater efficiencies;
  --Update policies and procedures to streamline adjudications and 
        increase the percentage of cases completed at initial review by 
        an adjudicator; and
  --Manage production against milestones--beginning with 
        collaboratively setting goals, reporting progress, and 
        identifying additional improvement opportunities.
    USCIS is finalizing its Backlog Elimination Plan and will provide 
this plan to Congress in the coming months. The plan will include a 
road map to eliminating the backlog with defined milestones.
    Question. How many new petitions do you expect the President's 
Immigration Reform Plan to generate?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.
    Question. What lessons from the 1986 Immigration Reform and Control 
Act (IRCA) legalization programs have been applied to the President's 
Immigration Reform Plan?
    Answer. The IRCA planning teams developed a strategy that enabled 
the Service to quickly expand its adjudicative capacity through the 
establishment of temporary regional processing centers and local 
interview offices. Temporary employees were hired and trained 
specifically to adjudicate that workload. INS reassigned experienced 
executives and managers at all levels to oversee operations, but relied 
heavily on the skills or retired executives and managers (reemployed 
annuitants). This strategy enabled the Service to continue its efforts 
to process the normal casework plus handle the surge in workload caused 
by the passage of IRCA. Key components of IRCA were: the development of 
the regional processing center concept, development of a modular office 
plan for field interviewing sites, automated data systems to record 
transactions, and receipt of authority from Congress to expedite 
certain leasing and contracting requirements. In addition, INS received 
authority to reemploy annuitants without salary offset. The reemployed 
annuitant program was absolutely critical to the overall success of the 
program.
    INS worked closely with Congress prior to the passage of IRCA, and 
that cooperation was also instrumental in INS being able to meet the 
requirements for the legalization provisions of IRCA.
    Question. What were the total costs of IRCA's two legalization 
programs (please break down by main components) and how much revenue 
was generated in total by the fees charged to process IRCA 
applications?
    Answer. The IRCA program was totally fee-funded. Therefore, the 
number of applications filed and their respective fees determine the 
total cost of the program. Our analysis to date of the program has 
determined a total application workload of approximately 2,700,000, 
with costs/fee revenues totaling $245,000,000. The breakdown of this 
program is as follows: (1) Application for Permanent Residency 
(2.68,000,000 applications/$241 million), (2) Application for Status as 
a Temporary Resident (6,700 applications/$3.7 million).
    Question. How much will the President's Immigration Reform Plan 
cost, and what components comprise the total cost?
    Answer. It is expected that costs associated with the workload 
would be covered with fees like all other application and petition 
processing.
    Question. If the President's Immigration Reform Plan is funded 
through fees, what proportion of the funds will be distributed to U.S. 
Citizenship and Immigrant Services (to adjudicate petitions), to 
Immigration and Customs Enforcement (for investigations and 
enforcement), to the Federal Bureau of Investigations (for background 
checks), to the Department of Labor (for labor certification and 
worksite enforcement), and to the Department of State's Bureau of 
Consular Affairs (for visa issuances)?
    Answer. CIS costs associated with the temporary worker program will 
be covered by application fees. The 2005 Budget requested additional 
funding to support Immigration and Customs Enforcement, an additional 
$23,000,000 to more than double the resources devoted to worksite 
enforcement.
    Question. How many full-time equivalent [FTE] personnel will be 
necessary to implement the President's Immigration Reform Plan? What 
level of fees or additional appropriations would be necessary to hire 
those additional FTEs without further increasing the deficit?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.

                        Departmental Management

                           DHS HIRING FREEZE

    Question. According to a March 26, 2004 Wall Street Journal 
article, certain DHS agencies have declared a ``hiring freeze'' in the 
Bureaus of Customs and Border Protection and Immigration and Customs 
Enforcement because of a potential budget shortfall of approximately 
$1.2 billion. Could you please explain to the subcommittee whether this 
shortfall is actually a ``computer glitch'' resulting from the 
combining of the budgets from legacy agencies or has the agency simply 
failed to request sufficient funding for front line staffing as it 
continues to roll out new border security initiatives such as One Face 
at the Border, US VISIT, C-TPAT, and C.S.I.?
    Answer. During a review of the status of execution of the fiscal 
year 2004 budget, ICE and CBP determined that implementation of hiring 
restrictions was a prudent managerial measure to ensure that they 
manage their overall requirements within their fiscal year 2004 
appropriations. It was also determined that additional focus was 
required to work through funding realignments related to the 
establishment of the three new Bureaus.
    The Department established a review team composed of staff from the 
Chief Financial Officer's Office, Border and Transportation Security, 
CIS, CBP, ICE, and the Coast Guard to assess the situation. The review 
team engaged in a detailed budget reconciliation effort between the 
three Bureaus resulting in an internal realignment of $212 million with 
possible subsequent internal realignment of approximately $270 million 
pending final documentation and billing. The work has been on-going, 
but agreements have been reached to realign funds to cover costs of 
services incurred by the Bureaus. Formal memoranda of agreement will be 
implemented between the three Bureaus and help ensure that funding is 
aligned with services rendered.
    There is no $1.2 billion shortfall as reported by the Wall Street 
Journal.
    Security initiatives such as One-Face-at-the-Border, US VISIT, C-
TPAT and CSI were sufficiently funded through the appropriations 
process and are not contributing to accelerated rates of expenditures.
    Question. Funds for these accounts are apportioned on a quarterly 
basis. Was the anti-deficiency act violated for any of the CIS, CBP or 
ICE accounts for fiscal year 2003 or fiscal year 2004?
    Answer. The anti-deficiency act has not been violated for the CIS, 
CBP or ICE accounts in fiscal year 2003 or fiscal year 2004.

                       TSA REPROGRAMMING PROPOSAL

    Question. What is the status of the TSA reprogramming proposal?
    Answer. TSA has proposed a modest reprogramming request for fiscal 
year 2004 in order to meet critical needs. The Department delivered a 
reprogramming request to the appropriations committees on April 23, 
2004. TSA will follow up on answers to questions posed by Committee 
staff who have been briefed on the request.
FTE
    Provide a chart, broken by DHS agency, that have the following 
headings: fiscal year 2003 on-board end of year, fiscal year 2004 on-
board current, fiscal year 2004 projected on-board end of year, fiscal 
year 2003 FTE, fiscal year 2004 funded FTE, fiscal year 2005 FTE 
request.

                                                 DEPARTMENT OF HOMELAND SECURITY FISCAL YEAR 2003--2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                         Fiscal
                                                 Fiscal                 year On-
                                     Fiscal     year 2003    Fiscal       board                  Fiscal
         Component/Bureau           year 2003   On-Board    year 2004   Projected    Fiscal     year 2005                     Comment
                                       FTE       End of     On-board     end of     year FTE       FTE
                                                 fiscal     Currently    fiscal
                                                  year                    year
--------------------------------------------------------------------------------------------------------------------------------------------------------
Border & Transportation Security:
    Office of the Under Secretary           5           5          27          40          67          75
    US VISIT.....................  ..........  ..........  ..........          64          64         102
    U.S. Bureau of Customs &           38,452      40,178  \1\ 41,847  \2\ 41,298  \3\ 40,076      41,001  SEE FOOTNOTE (CBP)
     Border Protection.
    Immigration and Customs            35,955      34,708      15,861      15,000      14,749      15,550  Fiscal year 2003 includes Legacy INS; Fiscal
     Enforcement \4\.                                                                                       year 2004 onboard does not include FTE for
                                                                                                            Federal Air Marshal Service
    Transportation Security            58,612      55,920      51,646      53,046      51,346      52,503
     Administration.
U.S. Coast Guard--Civilian.......       6,341       6,773       6,717       7,237       6,492       6,821  Direct and reimbursable
U.S. Coast Guard--Military.......      39,219      39,644      39,981      39,938      39,874      40,259
U.S. Secret Service..............       6,019       6,209       6,292       6,493       6,381       6,506
Emergency Preparedness & Response       5,432       5,726       5,682       5,970       4,780       4,776  Direct
U.S. Citizenship & Immigration          9,625       9,100       8,875       9,000       9,795       9,937  Decrease in on-board due to hiring freeze
 Services.
Federal Law Enforcement Training          831         908         931         934         934         936
 Center.
Information Analysis &                    226         226         263         543         729         737
 Infrastructure Protection.
Science & Technology.............          79          34          57         180         180         218  FTE numbers do not include: sin public health
                                                                                                            service FTE spt S&T; staff at the envir
                                                                                                            measurements lab; staff at PIACD and IPAs
Departmental Management:
    Departmental Operations......         274         359         445         617         708
    Office for Domestic                   129          57          69         146         146         197
     Preparedness.
    Wireless/IT..................          15           5           5          15          15          15
    Inspector General............         372         396         402         500         457         502
                                  ----------------------------------------------------------------------------------------------------------------------
      Totals.....................     201,312     200,163     179,014     180,849     176,702     180,843
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note: On-Board are positions not FTE (full time and part time).
\1\ Fiscal year 2004 on-board is as of 2/7/04 Current on-board numbers are positions not FTE. Full-time 40,227; Part-time 1,620.
\2\ Consistent with CBP staffing report required by the fiscal year 2004 Appropriations Act. End of year on-board will vary significantly resulting from
  transfer of employees between CBP and ICE. These transfers are result of the organizational realignment required by the creation of DHS.
\3\ Discretionary and Mandatory FTE that was built off the fiscal year 2003 actual FTE and includes additional positions appropriated by Congress.
  Estimated FTE usage at the end of fiscal year 2004.
\4\ Does not include FAMS.

                       DHS PERSONNEL REGULATIONS

    Question. Concerns have been raised with regard to the adequacy of 
funding for the Department of Homeland Security, specifically funding 
for first responders and other frontline personnel. In light of funding 
limitations for frontline positions, do you believe spending over $100 
million to design a new pay system is the right priority for DHS? When 
does the department anticipate that the new pay system will be fully 
implemented and operational within all bureaus within DHS? How much of 
the $100 million will actually be used for salaries for front line 
personnel?
    Answer. Our current schedule anticipates that full deployment of 
the new system will be completed in calendar year 2006. None of the 
$100 million will be used for salaries of front-line personnel, but 
rather will support key activities associated with the design and 
deployment of the new HR flexibilities. A sizeable amount ($31 million) 
of this request will be directed to training for front-line employees 
and managers. While $100 million may seem to be a lot, we view this as 
a necessary, and appropriate, investment in our people and the human 
capital systems they work under. We envision the flexibilities 
contained in this language to be a key catalyst to our ability to 
attract and retain the right talent for DHS and believe we will reap 
the benefits from this investment for many years to come.
    Additionally, investments in human resources information technology 
are required to identify further organizational savings and allow the 
eventual redirection of staff resources to front-line work. A 6-year 
life cycle cost of $131 million for human resources information 
technology is projected and is essential to ensure the necessary common 
technology platform to support the successful deployment of HR 
flexibilities and ensure they achieve the intended results. Absent this 
investment in HR technology, it would be difficult, if not impossible 
in some components, to implement the HR flexibilities because of the 
varying quality and maturity of components' existing HR technology 
capabilities.
    Question. What will be the annual cost for conducting the local and 
national pay surveys to private contractors to implement the pay for 
performance system?
    Answer. We have not yet costed-out this service. We do know that 
there are several commercial market survey instruments available to us 
for this purpose, and we have already initiated lessons-learned 
discussions with other Federal agencies that already use a component of 
market-based pay. We have been told by one agency (FAA) that their 
recurring annual survey costs are estimated at $30,000 per year.
    Question. What does DHS believe will be the full cost for 
implementing a new pay system?
    Answer. We are projecting a fully loaded life cycle costs of $408.5 
million to support full system implementation. Major components of this 
figure include the $102.5 million for system implementation, $10 
million for Coast Guard performance pool, an estimated $165 million for 
other component performance pools, and a 6-year life cycle cost of $131 
million for human resources information technology. Some of the 
component performance pools could come from existing salary and expense 
funding spent on within grade and quality step increases.
    Question. How many different pay rates will there be for DHS 
employees in the pay for performance system as opposed to the clear 15 
Grade Ten Step GS pay scale?
    Answer. We are anticipating that there will be between 10 and 15 
major occupational clusters of positions (i.e. administrative, law 
enforcement, etc,). According to our estimates, we are envisioning 4-5 
broad pay bands within each cluster to define entry-level, journey-
level, senior expert, and supervisory pay groupings.
    Question. What will the annual administrative cost be for the pay 
for performance system?
    Answer. We do not have this level of information yet, but are 
currently benchmarking with organizations with similar systems. We are 
envisioning that the bulk of these recurring costs will be in 
supervisory and managerial training, not salary administration, and 
view that as a positive commitment to the organization and our people.
    Question. How much of the $100 million will be allocated by 
contracts?
    Answer. We anticipate the bulk of the $100 million will be 
allocated by contract. Major breakdown of overall costs includes: $27 
million for program management, oversight and evaluation; $31 million 
for training and communications to support system implementation; $42 
million for detailed systems design and implementation support 
(business process reengineering, compensation expertise, etc.) It's 
important to note that of the one-third allocated for managerial and 
employee training which will likely be managed by contract, there will 
be a direct and tangible deliverable to the government beyond the 
contractor services. Most of the services being provided by contractors 
are those where specialized skills and knowledge are required for a 
fairly short duration.

                        DEPARTMENTAL COMPARISONS

    Question. When compared to the Departments of Treasury, 
Transportation, Justice, and Commerce, the Office of the Secretary of 
the Department of Homeland Security is spending incredible sums of 
money in areas such as Legislative Affairs, Public Affairs, and the 
Chief of Staff. For example, based on fiscal year 2004 enacted numbers, 
the Departments of Treasury, Transportation, Justice, and Commerce have 
an average of 17 and 17.5 FTE respectively in their Public Affairs and 
Legislative Affairs offices. DHS, in contrast, has 43 and 49 FTE in 
these two offices. The Office of the Secretary at DHS spends $8.1 
million on Public Affairs and $5.9 million on Legislative Affairs while 
the other four Departments average $1.6 million each on Public Affairs 
and $1.7 million each on Legislative Affairs.
    The Departments of Treasury, Justice, and Commerce have an average 
of 11 FTE and spend an average of $1.1 million each in their Chief of 
Staff office while DHS has 31 FTE in this office and spends $5 million. 
(Information on the Office of the Chief of Staff for the Department of 
Transportation was not available). Why is DHS spending so much more on 
their Public Affairs, Legislative Affairs, and Chief of Staff Offices 
in comparison to other Departments?

                               DEPARTMENTAL COMPARISONS FISCAL YEAR 2004--ENACTED
----------------------------------------------------------------------------------------------------------------
                                                 Chief of Staff        Public Affairs       Legislative Affairs
                                             -------------------------------------------------------------------
                                                FTE        Cost       FTE        Cost        FTE         Cost
----------------------------------------------------------------------------------------------------------------
Dept of Homeland Security...................       31   $5,047,000       43   $8,168,000       49     $5,907,000
Dept of Transportation......................  .......  ...........       19    1,889,000       24      2,267,600
Dept of Treasury............................       12    1,393,279       17    1,725,620       13      1,459,292
Dept of Commerce............................        7    1,109,000       12    1,882,000       12      1,605,000
Dept of Justice.............................       14      820,859       20      944,187       21      1,506,177
Average.....................................       11    1,107,713       17    1,610,202       17.5    1,709,517
----------------------------------------------------------------------------------------------------------------

    Answer.

                        CHIEF OF STAFF'S OFFICE

    The Chief of Staff's Office currently consists of 31 FTE positions. 
The function of the Office is to support the mission of the Department 
through coordination of the 22 agencies and directorates that have been 
consolidated into the Department of Homeland Security. The Chief of 
Staff's Office is also responsible for all operational functions that 
relate to the Immediate Office of the Secretary (budget, information 
technology, personnel and advance), and offices that fall under the 
budget supervision of the Chief of Staff's Office.
    Confronting one of the largest organizational transformations in 
United States Government history, the Chief of Staff's Office functions 
as the central point for coordinating the massive consolidation and 
reorganization challenges of the new Department. To ensure a high-level 
of initial access and to meet the critical and complex goals of 
Homeland Security's mission, the Chief of Staff's Office includes the 
Office of Policy and the Office of Counternarcotics.
    The Chief of Staff's Office manages the day-to-day activities of 
the Department and assists in guiding the long-term goals of Homeland 
Security. With the inherent challenges of a concurrent creation of a 
new Department, reorganization, consolidation, and several new offices, 
the Chief of Staff's Office seeks to streamline, coordinate, and 
deliver highly effective initiatives and policies that will ensure our 
safety, response capacity and our freedoms.
    To accomplish these goals, the Chief of Staff's Office utilizes the 
Office of Policy to coordinate all policy decisions that affect the 
Department. Due to the rapidly evolving nature of the Department, the 
Office of Policy continues to be a vital facet for developing and 
monitoring the range of issues the Department of Homeland Security 
confronts.
    The Office of Counternarcotics serves a vital function for Homeland 
Security as the Department works to address drug related activities 
that impact the security of our Nation.

                        OFFICE OF PUBLIC AFFAIRS

    The Department of Homeland Security (DHS) is a new department with 
unique responsibilities and a complex mission that includes facets of 
responsibility not undertaken by other government agencies. Consistent 
with the overarching mission of the department, the DHS Office of 
Public Affairs (OPA) has created and maintained several programmatic 
responsibilities to support the department's critical mission areas 
that exceed traditional press office functions.
    The congressional inquiry specifically compares the full-time 
equivalent (FTE) and budget allotment of DHS OPA to the Departments of 
Treasury, Transportation, Commerce and Justice, and requests 
justification for the apparent differences between DHS and the other 
departments.
    There are three primary justifications for the DHS FTE allotment 
and budget:
    Scope of Mission.--DHS Office of Public Affairs contains many 
functions that either do not exist at other agencies or are contained 
in other parts of the organization and are thus funded by those 
offices. These additional functions were strategically placed within 
the Office of Public Affairs to ensure consistency of message to 
external audiences and to develop synergies between these various 
functions. Information follows about the multiple functions that are 
contained within DHS OPA.
    Different Comparables.--Comparing the DHS Office of Public Affairs 
to Treasury, Commerce, DOJ, and DOT is an inaccurate comparison. DHS 
OPA is more analogous to the Department of Defense and the Department 
of State, in terms of the media's interest in department activities, 
the importance of communicating accurate, timely information to the 
public, and the international implications of the department's 
activities.
    In addition, both DOD and DOS public affairs support programmatic 
efforts similar to the Department of Homeland Security, including 
public education campaigns, a speaker's bureau and other public liaison 
functions. It should be noted that DHS's current FTE allocation (43) is 
considerably lower than the public affairs FTEs at the Pentagon (56 
FTEs in just OSD public affairs, excluding the large public affairs 
staffs at the armed services level) and at the Department of State (170 
FTEs at headquarters, excluding embassy public information officer 
staff).
    It should also be noted that DHS has a total of 180,000 employees--
substantially more than the other departments that DHS is being 
compared to.
    The Department of Homeland Security's mission is to prevent 
terrorist attacks within the United States, reduce America's 
vulnerability to terrorism, and to minimize the damage from potential 
attacks and natural disasters. To support these missions and ensure 
consistency in public information, DHS OPA performs functions not 
included in other department's staffing numbers; either because those 
functions sit elsewhere in the department or they are they are unique 
to DHS. Below is a brief description of these functions and 
specifically how they further the department's mission.
  --Public Education.--The Office of Public Education's goal is to 
        create and sustain public education campaigns that raise the 
        level of national citizen preparedness. This program directly 
        supports the department's mission to reduce America's 
        vulnerability to terrorism and to minimize damage in the event 
        there is another attack.
      In February 2003, DHS OPA launched the Ready campaign, a 
        comprehensive, bilingual public education campaign designed to 
        educate and empower Americans to prepare for potential 
        emergencies and reduce America's vulnerability to terrorism in 
        the event that there is another attack. This campaign 
        experienced the most successful launch in Ad Council history 
        and continues to grow. With congressional support in 2004, DHS 
        hopes to expand the campaign to offer a three-pronged strategy 
        for preparing communities: Ready, Ready for Business, and Ready 
        for School.
      The Office of Public Affairs has also partnered with the National 
        Academies of Science and the Radio and Television News 
        Directors Foundation to host ten tabletop exercises designed to 
        facilitate real discussion between media and government 
        officials about crisis. This program will supply members of the 
        media with resources to aid in the dissemination of reliable 
        information during a crisis and will provide the government 
        with a better understanding for how to best work with media in 
        providing critical information to the American public during 
        times of crisis.
      Finally, DHS OPA is working to engage the American public 
        directly in homeland security issues through a partnership with 
        the Council for Excellence in Government (CEG). These CEG town 
        hall meetings have taken place across the Nation and top 
        officials at the Department of Homeland Security have 
        participated to directly hear citizen's concerns and ideas 
        firsthand. Additional public education initiatives of this 
        nature are in the works for the future as well.
  --Public Liaison.--The goal of the Office of Public Liaison (OPL) is 
        to educate key constituent organizations about DHS policy 
        initiatives, organize opportunities for dialogue and provide 
        groups with one point of contact to exchange information and 
        address concerns. Due to the wide range of issues handled by 
        the department, the OPL interacts with think tanks, 
        associations, ethnic groups, universities, and others. OPL also 
        runs the DHS Speakers Bureau, which organizes and responds to 
        hundreds of incoming speaking invitations. Placement of the 
        Office of Public Liaison within DHS OPA is consistent with DOD 
        and DOS.
  --Incident Communications.--The Homeland Security Act of 2002 
        outlines DHS authority and responsibilities in the event of a 
        possible terrorist attack. DHS OPA has put several processes in 
        place to support that legislative mandate as well as Homeland 
        Security Policy Directive-5 (HSPD-5), which specifically 
        requires the department to inform the American people about any 
        terrorist-related events. ``The Secretary shall ensure that, as 
        appropriate, information related to domestic incidents is 
        gathered and provided to the public . . .'' This requires a 
        full crisis management capability that is always in place and 
        ready to respond and lead the national effort to comply with 
        HSA 2002 and HSPD-5. This is especially true since we lead the 
        Interagency Incident Management Group (IIMG).
      The DHS OPA staff has the primary Federal leadership role in 
        overseeing the public information components of the National 
        Response Plan (NRP) and National Incident Management System 
        (NIMS). This includes interagency content coordination as well 
        as state/local government and private sector coordination. 
        These documents and procedures are cornerstones for all major 
        incident public affairs response activity, and ensure that 
        Federal, State, and local communicators function as one voice 
        in delivering critical information and instructions to the 
        public. This function is essential--the public cannot be told 
        different information from authority figures during an 
        emergency situation.
      DHS OPA coordinates planning and operational actions with State 
        and local authorities, which includes training and briefing to 
        State public affairs staffs, exercise activity, and real-world 
        incident management. DHS OPA also conducts interagency table 
        top exercises to evaluate and improve upon Federal and 
        department incident response capabilities. In order to inform 
        the media about what they can expect from the Federal 
        Government during a terrorist incident, DHS OPA has created a 
        reference manual with media guidance that is near distribution.
      DHS OPA currently maintains a staffing presence in the DHS 
        Homeland Security Operations Center (HSOC) for the majority of 
        the time, requiring numerous, back-to-back staff shifts. 
        Ultimately, DHS OPA will be responsible for providing 24/7 
        coverage in the HSOC, which is currently operational 24 hours a 
        day.
      Finally, DHS OPA also coordinates directly with international 
        counterparts and non-governmental organizations to ensure that 
        the department's capabilities are known and to gain information 
        about best practices being used around the world. Examples 
        include participation in the multi-discipline National Disaster 
        Risk Communications Initiative and continuous coordination with 
        counterparts in Great Britain.
  --Historian.--The DHS Historian and historical staff are vital to the 
        formation, preservation, and dissemination of the institutional 
        memory of the Department. The DHS Historian also oversees and 
        directs the recording and preservation of the history of the 
        Department through the publication of a wide range of 
        historical studies aimed at a diverse audience, making the 
        Historian and historical publications essential to a broad-
        based public awareness of the work and history of the 
        Department.
      The work of the DHS Historian and records managers in collecting 
        and preserving historically important records is also a 
        critical element in ensuring government transparency in general 
        and, specifically, public accountability of a Cabinet 
        department charged with protecting the American people and way 
        of life.
      Activities include the production of a range of reference, 
        policy, and historical background assessment papers; providing 
        expert historical knowledge essential for informed decision 
        making; maintaining the institutional history of the 
        Department; providing professional assistance to the historical 
        and archival activities of the directorates and bureaus within 
        the Department; and producing such documentary collections as 
        may be deemed necessary.
  --Web Content and Development.--The work of the DHS Web team is of 
        particular importance because OPA is tasked with building a 
        functioning website that is consistent across the DHS bureaus 
        and useful to the American public seeking information about the 
        department's missions and policies. Pew research in April 2002 
        found that 68 million American adults had used government 
        agency Web sites--a sharp increase from the 40 million who had 
        used government sites in March 2000. An average of 1.7 million 
        pages is viewed each week on the DHS website. During the most 
        recent Orange alert, 2.5 million pages were viewed weekly.
  --Employee Communications.--The Employee Communications function 
        ensures that key policy, procedural, and operational 
        information from headquarters is disseminated and understood by 
        the department's 180,000 employees. This function is critical 
        to establishing a new culture for DHS employees folded in from 
        22 component bureaus and agencies. Employee Communications 
        researches communication needs, promotes two-way communication, 
        and provides a comprehensive range of tools such as a weekly e-
        newsletter, roundtable sessions with principals, and the 
        intranet website.
  --Speechwriting.--The Speechwriting staff supports the Office of 
        Public Affairs' public education mission by writing public 
        remarks for the Secretary, Deputy Secretary and other 
        spokespeople. This includes support for DHS senior leadership 
        during time of national crisis, when there is a particular need 
        for timely, straightforward public information. Current 
        staffing levels are consistent with those at DOS.
  --Communications/Press Office.--Due to the department's mission, 
        including its international impact, DHS OPA receives an 
        extremely high call volume from reporters interested in 
        homeland security issues. OPA also has taken proactive steps to 
        provide the public with timely information about homeland 
        security issues, such as giving advice to holidays travelers, 
        educating companies about their rights under the newly enacted 
        Safety Act, and guiding Americans to be alert when using rail 
        transportation.

                     OFFICE OF LEGISLATIVE AFFAIRS

    The Department of Homeland Security's Office of Legislative 
Affairs' (OLA) responsibilities are commensurate to the overarching 
mission of the Department, both diverse and far-reaching in scope. The 
legislative duties of the Department are comparable to other large 
Federal agencies sharing multiple committee jurisdictions and 
addressing a large volume of Congressional inquiry and activity.
    The Office of Legislative Affairs is responsible for the 
development and advancement of the Department's legislative agenda. 
This includes the establishment and maintenance of constructive 
congressional relations, the development of Departmental protocols for 
interaction with Congress and contributing to the formulation of and 
communication of the Department's strategic message.
    Specifically, OLA coordinates staffs and develops material for 
congressional hearings to include creating briefing books and editing 
written testimony. OLA assists with witness preparation of oral 
testimony, including coordinating and scheduling policy and subject-
focused pre-briefing prior to a hearing date. They also coordinate and 
manage legislative briefings in advance of a hearing. The briefings 
provide the policy landscape, possible questions and answers, 
information on other witnesses, and other last minute insights. 
Additionally, OLA staff coordinates and tracks deliverables which 
result from hearings, including questions for the record.
    Further, OLA is responsible for all congressional mail sent to DHS. 
This involves recording and tracking correspondence, assigning due 
dates, ensuring letters are answered in a timely manner and proofing 
and editing all correspondence for the Assistant Secretary's signature.
    Currently, more than 80 House and Senate Committees claim 
jurisdiction over the Department's many important functions. These 
committees include the Select Committee on Homeland Security, 
Committees on Appropriations, and other committees addressing homeland 
security issues related to transportation and infrastructure, 
agriculture, science, energy, commerce, taxes, government affairs, 
intelligence, judicial issues, financial services and international 
relations.
    DHS OLA places the highest priority on responding to all 
Congressional oversight inquiries in a factual and timely manner. This 
broad interest in the Department and its mission produces multiple 
hearings and Congressional briefings, numerous solicitations of 
response to Congressional questions and requires adequate resources to 
be devoted to sufficiently respond to such inquiry.
    For example, in 2003, the Department of Homeland Security testified 
at 148 hearings--some including multiple witnesses from both the full 
Department, as well of each of its directorates. From January 28th 
through April 22nd of this year, the Department has produced witnesses 
for 82 hearings. Additionally, in 2003, DHS OLA was responsible for 838 
briefings of Congressional members and staff. This year, DHS OLA has 
already conducted 509.
    Congressional inquiry that specifically compares the full-time 
equivalent (FTE) and budget allotment of DHS OLA to that of other 
Federal Departments requires an examination of not only the unique 
functions of the DHS OLA but also requires a thorough inspection of the 
personnel numbers of other Legislative Affairs offices outside of DHS.
    For example, other departments with comparable missions report 
similar or greater resources devoted to Legislative Affairs. DHS OLA 
shares similar personnel numbers not only within the Legislative 
Affairs offices of other departments, but also support staff, some 
greatly exceeding that of DHS OLA.

                        NEBRASKA AVENUE COMPLEX

    Question. Legislation authorizing the transfer of the property from 
the Navy to GSA has been submitted. What is the status of the 
legislation in the various authorizing committees? What has the 
Department been doing to educate the authorizers and the leadership of 
the urgency in moving this legislation by April 30?
    Answer. The proposed legislation from the Administration 
transferring the Nebraska Avenue Complex to the General Services 
Administration for the use of the Department of Homeland Security was 
submitted to Congress for consideration by letter from General Services 
Administrator Stephen A. Perry to Speaker of the House J. Dennis 
Hastert dated February 12, 2004, and by letter to Vice President 
Cheney, as President of the Senate, dated February 18, 2004. House and 
Senate Leadership, House and Senate Authorization Committees, and House 
and Senate Appropriation Committees have been briefed on the NAC 
legislation and the necessity of passing the legislation as soon as 
possible. A freestanding bill has been reported out of the House Armed 
Services and Transportation and Infrastructure Committees. Similar 
legislation has been reported out of the Senate Armed Services 
Committee as part of the fiscal year 2005 Department of Defense 
Authorization bill. Additionally, since February, the Appropriations 
and Authorizing Committees staffs have both toured the NAC in 
preparation for the introduction of the legislation.
    Question. What would it cost to lease the equivalent amount of 
space in Washington, DC for fiscal year 2005 and for fiscal year 2005-
2009?
    Answer. Using an average of $46.34 per square foot (assuming a 5 
year lease), the equivalent cost of leasing approximately 450,650 
square feet of floor space (approximate NAC requirement), the cost 
would be $20,883,000 in fiscal year 2005 and for the period fiscal year 
2005-2009 would be $106,523,000 (assuming an average cost inflation of 
5 percent per annum). These costs do not include the cost of parking.

                          GRANT CONSOLIDATION

    Question. What is the status of Secretary Ridge's proposal to 
consolidate TSA, FEMA, ODP and other grants in the Office of State and 
Local Government Coordination and Preparedness? Have any funds been 
officially transferred? If the proposal is still going forward, how 
many people from TSA and FEMA will be (or have been) transferred? Are 
they people associated only with grant stewardship, or are subject 
matter experts also being transferred?
    Answer. The move to create a one stop shop for grants is based upon 
input from the user or grantee community and is designed to enhance 
coordination of the multitude of preparedness and security grants 
currently administered by the Department (ODP, FEMA and TSA). The one-
stop shop consolidation will allow DHS to gain a global perspective on 
all of the grants to ensure that redundancies are minimized, funds are 
directed to the highest best use and DHS can proactively make 
recommendations to states, localities and other recipients on mutual 
aid and dual use opportunities.
    Moving the TSA grants to SLGCP will provide DHS with concrete 
benefits. First, it will allow the substantial bulk of the TSA 
personnel who are not impacted by the consolidation to focus on their 
core mission of transportation security. Next, it creates internal (to 
DHS) and external (to recipients) improved efficiencies because only 
one DHS team (SLGCP) will interact with grant recipients rather than 
two separate teams (one at SLGCP and one at TSA) and, more importantly, 
recipients who apply for more than one type of grant (e.g. a UASI and a 
TSA grant) will only need to deal with one DHS team (SLGCP).
    Final policy responsibility for grant guidance and grant 
distribution will reside with the Office of State and Local Government 
Coordination & Preparedness. However, overall hazards and 
transportation security policy input will remain with FEMA, TSA, as 
well as the Coast Guard, and MARAD. And, to ensure the continuing 
involvement of TSA in the grant process, ODP will create a distinct 
office dedicated specifically to transportation related grants. This 
office will work closely with TSA in developing transportation security 
grant policy.

                           HIRING PRIORITIES

    Question. Recently, in the midst of budget constraints during this 
period of increased demand to protect the homeland, the Department 
announced its intention to hire a director of its Hollywood 
entertainment liaison office. This position would pay up to $136,466. 
This salary would pay the entry level salaries of 5 TSA screeners, 4 
ICE Special Agents, 4 U.S. Border Patrol Agents, 8 Coast Guard non-rate 
enlistees or 3 U.S. Secret Service Special Agents. How can the 
Department justify the creation of such a position when hiring for 
front line activities within the Department is ongoing and there are 
hiring freezes in other parts of the Department?
    Answer. Public Affairs utilized an open, funded position from one 
of its bureau offices to create the Director of Entertainment Liaison 
position. By taking an FTE from an office where reorganization had 
created efficiencies in workload, the position utilized those 
efficiencies to create a position with value added to the Department.
    The Entertainment Liaison Office is a necessary addition to the 
Office of Public Affairs. This person will work with television and 
movie producers to ensure that they do not take ``editorial license'' 
with Homeland Security matters that could provide the public with false 
impressions or inaccurate information. We spend a great deal of effort 
to educate people to help them to be better prepared for any possible 
disaster--natural or manmade. Millions of Americans get information 
through the entertainment industry. This position will help to ensure 
that these people get an accurate portrayal of the department's 
mission, policies, and activities, while proactively working to help 
the American public better identify DHS functions. The Entertainment 
Liaison office will guide the direction of documentaries and law 
enforcement ``reality'' shows to provide real information about how the 
country is better prepared today.
    This is not a unique position in government. Many other Federal 
agencies already utilize a liaison with the entertainment industry. The 
CIA has a Hollywood liaison, and the Department of Defense houses a 
large staff to serve the same function.

                            CONTRACTING OUT

    Question. During the April 30, 2003, hearing, Secretary Ridge 
testified that he would provide the Subcommittee by August 2003 the 
fiscal year 2004 Management Plan of the Department. To date, that has 
not been submitted. Please submit the Plan. What are the Department's 
plans for fiscal year 2004 and fiscal year 2005 for contracting out 
work currently provided by DHS personnel?
    Answer. The Department has engaged in a 2004 Competitive Sourcing 
Plan that provides for the competition of approximately 1,500 
commercial FTE at CIS and the USCG. No decisions have yet been reached 
regarding whether to retain the work in-house or convert it to contract 
performance. Competition based decisions are expected in the August/
September timeframes. The Department is currently working with its 
Organizational Elements to identify opportunities for additional 
competitions in the fiscal year 2005 completion timeframe and based 
upon the 2003 FAIR Act inventory of commercial and inherently 
governmental functions, but we have not yet made any final decisions 
regarding what will be competed or the form of competition (streamlined 
or standard).

         FUNDING FEDERAL AIR MARSHALS AND PORT SECURITY GRANTS

    Question. Provide for the record the response to my March 9, 2004 
letter to Secretary Ridge.
    Answer. The Secretary appreciates the question and the opportunity 
to respond. A response to the Senator's March 9, 2004 letter to the 
Secretary is forthcoming.

                 Transportation Security Administration

               IMPLEMENTATION OF AIR CARGO STRATEGIC PLAN

    Question. Please provide an update on all steps taken to date to 
implement your 11/03 Air Cargo Strategic plan. How are you integrating 
the hiring of 100 air cargo inspectors into that plan and what is the 
status of that hiring effort?
    Answer. The Air Cargo Security Plan outlines a layered security 
strategy based on TSA's threat-based, risk managed approach to 
security. TSA is focused on numerous strategies to secure cargo 
aircraft, perimeters, facilities, and personnel. TSA plans to publish a 
Notice of Proposed Rule Making (NPRM) soon that will include 
requirements for further implementation of the Plan. But it is 
important to note that a significant number of measures called for by 
the Plan have already been implemented:
  --As of April 18th, 2004, 75 out of the 100 cargo inspectors have 
        been hired and are on board. The remainder has been tendered 
        offers of employment, which are currently being processed. We 
        expect the remaining inspectors to be on board within the next 
        two pay periods. These inspectors will be deployed throughout 
        the United States and under the supervision of the local 
        Federal Security Director.
  --A security directive requiring foreign all-cargo carriers to comply 
        with the same cargo security procedures as domestic air 
        carriers has been issued.
  --A security directive requiring passenger and all-cargo carriers to 
        perform random inspections of air cargo has been issued.
  --TSA's research and development budget for fiscal year 2005 includes 
        $55 million to develop new technologies for inspecting cargo 
        for explosives, radiation, chemical, and biological agents, and 
        other dangerous substances.
  --The Known Shipper database has been expanded by involving more 
        companies and collecting more information to enhance shipper 
        and supply chain security
  --To assist TSA in evaluating the latest technology available for 
        identifying high-risk cargo, a Request for Information (RFI) 
        was issued on April 12. The RFI will close on April 30th.
  --Explosives Trace Detection (ETD) and Explosives Detection System 
        (EDS) technology have been evaluated to determine their 
        viability in conducting targeted air cargo inspections. The EDS 
        Pilot program is progressing towards an operational phase. TSA 
        has selected three vendors to test their machines against eight 
        commodities. There are five airports selected to participate in 
        the pilot; MIA, DFW, ORD, ATL, LAX. The first screening is 
        scheduled to begin at the end of May and finish at the end of 
        June.

              AIR CARGO SCREENING: LEVERAGING DOD RESEARCH

    Question. In his January 26, 2004 testimony before the National 
Commission on Terrorist Attacks Upon the United States, Principal 
Deputy Assistant Secretary of Defense for Homeland Defense, Peter F. 
Verga, spoke to three Advanced Concept Technology Demonstration (ACTD) 
efforts currently underway at DOD. One of them, the Air Transportable 
cargo screening ACTD, is designed to detect explosive threats in pallet 
cargo loads moving through the military transportation system. Is your 
agency aware of this effort and is its use under consideration for one 
of the pilot air cargo demonstration projects called for and funded in 
the fiscal year 2004 Homeland Security Appropriations Act? If not, why 
not? If so, please describe the testing being conducted--including the 
location, timeframe, and level of funding.
    Answer. Both agencies benefit from research and development 
projects designed to provide technologies for screening cargo to be 
carried on board an aircraft. TSA has been in contact with the 
Department of Defense (DOD) regarding the Advanced Concept Technology 
Demonstration (ACTD), and will be working with DOD personnel to ensure 
that efforts undertaken by either TSA or DOD are complementary.

                         WAIT TIMES AT AIRPORTS

    Question. Last summer, my staff requested information regarding the 
wait times for airline passengers nationwide and at the JFK, LAX, MIA, 
ATL, Charleston, WV, and Jackson, MS airports on a month-by-month basis 
for fiscal year 2003 and 2004. They are still waiting for this 
information. The wait times should be presented graphically with data 
on the level of airport screeners at each of the requested locations. 
Please provide the information.
    Answer. TSA's plan for wait time data collection rotates the 
responsibility of collecting passenger security checkpoint wait time 
data among different airports throughout the year. Each month, 
approximately 26 airports are instructed to conduct a wait time study 
of two consecutive weeks. These airports are selected according to 
their geographical and size categories in order to allow TSA to 
extrapolate across the full range of airport diversity. All Category X 
and I airports--as well as select Category II, III and IV airports--
will be chosen to collect data at least three times each over the 
course of the year. The monthly airport selections are balanced in 
order to provide consistent data for headquarters analysis. In March, 
the average wait time for this sample of airports was 3.1 minutes with 
an average of 10.4 minutes at peak time. Please see attachment for 
airport specific information.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The average peak wait times are the wait times encountered by 
passengers during the airport's high passenger volume periods. This is 
an average of all the checkpoint's peak times at each of the selected 
airports over the given month.

               DISCRIMINATION COMPLAINTS BY TSA SCREENERS

    Question. Transportation Security Administration (TSA) employees 
have filed numerous discrimination complaints. Employees have filed 
complaints for a litany of reasons from poor agency management to 
failing to address the security problems at airports nationwide. As of 
January 2004 the agency faced a backlog of approximately 1,800 
discrimination complaints. How has TSA addressed this problem and what 
plans are being considered to alleviate the backlog of discrimination 
complaints?
    Answer. In January 2004, the Office of Civil Rights (OCR) 
implemented a ``Backlog Elimination Strategy.'' With this strategy, the 
OCR sought to both eliminate the backlog of discrimination complaints, 
develop a system that would promote rapid processing and resolution of 
current complaints, and perhaps, most important, improve service to our 
customers. During fiscal year 2003, OCR received in excess of 1,800 
informal complaints of discrimination. In January 2004, the OCR had a 
backlog of 476 informal complaints that required action. As of April 8, 
2004, OCR had a backlog of 8 informal complaints requiring action.
    We have trained all of our EEO counselors and many OCR staff 
members in alternative dispute resolution techniques and have provided 
our EEO counselors with additional counselor training. We are proud to 
say that OCR's strategy of addressing EEO complaints is not reliant on 
the ``pushing of paper.'' We are providing training to TSA managers 
that focuses on management practices that promote equal employment 
opportunity and are working closely with various TSA offices to 
identify and address potential civil rights issues.

                          AIR MARSHAL TRAINING

    Question. In December 12, 2003 written testimony to Senator 
Hollings, the General Accounting Office stated that funding cuts and 
delays would push back into mid-2004 advanced air marshal training--
scheduled for completion in January 2004 for those air marshals hired 
between October 2001 and July 2002. What is the current status of 
advanced air marshal training? Have all air marshals hired through the 
end of fiscal year 2003 received the required advanced training?
    Answer. Phase II Training, the equivalent of advanced training for 
Federal Air Marshals, continues at the Federal Air Marshal Training 
Center in Atlantic City, NJ. Presently, the last class is scheduled to 
begin on May 31, 2004. At the end of that class, approximately 136 
Federal Air Marshals will not have attended Phase II for the following 
reasons: debilitative medical conditions (61) active military duty 
(39); and administrative positions (36). The 36 Administrative 
Positions represent 36 Federal Air Marshals (FAMs), who have background 
investigation issues and/or disciplinary action pending. When those 
matters have been adjudicated, the FAMs will attend Phase II Training. 
These numbers may be reduced as personnel in those categories become 
available to attend Phase II Training, since training positions remain 
available to include the above.

             CANINE TEAMS--DIVERSION FROM CURRENT MISSIONS

    Question. The Secretary has proposed to increase rail security by 
diverting K-9 teams to rail stations. Yet, there is no new money for 
this purpose. Where are the K-9 teams being diverted from and what 
impact is the diversion having on those missions?
    Answer. DHS has announced that it will create Rapid Response Teams 
to augment local dog teams through the Federal Protective Service 
(FPS). FPS, working with TSA, will determine how best to mobilize 
existing dog teams across the Federal Government during heightened 
alerts. We have no intention of taking K-9 teams away from screening 
air cargo and protecting other Federal infrastructure. TSA is 
developing a program to partner with local authorities to provide 
explosives detection training for current and future dog teams.

                          REGISTERED TRAVELER

    Question. What are the costs in fiscal year 2004 and fiscal year 
2005 to implement the registered traveler program, how much of that 
cost will be covered by fees on the registered travelers, and what will 
be the expected increase in wait times for non-registered travelers if 
the registered traveler program is implemented with no increase in the 
screener workforce?
    Answer. TSA intends to conduct Registered Traveler (RT) Pilots at a 
limited number of airports beginning in June 2004. The pilot programs 
will assess improvements in security and enhancements in customer 
service for passengers. The pilots will last approximately 90 days. 
Results of these pilots will be analyzed to determine the program's 
effect on security and service.
    During the RT Pilots, TSA will test technology, including biometric 
tools, to enhance identity verification at the passenger security 
checkpoint, in conjunction with business processes, including potential 
reconfiguration of select checkpoint lines and lanes. TSA will be 
testing a range of technology and operational variables. The RT Pilots 
will monitor and assess possibilities for a secure and expedited travel 
experience for those who volunteer for the program. The number of 
participants in the RT Pilots will be capped at 10,000, spread across a 
small number of airport locations. It is anticipated that this small RT 
Pilot test will not have a detrimental effect on either those who do 
not volunteer or on the screener workforce. Upon conclusion of the 
pilots, determination will be made regarding best practices and 
necessary enhancements required for larger implementation of the 
program.
    The cost of the RT Pilots will be funded through $5 million 
appropriated for the Registered Traveler program in the Homeland 
Security Appropriations Act, 2004 (Public Law 108-90). Contrary to 
media reports, TSA is not planning to charge a fee to passengers who 
participate in the 90-day RT Pilots.
    TSA will await the results and analyses of the Pilots prior to 
making any decisions regarding the implementation of a Registered 
Traveler program in fiscal year 2005, including any costs that may be 
incurred by passengers who wish to participate in the voluntary 
program. The fiscal year 2005 request includes $15 million to pay for 
additional start-up costs, such as IT infrastructure and staffing 
associated with an RT program. TSA anticipates that future operational 
program costs for the Registered Traveler Program would be covered by 
fees incurred by participants. Thus, the Registered Traveler Program 
would become self-funded.
    Until the pilot has been conducted and the results fully evaluated, 
staffing requirements and their implications cannot be fully 
understood. However, TSA remains committed to its customer service 
objectives and minimizing the wait time for the traveling public.

                  Emergency Preparedness and Response

                           PROJECT BIOSHIELD

    Question. How can the Department justify spending between $1 
billion and $1.5 billion on experimental anthrax experimental vaccines 
not approved by FDA and unlikely to be approved for many years, when 
these vaccines have been developed by companies who have never had a 
commercially manufactured vaccine approved by FDA?
    Answer. Anthrax tops virtually every biowarfare threat analysis, 
because of its high fatality rate (as demonstrated by the October 2001 
attacks, where 45 percent of those with inhalation anthrax died), 
persistence in the environment, ease of production, and ease of 
aerosolization. Although antibiotic treatments are available, the use 
of an anthrax vaccine would provide pre-exposure protection for first 
responders and remediation workers. In a post-attack scenario, a 
vaccine would shorten the course and increase the effectiveness of 
treatment antibiotics when given to large exposed populations, and 
facilitate re-entry into contaminated space. It would also provide 
protection if a terrorist deployed antibiotic-resistant anthrax. Other 
important anthrax treatment modalities such as anthrax antitoxins, 
which can potentially save the lives of those already ill, are under 
advanced development and may become available for BioShield 
procurements in the future.
    The current licensed anthrax vaccine, Anthrax Vaccine Adsorbed 
(AVA), has many disadvantages for civilian use, including a primary 
requirement of 6 doses over 18 months with annual boosters and a 
limited production capacity (the only producer has a maximum production 
of 6.6 million doses per year). However, it is currently available, 
effective, and safe; and newer, 3-dose schedules are being evaluated. 
Through an interagency agreement between the Department of Defense 
(DOD) and DHS, the manufacturer could provide 5 million doses to the 
stockpile by 2006.
    Project BioShield provides for the acquisition of licensable 
products with the term ``licensable'' defined as within 8 years. This 
provision allows the Department to consider competitive bids proposed 
by companies that have a validated current Good Manufacturing Practices 
production process capable of scaled commercial production, as well as 
products that have been tested in appropriate animal models for 
efficacy and in human clinical trials for safety. New recombinant 
Protective Antigen (rPA) anthrax vaccines made using genetic 
recombinant biotechnology are being developed as next-generation 
anthrax vaccines. In preliminary studies, rPA vaccines protected 
animals against lethal anthrax aerosol challenge. Two manufacturers--
one of them in the United States--are developing rPA vaccine under 
contract with the National Institutes of Health (NIH). Human trials to 
evaluate safety began in the summer of 2003. NIH contracts for advanced 
development, process development, and further clinical testing were 
awarded in September 2003. A 3-dose schedule has been suggested as 
likely, although studies could result in a 1-2 dose schedule in certain 
situations. Cost is estimated at $10 per dose. Initial rPA delivery to 
the Strategic National Stockpile is expected in 2004 as an 
investigational product.
    Two manufacturers have nearly completed phase I clinical trials, 
and further clinical and animal testing plans appear reasonable to NIH 
and Food and Drug Administration reviewers. Recent progress reports to 
NIH indicate steady progress by both manufacturers with no major 
obstacles envisioned. NIH will continue to support and monitor the 
current development of the product through phase II clinical trials.
    HHS will request monthly progress reports from the manufacturers 
and will host interagency risk management meetings to review the 
reports and to intervene when necessary. Also, a significant percentage 
of the contract payment will not be available until after licensure, 
both for pre-exposure and post-exposure use.
    After consideration of the anthrax threat, public health need, 
advanced development progress, manufacturing capability, and cost, the 
Policy Coordination Committee of the Homeland Security Council 
recommended, and the Deputies Committee approved, procurement of 
additional anthrax vaccine.
    Question. Why doesn't DHHS adopt a near-term to long-term policy 
for stockpiling of anthrax vaccine with product available now for the 
next 5 years and with next generation vaccines thereafter? Isn't a 
mixed approach being used for the procurement of other vaccines?
    Answer. DHS and HHS are working closely to develop both a near-term 
and a long-term strategy for stockpiling existing prophylactics and/or 
pharmaceuticals to protect against or to treat exposures to anthrax 
while continuing to seek and encourage the development of next-
generation anthrax vaccines. Currently, the Strategic National 
Stockpile (Stockpile) contains a sizable inventory of antivirals for 
treatment of anthrax exposure, and due to their current availability, 
the Stockpile is markedly increasing its caches of such 
countermeasures--enough to treat 12 million people with an increase to 
30 million by the end of this year. Additionally, DHS, through an 
interagency agreement with DOD, is purchasing the only FDA-licensed 
anthrax vaccine, AVA, in fiscal year 2004, fiscal year 2005, and fiscal 
year 2006--for a total of 5 million doses to be added to the Stockpile. 
As a result, the Stockpile will contain ample amounts of prophylaxis 
for anthrax exposure, and will serve as a bridge until the next-
generation anthrax vaccine, rPA, is accepted into the Stockpile.
    Question. Please provide an expenditure plan by quarter for fiscal 
year 2004 and fiscal year 2005 for Project Bioshield that identifies 
specific procurements for which decisions or solicitations have been 
made to date and general purposes or goals for remaining obligations.
    Answer. Over the past 10 months, the Weapons of Mass Destruction 
(WMD) Medical Countermeasures subcommittee has developed 
countermeasures information of interest to administration policymakers 
who will make the BioShield procurement decisions. The WMD subcommittee 
commissioned an end-to-end analysis of medical countermeasures to 
Category ``A'' biological agents (anthrax, smallpox, plague, botulinum 
toxin, tularemia, Ebola, and other hemorrhagic fever viruses). Working 
groups developed initial requirements for four high-priority bioweapon 
countermeasures for which there is high need and a reasonable 
expectation that products will be available in the near-term:
  --Next-generation anthrax vaccine (rPA)
  --Anthrax immune therapy
  --Next-generation smallpox vaccine (modified vaccinia, MVA or LC16m8)
  --Botulinum antitoxin

                               STOCKPILE

    Question. Please provide an expenditure plan by quarter for fiscal 
year 2004 and fiscal year 2005 for Strategic National Stockpile that 
identifies specific procurements for which decisions or solicitations 
have been made to date and general purposes or goals for remaining 
obligations.
    Answer. The fiscal year 2004 Strategic National Stockpile spending 
plan has already been provided to the Appropriations Committee on May 
11, 2004, during a Strategic National Stockplie (SNS) briefing. A 
fiscal year 2005 spending plan is being formulated by the Centers for 
Disease Control and Prevention, but it has yet to be provided to DHS.

     REGIONAL OFFICE AND IMPACT ON EXISTING FEMA REGIONAL STRUCTURE

    Question. Please provide an update on the Department's plans to 
establish a regional structure. What impact will this new structure 
have on FEMA'S 10 regional offices and their longstanding and 
successful linkages with State and local emergency managers?
    Answer. An effective Department of Homeland Security (DHS) field 
operational management concept is essential to ensure that the 
Department fulfills its mission in leading the national unified effort 
to protect America. Of the 22 agencies that now comprise the 
Department, 7 have regional structures. DHS is conducting a baseline 
analysis regarding a regional concept of operations that would ensure 
effective management of field operations both on a day-to-day basis and 
during incidents
    One of the core missions of DHS regional offices would be to 
collaborate with Federal, state, local, tribal and private sector 
stakeholders within the region to coordinate homeland security 
activities. To ensure that the DHS regional offices are able to perform 
this coordination function, FEMA regional offices will continue to 
partner with State and local governments to help ensure that 
communities throughout the Nation can prepare for, respond to and 
recover from incidents and disasters.
    Question. How will those relationships be protected under a new 
regional structure?
    Answer. Over the years, FEMA regional offices have developed such 
productive working relationships with their State and local partners 
that it is often touted as the hallmark of intergovernmental 
coordination and collaboration between a Federal agency and its 
constituent stakeholders. In recognition of these valuable 
partnerships, the Department is working to design a regional construct 
that will capitalize upon these excellent relationships to enable the 
more effective and efficient delivery of DHS services to external 
stakeholders.

                            DISASTER RELIEF

    Question. Please provide the Subcommittee with an update on 
disaster relief funds.
    Answer. As of April 28, 2004, $1.487 billion remains unobligated in 
the Disaster Relief Fund If obligations occur at the 5-year average of 
$249 million per month for the remaining 5 months of the fiscal year 
and FEMA realizes another $200 million in recoveries of prior year 
obligations (actual recoveries through March 31 equal $194 million), 
FEMA will end the year with an unobligated balance of $442 million, 
which is close to the estimate of $453 million in the fiscal year 2005 
President's budget. In summary (in thousands of dollars):

------------------------------------------------------------------------

------------------------------------------------------------------------
Unobligated Balance, 4/28...............................      $1,487,265
Estimated recoveries....................................         200,000
Obligations May 1-Sept. 30 (5 <greek-e> $249 million)...      -1,245,000
                                                         ---------------
Estimated unobligated balance 9/30/04...................         442,265
------------------------------------------------------------------------

    Of course, any large hurricane or other disaster events during the 
remainder of the fiscal year could significantly impact these 
estimates.

                      United States Secret Service

                          CAMPAIGN LABOR COSTS

    Question. The fiscal year 2004 budget includes $64 million in costs 
associated with the 2004 campaign protection program. This budget was 
based on a historical average of 603 ``protection days'' covering 
multiple candidates. How many candidates have received protection 
during the 2004 campaign? Provide the date protection started for each 
candidate. Does the Secret Service still anticipate that 603 protection 
days will be required for the presidential campaign? What savings does 
the Secret Service anticipate from the campaign program, if any?
    Answer. As you note, the Secret Service's campaign protection 
estimate is based on the historical average of the number of protection 
days provided for the last four elections. The Administration believes 
this is the most appropriate method for developing estimated campaign 
protection costs, since it does not presuppose a set number of 
candidates or particular days on which protection will begin or end.
    To date, the Service has provided protection for two candidates and 
one spouse. Following the Democratic Convention, the Service will 
provide protection to the Vice-Presidential nominee and the Vice-
Presidential nominee's spouse. Baring protection being provided to a 
third party, an independent candidate or, on the Republican ticket, 
someone other than the sitting President or Vice President, 421 days of 
protection will be provided.
    Of the $64 million budgeted for the campaign program, $40.0 million 
is for direct costs related to protection, and $24 million is for labor 
costs relative to personnel that are being reallocated from the 
Service's investigative activity to the campaign in order to staff the 
protective effort. These reallocated labor costs are covered by the 
Service's base budget. To the extent these personnel are not required 
for campaign-related work; they will continue their investigative 
activities.
    Because of lower than originally projected campaign activity, the 
direct costs are now estimated to total only $33 million. The 
Department and the Secret Service will work with Congress to find 
appropriate uses for any excess campaign protection funding.

------------------------------------------------------------------------
                                       Projected dates of     Protection
         Candidate/Nominee                 Protection            Days
------------------------------------------------------------------------
John Kerry.........................  February 20, 2004             224
                                      through September 30,
                                      2004.
Mrs. Kerry \2\.....................  April 13, 2004 through         85.5
                                      September 30, 2004.
John Edwards.......................  February 22, 2004              11
                                      through March 3, 2004.
Dem. VP Nominee \1\................  July 26, 2004 through          67
                                      September 30, 2004.
Dem. VP Spouse \1\ \2\.............  July 26, 2004 through          33.5
                                      September 30, 2004.
                                                            ------------
      Total Projected Campaign Days  ......................       421
------------------------------------------------------------------------
\1\ Estimated VP Nominee and Spouse start dates.
\2\ Protection for spouses are projected as \1/2\ day of protection.

              ``FORCE MULTIPLIER'' TO FEDERAL AIR MARSHALS

    Question. On February 24, 2004, the Immigration and Customs 
Enforcement and the Secret Service announced a new agreement to provide 
force multiplier to Federal air marshal service. According to the 
Department, this initiative would enable the ICE FAMS the flexibility 
to deploy their Federal Marshals to a wider range of flights. Other 
than providing the ICE FAMS with travel information for armed personnel 
traveling on U.S. commercial flights during their normal course of 
business, what specific responsibilities will Secret Service agents 
have on these flights that they didn't have before February 24, 2004? 
In many cases, Secret Service agents travel from one city to another 
following several hours of protection responsibilities. Does this mean 
that U.S. Secret Service agents will then be asked to substitute as 
Federal air marshals when traveling on official business?
    Answer. The objective of the Force Multiplier Program (FMP) is to 
capitalize on the presence of literally thousands of armed Federal law 
enforcement officers (LEOs) that routinely travel throughout the 
country on commercial carriers in support of the missions of their 
respective agencies. Essentially, the FMP is a system that would allow 
the Federal Air Marshal Service (FAMS) to track and coordinate LEO 
flight activity to optimize the use of Federal Air Marshals and 
otherwise enhance the level of LEO coverage provided to the Nation's 
civil aviation system.
    While USSS Special Agents are participating in the Force Multiplier 
Program, they will not be acting as ``de facto FAMs'' and are not a 
substitute for Federal Air Marshals (FAMs). While they receive a 
briefing, they are neither fully trained nor tactically positioned on 
the aircraft to serve as FAMs. The USSS Special Agents will have no 
additional responsibilities while aboard U.S. commercial flights during 
the course of their official travel. It will, however, heighten their 
awareness within the aviation domain and allow the FAMS to monitor the 
presence of armed LEOs on flights. In the event of an in-flight crisis, 
the USSS Special Agents would react accordingly to the threat as 
prescribed by applicable statutes and their agency policy.

  Immigration and Customs Enforcement and Citizenship and Immigration 
                                Services

   IMMIGRATION-RELATED CASEWORK--ASSISTANCE TO CONGRESSIONAL OFFICES

    Question. I am troubled by the reports I am receiving from members 
of my staff about the difficulties that they are having in obtaining 
help from your agency for my constituents. Under the current 
reorganization regime, my staff is finding that their efforts to get 
answers to even some of the most basic questions about visas and 
immigration processes are meeting with resistance from agency staff. 
Contacts, both e-mails and follow-up phone calls, from my office to 
district office staff in your agency are not receiving timely 
responses. It sometimes takes days to get even an acknowledgment of an 
inquiry. In many cases, contract personnel, particularly at the service 
centers, are less acquainted with the intricacies of immigration law 
than are members of my own Senate staff. On many occasions my staff has 
made inquiries only to receive responses that are strictly scripted. 
Even more disturbing, calls from my Senate office are not even being 
answered at headquarters. I would like to know what efforts are being 
made to monitor service to the public and to ensure that Congressional 
inquiries are handled promptly?
    Answer. The Director, U.S. Citizenship and Immigration Services 
(USCIS) is also troubled if you and your staff are not receiving timely 
and appropriate responses to your inquires from USCIS personnel and 
appreciate your bringing it to his attention. You should know that the 
Standard Operating Procedures for all congressional units, both here at 
USCIS headquarters and in the field, specifically state that all phone 
calls from congressional offices must be returned within 24 hours, e-
mails within 10 days, and written correspondence or faxes within 30 
days. If this is not being done, then the Director would be happy to 
look into any specific instances or cases you could provide to me. 
However, it is important to note that some case resolution (which 
should be considered distinct from the return of a phone call or the 
answer to a letter), because of its complexity, may take considerably 
longer.
    The Director appreciates you bringing this to his attention and 
wants to assure you that customer service is one of the top three 
priorities of USCIS. We will continue to commit ourselves to building 
and maintaining an immigration services system that provides 
information and benefits in a timely, accurate, consistent, courteous 
and professional manner and ensure that those values are exhibited in 
our congressional units.
    It appears that the above question regarding responsiveness 
primarily relates to immigration services issues under the purview of 
U.S. Citizenship and Immigration Services (USCIS). However, the 
Assistant Secretary, Immigration and Customs Enforcement (ICE) wants to 
ensure you that ICE is fully committed to providing timely and 
informative responses to all congressional inquiries. The ICE office of 
Congressional Relations can be reached at (202) 514-5232 to assist in 
immigration casework relating to detention and removal, humanitarian 
parole and other matters under ICE's jurisdiction. For your 
information, USCIS Office of Congressional Relations can be reached at 
(202) 514-5231.

                    Office for Domestic Preparedness

                  METROPOLITAN MEDICAL RESPONSE SYSTEM

    Question. Provide a detailed description of how fiscal year 2002, 
fiscal year 2003, and fiscal year 2004 funds appropriated for the 
Metropolitan Medical Response System have been spent. Has the 
Department fully met the requirements of cities, as laid out in the 
MMRS contracts? If not, how much work, and in which cities, remains to 
be done? How much of the fiscal year 2004 appropriation is obligated? 
What are the plans for remaining funds? If the Department does not plan 
to obligate all appropriated fiscal year 2004 funds for MMRS, please 
provide a rationale; the proposal for how remaining funds will be 
spent; and indicate whether you will submit a reprogramming or transfer 
proposal to the Committee.
    Answer. In fiscal year 2002, the Metropolitan Medical Response 
System (MMRS) program was located in the Department of Health and Human 
Services' (HHS') Office of the Assistant Secretary for Public Health 
Emergency Preparedness (OAS PHEP). The funds were used to initially 
establish an MMRS in 25 new jurisdictions at a cost of $400,000 each, 
for a total of $10 million (this was less than the historical cost of 
$600,000 for an MMRS contract), and to fund special projects in MMRS 
jurisdictions.
    In fiscal year 2003, $49.1 million of the $50.1 million 
appropriation was allocated to MMRS within the HHS OAS PHEP, and is 
broken out as follows:
  --$200,000 was provided to each of the 25 fiscal year 2002 
        jurisdictions to ``make them whole'' for baseline capability 
        development, for a total of $5 million
  --Funds for fiscal year 2003 Program Support Contracts, providing 
        $280,000 for capability sustainment and optional operational 
        area expansion, were obligated for each of the 122 MMRS 
        jurisdictions, for a total of $34.16 million
  --A total of $2.4 million was used to establish 3 new MMRS 
        jurisdictions and to upgrade Atlanta to MMRS status ($600,000 
        for each)
  --$3 million was provided to the National Emergency Training Center 
        (NETC) for MMRS training course development and for Noble 
        Training Center facility upgrades
  --$1.5M was spent on the final phase of a special project to obtain a 
        mobile field hospital for the Charlotte-Mecklenburg, North 
        Carolina, MMRS
  --The remainder was used for technical support contract fees, 
        official travel, printing, and other overhead expenses
    In fiscal year 2004:
  --$3 million was transferred to the NETC for 1 MMRS course 
        development and 2 facility upgrades at the Noble Training 
        Center
  --$500,000 has been used for staff travel and administrative expenses
    As of May 5, 2004, 65 of the 124 MMRS jurisdictions have completed 
their baseline capability development. Of these 65 jurisdictions, 24 
have begun work under the fiscal year 2003 Program Support contracts. 
None of the jurisdictions has yet completed its fiscal year 2003 
Program Support contract. Of the remaining 59 jurisdictions:
  --25 jurisdictions have nearly completed their baseline capability 
        development (only 1 or 2 deliverables remaining)
  --13 jurisdictions are on track (have 3 or more deliverables 
        remaining and are on schedule to complete them)
  --21 jurisdictions are delayed
    As an incentive for completing baseline capability development, 
activation of the fiscal year 2003 Program Support Contract (up to 
$280,000) is conditional upon completion and approval of all 
deliverables required in the initial MMRS contract, and its 
modifications. The table below provides the information by 
jurisdiction.

------------------------------------------------------------------------
                                                           Submitted
                                                      Technical and Cost
                                   2003 Sustainments   Proposals for the
 Baseline Deliverables Completed        Started        Fiscal Year 2003
                                                        Program Support
                                                           Contracts
------------------------------------------------------------------------
Akron, OH.......................  Anaheim, CA.......  Akron, OH
Albuquerque, NM.................  Aurora, CO........  Albuquerque, NM
Anaheim, CA.....................  Bakersfield, CA...  Amarillo, TX
Anchorage, AK...................  Birmingham, AL....  Anaheim, CA
Arlington, TX...................  Columbus, GA......  Anchorage, AK
Aurora, CO......................  Columbus, OH......  Arlington County,
                                                       VA
Austin, TX......................  Denver, TX........  Arlington, TX
Bakersfield, CA.................  Fremont, CA.......  Austin, TX
Baltimore, MD...................  Fresno, CA........  Baton Rouge, LA
Baton Rouge, LA.................  Honolulu, HI......  Shreveport, LA
Birmingham, AL..................  Indianapolis, IN..  Chattanooga, TN
Boston, MA......................  Jacksonville, FL..  Cincinnati, OH
Chesapeake, VA..................  Las Vegas, NV.....  Dallas, TX
Chicago, IL.....................  Mesa, AZ..........  Dayton, OH
Cleveland, OH...................  Milwaukee, WI.....  El Paso, TX
Columbus, GA....................  Minneapolis/St.     Fort Wayne, IN
                                   Paul, MN.
Columbus, OH....................  Nashville, TN.....  Fremont, CA
Dallas, TX......................  Omaha, NE.........  Fresno, CA
Denver, CO......................  Phoenix, AZ.......  Ft. Worth, TX
Detroit, IL.....................  Riverside, CA.....  Garland, TX
El Paso, TX.....................  Salt Lake City, UT  Glendale, CA
Ft. Wayne, IN...................  San Antonio, TX...  Glendale, AZ
Fort Worth, TX..................  San Diego, CA.....  Greensboro, NC
Fremont, CA.....................  St. Louis, MO.....  Hampton Roads
                                                       District Planning
                                                       Commission
Fresno, CA......................  ..................  Hialeah, FL
Glendale, AZ....................  ..................  Honolulu, HI
Honolulu, HI....................  ..................  Houston, TX
Houston, TX.....................  ..................  Huntington Beach,
                                                       CA
Huntington Beach, CA............  ..................  Irving, TX
Huntsville, AL..................  ..................  Southeast Alaska
                                                       Region
Indianapolis, IN................  ..................  Los Angeles, CA
Jacksonville, FL................  ..................  Las Vegas, NV
Kansas City, MO.................  ..................  Lexington, KY
Las Vegas, NV...................  ..................  Lincoln, NE
Long Beach, CA..................  ..................  Little Rock, AR
Los Angeles, CA.................  ..................  Lubbock, TX
Memphis, TN.....................  ..................  McAllen, TX (Rio
                                                       Grande)
Mesa, AZ........................  ..................  Mesa, AZ
Miami, FL.......................  ..................  Mobile, AL
Milwaukee, WI...................  ..................  New Orleans, LA
Minneapolis, MN.................  ..................  NY City Mayor's
                                                       Office
Mobile, AL......................  ..................  Oakland, CA
Nashville, TN...................  ..................  Oklahoma City, OK
Newport News, VA................  ..................  Omaha, NE
New York, NY....................  ..................  Phoenix, AZ
Oklahoma City, OK...............  ..................  Portland, OR
Omaha, NE.......................  ..................  Richmond, VA
Philadelphia, PA................  ..................  Riverside, CA
Phoenix, AZ.....................  ..................  San Antonio, TX
Portland, OR....................  ..................  San Bernardino, CA
Riverside, CA...................  ..................  San Diego, CA
Salt Lake City, UT..............  ..................  San Jose, CA
San Antonio, TX.................  ..................  Santa Ana, CA
San Diego, CA...................  ..................  Seattle, WA
San Francisco, CA...............  ..................  Spokane, WA
San Jose, CA....................  ..................  St. Louis, MO
Seattle, WA.....................  ..................  St. Petersburg, FL
Shreveport, LA..................  ..................  Stanislaus County,
                                                       CA
St. Louis, MO...................  ..................  Stockton, CA
St. Paul, MN....................  ..................  Tacoma, WA
St. Petersburg, FL..............  ..................  Tampa, FL
Syracuse, NY....................  ..................  Toledo, OH
Tampa, FL.......................  ..................  Tucson, AZ
Tulsa, OK.......................  ..................  Tulsa, OK
Wichita, KS.....................  ..................  Wake County, NC
                                                      Wichita, KS
------------------------------------------------------------------------

    As of April 30, 2004, $3.5 million of the $50 million appropriation 
has been obligated. The funds that Congress has appropriated for MMRS 
over the last several years have been used to establish certain 
capabilities, to get the program up to its baseline, and to facilitate 
transfer of the program to the localities for continuation, once the 
baseline is established. We will reach the baseline this fiscal year 
(2004), and therefore no additional funding is being requested. As 
such, the Department has submitted to the House and Senate 
Appropriations Subcommittees a notification, dated April 27, 2004, of 
its intent to reprogram $40 million of the $50 million MMRS 
appropriation. Should this reprogramming be approved, the remaining 
funds, approximately $6 million, would be used to develop a plan to 
terminate the program as currently structured and to seek the 
continuance, in some form, of its key components in the eventual ``one-
stop shop'' grants operation to be administered by the DHS Office of 
State and Local Government Coordination and Preparedness. Under this 
arrangement, FEMA would have no further role in the MMRS program for 
fiscal year 2004, and there will be no Federal program in fiscal year 
2005.
    There are other Federal programs that provide more narrowly 
focused, but related, support. These include the Centers for Disease 
Control and Prevention-Health Resources and Services Administration 
(HRSA) Bioterrorism Preparedness Grants and the HRSA Hospital Grants; 
the Office for Domestic Preparedness (ODP) Training and Exercise 
Programs and Equipment Grants; and ODP Urban Area Security Initiative 
funding to the designated States, which will then work with counties 
and cities to form regions that will work together through mutual aid 
agreements, interoperable communications, statewide intelligence 
centers, and community and citizen participation.

                              OBLIGATIONS

    Question. How does ODP verify that States have obligated funds to 
cities, as required in the State formula and UASI grants? What are the 
mechanisms for States to notify ODP, and for ODP to verify that 
obligation was made? What does ``obligate'' mean in this program? What 
steps must a city take to be able to get funds from the State for a 
particular expenditure?
    Answer. For the fiscal year 2003 State Homeland Security Grant 
Program (SHSGP), Part I and II and Urban Areas Security Initiative 
(UASI) Part I and II grants, ODP's grant guidance notes that states 
were expected to obligate 80 percent of equipment funding for SHSGP I, 
80 percent of first responder preparedness funding in SHSGP II, 50 
percent of CIP funding in SHSGP II, and 80 percent of all funding for 
the UASI II program to units of local government within 45 days. To 
that end, ODP set up a follow-up system whereby ODP would notify the 
State 10 days out from the 45th day (via a letter) that ODP expects 
states to certify that they had obligated these funds. The 
certification was done via a ``fax back'' form to their ODP 
preparedness officer. On the 46th day after the grant award, we sent 
out a letter reminding them of the obligation requirement, with an 
accompanying fax back form that required them to certify that they had 
met this obligation requirement, and to further explain (through a 
narrative) how the funds were being used.
    We received a majority of the fax backs within the allotted time, 
and ODP is relying on the certification of those states that they have 
met the statutory requirement. For states that did not provide the 
information, or noted that they did not comply, we provided a number of 
options. ODP offered technical assistance to help them comply with 
certification. In other cases, states notified us of a date they would 
be in compliance (in some states, legislatures and other elected bodies 
need to meet so that can hold up Federal funding obligation). The last 
resort for states who did not comply was the notification that ODP 
intended to put a hold on the state portion of their funding until they 
came into compliance.
    In fiscal year 2004, the Homeland Security Grant Program and the 
Urban Area Security Initiative grantees will certify their obligations 
through the Initial Strategy Implementation Plan (ISIP), which is due 
60 days after grant award. The grantees will submit this form to ODP, 
and failure to submit the form will cause funding to be 
administratively held, as noted in the special condition in the grant.
    Obligation for ODP purposes means: (1) a definite commitment which 
creates a legal liability for the payment of funds for goods and 
services ordered or received, or; (2) a commitment during the grant 
period to pay under a grant, subgrant, and/or contract determinable 
sums for services or goods ordered or received during the grant period; 
(please note that this does not include operational costs associated 
with raising the threat level in the State Homeland Security Grant 
Program-Part 2; please reference the ODP Grant guidelines for specific 
details) or (3) evidence that funds are encumbered, such as a purchase 
order or requisition, to cover the cost of purchasing an authorized 
item during the grant period.
    In terms of eligible subgrantees (such as cities, counties, regions 
and other units of government) to receive funds from the state, ODP 
leaves the discretion to the State as to who will receive subgrants. 
This varies from State to State; as mentioned earlier, it can be 
cities, counties, regions, port authorities, tribes, and other local 
units of government. As well, most states make it clear to their locals 
that there may not be an expectation that everyone will receive a 
subgrant. This will be based upon risk, threat, population or other 
means. If a locality is chosen as a subgrantee, the State makes a 
subgrant award document available to them, with instructions for how to 
proceed with procurement or other items, such as training procurement 
or exercise planning. Depending on the requirements in the grant, in 
most cases subgrantees are required to submit detailed budget 
worksheets to the State in order to receive their funding. Since ODP 
operates on a reimbursement basis, the locality will have to order 
items from a vendor, and then receive the item before the monies can be 
reimbursed. States are the only unit of government authorized to make 
drawdowns against the U.S. Treasury for ODP funds.

                                TRAINING

    Question. How does the Department plan to spend the $60 million for 
competitive training? Please provide a break down of continuing 
training costs.
    Answer. The funding breakdown of the $60 million ($59,646,000 with 
the 0.59 percent rescission) for continuation of ODP's current training 
programs, as well as the competitive training grant program is as 
follows:

------------------------------------------------------------------------

------------------------------------------------------------------------
Competitive Training Grants.............................     $33,646,000
Naval Postgraduate School...............................      14,000,000
National Sheriff's Association..........................       3,000,000
Dugway Proving Ground...................................       3,000,000
IACLEA..................................................       1,500,000
Michigan State University...............................         500,000
Virtual Medical Campus (WVU)............................       2,000,000
International Association of Chiefs of Police...........       2,000,000
International Association of Firefighters...............       1,000,000
                                                         ---------------
      Total.............................................      59,646,000
------------------------------------------------------------------------

                               TASK FORCE

    Question. The Secretary has established a task force responsible 
for identifying roadblocks in moving homeland security funding from 
States to cities, and for identifying solutions. Who makes up the task 
force? How many meetings have there been to date? What problems have 
been identified?
    Answer. Secretary Ridge has established a Homeland Security Funding 
Task Force composed of state, county, city, and tribal representatives 
to examine the funding process and ensure that Department of Homeland 
Security funds move quickly to local first responders. The primary goal 
of the Task Force is identify State and local funding solutions that 
work effectively--``best practices''--and can be extended to situations 
where there are impediments to efficient and effective distribution of 
State and local homeland security funds.
    The Department expects the Task Force to provide a report to the 
Secretary within the next several weeks that will identify several 
``best practices'' for ensuring the expeditious award of funds to local 
first responders. The report will also identify barriers to the quick 
and efficient award of funds to local first responders and offer 
recommendations to address these barriers. The Task Force, led by Mitt 
Romney, Governor of Massachusetts, is composed of 20 representatives 
who have first-hand experience in homeland security issues and whose 
expertise in this area should allow for a thorough examination of the 
issue.
    As of May 2004, the Task Force has met twice, and has also convened 
two conference calls to discuss the issues surrounding the most 
efficient and effective means to ensure that homeland security funds 
are passed through to local first responders.
  state grants (including law enforcement terrorism prevention grants)
    Question. How much of the fiscal year 2002 funds have been 
obligated, and expended, by state? At a national level, describe the 
uses of the funds and how much has been spent on those uses. Please 
provide the same information for fiscal year 2003 and fiscal year 2004 
funds.
    Answer. Please see charts below for information on the fiscal year 
2002 and fiscal year 2003 State formula grant programs. At this point, 
ODP does not have information on the fiscal year 2004 program as many 
states have only recently received their awards. Overall, though, these 
awards could be used for a variety of purposes, including procurement 
of specialized equipment, exercise support, and training. In all 
instances, draw down information is provided to ODP by the States and 
reflect State and local draw down amounts. Often times, these draw down 
reports require ODP to validate the accuracy of the amounts reported. 
Given that ODP is relying on State- and local-generated information, 
this process can be time-consuming. Currently, ODP is still verifying 
correct draw down amounts from States and localities. The result of 
this is that State and local draw down amounts exceed obligated amounts 
due to State and local reporting inaccuracies. ODP's validation process 
will reconcile these numbers to reflect more accurate final draw down 
amounts.

          HIGH THREAT, HIGH DENSITY URBAN AREA SECURITY GRANTS

    Question. How much of the fiscal year 2002 funds have been 
obligated, and expended, by state? At a national level, describe the 
uses of the funds and how much has been spent on those uses. Please 
provide the same information for fiscal year 2003 and fiscal year 2004 
funds.
    Answer. Please see attached charts below. Overall, though, these 
awards could be used for a variety of purposes, including procurement 
of specialized equipment, exercise support, and training.

                                     FISCAL YEAR 2002 OBLIGATION & DRAWDOWN
----------------------------------------------------------------------------------------------------------------
                STATE                        AWARD AMOUNT              OBLIGATION                DRAWDOWN
----------------------------------------------------------------------------------------------------------------
ALABAMA..............................            $5,317,000.00            $5,317,000.00            $3,227,957.57
ALASKA...............................             2,783,000.00             2,783,000.00               116,217.02
AMERICAN SAMOA.......................               828,000.00               713,671.00               713,671.00
ARIZONA..............................             5,770,000.00             5,770,000.00             3,275,843.00
ARKANSAS.............................             4,141,000.00             4,141,000.00             1,812,350.69
CALIFORNIA...........................            24,831,000.00            24,695,730.27             6,770,544.91
COLORADO.............................             5,220,000.00             5,220,000.00             2,185,101.69
CONNECTICUT..........................             4,626,000.00             3,132,870.26             3,132,870.26
DELAWARE.............................             2,887,000.00             2,887,000.00             2,522,055.43
DISTRICT OF COLUMBIA.................             2,747,000.00             2,558,690.00             2,558,690.00
FLORIDA..............................            12,967,000.00            12,967,000.00            10,092,752.25
GEORGIA..............................             7,797,000.00             7,797,000.00             1,322,400.00
GUAM.................................               892,000.00               892,000.00               782,785.64
HAWAII...............................             3,172,000.00             3,172,000.00               388,734.56
IDAHO................................             3,226,000.00               837,369.26               837,369.26
ILLINOIS.............................            10,604,000.00            10,135,950.00             6,421,617.60
INDIANA..............................             6,400,000.00             4,710,688.00             4,341,379.22
IOWA.................................             4,308,000.00             4,288,520.64             4,288,520.64
KANSAS...............................             4,151,000.00             4,047,426.32             4,047,426.32
KENTUCKY.............................             5,048,000.00             5,048,000.00               860,155.73
LOUISIANA............................             5,331,000.00             5,255,906.92             2,932,832.10
MAINE................................             3,213,000.00             2,759,787.38             2,759,787.38
MARYLAND.............................             5,881,000.00             5,881,000.00             5,058,472.14
MASSACHUSETTS........................             6,579,000.00             6,283,971.94             6,067,184.38
MICHIGAN.............................             8,958,000.00             8,958,000.00             6,797,636.52
MINNESOTA............................             5,631,000.00             5,631,000.00             4,232,332.00
MISSISSIPPI..........................             4,255,000.00             4,255,000.00               134,618.95
MISSOURI.............................             6,079,000.00             6,079,000.00             4,512,600.00
MONTANA..............................             2,967,000.00             2,967,000.00             2,356,138.40
NEBRASKA.............................             3,502,000.00             2,365,560.04             2,365,560.04
NEVADA...............................             3,693,000.00             2,932,185.27             2,932,185.27
NEW HAMPSHIRE........................             3,187,000.00             3,187,000.00               566,551.14
NEW JERSEY...........................             7,948,000.00             7,948,000.00  .......................
NEW MEXICO...........................             3,574,000.00               861,485.41               861,485.41
NEW YORK.............................            14,953,000.00            10,860,400.00             8,000,000.00
NORTH CAROLINA.......................             7,706,000.00             7,339,690.00             4,589,749.00
NORTH DAKOTA.........................             2,794,000.00             2,788,952.00             1,935,923.60
NORTHERN MARIANAS (MP)...............               835,000.00               634,948.00               631,569.00
OHIO.................................             9,897,000.00             9,897,000.00             6,894,513.59
OKLAHOMA.............................             4,656,000.00             4,450,000.00               474,551.16
OREGON...............................             4,637,000.00             4,637,000.00             1,322,762.23
PENNSYLVANIA.........................            10,512,000.00            10,512,000.00             5,524,635.76
PUERTO RICO..........................             4,894,000.00             4,602,000.00               415,718.67
RHODE ISLAND.........................             3,063,000.00             2,448,593.17             1,170,550.04
SOUTH CAROLINA.......................             5,028,000.00             5,028,000.00             3,805,485.55
SOUTH DAKOTA.........................             2,868,000.00             2,799,987.64             2,744,690.06
TENNESSEE............................             6,140,000.00             5,854,806.53             2,847,838.44
TEXAS................................            16,196,000.00            16,196,000.00             3,954,498.71
UTAH.................................             3,849,000.00             3,849,000.00             2,331,617.46
VERMONT..............................             2,772,000.00             2,772,000.00             1,883,177.41
VIRGIN ISLANDS.......................               861,000.00               861,000.00               133,381.16
VIRGINIA.............................             7,062,000.00             7,062,000.00             5,853,231.82
WASHINGTON...........................             6,276,000.00             5,733,465.11             4,979,929.00
WEST VIRGINIA........................             3,567,000.00             3,567,000.00             3,567,000.00
WISCONSIN............................             5,925,000.00             4,842,045.00             4,137,494.44
WYOMING..............................             2,696,000.00             2,157,207.03             2,157,207.03
                                      --------------------------------------------------------------------------
      TOTAL..........................           315,700,000.00           295,372,907.19           170,631,350.65
----------------------------------------------------------------------------------------------------------------


                                            FISCAL YEAR 2003 SHSGP I
----------------------------------------------------------------------------------------------------------------
               Grantee                       Award Amount              Obligation           Amount Drawn Down
----------------------------------------------------------------------------------------------------------------
Alabama..............................            $9,457,000.00            $9,457,000.00              $175,934.60
Alaska...............................             4,995,000.00             4,995,000.00               184,464.63
American Samoa \1\...................             1,482,000.00             1,482,000.00  .......................
Arizona..............................            10,584,000.00            10,584,000.00             2,074,597.00
Arkansas.............................             7,394,000.00             7,394,000.00             3,383,376.03
California...........................            45,023,000.00            45,021,503.60             5,141,147.64
Colorado.............................             9,480,000.00             9,480,000.00               771,927.24
Connecticut \1\......................             8,265,000.00             2,688,030.55  .......................
Delaware.............................             5,185,000.00             5,185,000.00  .......................
District of Columbia.................             4,910,000.00             4,910,000.00  .......................
Florida..............................            23,654,000.00            23,654,000.00             3,194,791.29
Georgia..............................            14,188,000.00            11,344,100.00             2,749,000.00
Guam.................................             1,596,000.00             1,596,000.00               138,141.80
Hawaii...............................             5,693,000.00             5,693,000.00               160,895.41
Idaho \1\............................             5,803,000.00             5,396,000.00             1,210,840.19
Illinois.............................            18,879,000.00            17,353,243.00             6,532,800.91
Indiana..............................            11,399,000.00            11,399,000.00             4,859,561.60
Iowa \1\.............................             7,656,500.00             7,656,500.00               232,884.14
Kansas...............................             7,401,000.00             6,353,209.03               264,327.00
Kentucky.............................             9,001,000.00             8,527,000.00             2,789,560.10
Louisiana............................             9,451,000.00             9,451,000.00               182,686.24
Maine................................             5,751,000.00             5,751,000.00             1,589,384.57
Maryland.............................            10,585,000.00            10,585,000.00             1,223,974.47
Massachusetts........................            11,711,000.00  .......................                68,752.97
Michigan.............................            15,918,000.00            15,918,000.00               899,860.42
Minnesota............................            10,076,000.00            10,076,000.00               614,470.00
Mississippi..........................             7,582,000.00             7,582,000.00             1,001,844.54
Missouri.............................            10,834,000.00            10,834,000.00             3,358,900.00
Montana..............................             5,303,000.00             5,303,000.00               367,734.49
N. Mariana Islands...................             1,496,000.00             1,234,698.00               749,082.00
Nebraska.............................             6,254,500.00             6,254,500.00             1,618,344.69
Nevada...............................             6,771,000.00             6,771,600.00             1,259,918.90
New Hampshire........................             5,727,000.00             5,727,000.00               858,982.35
New Jersey...........................            14,222,000.00            14,222,000.00  .......................
New Mexico...........................             6,401,000.00             6,401,000.00               133,918.45
New York \1\.........................            26,492,000.00            14,872,000.00            19,000,000.00
North Carolina.......................            13,908,000.00            13,908,000.00             1,228,130.00
North Dakota.........................             4,983,000.00             4,983,000.00             1,046,030.93
Ohio.................................            17,510,000.00            17,510,000.00             3,551,943.24
Oklahoma.............................             8,304,000.00             6,847,000.00               414,231.39
Oregon...............................             8,336,000.00             8,336,000.00             2,118,757.40
Pennsylvania.........................            18,570,000.00            18,570,000.00             3,286,780.86
Puerto Rico..........................             8,727,000.00             8,727,000.00  .......................
Rhode Island.........................             5,489,000.00             5,489,000.00             1,899,312.04
South Carolina.......................             9,017,000.00             9,017,000.00               485,499.18
South Dakota.........................             5,131,000.00             5,131,000.00               217,204.19
Tennessee............................            10,978,000.00            10,978,000.00               490,436.93
Texas................................            29,538,000.00            29,538,000.00             3,520,908.18
U.S. Virgin Islands..................             1,542,000.00             1,542,000.00               134,353.56
Utah.................................             6,937,000.00             6,937,000.00             1,190,912.95
Vermont..............................             4,963,000.00             4,963,000.00             1,466,921.25
Virginia \1\.........................            12,716,000.00             8,031,200.00             6,369,466.20
Washington...........................            11,294,000.00            11,194,000.00             6,653,422.04
West Virginia........................             6,340,000.00             6,340,000.00             5,034,308.70
Wisconsin............................            10,565,000.00            10,565,000.00             5,577,914.15
Wyoming..............................             4,827,000.00             4,827,000.00             1,101,205.77
                                      --------------------------------------------------------------------------
      Total..........................           566,295,000.00           524,584,584.18          112,579,842.63
----------------------------------------------------------------------------------------------------------------
\1\ Verification of Obligation Data in Progress


                                            FISCAL YEAR 2003 SHSGP II
----------------------------------------------------------------------------------------------------------------
               Grantee                       Award Amount              Obligation           Amount Drawn Down
----------------------------------------------------------------------------------------------------------------
Alabama..............................           $25,049,000.00           $22,448,099.99            $2,077,219.12
Alaska...............................            13,230,000.00            11,466,000.00                82,013.14
American Samoa \1\...................             3,926,000.00             3,403,000.00               398,076.00
Arizona..............................            28,033,000.00            28,033,000.00             3,124,190.00
Arkansas.............................            19,585,000.00            16,974,000.00             4,718,796.73
California...........................           119,256,000.00           119,186,813.00            22,821,978.15
Colorado.............................            25,111,000.00            25,111,000.00             1,587,461.43
Connecticut \1\......................            21,893,000.00             3,326,834.23  .......................
Delaware.............................            13,733,000.00            13,733,000.00  .......................
District of Columbia.................            13,006,000.00             1,734,000.00             1,753,163.37
Florida..............................            62,655,000.00            62,655,000.00             6,932,847.97
Georgia..............................            37,579,000.00            37,579,000.00             2,764,500.00
Guam.................................             4,226,000.00             4,226,000.00  .......................
Hawaii...............................            15,079,000.00            15,079,000.00             1,183,054.77
Idaho................................            15,375,000.00            14,350,000.00             2,059,200.37
Illinois.............................            50,005,000.00            44,656,232.00               258,979.73
Indiana..............................            30,194,000.00            26,285,402.27             9,776,430.67
Iowa \1\.............................            20,282,000.00            17,689,625.12             1,337,200.95
Kansas \1\...........................            19,603,000.00            16,989,000.00                24,886.33
Kentucky.............................            23,838,000.00            20,660,000.00             2,204,308.52
Louisiana............................            25,037,000.00            22,741,123.28               569,112.82
Maine................................            15,232,000.00            15,232,000.00             2,403,869.60
Maryland.............................            28,037,000.00            28,037,000.00               519,347.05
Massachusetts........................            31,020,000.00            31,020,000.00             8,321,342.08
Michigan.............................            42,162,000.00            36,227,500.00               469,974.88
Minnesota............................            26,690,000.00            23,845,370.12               693,032.00
Mississippi..........................            20,083,000.00            20,083,000.00               654,920.00
Missouri.............................            28,697,000.00            28,697,000.00             5,048,400.00
Montana..............................            14,047,000.00            13,110,500.00               205,653.27
N. Mariana Islands...................             3,963,000.00             3,963,000.00               186,642.00
Nebraska.............................            16,568,000.00            16,568,000.00             4,128,342.94
Nevada...............................            17,935,000.00            17,935,000.00               845,533.87
New Hampshire........................            15,172,000.00            13,362,968.47             6,664,255.98
New Jersey...........................            37,671,000.00            37,671,000.00             2,318,264.63
New Mexico...........................            16,956,000.00            13,635,150.00                68,600.00
New York \1\.........................            70,172,000.00            70,172,000.00            63,000,000.00
North Carolina.......................            36,840,000.00            36,840,000.00               455,173.00
North Dakota.........................            13,200,000.00            11,440,410.00               247,219.42
Ohio.................................            46,378,000.00            46,378,000.00             3,047,735.70
Oklahoma.............................            21,996,000.00            21,996,000.00               183,361.58
Oregon...............................            22,081,000.00            19,403,038.00             1,344,549.74
Pennsylvania.........................            49,189,000.00            49,189,000.00             2,255,466.08
Puerto Rico..........................            23,118,000.00            23,118,000.00  .......................
Rhode Island \1\.....................            14,540,000.00            12,603,756.96             9,285,838.00
South Carolina.......................            23,882,000.00            23,882,000.00               830,961.88
South Dakota.........................            13,591,000.00            13,591,000.00             3,499,236.39
Tennessee............................            29,080,000.00            29,080,000.00                28,493.47
Texas................................            78,238,000.00            78,238,000.00             1,412,151.75
U.S. Virgin Islands..................             4,085,000.00             4,085,000.00             2,358,158.50
Utah.................................            18,374,000.00            18,374,000.00             3,388,302.90
Vermont..............................            13,147,000.00            13,147,000.00               559,083.58
Virginia.............................            33,683,000.00            29,861,000.00            21,240,605.96
Washington...........................            29,917,000.00            27,080,797.47             1,614,935.49
West Virginia........................            16,792,000.00            14,553,000.00  .......................
Wisconsin............................            27,985,000.00            27,985,000.00            12,926,737.90
Wyoming..............................            12,784,000.00            12,784,000.00               149,005.29
                                      --------------------------------------------------------------------------
      Total..........................         1,500,000,000.00         1,411,514,620.91          224,028,615.00
----------------------------------------------------------------------------------------------------------------
\1\ Verification of Obligation Data in Progress.


                                             FISCAL YEAR 2003 UASI I
----------------------------------------------------------------------------------------------------------------
                                                                                                  Amount Drawn
                          Grantee                             Award Amount       Obligation           Down
----------------------------------------------------------------------------------------------------------------
New York City.............................................    $24,768,000.00  ................  ................
National Capital Region...................................     18,081,000.00  ................  ................
Los Angeles...............................................     12,422,000.00  ................  ................
Seattle...................................................     11,201,000.00     $1,597,300.00        $65,825.45
Chicago...................................................     10,896,000.00      2,700,000.00  ................
San Francisco.............................................     10,349,000.00         42,000.00  ................
Houston...................................................      8,634,000.00  ................  ................
                                                           -----------------------------------------------------
      Total...............................................     96,351,000.00      4,339,300.00         65,825.45
----------------------------------------------------------------------------------------------------------------


                                            FISCAL YEAR 2003 UASI II
----------------------------------------------------------------------------------------------------------------
               Grantee                       Award Amount              Obligation           Amount Drawn Down
----------------------------------------------------------------------------------------------------------------
NEW YORK.............................          $135,266,607.00           $33,816,652.00           $82,816,652.00
    New York City, NY................           125,000,000.00  .......................  .......................
    Buffalo, NY......................            10,266,607.00  .......................  .......................
NATIONAL CAPITAL REGION..............            42,409,851.00  .......................  .......................
ILLINOIS.............................            29,975,733.00  .......................  .......................
    Chicago, IL......................            29,975,733.00  .......................  .......................
TEXAS................................            34,165,283.00               963,124.96                 7,987.72
    Houston, TX......................            23,766,700.00  .......................  .......................
     Dallas, TX......................            10,398,583.00  .......................  .......................
CALIFORNIA...........................            62,202,490.00  .......................               134,049.00
    Los Angeles, CA..................            18,874,838.00  .......................  .......................
    San Francisco, CA................            18,587,312.00  .......................  .......................
    San Diego, CA....................            11,359,682.00  .......................  .......................
    Sacramento, CA...................             6,912,795.00  .......................  .......................
    Long Beach, CA...................             6,467,863.00  .......................  .......................
WASHINGTON...........................            18,186,668.00               600,000.00                    13.09
    Seattle, WA......................            18,186,668.00  .......................  .......................
MASSACHUSETTS........................            16,727,125.00             1,718,408.00  .......................
    Boston, MA.......................            16,727,125.00  .......................  .......................
COLORADO.............................            15,568,474.00  .......................  .......................
    Denver, CO.......................            15,568,474.00  .......................  .......................
PENNSYLVANIA.........................            21,038,924.00  .......................  .......................
    Philadelphia, PA.................            14,215,223.00  .......................  .......................
    Pittsburgh, PA...................             6,823,701.00  .......................  .......................
MISSOURI.............................            19,548,603.00             2,466,979.96               365,000.00
     St. Louis, MO...................             9,850,142.00  .......................  .......................
    Kansas City, MO..................             9,698,461.00  .......................  .......................
FLORIDA..............................            18,959,558.00             3,695,318.60             3,296,000.00
    Miami, FL........................            13,184,569.00  .......................  .......................
    Tampa, FL........................             5,774,989.00  .......................  .......................
OHIO.................................            13,859,426.00               202,370.00                 7,874.27
    Cincinnati, OH...................             7,991,055.00  .......................  .......................
    Cleveland, OH....................             5,868,371.00  .......................  .......................
MICHIGAN.............................            12,272,550.00  .......................  .......................
    Detroit, MI......................            12,272,550.00  .......................  .......................
NEW JERSEY...........................            11,892,942.00  .......................  .......................
    Newark, NJ.......................            11,892,942.00  .......................  .......................
ARIZONA..............................            11,033,467.00               200,000.00                14,469.00
    Phoenix, AZ......................            11,033,467.00  .......................  .......................
MARYLAND.............................            10,900,944.00             2,725,236.00             1,464,126.51
    Baltimore, MD....................            10,900,944.00  .......................  .......................
HAWAII...............................             6,870,891.00  .......................             1,717,723.00
    Honolulu, HI.....................             6,870,891.00  .......................  .......................
OREGON...............................             6,766,108.00               150,000.00                 1,151.99
    Portland, OR.....................             6,766,108.00  .......................  .......................
LOUISIANA............................             6,282,661.00             1,570,665.00  .......................
    New Orleans, LA..................             6,282,661.00  .......................  .......................
TENNESSEE............................             6,071,695.00                30,000.00  .......................
    Memphis, TN......................             6,071,695.00  .......................  .......................
                                      --------------------------------------------------------------------------
      Total..........................           500,000,000.00            48,138,754.52            89,825,046.58
----------------------------------------------------------------------------------------------------------------

                              STATE PLANS

    Question. States were to submit their plans to the Department by 
December 31, 2003. How many State plans were delivered by that date? 
How many State plans have now been submitted? How many, and which, 
State plans have not yet been approved? In reviewing the plans, what 
lessons have been learned about DHS plan requirements and what best 
practices have been identified?
    Answer. Each State, the District of Columbia, the Commonwealth of 
Puerto Rico, and the territories were required to submit their 
assessments and strategies by January 31, 2004. Much of how the States 
and territories will distribute and utilize Homeland Security Grant 
Program funds will be influenced by the results of the State Homeland 
Security Assessments and Strategies.
    These assessments and strategies are critically important to both 
the States and the Federal Government. They provide a wealth of 
information regarding each State's vulnerabilities, capabilities, and 
future requirements, as well as each State's preparedness goals and 
objectives. They provide each State with a roadmap as to how current 
and future funding, exercise, training, and other preparedness 
resources should be directed and targeted, and they provide the Federal 
Government with a better understanding of needs and capabilities.
    All assessments and strategies have been received and reviewed or 
currently are under review by an intra-DHS review board comprised of 
representatives from major Department components. Of those 56 
strategies, 53 have been approved by the Department. The remaining 
three--Idaho, Northern Marianna Islands, and the District of Columbia--
should be approved soon. ODP officials are continuing to work with 
officials from these states and territories to ensure that the 
requisite information and changes are made to their strategies.
                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

                 SEAPORT SECURITY IMPLEMENTATION COSTS

    Question. The Coast Guard has estimated that the cost of meeting 
security mandates from the Maritime Transportation Security Act will be 
$1.1 billion initially and then $7.1 billion over the next 10 years.
    The deadline for submitting port security plans to the Coast Guard 
passed at the end of 2003 and many ports and facilities either turned 
in nothing, or submitted reports that the analysis was still pending. 
It has been reported that the Coast Guard also does not have the 
personnel resources to review and evaluate the assessments when they 
are turned in.
    Most shipping activity is controlled by State, local and private 
sector operations, and the Federal presence is minimum. The ports are 
not deep pocketed, and tend to focus all activity on efficiency. 
Relying on them as the total source of funding will ensure that we get 
weak port security. By way of comparison, this would be like saying at 
the Southwest Border, where a rancher's ranch borders the Rio Grande 
and the Mexican border; ``we have concerns about illegal immigration 
over your land, and we want you to put up gates and fences and conduct 
surveillance of your property, and if you don't we will take your ranch 
away from you''. While the protection of our border is a shared burden, 
the Administration budget proposal does not adequately address it's 
obligation.
    The cost of securing our seaports is high, yet not impossible to 
cover. The Coast Guard has published estimates that the cost will be 
over $7 billion over the next 10 years. Why has the administration only 
provided $46 million in the budget to meet this need?
    Answer. The President's Budget provides $1.9 billion for port 
security in the Department of Homeland Security, a 13 percent increase 
over the 2004 level.
    Within the 2005 total is $1,675 million for Coast Guard port, 
waterway, and coastal security activities, including over $100 million 
to implement the Maritime Transportation Security Act (MTSA).
    The DHS port security total also includes $164 million in U.S. 
Customs and Border Protection for the Container Security Initiative and 
the Customs Trade Partnership Against Terrorism as well as the $46 
million in the Office for Domestic Preparedness for port security 
grants.
    The Administration's budget request supports the President's 
National Strategy for Homeland Security. This strategy provides the 
basic framework to mobilize and organize the Nation--Federal, State and 
local governments, the private sector, and the American people--in the 
complex mission of protecting our homeland.
    To date, the Coast Guard has received approximately 97 percent of 
the Facility Security Plans that it anticipates receiving in response 
to the Federal Maritime Security Regulations that were promulgated 
under the Maritime Transportation Security Act (MTSA). The Coast Guard 
is currently reviewing these Facility Security Plans with the 
assistance of one of the Nation's premier engineering companies, Black 
and Veatch. The review process includes three stages that concludes 
with an on-site examination to ensure that the security measures 
outlined in the plan are appropriate and are being fully implemented. 
The Coast Guard has allocated the resources necessary to conduct a full 
review of each Facility Security Plan before July 1, 2004 when all 
facilities are required to be operating under their approved plans.
    The estimated costs of meeting the security mandates from the 
Maritime Transportation Security Act do not account for the security 
measures that companies have already taken to enhance security. For the 
sake of good business practice, or to comply with regulations 
promulgated by other Federal and State agencies, many companies have 
already made substantial investments to upgrade and improve security of 
their operation. We also realize that not every company engaged in 
maritime commerce would implement the requirements for increased 
security in exactly the same manner. Depending on each company's 
choices, some companies could spend much less than what was anticipated 
in the regulatory analysis for the MTSA regulations.
    The Department fully understands there will be short-term costs, 
particularly for many smaller ports or companies with less security 
experience. The Coast Guard is fully engaged with the maritime industry 
to help alleviate the burden. The Department has also awarded or made 
available a total of nearly $500 million in port security grants over 
the past 2 years and anticipates convening the fourth round of grants 
in spring 2004.
    The security requirements of the Maritime Transportation Security 
Act were developed with the full cooperation of the private sector. The 
implementation of these requirements will complement the Department's 
already strong response.

       OVERALL COAST GUARD BUDGET REQUEST ONLY 6 PERCENT INCREASE

    Question. The Commandant of the Coast Guard testified that the 
Coast Guard was on track to restore resources and performance of non-
security missions, such as search and rescue of stranded mariners, to 
pre-9/11 levels. However, a draft GAO report (non-public until mid-
March) finds that the resource hours dedicated to the search and rescue 
mission search & rescue is down 22 percent from pre-9/11 levels. The 
resource hours dedicated to many other non-security missions, such as 
fisheries enforcement, living marine resources, and drug interdiction, 
are all down as well.
    Does this budget really fund the Coast Guard at sufficient levels? 
The request is really only a 6 percent increase over what we enacted 
last year, if you include the supplementals. Why is Coast Guard getting 
so little of the increase when it has so many responsibilities related 
to security and non-security missions?
    Answer. Yes, the fiscal year 2005 budget request is sufficient to 
fund Coast Guard operations. A 6 percent increase is not a fair 
comparison since the fiscal year 2004 Coast Guard budget includes 
supplemental funding provided for Iraqi Freedom and Hurricane Isabel. 
Supplemental appropriations are for specific purposes and are non-
recurring. Therefore, the fiscal year 2005 Coast Guard budget would not 
reflect this funding.
    While the draft GAO report referenced in this question noted that 
that the resource hours for non-homeland security programs decreased, 
the report also had the following conclusion: ``The Coast Guard's 
performance results--measures used to track each program's annual 
progress--generally did not mirror the trends in resource use. Instead, 
results for programs GAO reviewed were generally stable or improved 
regardless of the resources applied, and nearly all of the programs 
that GAO reviewed met their performance targets.'' (Draft GAO-04-043, 
March 2004).
    Search and Rescue (SAR) is a demand driven mission. While resource 
hours for SAR are down, it is due to less distress calls than from lack 
of resource hours. Also from the GAO report: ``. . . the search and 
rescue program's target for fiscal year 2003 was to save 85 percent of 
mariners in distress and the program achieved this goal by saving over 
87 percent of them.''
    While resource hours are an important measure, the Coast Guard 
relies on the judgment of the operation commander to apply available 
resources based on the risks in the relevant area of operations. This 
flexibility is critical to apply Coast Guard resources to the numerous 
missions mandated in Section 888 of the Homeland Security Act of 2002.
    Question. I am hearing reports that the Coast Guard's resource 
hours for most non-security missions are still down below pre-9/11 
levels. For example, I've heard that the search and rescue mission is 
down 22 percent from pre-9/11 levels. What can you tell me about that?
    Answer. In fiscal year 2003, search and rescue operational 
activity, as reported by cutters, aircraft and boats (ashore) in the 
Abstract of Operations (AOPS), was 22 percent lower than pre-9/11 
levels. The pre-9/11 level is defined as the annual average of the 
eight-quarter period beginning with the 4th quarter of fiscal year 1999 
and ending with the 3rd quarter of fiscal year 2001.
    The observed decrease in operational activity does not necessarily 
reflect reduced readiness or responsiveness. Search and rescue is a 
demand-driven mission. As such, a decrease in search and rescue 
resource hours is a result of a reduction in the number of distress 
calls received. Further, search and rescue operational activity may 
also be affected by any number of the following factors:
  --The economy--boating activity mirrors the economy's fluctuations.
  --Weather patterns and number of severe storms.
  --Improved safety equipment onboard vessels.
  --Better built craft; modern vessels are more reliable.
  --Better communications that prevent false overdue cases.
  --Increased use of private towing companies providing non-emergency 
        assistance.
    The Coast Guard continues to respond to all urgent search and 
rescue calls.

                       INTELLIGENCE DISSEMINATION

    Question. Section 70113, of the MTSA mandated a single system of 
collection and analysis on vessels, cargo, crew, and passengers 
entering into the U.S. Maritime intelligence had traditionally been 
developed in response to the needs of the U.S. Navy, and the Office of 
Naval Investigations (``ONI'') was crucial during World War II as they 
were responsible for de-encrypting German and Japanese naval codes. 
Later during the Cold War, this agency was charged with the tracking of 
Soviet naval assets and submarines. The first efforts in tracking and 
monitoring commercial maritime shipping occurred in the 1980's, when 
the Coast Guard was brought into the naval intelligence world, 
primarily to help track vessels that might be involved in drug running.
    The current headquarters for the Maritime Intelligence Center 
(``MIC'') located in Suitland, Md, houses Navy and Coast Guard 
officials. There were 1,500 Navy officers and about 40 Coast Guard 
officers working the unit. Since then, some strides have been taken to 
improve the unit, including the formal recognition of the Coast Guard 
into the intelligence community, appointment by the Coast Guard of the 
first head of Coast Guard intelligence, and a slight increase of 
resources. However, much remains to be done in this area, and the 
agencies have not cooperated at all to forge a common program. In 
response to your concerns about coordination of intelligence, you 
earmarked $25 million to TSA, in hope that bringing new money to the 
pot might stimulate a more coordinated effort. Given that we only 
inspect 2 or 3 percent of our cargo entering into U.S. ports, and good, 
coordinated intelligence will be vital.
    Mr. Secretary, you mentioned in your testimony that DHS is working 
to improve the sharing of intelligence. You have a major issue facing 
you in developing a coherent policy that will allow for the 
dissemination of intelligence reports to many of the different 
personnel involved in Homeland Security. First off, you have to collect 
certain information from officials at places like the CIA, or FBI, and 
get it presented to your department. Then you have to analyze it and 
verify it, and then pass the information out to the people who we can 
provide the highest degree of oversight and security. In many cases, 
this may be an official who works at a power plant, or is in charge of 
a rail terminal, or chemical facility, and who are currently not able 
to receive government security information that is classified. In the 
case of homeland security many officials that will provide security 
will either be from the private sector, or local or State officials.
    Even within the Federal Government, and within your Agency, we are 
experiencing coordination problems. The Maritime Transportation 
Security Act mandated the creation of a single system of information 
collection and analysis in order to bring together information on ship 
movements, and connect it to information on cargo and shippers, and 
information on crew members and passengers to make sure that we have 
the best information possible to evaluate risk.
    Yet, since the passage of our legislation, there have been no 
efforts at all to coordinate this information. In fact, since we passed 
the bill, Customs who used to have a presence at the Coast Guard 
Maritime Intelligence Center has eliminated its presence, and started 
construction of a new cargo intelligence facility. This is ludicrous. 
What are you going to do to make sure that the public can receive and 
act upon our intelligence, and increase homeland security, and can you 
take steps to start to harmonize the own agencies within your 
Department?
    Answer. The Office of Information Analysis (IA) works in close 
connection with the State and Local and Private Sector Directorates 
within the Department of Homeland Security (DHS) in order to provide 
timely and valuable threat-related information to the State and local 
officials and private sector workforce that protect and provide for our 
Nation's people and infrastructure. This involves receiving and acting 
on feedback from such individuals, updating and specifying recommended 
protective measures, and communicating directly with first responders 
and State officials when necessary. Additionally, in an effort to unite 
and coordinate Department wide efforts, the Assistant Secretary for 
Information Analysis hosts a twice monthly meeting of the intelligence 
and operations directors and/or their representatives from each DHS 
entity. This meeting is used to coordinate policies and efforts, to 
ensure close and consistent communication, and to discuss 
recommendations for improvements in information sharing. The Department 
has taken preliminary steps to harmonize the intelligence efforts of 
its 20 plus separate entities by identifying legacy and new analytic 
resources as well as the missions and capabilities of the respective 
offices.
    The Department of Homeland Security is coordinating information 
sharing. The Coast Guard has taken a leadership role within DHS to 
ensure that maritime intelligence products are accurate and available 
to the DHS Information Analysis and Infrastructure Protection (IAIP) 
Directorate and throughout the entire Federal Government. The Coast 
Guard Command Center is co-located with the National Response Center 
(NRC) sharing threat information and reports of suspicious activities 
from the maritime industry and other maritime stakeholders. In 
addition, the Coast Guard has provided access to its intelligence 
databases, advice to other agencies developing intelligence-shared 
architectures, and exchanged intelligence analysts and liaison officers 
with other agencies active in the maritime arena. These liaison 
officers work with the following organizations: Terrorist Threat 
Integration Center, Defense Intelligence Agency, Federal Bureau of 
Investigation, Border and Transportation Security, U.S. Navy, IAIP, 
National Security Agency, Central Intelligence Agency, National Drug 
Intelligence Center, El Paso Intelligence Center, and Joint 
Intelligence Task Force for Combating Terrorism. The Coast Guard and 
Navy also continue to build an effective joint intelligence partnership 
to enhance maritime domain awareness. The Coast Guard's Intelligence 
Coordination Center is co-located with the Office of Naval 
Intelligence, which comprises the National Maritime Intelligence Center 
(NMIC).
    Further, the Coast Guard and Border and Transportation Security 
(BTS) have exchanged personnel to enhance data sharing between the CG 
Intelligence Coordination Center's COASTWATCH (which analyzes 
information from notice of arrival reports on vessels, people, and 
certain dangerous cargoes approaching U.S. ports) and BTS' National 
Targeting Center (cargo tracking process). Additionally, the Coast 
Guard's two Maritime Intelligence Fusion Centers are collocated with 
the U.S. Navy Shipping coordination Center to exchange Maritime 
Homeland Security (HLS) and Homeland Defense (HLD) information.

                PASSENGER SCREENING & CHECKPOINT ISSUES

    Question. A provision in the fiscal year 2004 Homeland Security 
Appropriations bill that was signed into law by President Bush on 
October 1, 2003, maintains a cap on TSA's full-time staffing at 45,000 
positions. TSA has been trying to meet this employment cap since it was 
first imposed, and over the last 6 months has cut more than 6,000 
screener positions from its workforce.
    Does the employment cap of 45,000 positions in the fiscal year 2004 
Homeland Security Appropriations bill provide TSA the flexibility it 
needs to devise appropriate staffing levels for individual facilities?
    Answer. TSA is managing to keep the workforce under the 45,000 FTE 
level by creating a more flexible workforce. TSA is better coordinating 
airline schedules and passenger load with staffing needs, is increasing 
the proportion of part-time to full-time screeners, and is 
strategically using its mobile national screener force to meet seasonal 
fluctuations in workload. TSA expects to have a part-time screener 
workforce of close to 20 percent by the end of the current fiscal year. 
Part-time screeners create additional operational flexibility when 
scheduling screeners to satisfy varying levels of demand. As a result 
of reducing excess capacity at periods of lower demand, TSA is seeking 
to make more FTEs available to the system as a whole during peak 
periods.
    Question. How will TSA deal with the employment cap as air traffic 
returns to more normal traffic growth levels?
    Answer. We share Congress' desire to ensure that our screeners are 
deployed effectively and efficiently to maximize the safety and 
security of the traveling public. TSA will continue to review its 
workforce requirements at each airport, considering the number, 
location, and balance of full-time and part-time screeners. We will 
engage airport operators and air carriers to ensure that growth rates, 
changes in flight schedules, and other concerns, such as new technology 
that improves screener performance and efficiency, are incorporated 
into our planning. As we move forward into the busy summer travel 
season, we will gain a better understanding of whether or not screener 
staffing levels are adequate for the long term.
    Question. Do you believe that this is a situation where budgetary 
issues may end up driving operational issues rather than the actual 
threat levels?
    Answer. Budgetary considerations are not driving decisions on the 
level of aviation security provided by our screening operation. 
Ensuring adequate operating efficiency on the part of airlines and 
airports given the need to maintain high security is a continuing 
challenge that TSA will work through as we refine and improve screening 
operations.
    Question. Would it be more effective for TSA to develop staffing 
standards for screeners that are based on ensuring that the average 
aviation security-related delay experience by passengers does not 
exceed 10 minutes per boarding?
    Answer. TSA is in the process of completing work on the development 
of staffing standards for each airport based on modeling which include 
criteria such as passenger wait times.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                           ALL-STATE MINIMUM

    Question. I was disappointed that President Bush's proposed budget 
for fiscal year 2005 drops the all-state minimum formula, which I 
authored, from the State Homeland Security Grant Program. This formula 
assures that each State receives a minimum of 0.75 percent of those 
grants to help support their first responders' basic preparedness 
needs.
    Not only would this change result in the loss of millions in 
homeland security funding for the fire, police and rescue departments 
in small- and many medium-sized states, but also deal a crippling blow 
to their efforts to build and sustain their terrorism preparedness.
    Mr. Secretary, you and I have often spoken on how to fairly 
allocate domestic terrorism preparedness funds to our states and local 
communities. I thought we both agreed that fire, police and emergency 
medical rescue teams in each State deserve support in achieving the new 
homeland security responsibilities the Federal Government demands. 
Imagine my surprise, then, when I read in the fiscal year 2005 budget 
proposal that the State Homeland Security Grant Program would be 
allocated among the states based on population concentrations, critical 
infrastructures, and other significant terrorism risk factors, as 
determined by you.
    Mr. Secretary, does the Bush Administration want to shortchange 
rural states, rolling back the hard-won progress we have begun to make 
in homeland security by slashing the protections provided to us by the 
all-state minimum?
    Answer. The provision of homeland security funds to all states and 
territories is essential to the Federal, State, and local effort to 
enhance national security. I have said consistently that I believe 
there should be a minimum level of preparedness across the country. The 
language in the President's fiscal year 2005 request for the Department 
of Homeland Security recognizes that factors other than a minimum 
formula and population should be considered in making overall funding 
allocations. The language further states that the Secretary should have 
the latitude and discretion to make this determination based on a 
number of factors, including population concentrations, critical 
infrastructure, and other significant terrorism risk factors.
    Terrorism and the threat of terrorist acts are not static, as is 
the current formula included in the USA PATRIOT Act. Instead, threats, 
risks, and vulnerabilities are fluid and can change based on a number 
of factors. The Department of Homeland Security should not be 
constrained by a formula and distribution method that does not change 
to meet current and future security needs. As you know, each State has 
submitted an updated homeland security strategy as a requirement of 
receiving and distributing fiscal year 2004 Office for Domestic 
Preparedness grant funds. It is the Department's expectation that these 
strategies, and periodically updated strategies, will provide 
invaluable information to determine appropriate funding levels for all 
states--large and small, urban and rural.
    The Administration and Congress share the goal of enhancing the 
Nation's ability to deter, prevent, respond to, and recover from acts 
of terrorism. The Administration firmly supports the notion that 
security needs to be improved across the Nation. The Administration, 
however, has consistently supported a change in the USA PATRIOT Act 
formula so that we can apply more factors than just population to 
distributing and expending limited homeland security resources.
    Question. Mr. Secretary, would you agree that homeland security is 
a national responsibility shared by all states, regardless of size?
    Answer. I strongly support the idea that homeland security is a 
national responsibility shared by all states, regardless of size. That 
is why I firmly believe that there should be a minimum level of 
preparedness across the country. Since its creation last year, the 
Department has provided more than $8 billion to support and enhance the 
security of states and localities. The President's fiscal year 2005 
budget request continues this strong support and commitment to the 
Nation's emergency prevention and response community. The President's 
budget clearly demonstrates the continuing priority placed on homeland 
security through requesting $40.2 billion in total new resources for 
fiscal year 2005, which is an increase of 10 percent above the 
comparable fiscal year 2004 level.
    Question. Mr. Secretary, do you agree that each State has basic 
terrorism preparedness needs and, therefore, a minimum amount of 
domestic terrorism preparedness funds is appropriate for each state?
    Answer. I strongly support the idea that homeland security is a 
national responsibility shared by all states, regardless of size. That 
is why I firmly believe that there should be a minimum level of 
preparedness across the country.
    Question. Mr. Secretary, would you support a budget supplement 
amendment to restore the 0.75 percent minimum to the State Formula 
Grants Program, which include the State Homeland Security Grant 
Program, the Citizens Corps and the Law Enforcement Terrorism 
Prevention Grants Program?
    Answer. I strongly support the President's fiscal year 2005 budget 
request that provides for additional factors to be considered when 
making determinations on how to distribute homeland security funds to 
states and localities. While I support the concept behind the PATRIOT 
Act--that every State should receive minimum levels of support--I 
firmly believe that funding allocations decisions should be based on a 
number of other factors not included in the PATRIOT Act formula, 
including the presence of critical infrastructure and other significant 
risk factors. With the input that the Department is receiving from the 
states through their updated homeland security strategies, and with the 
more robust intelligence analysis and data collection capabilities 
within the Department, the Department will be better able to prioritize 
support for your efforts to prevent, prepare for, and respond to 
terrorist incidents. The President's fiscal year 2005 request 
recognizes this enhanced ability, and provides the Secretary of 
Homeland Security the latitude and discretion to determine appropriate 
funding levels to the states.

                            FIRST RESPONDERS

    Question. President Bush often says that he wants to ensure that 
our State and local first responders receive the resources necessary to 
do the job the American public expects them to do.
    I find that hard to believe, though, when I read that he proposes 
an $805 million, or 18.4 percent, overall cut in funds for Office for 
Domestic Preparedness funding programs that directly benefit police, 
fire and medical rescue units. The Administration argues this is 
justified because it does not believe those funds are ``targeted'' to 
homeland security capabilities.
    I believe, however, that the current Administration has failed to 
make first responders a high enough priority by consistently 
underfunding homeland security efforts of every state.
    The Hart-Rudman Terrorism Task Force Report argued that our Nation 
will fall approximately $98.4 billion short of meeting critical 
emergency responder needs through this decade's end if current funding 
levels are maintained.
    Clearly, the domestic preparedness funds available are still not 
enough to protect from, prepare for and respond to future domestic 
terrorist attacks anywhere on American soil.
    Would you agree, Mr. Secretary, that to be truly protected from, 
prepared for and able to respond to future terrorist attacks we should 
be looking to increase the funds to our Nation's State and local first 
responders, rather than decrease them, as proposed by the President?
    Answer. The President's fiscal year 2005 request includes more than 
$3.5 billion to support ODP programs and activities. This represents a 
$3.3 million increase over the Fiscal year 2004 request. The fiscal 
year 2005 request includes funds to continue the Homeland Security 
Grant Program which includes the State Homeland Security Program at 
$1.4 billion; the Law Enforcement Terrorism Prevention Program at $500 
million; and the Citizen Corps Program at $50 million. Funds are also 
provided for the continuation of the Urban Areas Security Initiative at 
$1.4 billion; the Fire Act Program at $500 million; the Emergency 
Management Performance Grants at $170 million; as well as for ODP's 
training, exercise, and technical assistance efforts.
    The continuation of these efforts, and the $3.3 million increase in 
ODP's overall request, coupled with the President's request for a 10 
percent increase in funding for DHS as a whole, provides ODP, and the 
entire Department, with the resources we require to help secure the 
Nation from acts of terrorism. The Administration and Department remain 
committed to providing our Nation's emergency prevention and response 
community the resources they need to continue to secure our Nation from 
future acts of terrorism.

                             FIRE SERVICES

    Question. After paying repeated lip service to the great sacrifices 
made by our Nation's first responders, last week President Bush 
unveiled a budget that cuts total Federal assistance to first 
responders by $800 million.
    This fiscal year Congress appropriated $4.2 billion to address 
first responder and homeland security needs. Despite heightened terror 
alerts and multiple studies documenting the pressing needs of the fire 
service, the administration has proposed a $3.5 billion package for 
fiscal year 2005 that cuts the FIRE ACT and grant programs to State and 
local jurisdictions.
    Consistent with the President's opposition to using Federal dollars 
to hire fire fighters, the budget does not include any funding for the 
newly authorized SAFER (Staffing for Adequate Fire and Emergency 
Response) program, which fire departments nationwide argue is critical 
to maintaining their commitment to public safety.
    The budget also proposes cutting a total of $435 million from first 
responder grants to states and other important fire service programs, 
including eliminating the $60 million grant program for Urban Search 
and Rescue and the $60 million competitive training grant programs. An 
additional $20 million has been slashed from the fund for technical 
training and national exercises.
    Each year since the terrorist attacks of 9/11, Congress has 
increased President Bush's proposed appropriations to the fire service. 
And it is now incumbent upon us to do that again.
    Mr. Secretary, this is a time when our Nation needs to support our 
communities' firefighters. On September 11th, the Nation saw that the 
first on the scene at the World Trade Center were the heroic 
firefighters of New York City. Those real-life heroes, 343 of whom gave 
the ultimate sacrifice, should remind us of how essential that support 
is.
    We hear a lot of rhetoric from this Administration about the need 
to secure our homeland and keep our Nation safe. It is very unfortunate 
that the President has decided not to put his money where his mouth is. 
These cuts are unconscionable and lack clear understanding of the many 
problems facing our Nation's first responders--especially those serving 
in our fire departments.
    Aside from rearranging the deck chairs at DHS, how will your budget 
plan at least as much money out to our brave firefighters as it did 
last year?
    Answer. The Department is strongly committed to addressing the 
needs of the Nation's first responders. In fiscal year 2005, the DHS 
budget request includes $3.6 billion for terrorism and emergency 
preparedness grants and assistance. Since March 1, 2003, the Department 
has allocated and awarded more than $8 billion in overall grant funding 
for States and Territories to enhance the abilities of their first 
responders. President Bush is the first president to request funding 
for the fire service and the emergency medical services, and the first 
to call specifically for funding of the Assistance to Firefighter Grant 
Program in his budget. When the 2004 grant process is completed, DHS 
will have distributed almost $2 billion to more than 20,000 local fire 
departments, and the President's fiscal year 2005 Budget has proposed 
another $500 million. From fiscal year 2002 through fiscal year 2004, 
the Administration as a whole has approved or requested more than $17 
billion for State and local fire departments, law enforcement, public 
health biodefense, and emergency response. In addition, the Bush 
Administration has trained more than 700,000 first responders since 
September 11, 2001.

                              IMMIGRATION

    Question. The President's budget proposes a 40 percent cut in the 
amount of directly appropriated funds for the Bureau of Citizenship and 
Immigration Services (CIS), from the nearly $235 million appropriated 
for the current year to $140 million for fiscal year 2005.
    You mention in your written testimony the President's guest worker 
proposal. If Congress approves such a guest worker plan, it would 
drastically increase the workload of CIS. Why is the President 
proposing a 40 percent cut in an agency whose workload he wants to 
increase dramatically?
    Answer. The President's fiscal year 2005 Budget is not proposing a 
cut in the USCIS budget. In fact, the President's budget includes a 
$300 million increase over last years levels, including an additional 
$60 million in discretionary funding towards backlog reduction efforts 
aimed at achieving a 6-month processing time for all immigration 
benefit applications by fiscal year 2006.
    The President's fiscal year 2005 budget reflects the current 
proposal recently adopted by USCIS to adjust its fee schedule through 
the rulemaking process. This fee adjustment includes amounts for 
administrative support services ($155 million) previously funded 
through appropriated funds (tax dollars). Thus, this proposal has no 
impact on the USCIS budget except for the fact that the funding source 
for these services will be by way of fees versus tax dollars. With the 
exception of the $140 million in appropriated backlog reduction funds, 
USCIS will be a wholly fee-funded agency in fiscal year 2005.
    Beginning in fiscal year 2002, USCIS has been receiving a total of 
$100 million in funds for backlog reduction to achieve the 6-month 
processing time. The $100 million is made up of $80 million in 
appropriated funds and $20 million in premium processing fees. The 
President is proposing a 60 percent increase for backlog reduction 
efforts in fiscal year 2005, bringing the total backlog reduction funds 
from $100 million to $160 million ($140 million in appropriated funds 
and $20 million from the premium processing fees).
    Question. Speaking of the guest worker program, I wrote to the 
President last month and asked him to submit a legislative proposal to 
Congress that would implement his plan. As you know, we have a short 
legislative year ahead of us. Why has the President not already 
submitted proposed legislation? Will he do so?
    Answer. On January 7, 2004, the President announced principles in 
creating a new temporary worker program that would match willing 
foreign workers with willing U.S. employers when no Americans can be 
found to fill the jobs. We look forward to working with Congress to 
develop legislation that incorporates the best ideas for the American 
worker and our foreign visitors. Through the principles outlined by the 
President, the best course to the end goal of opportunity, security, 
safety, compassion, jobs and growth can be achieved.
    Question. President Bush has promised to reduce the average wait 
time for applicants for immigration benefits to 6 months by 2006. In 
light of that goal, and the increased burden the President would place 
on the CIS through the guest worker program, why does the President's 
budget not seek any directly appropriated funds for backlog reduction?
    Answer. As answered above, the President is seeking in the fiscal 
year 2005 budget a 60 percent increase in the total funds towards 
backlog reduction efforts, from $100 to $160 million, including $140 
million in appropriated funds. CIS will meet the President's goals no 
later than 2006. CIS does not believe that the President's Temporary 
Worker Proposal will impact the backlog.

                        CRITICAL INFRASTRUCTURE

    Question. DHS published a proposed rule on critical infrastructure 
information, or CII, on April 15, 2003. What is the current status of 
the CII rule?
    Answer. The Interim Final Rule establishing the regulations (6 CFR 
29) to implement the CII Act of 2002 were published in the Federal 
Register for immediate implementation on February 20, 2004. Has DHS 
received CII submissions from corporations? If so, how many? How is DHS 
handling such information?
    Answer. We have not received any submissions under the Interim 
Final Rule as of March 1, 2004.
    Question. Despite the lack of a final rule on the handling of CII, 
are submissions effectively restricted from public disclosure and from 
transmittal to other Federal agencies?
    Answer. The Interim Final Rule has been published and submissions 
meeting all the requirements of the Act and the implementing 
regulations (known as Protected Critical Infrastructure Information 
(PCII)) are exempt from release under the Freedom of Information Act. 
PCII may be shared with other Federal agencies engaged in critical 
infrastructure activities authorized under the CII Act and with State 
and local governments performing those activities that have signed 
agreements with DHS.
    Question. Secondly, as I understand it, DHS received numerous 
substantive comments on the proposed rule, including many submissions 
that raised concerns with the draft rule. If substantive changes are 
made, based either upon these comments or other reasons, will DHS issue 
a new proposed rule before finalizing this controversial provision?
    Answer. The Notice of Proposed Rulemaking was published for comment 
on April 20, 2003. A total of 117 comments were received. Based on 
these comments the draft regulation was revised and an Interim Final 
Rule was published for immediate implementation on February 20, 2004. 
DHS issued an Interim Final Rule to provide a framework necessary to 
receive voluntarily provided Critical Infrastructure Information and 
protect it from public disclosure, while allowing the Department to 
adapt as program operations evolve. The Department has asked for 
additional comments on the Interim Final Rule by May 20, 2004. These 
comments will help DHS determine whether possible supplemental 
regulations are needed as experience is gained in implementing the CII 
Act of 2002.
                                 ______
                                 

               Questions Submitted by Senator Tom Harkin

    Question. I have heard from the Iowa State Secretary of Agriculture 
that the Department of Homeland Security is no longer funding certain 
veterinary positions assigned to monitoring for animal diseases that 
USDA used to fund before the funding stream was switched to the 
Department of Homeland Security. As the recent case of a BSE-positive 
cow in Washington showed, our State Departments of Agriculture are our 
front lines of defense against animal diseases, whether intentionally 
or naturally caused, and our veterinarians are our calvary. These 
positions, which were funded through a USDA grant program, provide 
States with essential animal disease preparedness and response 
capability. Many of the postions funded through the program are 
essential to states bioterrorism planning and response efforts as well.
    Why did your department cease funding for these positions when the 
authority for the program was switched as part of the Homeland Security 
Act? How are States supposed to make up for the loss in animal disease 
monitoring capabilities? Are you considering reinstating the program?
    Answer. The U.S. Department of Agriculture (USDA) is responsible 
for the monitoring for animal diseases. The Department of Homeland 
Security (DHS) is responsible for conducting document verifications of 
certain restricted meats and for ensuring compliance with entry 
requirements for animals and animal by-products set by USDA. USDA 
retained authority for the animal disease-monitoring program and 
veterinary positions referred to in the question. DHS has no 
involvement in the funding of these positions. This question would be 
best directed to USDA.
    Question. The Emergency Management Grant Program (EMPG) was 
transferred with FEMA to the Department of Homeland Security. It is the 
grant program that funds the basic emergency management functions of 
State and government. This is the money Ellen Gordon and her team use 
to prepare for hurricanes, floods, hazardous materials spills, 
accidents, or any other kind of disaster.
    When EMPG was moved to DHS, the Bush Administration tried to merge 
it into the new terrorism First Responder grant program. States argued 
to keep it separate because they did not want their broad emergency 
response functions shifting to a terrorism-only focus. Congress agreed 
and the program has been kept separate--and has been fully funded.
    In his fiscal year 2005 budget request, Bush proposes to cut it by 
5 percent--but, more importantly, to cap personnel costs at 25 percent 
of the grant award.
    If that were to be endorsed by the Congress, Iowa would lose one-
third of our entire emergency management function and our local 
governments would lost between 20-30 percent of their staff.
    Exercises planned would have to be canceled. The critical 
coordination between our traditional emergency management planning and 
our post-9/11 planning would be severely impacted. This is not the time 
to be cutting staff in this area.
    I am very concerned with the requirement in the budget request that 
only a certain percentage of the Emergency Management Performance Grant 
program can be used to pay for personnel. As you know, this is the 
program which undergirds our very critical need to be prepared for any 
kind of disaster, whether terrorism, floods, hurricanes, earthquakes, 
etc. While it is never popular to pay for the services of staff, these 
staff do the work of coordinating our response plans and their work is 
very, very critical to us (particularly as the terrorism grants are 
threatening to shift to urban areas). Can you tell me the rationale 
behind this change and how you believe it will impact preparedness in 
our communities?
    Answer. The Administration's fiscal year 2005 request for the 
Emergency Management Planning Grants is $170 million, which is higher 
than any previous request for this program. The funds will be used to 
assist the development, maintenance, and improvement of State and local 
emergency management capabilities, specifically to build local capacity 
for homeland security needs.
    As you note, though, the request does cap the amount that states 
can use for salaries, thereby significantly increasing the amount of 
funds available for planning, training and exercises. The request 
shifts the emphasis to Federal support for planning while properly 
aligning responsibility for staffing and salaries with the states and 
local governments. The Administration and Department have consistently 
supported the idea that homeland security is a shared responsibility 
between Federal and State and local governments. Additionally, it is 
important to remember that we are operating in a fiscal and security 
environment where we must ensure maximum security benefits are derived 
from every security dollar. To do that, we must be able to take a new 
look at the way in which we allocate resources, including sharing 
financial responsibility with our State and local partners.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                   DISASTER MEDICAL ASSISTANCE TEAMS

    Question. Disaster Medical Assistance Teams, or DMATs, can provide 
states with valuable extra capacity in the case of a disaster or 
terrorist attack. These volunteer teams act as important reserves 
without costing the taxpayers a great deal of money. However, neither 
Wisconsin nor our neighbor Illinois has a DMAT. This is especially 
troubling considering how many people live between Milwaukee and 
Chicago. The State of Wisconsin is behind the effort to create a new 
team, but I hear the Department of Homeland Security has put a stop to 
creating new teams because of some problems with current teams. If 
teams are not meeting requirements then eliminate those teams, but in 
areas without a team, Homeland Security needs to move forward. While 
the National Guard used to be an option when states faced a crisis, 
Guard Units may not be available now with the war in Iraq and 
Afghanistan.
    Don't these teams provide additional capability at a reasonable 
cost? Will the Department reconsider its moratorium on new Disaster 
Medical Assistance Teams?
    Answer. The Department of Homeland Security's (DHS') National 
Disaster Medical System (NDMS) has received a number of inquiries over 
the past year from communities wanting to start new Disaster Medical 
Assistance Teams (DMATs). DHS is pleased at the level of interest and 
enthusiasm supporting the Nation's capacity for health and medical 
response during times of disasters. Rather than adding teams at this 
time, DHS is focused on strengthening existing teams to enhance depth 
of membership and rapidness of response under the new national response 
plan and incident management system, as required in HSPD-5.
    The Department will consider the creation of new NDMS teams once it 
has reviewed the strategic capability and locations of the existing 
teams, and it has brought the teams to full operational capability.
    NDMS teams provide significant enhancement to a region's medical 
capacity. The costs of developing, supplying, training, and maintaining 
these teams are significant. The Department feels these costs are 
reasonable for the benefit provided by these emergency reserve medical 
assets.
    In the event of a public health emergency, the Milwaukee and 
Chicago region could be served by any of the 110 teams currently within 
the NDMS. This geographic area is within a 12-hour ground response 
radius for five existing Operational DMATs including MI-1, MO-1, OH-1, 
and OH-5. In addition, two Developmental DMAT teams (MN-1, KY-1) 
bordering this area could be used to support a response in the 
Milwaukee and Chicago area.
    During this moratorium, NDMS' recommendation to communities 
interested in developing DMATs has been to support NDMS teams already 
within their states or regions. While this is not always possible, many 
of these requests come from communities within states that already have 
DMATs. When the NDMS office makes such a recommendation, it also 
ensures that the existing DMAT leadership in the area is notified.
    There are other strategies for motivated communities besides the 
creation of DMATs. The Medical Reserve Corps through HHS' Office of the 
Surgeon General may be a model to help focus the community's motivation 
into developing a coordinated medical response asset. In addition, 
there are other volunteer organizations, such as the American Red Cross 
and National Voluntary Organizations Active in Disaster, that welcome 
the support of health care professionals.

                   SECURITY IN THE AGRICULTURE SECTOR

    Question. Secretary Ridge, the President has unveiled a new food 
and agriculture defense initiative. This new effort puts you in charge 
of organizing security with USDA and the FDA.
    I would like to hear your thoughts on how to coordinate these 
activities and how protection of food and agriculture rank in your 
overall perspective of homeland security threats. I ask this because 
you now have responsibility for the Plum Island animal disease 
laboratory in New York. Prior to last year, Plum Island was funded 
through the Agriculture Appropriations Subcommittee, where I am Ranking 
Member. As part of the President's fiscal year 2004 request, more than 
$6 million of USDA funding for research and diagnostic activities were 
transferred to your Department from USDA and agreements were supposed 
to be reached to reimburse USDA employees for that work. I understand 
those agreements have not yet been completed.
    Last year I expressed some concerns about transferring agricultural 
programs out of USDA. In fact, last May, when Secretary Veneman 
appeared before the Agriculture Subcommittee, I asked her about these 
transfers and she agreed that there was a concern among livestock 
producers that their priorities would not be reflected in programs 
conducted by your Department. She did say that USDA and DHS would work 
together to develop a research and diagnostics program to meet the 
needs of both Departments. In report language to accompany the fiscal 
year 2004 appropriations bill for your Department, you were instructed 
to report to the Congress by January 15th on a comprehensive strategy 
to combat agroterrorism.
    What is the status of that report, and how can you assure farmers 
and ranchers across America that your Department is better suited to 
combat agroterrorism than USDA? How do you intend to engage USDA in 
this strategy?
    Answer. DHS is committed to enhancing the Nation's agricultural 
security by complementing the mission of USDA as the sector-specific 
agency for agriculture [and USDA and the Food and Drug Administration 
(FDA) for food security] and bringing a new sense for urgency and 
investments to enhance the Nation's capability to anticipate, prevent, 
detect, respond to, and recover from the intentional introduction of 
foreign animal disease.
    The report requested by Congress, 'A National Strategy for 
Agricultural Biosecurity' builds on the strengths of each agency to 
develop comprehensive preparedness and response capabilities. USDA's 
Agricultural Research Service (ARS) will continue its basic research 
and early discovery work, USDA's Animal and Plant Health Inspection 
Service (APHIS) its diagnostics (including the Foreign Animal Disease 
Diagnostic Laboratory), while DHS will invest in advanced development 
research to expedite the transition of capabilities to operational end-
users in USDA and DHS. DHS will also provide capability for certified 
forensics analysis in support of law enforcement.
    The report was drafted by a working group of senior officials and 
scientists from the respective agencies (DHS, USDA APHIS and ARS), with 
representation of key industry groups. The draft report is complete and 
is currently undergoing final interdepartmental reviews prior to 
transmittal to the House and Senate Appropriations Committees.
    This report and the DHS/USDA strategic partnership are executed in 
accordance with the Homeland Security Act of 2002; fiscal year 2004 
appropriations for DHS and USDA; as well as Homeland Security 
Presidential Directive/HSPD-9 ``Defense of United States Agriculture 
and Food'' and HSPD-7 ``Critical Infrastructure Identification, 
Prioritization, and Protection,'' both of which delineate the roles of 
sector-specific agencies.
    As part of DHS's extensive commitment to agricultural security, it 
is also establishing two University Homeland Security Centers (HS-
Centers); one in foreign animal and zoonotic diseases, and one in post-
harvest food security. These new HS-Centers were awarded in April 2004. 
Additionally, DHS is coordinating with USDA on a review team for high-
consequence reference scenarios for strategic planning for DHS's 
programs and activities on biological and chemical countermeasures.
    Finally, the Homeland Security Act of 2002 transferred the 
facilities and liabilities' of the Plum Island Animal Disease Center to 
DHS from USDA. A working group of program staff and scientists from the 
two departments have worked closely on a variety of aspects of this new 
collaboration including enhancing the operations, facilities and 
security on the island, developing a joint R&D plan for foreign animal 
diseases which emphasizes foot-and-mouth disease and roadmaps for 
assays and diagnostics, and vaccines and anti-virals.
    Question. What is the status of completing an agreement with USDA 
for reimbursement for research and diagnostic work at Plum Island?
    Answer. The statement of work for reimbursement of research and 
diagnostic work at Plum Island Animal Disease Center for fiscal year 
2004 has been agreed to by DHS and USDA. The reimbursable agreement is 
currently being implemented at Plum Island Animal Disease Center.
    Question. The President's request for the Food and Agriculture 
Defense Initiative includes a $5 million item for research at DHS. What 
will be the focus of this research and where will it be conducted?
    Answer. As summarized above, one of the reference scenarios is 
focused on bulk food contamination and is based on one of a series of 
food vulnerability studies conducted by the Homeland Security Council 
(HSC) Interagency Food Working Group during fiscal year 2003-fiscal 
year 2004. These studies form the basis for the design and 
implementation of food shields' to protect critical central food 
processing nodes in the production system.
    DHS is currently funding an end-to-end systems study for the 
reference scenario on bulk food contamination, and this study will be 
followed in fiscal year 2005 by a design for a food sensor,' a 
requisite next step in the implementation of a food shield' based on 
requirements identified in the systems study. The food sensor funding 
is included in the President's fiscal year 2005 budget request.

                         INTELLIGENCE ANALYSIS

    Question. The Homeland Security Act established a Directorate of 
Information Analysis within the Department of Homeland Security. In 
July 2003 there were only 53 analysts and liaison officials within that 
Directorate, with plans to triple that number. President Bush has since 
created the Terrorist Threat Integration Center (TTIC--pronounced ``T-
Tick''), which includes the CIA's Counterterrorist Center (CTC) and the 
FBI's Counterterrorism Division. This did not relieve DHS of its 
intelligence analysis responsibilities, but TTIC's assigned 
responsibilities are very similar to those of DHS.
    In your opinion, does the creation of multiple organizations to 
analyze terrorist-related intelligence thwart the initial goal of the 
Department of Homeland Security, that is to centralize this function 
and facilitate cooperation and information sharing among the various 
intelligence related agencies? If not, what is being done to preserve 
this goal that is not immediately apparent from the fractured structure 
of these functions? Would it be better to consolidate these functions 
in one place, either within DHS or within the CIA in the form of TTIC?
    Answer. The Department of Homeland Security, as stated in the 
Homeland Security Act, is singularly focused on the protection of the 
American homeland. DHS/IAIP independently analyzes threat-related 
information it receives from the entire Intelligence Community, other 
DHS entities, and the Terrorist Threat Integration Center and issues 
warning products to State and local officials and the private sector 
after matching terrorist threats and capabilities with our Nation's 
vulnerabilities.
    In contrast, the TTIC is responsible for the analysis of all 
international terrorism threat information, whether collected 
domestically or abroad. TTIC uses this information to create an overall 
threat picture and to issue reports to the appropriate IC members. 
Accordingly, the TTIC is vital to serve the entire Intelligence 
Community. While TTIC is an essential resource upon which DHS relies to 
complete its mission, they are also integral to completing the mission 
of other entities within the Intelligence Community.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Question. I am also concerned about the Administrations cuts and 
policy changes to the Emergency Management Performance Grants. Not only 
is there $9 million less than last year, but the $170 million that is 
included in the President's budget will no longer fund all hazard 
planning. This is a real disappointment for county emergency managers 
in my state. They used these funds to help them prepare for terrorist 
attacks as well as natural disasters like floods and tornados. A 
reduction in funding, especially when adjusted for inflation, could 
force some counties to reduce staff as well as leave them unprepared 
for non-terrorism catastrophes.
    Why did the Administration reduce these funds, and why did they 
prohibit these funds from being used for all hazard planning?
    Answer. The Administration's fiscal year 2005 request for the 
Emergency Management Planning Grants is $170 million, which is higher 
than any previous request for this program. The funds will be used to 
assist the development, maintenance, and improvement of State and local 
emergency management capabilities, with the specific goal of building 
capabilities for homeland security needs.
    As you note, though, the request does cap the amount that states 
can use for salaries, thereby significantly increasing the amount of 
funds available for planning, training and exercises. The request 
shifts the emphasis to Federal support for planning while properly 
aligning responsibility for staffing and salaries with the states and 
local governments. The Administration and Department have consistently 
supported the idea that homeland security is a shared responsibility 
between Federal and State and local governments. Additionally, it is 
important to remember that we are operating in a fiscal and security 
environment where we must ensure maximum security benefits are derived 
from every security dollar. To do that, we must be able to take a new 
look at the way in which we allocate resources, including sharing 
financial responsibility with our State and local partners.

                          FLIGHT CANCELLATIONS

    Question. Most of the flights stopped were from British Airways and 
Air France, but every day airlines based in more volatile regions land 
in this country. We never hear about planes from Morocco or Pakistan 
not being allowed to land. Are airlines that fly from the Middle East 
and Africa somehow safer than those that fly from Paris and London?
    Answer. Flight cancellations during the holiday period were based 
upon specific intelligence that warranted such action. Appropriate 
information was shared with our foreign counterparts and foreign air 
carriers, which sometimes led to their decisions to cancel flights and/
or implement enhanced security measures. These actions were not 
necessarily tied to the Nations from which the flights originated. In 
principle and practice, DHS does not recommend or take security actions 
based solely upon the origin or destination of a flight independent of 
specific information that may pertain to that location.
    Question. Are the cancellations a result of limited intelligence 
cooperation between the United States, Britain and France making it 
harder to determine who is on these planes? Or is the problem exactly 
the opposite, we are getting good information about European flights, 
but it is difficult to figure out if a threat is flying on a plane from 
Islamabad?
    Answer. As I indicated above, flight cancellations over the holiday 
period were based on specific intelligence that warranted such action, 
and were examples of good intelligence cooperation. The cancellation of 
these particular flights is unrelated to the question of how robust our 
capacity is to assess the security of flights originating in other 
parts of the world.
    Question. Are flights out of these major airports more attractive 
to terrorists than flying from Karachi or Rabat? Is there something our 
European allies are NOT doing that makes these good targets, or do we 
just not have a good way of monitoring what might be going on in other 
countries?
    Answer. These cancellations were not based on an assessment of 
security practices at European airports, which are generally fully 
compliant with ICAO standards and deemed to be of high quality. Again, 
during the holiday period, DHS received specific information and shared 
it appropriately with French and British allies, resulting in decisions 
being made to cancel these flights. DHS and our European allies 
continue to work in close collaboration to share best practices and 
enhance aviation security.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

    Question. Mr. Secretary, I agree that CSI and C-TPAT are important 
pieces of our cargo security system but they aren't going to do the job 
alone. In fact, they have significant issues that would benefit from 
Operation Safe Commerce moving forward.
    You may be aware of a recent GAO study entitled, ``Preliminary 
Observations on Efforts to Target Security Inspections of Cargo 
Containers.''
    This report is clearly critical of the lack of methodology 
incorporated in these Customs and Border Protection initiatives.
    The report states that--quote--``while CBP's strategy incorporates 
some elements of risk management, it does not include other key 
elements, such as a comprehensive set of assessments that experts told 
GAO are necessary to determine risk and the types of responses 
necessary to mitigate that risk.''
    The report says ``CBP's targeting system does not include a number 
of recognized modeling practices, such as subjecting the system to peer 
review, testing and validation.''
    The report goes on further to say that--quote--``CBP does not have 
a national system for reporting and analyzing inspection statistics and 
the data provided to us by ports were generally not available by risk 
level, were not uniformly reported, were difficult to interpret, and 
were incomplete.''
    Mr. Secretary, for the sake of our Nation's security it is 
imperative that we are able to learn from all of our port security 
programs.
    We must tie them together and rapidly institute a large-scale, 
operational cargo security program in the United States. And, for the 
sake of our economy, we must get this right.
    What are your reactions to this report?
    Answer. In general, GAO's report ``Challenges Remain in the 
Targeting of Oceangoing Cargo Containers for Inspection,'' is 
constructive, and CBP will be initiating several corrective actions in 
fiscal year 2005 to address issues identified by GAO. However, GAO's 
assertion that CBP does not ``incorporate all key elements of a risk 
management framework and recognized modeling practices'' is not 
accurate. Although CBP characterizes its approach to risk management 
for terrorism as a ``layered approach,'' the fundamental components of 
this approach can also be characterized within GAO's risk management 
framework. The following provides a brief discussion of the 
relationships between the Automated Targeting System (ATS) and several 
CBP initiatives within GAO's risk management framework to demonstrate 
the fulfillment of the framework's key elements.
    The key elements of GAO's Risk Management Framework are:
  --Threat Assessment
  --Criticality Assessment
  --Vulnerability Assessment
  --Risk Assessment
  --Risk Characterization
  --Risk Mitigation
  --Monitoring and Evaluation
  --Repetition of the Risk Management Process
CBP and GAO's Risk Management Framework
  --Threat (event) Assessment.--CBP utilizes incoming intelligence from 
        various sources that include the U.S. Intelligence community to 
        identify threats. These threats include general assessments as 
        discussed in GAO's report (e.g. vulnerability of supply chains 
        and containerized cargo) as well as classified, specific 
        threats regarding individuals. Collection of these threat 
        assessments is an ongoing activity. Also, targeting is 
        integrated into CBP's Treasury Enforcement Communication System 
        (TECS) enforcement database to ensure that specific 
        intelligence is integrated with targeting activity. Also, 
        incoming intelligence is evaluated by the National Targeting 
        Center to develop targeting strategies appropriate to the risk. 
        Responses to certain threats may be expanded to include 
        additional targeting rules for ATS, lookouts, and/or cargo 
        targeting criteria.
  --Criticality Assessment.--As GAO indicates, criticality assessments 
        ``help provide a basis for prioritizing protection relative to 
        limited resources'' for a critical asset. With respect to 
        ``national security, economic activity, and public safety'' 
        this critical asset is the flow of trade in both a free and 
        secure manner. This goal is fundamental to CBP's operations. 
        CBP cannot inspect all cargo coming into the United States; 
        however, the organization can and does prioritize shipments by 
        risk and does inspect all high-risk cargo (mandatory 
        inspections through threshold targeting) coming into the United 
        States. While ATS provides a system for prioritizing and 
        targeting high-risk cargo through transactional targeting 
        rules, C-TPAT provides a programmatic mechanism for identifying 
        relatively low risk supply chains and allows CBP to direct 
        resources to other higher-risk entities.
  --Vulnerability Assessment.--As indicated in GAO's report, there has 
        been extensive work regarding vulnerability assessments 
        concerning maritime assets (specifically containerized cargo), 
        and other agencies that contributed to this work include the 
        FBI, CIA, academic, think tank and business organizations. As 
        discussed extensively with GAO, CBP's layered approach to this 
        vulnerability includes initiatives such as C-TPAT, Non-
        Intrusive Inspection Technology (NII), Container Security 
        Initiative (CSI), and ATS targeting.
  --Risk Assessment.--GAO defines risk assessments to ``include 
        scenarios under which two or more risks interact creating 
        greater or lesser impacts; they also include the filtering and 
        ranking or prioritization of risky events.'' Where an ``event'' 
        can be a shipment, ATS utilizes a battery of rules to vet and 
        prioritize the shipment transactions by scoring the different 
        variables of each transaction and ranking/prioritizing the 
        transactions by total scores for each transaction. To the 
        extent that risk assessments might also be in the form of 
        intelligence reports, this information is also integrated into 
        targeting through the development of specific rules, lookouts, 
        cargo criteria, TECS records, and the performance of targeting 
        ``sweeps'' by the National Targeting Center when warranted.
  --Risk Characterization.--GAO defines risk characterization as 
        ``designating risk on a scale, for example low, medium, or 
        high.'' As defined, risk characterization is inherent to the 
        ATS targeting program as a decision support tool that generates 
        risk scores to prioritize cargo for inspection.
  --Risk Mitigation.--GAO indicates that risk mitigation may involve 
        risk acceptance, risk avoidance, risk reduction, and risk 
        sharing. In terms of risk acceptance (taking no action) and 
        risk sharing, CBP minimizes inspections through the C-TPAT 
        Program. A certain level of risk acceptance is also inherent to 
        targeting higher risk cargo for inspection and not inspecting 
        lower risk cargo. In terms of risk avoidance (taking action to 
        avoid activities that involve risk), CBP increases inspections 
        through the use of NII (e.g. x-rays and radiation pagers) 
        instead of increasing time consuming physical exams that would 
        limit the number of shipments that can be inspected and 
        increase vulnerabilities.
      CBP is also actively engaged in activities identified by GAO's 
        systems approach to risk mitigation: personnel (e.g. training), 
        processes, technology, infrastructure, and governance. ATS 
        training classes are being implemented on an ongoing basis (Sea 
        Cargo) and with the deployment of new ATS threshold targeting 
        rule sets (e.g. Northern Border Truck, Southern Border Truck, 
        and Rail). The Manifest Review Unit (MRU) Handbook will be 
        updated in fiscal year 2005 to address process and governance 
        issues. For technology, the additional development of software 
        and acquisition of hardware upgrades is ongoing. For 
        infrastructure, certain ports analyze their local flow of 
        traffic for improved efficiency and some are receiving upgrades 
        to physical examination resources.
  --Monitoring and Evaluation.--A key element to CBP's ability to 
        monitor and evaluate the performance of targeting will be the 
        ability to accurately capture findings. As GAO pointed out, CBP 
        is hampered by non-integrated sub-systems for recording 
        findings. The full implementation of the ATS findings module 
        will provide CBP with a single place for recording the 
        findings, increase the accuracy of the findings, and facilitate 
        reporting, monitoring and evaluation.
      With respect to peer review, CBP is actively working with other 
        Government agencies such as FDA and USDA as well as foreign 
        government agencies such as the Canadian Customs and Revenue 
        Administration (CCRA) to further develop targeting concepts. 
        CBP hopes to expand on these collaborative efforts in fiscal 
        year 2005. With respect to testing and validation, CBP will 
        also be conducting internal security exercises that test our 
        layered enforcement in fiscal year 2005.
  --Repetition of the Risk Management Process.--The activities 
        previously described are ongoing and fulfill the ``loop'' of 
        assessments, mitigation, and monitoring and evaluation.
    In conclusion, while CBP can always do a better job of fulfilling 
and expanding upon all of the key elements of the risk management 
framework described by GAO, CBP does actively engage in activities that 
fulfill these key elements.
CBP and GAO's Modeling Practices
    The following provides a brief discussion of CBP's initiatives in 
terms of the issues identified with respect to ATS development and 
``recognized modeling practices.''
  --Conducting external peer review.--As indicated earlier in this 
        document, CBP is actively working with other Government 
        agencies such as FDA and USDA as well as foreign government 
        agencies such as the Canadian Customs and Revenue 
        Administration (CCRA) to further develop targeting concepts. 
        CBP hopes to expand these collaborative efforts in fiscal year 
        2005.
  --Incorporating additional types of information.--CBP agrees with the 
        premise that ``linkages'' to other sources of information can 
        enhance targeting. Linkages between manifest and entry 
        information to TECS records represents such an effort. 
        Recently, FDA information was integrated into CBP's ATS system, 
        and CBP is actively working with USDA to integrate some of 
        their data into ATS. Other large, commercial sources of 
        information such as Dun and Bradstreet (D&B) are also being 
        explored but will require a lengthy cost-benefit analysis, 
        proof of concept, and significant budget procurement. Another 
        effort involves the procurement of container tracking 
        information.
  --Testing and validating through simulated terrorist events.--As 
        discussed with GAO, ABC News did conduct their own ``test'' of 
        importing a shipment of radioactive material, and ATS did 
        successfully target this shipment for mandatory inspection. CBP 
        will be conducting its own ``red team'' simulations in fiscal 
        year 2005.
  --Using random inspections to supplement targeting.--As discussed 
        earlier, the stratified random sample of CBP's Compliance 
        Measurement Program will be utilized to further evaluate the 
        performance of the ATS targeting.

                         DATA INTEGRITY ISSUES

    Question. The GAO Report also made the following conclusion: ``CBP 
does not have a national system for reporting and analyzing inspection 
statistics and the data provided to us by ports were generally not 
available by risk level, were not uniformly reported, were difficult to 
interpret, and were incomplete''.
    Currently, CBP has a number of non-integrated subsystems through 
which it reports its examination findings. CBP's effort to ensure data 
consistency for reporting purposes and analysis is hampered by these 
multiple subsystems and CBP is addressing this issue through the 
implementation of a ``Findings Module'' within its Automated Targeting 
System. This module, which will be completed in fiscal year 2004, will 
provide CBP with a single place for recording and retrieving its 
examination findings, which will increase the accuracy of those 
findings and facilitate CBP's reporting, monitoring and evaluation 
activities.
    Please explain why the Administration would abandon Operation Safe 
Commerce--a program specifically designed to test various cargo-
security techniques, and the analysis associated with them, to create a 
true container security program for our country?
    Answer. The President's fiscal year 2005 budget request for DHS 
includes $1.9 billion for port security activities, including $126 
million for the Container Security Initiative (CSI). The funding for 
this initiative, which is $25 million more than the fiscal year 2004 
level of funding, focuses on pre-screening cargo before it enters the 
United States. The first phase of CSI focused on implementing the 
program at the top 20 foreign ports, which ship approximately two-
thirds of the containers to the United States. Phase II expands the 
program to additional ports based on volume, location, and strategic 
concerns. Phase III further increases security at the highest risk 
ports.
    The President's fiscal year 2005 budget request also includes $50 
million for the development of the next generation of screening 
devices, which can be used at the Nation's port facilities. 
Additionally, the budget request includes $64.2 million to enhance 
land-based detection and monitoring activities between ports. Further, 
the budget request includes $46 million for port security grants to be 
administered by the Office for Domestic Preparedness and more than $1.4 
billion for the Urban Areas Security Initiative (UASI). The UASI 
program, among other things, can be used to support security 
enhancements at our Nation's port facilities.
    The Department firmly believes that these resources will allow us 
to properly and effectively enhance security at our Nation's port 
facilities.
  --Operation Safe Commerce.--A program specifically designed to test 
        various cargo-security techniques, and the analysis associated 
        with them, to create a true container security program for our 
        country.
    DHS is not abandoning Operation Safe Commerce. As you know, OSC is 
a collaborative pilot effort between the Federal Government, the three 
largest U.S. container load centers (Los Angeles/Long Beach, Seattle/
Tacoma, and New York/New Jersey), private industry, and the maritime 
community, to develop and share best practices for the secure and 
expeditious movement of containerized cargo. OSC's goal is to serve as 
a test bed to examine methods to increase supply chain security, 
protect the global supply chain, and facilitate the flow of commerce. 
The Administration continues to administer OSC in fiscal year 2004 as a 
multi-agency program with participants from the Departments of Homeland 
Security, Transportation, State, Commerce, and Justice. An Executive 
Steering Committee (ESC) was formed to provide guidance for OSC. The 
ESC is co-chaired by the Transportation Security Administration, Bureau 
of Customs and Border Protection, and the Department of Transportation.
    Congress has provided $75 million for this program over a 2-year 
period to conduct three very robust and comprehensive pilots at the 
selected locations. The expected test period is 1 year. At this point 
in time, Seattle/Tacoma has progressed furthest. There, the first 
container shipment tracked by the program is expected to arrive by the 
end of March 2004. First arrivals are expected in April 2004, for the 
Port of New York/New Jersey and in June 2004, for the Port of Los 
Angeles/Long Beach. As we complete each of the pilots, we will 
ascertain the lessons learned and whether program elements are 
applicable to ports across the country. We are hopeful that any 
positive results of OSC will eventually be adopted by ports, cargo 
companies and, where appropriate, incorporated into both existing and 
future cargo security efforts by DHS and international governments.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Our next hearing on the budget request for 
the Department of Homeland Security will be held on Thursday, 
February 26, in room 124 of the Dirksen Senate Office Building. 
At that time, the Under Secretary for Emergency Preparedness 
and Response, Mr. Michael Brown, will be here to discuss the 
budget for the programs under his jurisdiction.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 12:40 p.m., Tuesday, February 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
February 26.]

</pre></body></html>
